<html>
<title> - IMPACTS OF THE LIGHTSQUARED NETWORK ON FEDERAL SCIENCE ACTIVITIES</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]






   IMPACTS OF THE LIGHTSQUARED NETWORK ON FEDERAL SCIENCE ACTIVITIES

=======================================================================

                                HEARING

                               BEFORE THE

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                      THURSDAY, SEPTEMBER 8, 2011

                               __________

                           Serial No. 112-33

                               __________

 Printed for the use of the Committee on Science, Space, and Technology






<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



       Available via the World Wide Web: http://science.house.gov



                                _____

                  U.S. GOVERNMENT PRINTING OFFICE

68-227 PDF                WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                    HON. RALPH M. HALL, Texas, Chair
F. JAMES SENSENBRENNER, JR.,         EDDIE BERNICE JOHNSON, Texas
    Wisconsin                        JERRY F. COSTELLO, Illinois
LAMAR S. SMITH, Texas                LYNN C. WOOLSEY, California
DANA ROHRABACHER, California         ZOE LOFGREN, California
ROSCOE G. BARTLETT, Maryland         BRAD MILLER, North Carolina
FRANK D. LUCAS, Oklahoma             DANIEL LIPINSKI, Illinois
JUDY BIGGERT, Illinois               GABRIELLE GIFFORDS, Arizona
W. TODD AKIN, Missouri               DONNA F. EDWARDS, Maryland
RANDY NEUGEBAUER, Texas              MARCIA L. FUDGE, Ohio
MICHAEL T. McCAUL, Texas             BEN R. LUJAN, New Mexico
PAUL C. BROUN, Georgia               PAUL D. TONKO, New York
SANDY ADAMS, Florida                 JERRY McNERNEY, California
BENJAMIN QUAYLE, Arizona             JOHN P. SARBANES, Maryland
CHARLES J. ``CHUCK'' FLEISCHMANN,    TERRI A. SEWELL, Alabama
    Tennessee                        FREDERICA S. WILSON, Florida
E. SCOTT RIGELL, Virginia            HANSEN CLARKE, Michigan
STEVEN M. PALAZZO, Mississippi       VACANCY
MO BROOKS, Alabama
ANDY HARRIS, Maryland
RANDY HULTGREN, Illinois
CHIP CRAVAACK, Minnesota
LARRY BUCSHON, Indiana
DAN BENISHEK, Michigan
VACANCY

















                            C O N T E N T S

                      Thursday, September 8, 2011

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Ralph M. Hall, Chairman, Committee on 
  Science, Space, and Technology, U.S. House of Representatives..    12
    Written Statement............................................    13

Statement by Representative Eddie Bernice Johnson, Ranking 
  Minority Member, Committee on Science, Space, and Technology, 
  U.S. House of Representatives..................................    14
    Written Statement............................................    15

                               Witnesses:

Mr. Anthony Russo, Director, the National Coordination Office for 
  Space-Based Positioning, Navigation, and Timing
    Oral Statement...............................................    17
    Written Statement............................................    19

Ms. Mary Glackin, Deputy Under Secretary, National Oceanic and 
  Atmospheric Administration
    Oral Statement...............................................    29
    Written Statement............................................    30

Mr. Victor Sparrow, Director, Spectrum Policy, Space 
  Communications and Navigation, Space Operations Mission 
  Directorate, National Aeronautics and Space Administration
    Oral Statement...............................................    34
    Written Statement............................................    36

Hon. Peter H. Appel, Administrator, Research and Innovative 
  Technology Administration, Department of Transportation
    Oral Statement...............................................    39
    Written Statement............................................    40

Dr. David Applegate, Associate Director, Natural Hazards, U.S. 
  Geological Survey
    Oral Statement...............................................    43
    Written Statement............................................    44

Mr. Jeffrey J. Carlisle, Executive Vice President, Regulatory 
  Affairs and Public Policy, LightSquared
    Oral Statement...............................................    46
    Written Statement............................................    48

Dr. Scott Pace, Director, Space Policy Institute, George 
  Washington University
    Oral Statement...............................................    75
    Written Statement............................................    77

Discussion.......................................................    88

             Appendix 1: Answers to Post-Hearing Questions

Mr. Anthony Russo, Director, the National Coordination Office for 
  Space-Based Positioning, Navigation, and Timing................   106

Ms. Mary Glackin, Deputy Under Secretary, National Oceanic and 
  Atmospheric Administration.....................................   115

Mr. Victor Sparrow, Director, Spectrum Policy, Space 
  Communications and Navigation, Space Operations Mission 
  Directorate, National Aeronautics and Space Administration.....   132

Hon. Peter H. Appel, Administrator, Research and Innovative 
  Technology Administration, Department of Transportation........   141

Dr. David Applegate, Associate Director, Natural Hazards, U.S. 
  Geological Survey..............................................   147

Mr. Jeffrey J. Carlisle, Executive Vice President, Regulatory 
  Affairs and Public Policy, LightSquared........................   151

Dr. Scott Pace, Director, Space Policy Institute, George 
  Washington University..........................................   164

             Appendix 2: Additional Material for the Record

Prepared Statement of Mr. Randy Neugebauer, U.S. House Committee 
  on Science, Space, and Technology..............................   172

Letter from Members of Congress to Hon. Julius Genachowski, 
  Chairman, Federal Communications Commission, Washington, DC....   173

Response to Hon. Randy Neugebauer from Hon. Julius Genachowski, 
  Chairman, Federal Communications Commission, Washington, DC....   178

Written Statement of the Coalition to Save Our GPS, Presented to 
  the House Committee on Science, Space, and Technology..........   179

Letter to Hon. Ralph M. Hall, Chairman, U.S. House Committee on 
  Science, Space, and Technology from Mr. Malcolm D. Jackson, 
  Assistant Administrator and Chief Information Officer, U.S. 
  Environmental Protection Agency................................   196

Letter to Hon. Ralph M. Hall, Chairman, U.S. House Committee on 
  Science, Space, and Technology from Mr. Michael W. Locatis III, 
  Chief Information Officer, U.S. Department of Energy...........   197

Letter to Hon. Ralph M. Hall, Chairman, U.S. House Committee on 
  Science, Space, and Technology from Mr. Subra Suresh, Director, 
  National Science Foundation....................................   198

Letter to Mr. Larry Strickling, Assistant Secretary of Commerce, 
  U.S. Department of Commerce from NASA..........................   199

Federal Aviation Administration: LightSquared Impact to Aviation: 
  FAA Perspective: PowerPoint Presentation to U.S. House 
  Committee on Science, Space, and Technology....................   204

Letter to Mr. Karl B. Nebbia, Associate Administrator, National 
  Telecommunications and Information Administration from Mr. Joel 
  Szabat, Deputy Assistant Secretary for Transportation Policy, 
  U.S. Department of Transportation..............................   219

Memorandum for Mr. Karl Nebbia, Associate Administrator, National 
  Telecommunications and Information Administration from Deanna 
  Archuleta, Senior Advisor to the Secretary, Department of the 
  Interior.......................................................   252

 
   IMPACTS OF THE LIGHTSQUARED NETWORK ON FEDERAL SCIENCE ACTIVITIES

                              ----------                              


                      THURSDAY, SEPTEMBER 8, 2011

                  House of Representatives,
               Committee on Science, Space, and Technology,
                                                    Washington, DC.

    The Committee met, pursuant to call, at 2:19 p.m., in Room 
2318 of the Rayburn House Office Building, Hon. Ralph Hall 
[Chairman of the Committee] presiding.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            hearing charter

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                     U.S. HOUSE OF REPRESENTATIVES

   Impacts of the LightSquared Network on Federal Science Activities

                      wednesday, september 8, 2011
                          2:00 p.m.--4:00 p.m.
                   2318 rayburn house office building

Hearing Purpose

    The purpose of this hearing is to examine the concerns and issues 
associated with interference on the Global Positioning System (GPS) 
signal from the proposed LightSquared LLC terrestrial broadband network 
related to federal scientific activities.
    The committee will review the results of recent testing on the 
impact of the LightSquared network on the GPS signal. Potential 
interference could disable the GPS signal used for critical U.S. 
Government services and science missions such as the Next Generation 
Air Transportation System, Earth and space science missions, 
communications and navigation, space mission operations, weather 
predication and climate observation, search and rescue, disaster 
response and public safety, navigation, geodesy, and marine research 
platforms and services. In addition, the Committee will examine 
measures and costs necessary to implement and prioritize mitigation 
strategies at federal departments and agencies.

Background

    LightSquared is a Mobile Satellite Service (MSS) telecommunication 
company owned by Harbinger Capital Partners Funds that was formed in 
2010 with plans to provide a wholesale, nationwide 4G wireless 
broadband network through their existing mobile satellite 
communications services and a ground-based wireless communications 
network that uses the same L-band radio spectrum as their satellites. 
LightSquared's predecessor companies include SkyTerra Communications, 
Inc. (SkyTerra), Mobile Satellite Ventures (MSV), Motient Services Inc. 
and American Mobile Satellite Company (AMSC). \1\
---------------------------------------------------------------------------
    \1\  FCC DA 11-133, January 26, 2011.
---------------------------------------------------------------------------
    LightSquared operates its satellite service using two geostationary 
satellites that cover North America and is also authorized to operate a 
``next-generation'' satellite called SkyTerra-1, launched on November 
14, 2010.
    The new LightSquared terrestrial network will be located in the 
same frequency band as their satellite service, which is adjacent to 
existing GPS spectrum, and transmitted through approximately 40,000 
base stations located primarily in major city markets. A number of GPS 
stakeholders have raised concerns with the Federal Communications 
Commission (FCC) that the proposed LightSquared business plan will 
interfere with existing GPS-based services.
    In 2003, the FCC adopted initial rules allowing commercial 
satellite service providers to operate a ground network integrated with 
their satellite service. These integrated ground networks are referred 
to as an Ancillary Terrestrial Component (ATC) of a Mobile Satellite 
Service (MSS) and were intended to ``fill in'' gaps and boost the 
penetration of the original satellite signal within dense urban 
environments. The integrated ATC network would simply augment the 
satellite signal.
    The initial ATC ruling permitted MSS providers to enhance their 
satellite service but was not intended to become an independent 
terrestrial network. The FCC stated in the 2003 ruling:

    The purpose of our grant of ATC authority is to provide satellite 
licensees flexibility in providing satellite services that will benefit 
consumers, not to allow licensees to profit by selling access to their 
spectrum for a terrestrial-only service. \2\
---------------------------------------------------------------------------
    \2\  FCC 03-15, February 10, 2003.

    In 2004, the FCC granted LightSquared (then known as MSV) 
conditional approval to build its integrated ATC ground-based wireless 
network using its satellite spectrum near the GPS signal. \3\ At that 
time, the GPS industry concluded that interference with GPS signal 
would be manageable as the ATC would simply augment the satellite 
signal.
---------------------------------------------------------------------------
    \3\  FCC DA 04-3553, November 8, 2004.
---------------------------------------------------------------------------
    MSV changed its name to SkyTerra in 2008. \4\ In 2010, Harbinger 
Capital Partners Funds became the principal owner of SkyTerra, \5\ and 
subsequently renamed the company LightSquared. The newly formed company 
also developed a new business plan to provide a wholesale, nationwide 
4G wireless broadband network through their existing mobile satellite 
communications services and an integrated ground-based wireless 
communications network that uses the same L-band radio spectrum as 
their satellites.
---------------------------------------------------------------------------
    \4\  ``Notice to Noteholders--Name Change,'' SkyTerra Press 
Release, December 8, 2008.
    \5\  FCC DA 10-535, March 26, 2010.
---------------------------------------------------------------------------
    On January 26, 2011, the FCC granted LightSquared a conditional 
waiver of its ATC authority ``integrated service rule'' meaning its 
customers could offer terrestrial only services. \6\ LightSquared 
maintains that its network will continue to offer both satellite and 
terrestrial services bundled together but that its wholesale customers 
could sell smartphones and similar devices that are only capable of 
transmitting and receiving with the terrestrial base stations. \7\ The 
approval also required LightSquared to form a Technical Working Group 
(TWG) and issue a GPS interference assessment report, due to the FCC on 
June 15, 2011.
---------------------------------------------------------------------------
    \6\  FCC DA 11-133, January 26, 2010.
    \7\  Ibid.
---------------------------------------------------------------------------
    In March 2011, LightSquared formed the TWG with industry 
representatives and government officials to conduct testing and report 
the results of impacts on the GPS signal. Comments and responses on the 
TWG report were due on August 15th. Recent congressional testimony on 
the report's findings indicate significant interference between the 
LightSquared signal and the GPS signal. \8\
---------------------------------------------------------------------------
    \8\  Hearing titled ``GPS Reliability: A Review of Aviation 
Industry Performance, Safety Issues, and Avoiding Potential New and 
Costly Government Burdens,'' Committee on Transportation and 
Infrastructure, U.S. House of Representatives, June 23, 2011.
---------------------------------------------------------------------------
    Independent of the FCC-ordered study, the U.S. Government's 
National Space-Based Positioning, Navigation, and Timing Systems 
Engineering Forum (NPEF) conducted its own testing of the potential 
interference to military and civilian GPS users from LightSquared's 
terrestrial network. The NPEF completed its report on June 1, 2011, and 
concluded that harmful interference to the GPS signal would result from 
the LightSquared network. The NPEF report recommended that the FCC 
withhold authorization for LightSquared to commence commercial 
operations and stated:

    The U.S. Government should conduct more thorough studies on the 
operational, economic and safety impacts of operating the LightSquared 
Network.

    In light of the test results from the TWG and the NPEF reports, 
LightSquared has proposed a new plan to initiate commercial operations 
utilizing the lower 10 MHz of its L-band spectrum that the company 
believes will minimize interference with the GPS signal. \9\ While 
LightSquared maintains its new proposal will significantly reduce 
interference to a large percentage of the GPS user community, its 
impact on aviation, space-based, and high precision users, such as the 
FAA NextGen, NASA Earth Science missions, GPS meteorology, seismology, 
and NOAA weather satellites and marine surveyors remains uncertain. 
While these users represent a small percentage of the overall GPS 
community, their services are critical to U.S. government operations 
and science missions.
---------------------------------------------------------------------------
    \9\  FCC Proceeding filing 11-109, June 30, 2011.
---------------------------------------------------------------------------
    The latest LightSquared proposal would first utilize the lower 10 
MHz of its L-band spectrum allocation that is the farthest away from 
the GPS signal at reduced power. Over time, provided interference 
concerns with the GPS signal could be sufficiently mitigated, 
LightSquared would then start operations across its entire upper and 
lower spectrum allocation. Although not specifically tested, the TWG 
report contains numerous recommendations (see Appendix 1) to conduct 
additional testing on the impact on the GPS signal if the FCC were to 
authorize LightSquared's latest commercial operations proposal. \10\
---------------------------------------------------------------------------
    \10\  Final Report of the Technical Working Grouup, June 30, 2011.
---------------------------------------------------------------------------
    On July 6, 2011, the National Telecommunications and Information 
Administration (NTIA) sent a letter to the FCC stating that, based on 
the government testing and analysis, earlier concerns about GPS 
interference remain unresolved and additional testing is necessary. 
NTIA recommended that the FCC continue to withhold authorization for 
LightSquared to commence commercial operations, stating:

    NTIA supports the [National Executive Committee for Space-Based 
Positioning, Navigation, and Timing] EXCOM's recommendation that 
additional tests be performed and recommends that the FCC continue to 
withhold authorization for LightSquared to commence commercial 
operations until all the available test data can be analyzed and all 
valid concerns have been resolved. \11\&
---------------------------------------------------------------------------
    \11\  NTIA Letter to FCC, July 6, 2011.

    On May 11, 2011, the National Executive Committee for Space-Based 
Positioning, Navigation, and Timing requested Departments and agencies 
assess the impacts of LightSquared's concept for operations. The PNT-
---------------------------------------------------------------------------
NCO asked Departments and agencies to answer the following questions:

    <bullet>  Summarize and quantify current and future benefits 
provided by use of GPS-based application and any cost-benefit analyses.

    <bullet>  Summarize and quantify total sunk costs in GPS-based 
infrastructure (prior years to date) and planned investments going 
forward.

    <bullet>  To the extent possible, qualify, quantify, and describe 
risks to your agency's GPS-based mission capability, including ``lost 
benefits'' if GPS performance were degraded (or lost) due to 
LightSquared's signals including the costs to modify (or replace) GPS 
receiver infrastructure and the time frame required to replace that 
infrastructure.

    As stated previously, comments on the TWG report were due on July 
29, 2011, and responses to comments were due on August 15, 2011. At 
this point, the FCC can rule on whether to approve LightSquared's 
proposal at any time. While it is possible that the FCC could approve 
LightSquared's proposal, the Commission has stated that it ``will not 
permit LightSquared to begin commercial service without first resolving 
the Commission's concerns about potential widespread harmful 
interference to GPS devices. The FCC International Bureau's Order of 
January 26, 2011 (Order), outlines our interference concerns and 
unambiguously conditions LightSquared's commercial operation on first 
resolving those challenges to our satisfaction. Under no circumstances 
would I put at risk our nation's national defense or public safety.'' 
\12\
---------------------------------------------------------------------------
    \12\  Letter from Chairman Genachowski, FCC, to Senator Grassley, 
May 31, 2011.
---------------------------------------------------------------------------

Issues

Mitigation

    While LightSquared announced that their new proposal (which offers 
to delay the use of the upper band of their spectrum) mitigates 
interference with 99 percent of GPS receivers, the GPS industry has 
challenged these claims.<SUP>13,14</SUP> There would still be 
interference, however, with high precision&ers--the primary users of 
GPS that the Committee is concerned with. Recent statements by 
LightSquared indicate that the remaining interference can be minimized 
by the use of filters. Questions remain as to whether this is actually 
possible, whether such a plan would require additional testing, how 
much this would cost, who would bear the costs of developing these 
filters, and who would be responsible for retrofitting impacted 
receivers.
---------------------------------------------------------------------------
    \13\ FCC filing, Recommendation of LightSquared LLC, June 30, 2011.
    \14\ http://www.saveourgps.org/ pdf/TWG_Final_Report_2_Page_ 
Summary.pdf. &

---------------------------------------------------------------------------
Spectrum Use

    LightSquared's new proposal also states that they will, ``delay 
incorporating into its terrestrial network the upper 10 MHz of its 
frequencies in which transmissions may jeopardize legacy GPS usage,'' 
but will ``work with the FCC, NTIA, and other government agencies to 
explore all options for using a full complement of terrestrial 
frequencies.'' \15\ Assuming LightSquared's proposal is allowed by the 
FCC, it is uncertain whether the FCC will prevent LightSquared from 
operating in the upper 10 MHz, or if this prohibition will be self-
imposed. Issues also exist relative to how to determine an acceptable 
level of interference, who makes this determination, and when this 
determination can be made.
---------------------------------------------------------------------------
    \15\  FCC filing, Recommendation of LightSquared LLC, June 30, 
2011.

---------------------------------------------------------------------------
Spectrum Encroachment

    High precision GPS receivers utilize a technique that receives 
augmentation signals over a wide swath of Global Navigation Satellite 
System (GNSS) spectrum in order to achieve sub-centimeter accuracy. 
\16\ These receivers also ``look'' across the spectrum allocated to 
LightSquared. While regulations exist to restrict broadcasts to certain 
portions of the spectrum, no regulations exist related to receivers. 
Therefore, LightSquared argues that interference ``is not caused by 
emissions from LightSquared's base stations into the GPS band, but from 
the failure of these legacy GPS receivers to reject transmissions from 
LightSquared's licensed frequencies, which are adjacent to the spectrum 
allocated for use by GPS.'' Conversely, the GPS industry argues that 
the LightSquared spectrum was originally planned to be for a Mobile 
Satellite Service (MSS), which, by design, can coexist with the GPS 
signal since it is of a similar strength. Furthermore, the GPS industry 
claims that the out-of-band spectrum that high precision GPS receivers 
use in LightSquared's spectrum can coexist without interference as long 
as the signal strength used by LightSquared in its spectrum remains 
predominately satellite based as originally planned. Although FCC 
waivers have allowed satellite providers to operate ancillary 
terrestrial components (ATC) to augment satellite signals, agreements 
were made to prevent interference with not only other bands, but also 
interference with a provider's own satellite signal. \17\ With 
LightSquared's proposal to operate a predominately terrestrial network, 
bundled with a satellite service, adjacent to a low-level GPS signal, 
these interference issues have now become problematic.
---------------------------------------------------------------------------
    \16\  FCC Filing SAT-MOD-20101118-00239, Feb. 25, 2011.
    \17\  Letter to the Office of Spectrum Management, NTIA, from 
Mobile Satellite Ventures L.P. and the U.S. GPS Industry Council, July 
25, 2002.

---------------------------------------------------------------------------
Witnesses

    <bullet>  Mr. Anthony Russo, Director, National Coordination Office 
for Positioning, Navigation and Timing

    <bullet>  Ms. Mary Glackin, Deputy Under Secretary, National 
Oceanic and Atmospheric Administration

    <bullet>  Mr. Victor Sparrow, Director, Spectrum Policy, Space 
Communications and Navigation, Space Operations Mission Directorate, 
National Aeronautics and Space Administration

    <bullet>  The Honorable Peter Appel, Administrator, Research and 
Innovation Technology Administration, Department of Transportation

    <bullet>  Dr. David Applegate, Associate Director, Natural Hazards, 
U.S. Geological Survey

    <bullet>  Mr. Jeffrey J. Carlisle, Executive Vice President, 
Regulatory Affairs and Public Policy, LightSquared

    <bullet>  Dr. Scott Pace, Director, Space Policy Institute, George 
Washington University
                               Appendix 1
GPS Technical Working Group (TWG) Final Report--6/30/2011 (Excerpts)
    2.7.5 Space-based Receivers

    <bullet>  In NASA`s view, the interference to space-based GPS 
receivers used for [radio occultation (RO)] RO would be severely 
disruptive to NASA`s science missions based on the test and analysis 
conducted in the TWG. Space-based GPS receivers used for navigation and 
precise orbit determination would receive a lesser amount of 
interference, though interference would occur.

    <bullet>  NASA is of the view that, although the TWG members worked 
diligently and in good faith throughout the period prescribed by the 
FCC, it was impossible to adequately evaluate and thoroughly 
investigate potential interference mitigation options for space-based 
and high precision science receivers.

    3.1 Aviation Sub-Team

    <bullet>  Compatibility of aviation GPS operations with a single 
lower 10 MHz channel could not be determined definitively without 
additional study.

    3.4 High Precision, Timing, and Networks Sub-Team

    <bullet>  1.1 GPS Community Positions

    <bullet>    (5) In the lower 10 MHz channel configuration, 31 of 33 
High Precision and Network GPS receivers tested experienced harmful 
interference within the range of power levels that would be seen inside 
the network. High precision receivers fielded today would experience 
harmful interference at up to 5 km from a single LightSquared base 
station.

    <bullet>  With respect to possible mitigations:

    <bullet>    (4) We believe more study is required on the 
feasibility of building future wideband High Precision, Network, and 
Timing receivers and augmentation systems that would be compatible with 
LightSquared terrestrial signals and which would provide the same 
performance as today`s receivers and systems. We do not foresee any 
possibility that LightSquared signals near the GPS band could ever be 
compatible with wideband receivers.

    <bullet>    (6) The viability of proposed future concepts to 
accommodate high precision GPS and MSS augmentations in the presence of 
interference from LightSquared terrestrial operations only in the lower 
10MHz band has not been tested or validated as part of this study.
                        Appendix 2--Legislation
HR 2596. Commerce, Justice, Science Appropriations Act

    <bullet>  Committee Report 112-169: Spectrum interference issues.--
The Committee is aware that NTIA and the Federal Communications 
Commission (FCC) are in the midst of a regulatory process with respect 
to the Global Positioning System and that a technical working group is 
reviewing potential interference issues. NTIA is directed to report to 
the Committee following completion of the technical working group 
activities, but no later than August 1, 2011, regarding the discoveries 
of this technical working group and the scientific steps necessary to 
address any potential interference concerns.

HR 2434. Financial Service Appropriations Act

    <bullet>  Section 633: None of the funds made available in this Act 
may be used by the Federal Communications Commission to remove the 
conditions imposed on commercial terrestrial operations in the Order 
and Authorization adopted by the Commission on January 26, 2011 (DA 11-
133), or otherwise permit such operations, until the Commission has 
resolved concerns of potential widespread harmful interference by such 
commercial terrestrial operations to commercially available Global 
Positioning System devices.

    <bullet>  Committee Report 112-136: The Committee is aware of 
concerns related to possible interference to Global Positioning System 
(GPS) devices due to terrestrial broadband service. The Committee 
remains engaged on this issue and awaits the final report by the 
Technical Working Group.

HR 1540. National Defense Authorization Act, 2012

    <bullet>  Committee Report 112-78: The committee is aware that the 
Federal Communications Commission (FCC) issued a conditional order to a 
commercial communications company on January 26, 2011, authorizing it 
to provide broadband voice and data communications services that 
potentially interfere with GPS. The committee recognizes that the Armed 
Forces are highly dependent on GPS capabilities and services. The 
committee believes that any space-based or terrestrial-based commercial 
communications service that has the potential to interfere with GPS 
should not receive final authorization to provide service within the 
United States by the FCC unless and until the potential interference 
with GPS is resolved. Such commercial services are planned to be 
transmitted from 40,000 land-based towers across the United States. The 
committee understands, based on information received from the Air 
Force, that the signal strength of such service is estimated to be one 
billion times more powerful than the GPS signal. Though the commercial 
service would broadcast on a frequency adjacent to GPS, it may still 
overwhelm GPS receivers, potentially causing a denial of service for 
millions of users in the United States relying on GPS navigation and 
timing services. Such users included the military, emergency 
responders, maritime and aeronautical emergency communication systems, 
banking transactions, air traffic and ground transportation systems, 
and myriad commercial applications. The committee understands that the 
Deputy Secretary of Defense sent a letter to the Chairman of the 
Federal Communications Commission on January 12, 2011, highlighting the 
``strong potential for interference to . . . critical national security 
systems,'' and ``strongly recommend[ing] deferral of final action on 
[the FCC order and authorization] until the proper interference 
analysis and mitigation studies can be conducted.''

HR 2112. Agriculture, Rural Development, Food and Drug Administration, 
        and Related Agencies Appropriations Act, 2012

    <bullet>  Committee Report 112-101: GPS Interference.--The 
Committee recognizes that the use of the Global Positioning System 
(GPS) is critical to USDA's mission, including natural resource 
monitoring, forest firefighting, law enforcement, and research. In 
addition, precision agriculture would not be possible without GPS. It 
is estimated that U.S. farmers and ranchers have invested more than $3 
billion in GPS technologies.

    <bullet>  The Committee is aware of a decision by the Federal 
Communications Commission that may disrupt the use of GPS, causing 
significant problems for USDA and our Nation's farmers and ranchers. 
The Committee directs USDA to ensure the FCC is aware of these concerns 
and to work with other Federal agencies, such as the Department of 
Defense and the Department of Transportation, to address them.
                 Appendix 3--International Perspective
European Commission
    On July 19, 2011, the head of the European Commission's Directorate 
General for Enterprise and Industry, Heinz Zourek, the agency that 
oversees all operations of the Galileo program, has filed an official 
comment with the FCC regarding the proposed LightSquared network. The 
Commission expressed grave concern over interference with GPS and the 
future European Galileo satellite navigation system. The filing states:

    <bullet>  ``I am writing to express our deep concerns about the 
LightSquared system that is proposed for operation in frequencies 
immediately below the radionavigation-satellite service (RNSS) 
allocation at 1559-161O MHz. This band is the core band used by global 
satellite navigation systems including GPS and you are no doubt aware 
that Europe is at the advanced planning stage for its own system, 
Galileo, which will be operational by 2014/15, and that will also use 
this RNSS allocation. The LightSquared proposal for a terrestrial 
network deployment in MSS spectrum would completely change the nature 
of radio transmissions in the band.''

EUMETSAT

    The European Organisation for the Exploitation of Meteorological 
Satellites (EUMETSAT) is an intergovernmental organization to 
establish, maintain and exploit European systems of operational 
meteorological satellites.
    On July 26, 2011, EUMETSAT filed a comment with the FCC in response 
to the LightSquared proposal. The filing stated:

    <bullet>  ``In reviewing the results and conclusions of the 
Technical Working Group Report regarding space-based GPS receivers in 
section 3.5 of the report, EUMETSAT shares the concerns expressed by 
NASA, that interference to space-based GPS receivers used for Radio 
Occultation (RO) would be severely disruptive also to the GRAS 
instrument on Metop.''
    <bullet>  ``Furthermore, the initial assessment of interference 
mitigation options have shown that even a restriction of the 
LightSquared operations to the lower 10 MHz channel would not mitigate 
the amount of interference to an acceptable level. Thus, EUMETSAT 
supports the view of NASA that the only mitigation technique which 
would resolve interference to space-based GPS receivers used for Radio 
Occultation is to relocate high power terrestrial operations to a 
different frequency band.''
         Appendix 4--Illustration of Concerns with LightSquared

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairman Hall. I'd like to welcome you to today's hearing 
entitled ``Impacts of the LightSquared Network on Federal 
Science Activities,'' and in front of you are the packets 
containing the written testimony, biography, and truth in 
testimony disclosures for today's witnesses. We have two, four, 
six, seven.
    I recognize myself for five minutes for an opening 
statement.
    The United States is the clear leader in precision, 
navigation, and timing because of its consistent investment in 
the global positioning system. This investment has been 
protected and reaffirmed by successive Administrations' 
support, which has led to the--one of the greatest 
technological achievements I guess this Nation has ever 
created. It is one that both government and industry can be 
proud of, and it is the gold standard for billions of people 
around the world.
    While it is nearly impossible to quantify the exact impact 
GPS has on society, it has certainly had an enormous impact on 
economic productivity, furthered scientific understanding, and 
modernized our national defense. Some recent reports estimate 
GPS enables over three trillion in direct and indirect economic 
activity and has created over three million jobs, a fact that 
should not be overlooked with the President preparing to speak 
before Congress in a few short hours on the state of our 
economy.
    In addition to the economic significance, the Global 
Positioning System is also an important aspect of many federal 
operations and scientific activities. Aerial and satellite 
imagery, weather forecasting, climate observation, search and 
rescue, air traffic management, rail transportation, traffic 
management, vessel navigation, emergency response and mapping, 
time distribution, seismic monitoring, land surveys, resource 
management, agriculture, engineering, and scientific 
observations all depend on GPS. Any potential disruption to GPS 
and the science activities that it supports is of utmost 
concern to this committee.
    LightSquared has proposed a network to support the 
President's challenge to identify 500 megahertz of new spectrum 
for broadband service. While the President's goal is certainly 
commendable, it should not be accomplished by destroying 
existing systems and applications. As the President's own 
National Space Policy states, the United States must, 
``maintain its leadership in the service, provision, and use of 
global navigation satellite systems,'' and ``invest in domestic 
capabilities and support international activities to detect, 
mitigate, and increase resiliency to harmful interference for 
GPS.''
    The purpose of this hearing is to examine the potential 
impact of the LightSquared Network on federal science 
activities. In doing so we hope to ensure that all the affected 
agencies are aware of the potential issues, have communicated 
those concerns effectively, are identifying potential 
mitigation strategies, and are calculating the costs associated 
with those mitigation strategies. In preparing for this hearing 
we have seen varying degrees of preparation by agencies. Some 
have done the expected due diligence, and some clearly have 
not.
    Although the FCC has stated that it will not allow 
LightSquared to begin commercial service without first 
resolving the interference issue, nothing actually prevents the 
FCC from moving forward at this point. Since the testing that 
was conducted this spring and summer, LightSquared has put 
forth a modified plan. Unfortunately, no testing has been done 
on this modified plan. I agree with the agencies before us 
today that additional testing should be required before the FCC 
allows LightSquared to begin commercial service.
    Ensuring that GPS is protected is a vital national 
interest. Its economic impact is clear, and its utility to 
science is unquestionable, but what is also important is the 
real impact on lives. Last month the FAA announced that 
LightSquared's previous proposal would result in billions of 
dollars of investment loss, a decade of delays to ongoing 
projects, a cost impact of roughly 72 billion, and almost 800 
additional fatalities, and that is just one Administration. 
Compromising the GPS would also benefit foreign systems and 
threaten U.S. leadership. As we have recently seen dependence 
on Russia for access to International Space Station has already 
compromised U.S. interests. Reliance on Russia's GLONASS 
System, China's COMPASS System, of Europe's GALILEO System for 
the precision, navigation, and timing would be just as costly.
    We have to find a way to open up more spectrum for 
broadband but not at the expense of GPS. This is, however, a 
two-way street. GPS users and agencies also have to be mindful 
that developing applications outside of their spectrum is 
dangerous and ripe for conflict, even though previously there 
were no problems.
    [The prepared statement of Mr. Hall follows:]
              Prepared Statement of Chairman Ralph M. Hall
    Good afternoon. Welcome to today's hearing titled ``Impacts of the 
LightSquared Network on Federal Science Activities.'' The United States 
is the clear leader in precision, navigation, and timing because of its 
consistent investment in the Global Positioning System. This investment 
has been protected and reaffirmed by successive Administrations' 
support, which has led to one of the greatest technological 
achievements this nation has ever created. It is one that both 
government and industry can be proud of and is the gold standard for 
billions of people around the world. While it is nearly impossible to 
quantify the exact impact GPS has had on society, it has certainly had 
an enormous impact on economic productivity, furthered scientific 
understanding, and modernized our national defense. Some recent reports 
estimate GPS enables over $3 trillion in direct and indirect economic 
activity and has created over three million jobs--a fact that should 
not be overlooked with the President preparing to speak before Congress 
in a few short hours on the state of our economy.
    In addition to its economic significance, the Global Positioning 
System is also an important aspect of many federal operations and 
scientific activities. Aerial and satellite imagery, weather 
forecasting, climate observation, search and rescue, air traffic 
management, rail transportation, traffic management, vessel navigation, 
emergency response and mapping, time distribution, seismic monitoring, 
land surveys, resource management, agriculture, engineering and 
scientific observations all depend upon GPS. Any potential disruption 
to GPS, and the science activities that it supports, is of utmost 
concern to this Committee.
    LightSquared has proposed a network to support the President's 
challenge to identify 500 megahertz of new spectrum for broadband 
service. While the President's goal is certainly commendable, it should 
not be accomplished by destroying existing systems and applications. As 
the President's own National Space Policy states, the United States 
must ``maintain its leadership in the service, provision, and use of 
global navigation satellite systems (GNSS),'' and ``[i]nvest in 
domestic capabilities and support international activities to detect, 
mitigate, and increase resiliency to harmful interference to GPS.''
    The purpose of this hearing is to examine the potential impact of 
the LightSquared network on federal science activities. In doing so, we 
hope to ensure that all of the affected agencies are aware of the 
potential issues, have communicated those concerns effectively, are 
identifying potential mitigation strategies, and are calculating the 
costs associated with those mitigation strategies. In preparing for 
this hearing, we have seen varying degrees of preparation by agencies. 
Some have done the expected due diligence and some clearly have not.
    Although the FCC has stated that it will not allow LightSquared to 
begin commercial service without first resolving the interference 
issue, nothing actually prevents the FCC from moving forward at this 
point. Since the testing that was conducted this spring and summer, 
LightSquared has put forth a modified plan. Unfortunately, no testing 
has been done on this modified plan. I agree with the agencies before 
us today that additional testing should be required before the FCC 
allows LightSquared to begin commercial service.
    Ensuring that GPS is protected is a vital national interest. Its 
economic impact is clear, and its utility to science is unquestionable, 
but what is also important is the real impact on lives. Last month the 
FAA announced that LightSquared's previous proposal would result in 
billions of dollars of investment lost, a decade of delays to ongoing 
projects, a cost impact of roughly $72 billion, and almost 800 
additional fatalities--and that is just one Administration. Compromises 
to GPS would also benefit foreign systems and threaten U.S. leadership. 
As we have recently seen, dependence on Russia for access to the 
International Space Station has already compromised U.S. interests. 
Reliance on Russia's GLONASS system, China's COMPASS system, or 
Europe's GALILEO system for precision, navigation, and timing would be 
just as costly.
    We have to find a way to open up more spectrum for broadband, but 
not at the expense of GPS. This is, however, a two-way street. GPS 
users and agencies also have to be mindful that developing applications 
outside of their spectrum is dangerous and ripe for conflict, even 
though previously there were no problems.
    With that, I yield to the Ranking Member from Texas, Ms. Johnson.

    Chairman Hall. I now recognize Ms. Johnson for her opening 
statement.
    Ms. Johnson. Thank you very much, Mr. Chairman. Good 
afternoon, and I would like to join you in welcoming our 
witnesses for today's hearing.
    There is no question that the Global Positioning System has 
transformed our economy and our society in many ways. It has 
been an amazing accomplishment, and some here may be surprised 
to learn that this very successful program is a government 
initiative. The Global Positioning System was established by 
the Department of Defense to support their national security 
mission needs.
    But civilian agencies also rely on GPS to provide greater 
services for the American public. There is no doubt that GPS 
plays an essential role in public safety. This hearing will 
allow Members to better appreciate how agencies use GPS as well 
as what would be lost without a GPS. GPS satellite signals have 
also spawned an entire area of innovation in private industry 
with new hardware and applications that allow the average 
citizen unprecedented tools for location and navigation. All of 
this has been a free benefit to the Nation's economy that is a 
product of sound management of the radio spectrum and direct 
government investment.
    The LightSquared proposal to build a nationwide broadband 
network into frequencies that sit next to GPS has provoked 
enormous controversy. I believe that if there is no way for 
LightSquared to move forward without damaging GPS, then the FCC 
should not approve the company's proposal.
    However, I do not believe that FCC would make a decision 
that compromises GPS services. The question the commission has 
to settle and the question that this hearing will not allow us 
to make much headway on is whether GPS can thrive side by side 
with a ground-based broadband network.
    I sincerely hope that they can coexist. Some of those 
supporting the GPS industry claim such coexistence is 
impossible. This suggests the physics of cell towers sending 
out powerful transmissions will overwhelm the sensitive GPS 
receivers.
    However, others are feeling this is not a physics problem 
but an engineering challenge. With filters for GPS units and 
with reasonable beam shaping at cell towers, smart engineering 
can solve these problems. I do not know whether we are dealing 
with a physics problem or an engineering challenge, but I am 
not convinced that any of the witnesses can today provide an 
answer to that question with absolute certainty.
    The agencies before us are testifying based on testing of 
GPS equipment under the original LightSquared proposal, in 
which the company would first build cell towers that broadcast 
in the portion of the spectrum immediately adjacent to that of 
GPS. That testing was not based on the new proposal from the 
company to use the portion of the spectrum that is most remote 
from GPS-assigned frequencies.
    I fully believe that the FCC will make its decision based 
on technical assessments and not the political pressure that 
may come from private parties or even from committees of 
Congress or the Executive. I hope to learn as much as I can 
today about what additional testing may be needed to inform the 
FCC's processes.
    The core question for policymakers is this. Can we use the 
L-band, or some portion of it, of the radio spectrum for an 
earth-based broadband network without damaging GPS? I hope the 
answer is yes, and everyone here should hope the answer is yes, 
because we need more broadband just as we need GPS.
    LightSquared is saying that they intend to invest $14 
billion over the next eight years to build out the network, 
employing 14,000 people in the process. In building more 
information technology infrastructure, consumers would have 
more choice in their telecommunications and data services with 
lower costs and expanding access.
    We should also see accelerating innovation of data-
intensive cellular applications that take advantage of the 
greater capacities of this new network, creating more jobs, 
more profits, and more growth in high-tech industries. And we 
are desperately in need of jobs, profits, and growth right now.
    And while I am skeptical that today we will get definitive 
answers to the most important policy questions, I look forward 
to listening to the testimony, and I thank all of our witnesses 
for their participation.
    Thank you, and I yield back, Mr. Chairman.
    [The prepared statement of Ms. Johnson follows:]
       Prepared Statement of Ranking Member Eddie Bernice Johnson
    The Global Positioning Satellite system has been a complete 
success. It is, for those who don't know, a government program. The GPS 
system was established by the Department of Defense to help assist 
their security mission needs, but civilian agencies also use the GPS 
system to provide greater services to the American public. There is no 
doubt that GPS plays an essential role in public safety.
    But that is not all that has come from this public investment. GPS 
satellite signals have spawned an entire area of innovation in private 
industry with new hardware and applications that allow the average 
citizen unprecedented tools for location and navigation. All ofthis has 
been a free benefit to the economy from this government investment and 
sound management of the radio spectrum.
    The LightSquared proposal to build a nationwide broadband network 
in the frequencies that sit next to GPS has provoked enormous 
controversy. On the one hand, GPS is too important to lose and so if 
there is no way for LightSquared to move forward without damaging GPS. 
On the other hand, the promise of enhanced infrastructure and the jobs 
that this might create is worthy of further study. This hearing will 
allow Members to better appreciate how OUI agencies use GPS as well as 
what would be lost should GPS suddenly go away. However, I do not 
believe that the FCC would make a decision that compromises GPS 
services. The question they have to settle, and the question that this 
hearing will not allow us to make much headway on, is whether GPS can 
thrive side-by*side with a ground-based broadband network.
    Some of those lobbying for the GPS industry claim such coexistence 
is impossible. They suggest the physics of cell towers sending out 
powerful transmissions would overwhelm sensitive GPS receivers. 
However, others argue that this is not a physics problem, but an 
engineering challenge. With filters for GPS units and with reasonable 
beam shaping at cell towers, smart engineering could solve these 
problems. It is unclear whether we are dealing with a physics problem 
or an engineering challenge, and I do not believe any of the witnesses 
before us today can provide an answer to that question with absolute 
certainty.
    The agencies before us today are testitying based on testing of GPS 
equipment under the original LightSquared proposal in which the company 
would first build cell towers designed to use the portion of the 
spectrum immediately adjacent to that of GPS. Their testing is not 
based on the new proposal from the company to use their spectrum that 
is most remote from GPS's assigned frequencies. The FCC will have to 
make its decisions based on technical assessments and not the political 
pressure that may come from private parties or even from Committees of 
Congress. Today, I want to learn about what additional testing may be 
needed to inform the FCC's processes.
    The core question for policy-makers is this: can we use the L-band, 
or some portion of it, of the radio spectrum for terrestrial broadband 
applications without damaging GPS? I hope that the answer is yes, and 
everyone here should hope the answer is yes, because we need more 
broadband just as we need GPS. LightSquarcd is proposing to invest $14 
billion over the next eight years to build out their network and 
projects it will employ 14,000 people in the process. In building more 
information technology infrastructure, we would see consumers have more 
choice in their telecommunications and data services, lowering their 
costs and expanding access. We should also see accelerating innovation 
of data-intensive cellular applications that take advantage ofthe 
greater capacities of this new network--creating more jobs, more 
profits, more growth. And we desperately need jobs, profits and growth 
right now.
    While I am skeptical that we will get definitive answers to the 
most important policy questions here today, I am happy to listen to the 
testimony from all of our panel members.

    Chairman Hall. Thank you, Ms. Johnson. If there are Members 
who wish to submit additional opening statements, your 
statements will be added to the record at this point.
    At this time I would like to introduce our witnesses and to 
thank our witnesses because I know they are valuable, their 
time is valuable. It took time to prepare for this. It took 
time for you to arrive here, it will take time for you to give 
your testimony, take time for you to go home. And your time is 
valuable, and we are going to try to be as helpful with you. As 
long as you give us the answers we are looking for, we won't 
even use up all of our time.
    Mr. Anthony Russo is the Director of National Coordination 
Office for Positioning, Navigation, and Timing, Mrs. Mary 
Glackin is the Deputy Under Secretary at the National Oceanic 
and Atmospheric Administration, Mr. Victor Sparrow is the 
Director of Spectrum Policy at the National Aeronautics and 
Space Administration. The Honorable Peter Appel is the 
Administrator of the Research and Innovation Technology 
Administration at the Department of Transportation, Dr. David 
Applegate is the Associate Director for National--Natural 
Hazards at the U.S. Geological Survey, Mr. Jeffrey J. Carlisle 
is the Executive Vice President for Regulatory Affairs and 
Public Policy at LightSquared LLC, and Dr. Scott Pace is the 
Director of the Space Policy Institute at George Washington 
University. And I want to welcome all of you.
    As our witnesses probably know, spoken testimony is limited 
to five minutes, after which the Members of the Committee will 
have five minutes each to ask questions. We hope you can stay 
as close to that five minutes as you can because--and don't let 
these empty seats here indicate a lack of interest in what you 
are saying because we are just back from a month when we were 
all gone and nobody was getting heard up here, and we came 
back, and everybody has a lot to do, and they have other 
committees, but all this testimony is being taken down and will 
be of record for everybody, not just the Members of this 
Committee but for everybody to read.
    So Mr. Russo, you may proceed if you would like, sir.

                STATEMENT OF MR. ANTHONY RUSSO,

         DIRECTOR, THE NATIONAL COORDINATION OFFICE FOR

        SPACE-BASED POSITIONING, NAVIGATION, AND TIMING

    Mr. Russo. Chairman Hall, Ranking Member Johnson, and 
Members of the Committee, I am deeply honored to be here for 
you today.
    Like the Internet, GPS is an essential element of the 
global information infrastructure. The free, open, and 
dependable nature of GPS has led to the development of 
thousands of applications affecting every aspect of modern 
life, and innovation has not stopped. New applications are 
being developed daily.
    GPS saves lives by preventing transportation accidents, 
aiding search and rescue efforts, assisting law enforcement, 
and speeding delivery of emergency services and disaster 
relief. It is vital to weather forecasting, earthquake 
monitoring, and environmental protection.
    GPS's role as part of our civil infrastructure traces its 
roots to a tragic incident in 1983. A Korean airliner took off 
from Alaska and ended up straying way off course in Soviet 
airspace. The airliner was shot down, and all 269 passengers 
were killed, including a sitting Member of Congress. As part of 
the response, President Reagan announced we would make GPS 
signals available to the world, and that marked the beginning 
of a multi-use policy approach to GPS that each successive 
Administration has strengthened.
    An Executive Committee consisting of the Department Deputy 
Secretaries was established in 2004, to advise and coordinate 
on GPS-related issues to include spectrum protection and 
interference. To execute the staff functions of the Executive 
Committee, a National Coordination Office or NCO was also 
established. The NCO is staffed with representatives from every 
department or agency with major equities in GPS. I am speaking 
to you today in my capacity as director of that office.
    Earlier this year, the FCC approved a conditional waiver 
for LightSquared's high-powered network, and with the 
permission of the Executive Committee, a tasked interagency 
group of technical experts called the National Space-Based 
Position Navigation and Timing Systems Engineering Forum or 
NPEF for short, to evaluate the LightSquared proposal, assess 
impacts, and look at the mitigation of any harmful effects.
    And although they were not required to do so, LightSquared 
actively supported these efforts. They provided their actual 
hardware including a custom filter for their transmitter, 
technical specifications, they answered numerous questions, and 
they even sent personnel to government test sites to review the 
test set-up. So I would like to take the opportunity to 
publicly thank LightSquared for their cooperation, which 
greatly improved the fidelity of the results.
    The NPEF testing was done under numerous limitations, 
especially an extremely compressed time frame, but despite 
these limitations the NPEF reached a definitive answer. 
LightSquared's proposed system would create harmful 
interference throughout all three phases of its planned 
deployment. Although not every individual receiver failed to 
perform, there were unacceptable levels of harmful interference 
in every class of receiver tested and at significant distances.
    I had asked the NPEF to investigate not only things that we 
might reasonably ask LightSquared to do, but also to look at 
changes the GPS community could do that would mitigate harmful 
interference and still allow LightSquared to execute their 
business plan. The NPEF spent many hours considering the full 
range of options but could not identify any feasible option 
that would both mitigate harmful interference for all or even 
most GPS users and still allow LightSquared to meet their 
system requirements.
    Now, to meet one of the conditions of their conditional 
waiver, LightSquared created a Technical Working Group or TWG 
with significant industry, government representation to conduct 
interference testing. LightSquared chose to break their testing 
into seven separate subgroups based on GPS application type. 
All seven subgroups reported significant harmful interference 
with respect to all three phases of LightSquared's planned 
deployment. However, there was no consensus on feasible 
mitigation options.
    On June 29, LightSquared submitted their TWG report 
acknowledging the harmful interference, and simultaneously they 
submitted a report outlining a potential solution. 
LightSquared's new recommendation paper suggests three distinct 
changes, and this was a series in constructive proposal, and 
the FCC is currently evaluating this recommendation, but the 
NPEF testing did not include the configuration LightSquared is 
now proposing. And it wasn't in the TWG test plans either.
    Now, in the final days of their testing TWG did manage to 
collect some of the data relevant to this configuration, but 
the report itself is inconclusive as to whether data still 
shows harmful interference to many GPS receivers. The limited 
data collected is highly disputed among the members of TWG. 
Therefore, the federal agencies are recommending further 
testing once the FCC defines the final LightSquared end-state 
configuration.
    What we do know is enough data was collected that--by all 
parties in terms of whether or not high-precision receivers 
would be impacted. LightSquared's report indicates 31 of 33 
receivers tested in this subgroup still failed, even in the 
lower configuration, and this class of receivers involves many 
of those used in advanced scientific research applications. 
Most federal science systems were not directly tested by either 
the NPEF or the TWG, so we do not know for sure if they would 
be impacted. But the tests did indicate increased 
susceptibility interference for the higher end, more 
sophisticated systems, many of which are used in research and 
science applications.
    In summary, the extensive testing done by LightSquared, the 
government, and the GPS industry conclusively demonstrate 
harmful interference from LightSquared's intended deployment, 
and they should not be allowed to commence commercial 
operations until the identified problems are resolved. Further 
study is needed on alternative concepts that were not 
comprehensively tested, including the most recent LightSquared 
proposal. The National Coordination Office will assist as 
directed by the Executive Committee in any follow-on efforts.
    I thank you for this opportunity to speak on this very 
significant issue impacting federal science activities and over 
a billion worldwide users. I look forward to your questions.
    [The prepared statement of Mr. Russo follows:

                Prepared Statement of Mr. Anthony Russo,

             Director, The National Coordination Office for

            Space-Based Positioning, Navigation, and Timing

    Chairman Hall, Ranking Member Johnson, and Members of the 
Committee, I am deeply honored for this opportunity to appear before 
you today. Like the Internet, Global Positioning System (GPS) is an 
essential element of the global information infrastructure. The free, 
open, and dependable nature of GPS has led to the development of 
thousands of applications affecting every aspect of modern life and new 
applications are developed daily. GPS technology is now in everything 
from cell phones and wristwatches to bulldozers and shipping 
containers. When you swipe your card at an Automatic Teller Machine 
(ATM) or your credit card at a gas pump, you are using GPS. GPS boosts 
productivity across a wide swath of the economy, to include farming, 
construction, mining, surveying, package delivery, and logistical 
supply chain management. Major communications networks, banking 
systems, financial markets, and power grids depend heavily on GPS for 
precise time synchronization. Some wireless services cannot operate 
without it.
    GPS saves lives by preventing transportation accidents, aiding 
search and rescue efforts, assisting law enforcement and speeding the 
delivery of emergency services and disaster relief. GPS is vital to the 
Next Generation Air Transportation System (NextGen) that will enhance 
flight safety while increasing airspace capacity. GPS also advances 
scientific aims such as weather forecasting, earthquake monitoring, and 
environmental protection.

The Role of the Space-Based Positioning, Navigation
and Timing Executive Committee

    On September 1, 1983, a Korean civilian airliner took off from 
Alaska and ended up straying way off course into Soviet airspace. The 
airliner was shot down as it attempted to leave the airspace and all 
269 passengers were killed. As part of the response to that tragedy, 
President Reagan announced the United States would make its GPS signals 
available to the world to avoid any navigation errors of that type. 
That announcement marked the beginning of a multi-use policy approach 
to GPS and each successive administration has strengthened that 
concept. In 2004, President Bush issued a National Space-Based 
Positioning, Navigation, and Timing (PNT) Policy establishing a Deputy 
Secretary-level Executive Committee to advise and coordinate on 
policies, programs, requirements, schedules, architectures and budgets 
to sustain and modernize GPS, systems that augment or enhance GPS, and 
any backup systems. The Policy includes an explicit instruction to 
continue to operate and modernize GPS to meet growing scientific and 
commercial demands. Last year, President Obama signed out his 
comprehensive National Space Policy which left the existing PNT policy 
in place, but added emphasis and additional guidance in four key areas 
related to GPS. One of these new emphasis areas dealt specifically with 
the issue of harmful interference. We are also responsible in this 
policy to identify impacts to government space systems prior to any 
reallocation of spectrum for commercial, federal, or shared use.
    To execute the staff functions of the Executive Committee, and to 
assist them in ensuring implementation of the President's policy 
objectives, a National Coordination Office (NCO) was established. The 
NCO is staffed with representatives from every department or agency 
with major equities in GPS. I am speaking to you today in my capacity 
as the Director of that office.

The National Space-Based Positioning, Navigation,
and Timing Systems Engineering Forum (NPEF)

    The NPEF is an interagency working group that supports the 
Executive Committee on major technical issues that cross agency 
boundaries. Their reports help form the basis for recommendations made 
to the Executive Committee. The NPEF is co-chaired by the Air Force's 
Chief Engineer from the GPS Program Office and the FAA's Ground Segment 
Lead for Global Navigation Satellite Systems and Space-Based 
Augmentation Systems. They are assisted by technical representatives 
and other staff from across the interagency.
    On the January 26 this year, the Federal Communications Commission 
(FCC) approved a Conditional Waiver for LightSquared's high-power 
broadband network the Executive Committee had warned might cause 
significant interference to governmentwide GPS applications. With the 
permission of the Executive Committee's Steering Group, the NPEF was 
tasked to evaluate the LightSquared proposal, assess impacts, and look 
at potential mitigation of any harmful effects. I've included the NPEF 
Task Statement as part of this testimony.
    Their test methodology involved modeling, simulation, analysis, 
bench testing, radiated testing inside an anechoic chamber, and what we 
call ``live sky'' testing where they set up a tower outdoors and 
broadcast a signal as close as they could to what they expected the 
actual configuration to be. Each of these methods has advantages and 
limitations and using multiple methods enhances confidence in the 
results. LightSquared actively supported these efforts. They provided 
their actual hardware including a custom filter on their transmitters, 
technical specifications and answered numerous questions from NPEF 
engineers, and sent personnel to government test sites to review and 
comment on the test set-up. I would like to take this opportunity to 
publicly thank LightSquared for their cooperation. It greatly enhanced 
the fidelity of the results.
    I do want to identify some limitations of our testing effort. The 
most significant is that there was only one LightSquared transmit 
antenna. Since interference effects can be additive, this is a serious 
limitation in a planned environment where the LightSquared base 
stations are densely enough packed that a given user will likely see 
effects from multiple towers simultaneously. This also greatly 
complicates some of the potential mitigation options. A second limiting 
factor was there were no LightSquared handsets available to test. The 
handsets operate at a different frequency than their base stations and 
are much less powerful. However, the NPEF anticipates they will be much 
more numerous and since they are mobile they could be anywhere, and may 
even be frequently co-located with GPS receivers. Several technical 
experts on the team consider this to be a very significant problem, but 
they were not able to explicitly address this issue. A third limiting 
factor is the inability to fully represent the diversity of the GPS 
user community. There are more GPS applications than we can count, and 
at the NCO we learn of new applications at the rate of about three per 
week. Each application is different. Some require extreme position 
accuracy; others do not use position at all, but need very precise 
timing. Some applications require less precision, but need extremely 
high integrity--in other words they need high confidence the signal 
they receive is accurate. Still others do not even read the signal's 
message content; they only care about the phase relationship between 
the military and civil GPS signals. It was therefore difficult to 
construct tests that covered all of our diverse users in the time we 
had to work with. And a final limiting factor was the extremely 
compressed time frame.
    But despite these limitations, the NPEF completed the job they were 
asked to do. They were able to look at a wide range of representative 
receivers against all three phases of LightSquared's proposed 
deployment plan. In all, 24 different organizations participated in 
testing more than 75 different receivers in over 50 separate test 
events. The answer is definitive: LightSquared's proposed system would 
create harmful interference throughout all three phases of its planned 
deployment. I have attached an Executive Summary of the publicly 
releasable results to this testimony. The tests showed no evidence of 
out-of-band emissions. In other words, the NPEF was able to confirm 
LightSquared's claim they correctly filter their transmission so it is 
not leaking into the GPS band. However, the tests also confirm the 
presence of other serious and harmful interference effects. Although 
not every individual receiver failed to perform, there were 
unacceptable levels of harmful interference in every class of receiver 
tested and at significant distances.
    In the NPEF task statement, the engineering team was asked to 
consider possible mitigations to any problems they discovered. They 
were asked to investigate not only things that we might reasonably ask 
LightSquared to do, but also to look at changes the GPS community could 
do that would mitigate harmful interference and still allow 
LightSquared to execute their business plan. The NPEF spent many hours 
considering the full range of options such as: reducing power on 
LightSquared's transmission, increasing GPS's transmitted power, 
building better GPS filters, or asking for exclusion zones around 
certain sensitive installations that use GPS. Unfortunately the NPEF 
could not identify any feasible option that would mitigate harmful 
interference for all or even most GPS users, and still allow 
LightSquared to meet their system requirements. The only suggested 
option that might work would be moving LightSquared to a different part 
of the spectrum, and that involves a host of other issues outside the 
PNT community. I've included an Executive Summary of the results of the 
NPEF testing, including a discussion of the potential mitigation 
options, as part of this testimony.

LightSquared's Technical Working Group (TWG)

    When the FCC granted the Conditional Waiver, one of the conditions 
was for the company to fund testing efforts to resolve the interference 
concerns the Executive Committee and GPS Industry had raised. The FCC 
Order further directed the creation of a LightSquared-led working group 
and highly encouraged participation from the U.S. Government and 
representation from across the diverse GPS industry. Altogether the TWG 
contained 39 full-time members and 61 part-time technical advisors, 
split between GPS Industry, LightSquared, and the Government. Like the 
NPEF, the TWG used an assortment of different techniques culminating in 
two weeks of ``Live-Sky'' testing in Las Vegas. There was healthy 
crossflow of expertise and data sharing between the NPEF and TWG.
    LightSquared chose to break the effort into seven separate 
subgroups based on GPS application type. The results were completely 
consistent with what the NPEF found. All seven subgroups reported 
significant harmful interference with respect to all three phases of 
LightSquared's planned deployment. There was no consensus on feasible 
mitigation options although most of the subgroups did advocate for 
moving LightSquared's service to a different frequency band.

LightSquared's New Plan

    On June 29, 2011 LightSquared submitted their TWG report 
acknowledging the harmful interference their proposed system would 
create. Simultaneously they submitted a report outlining a proposed 
potential solution. This solution was completely separate from the TWG 
and not evaluated by them. LightSquared's new ``Recommendation Paper'' 
suggests three distinct changes. (1) A re-phasing of their plan where 
the first of their two transmissions is the one lower in their 
frequency band and therefore further from GPS; (2) a reduction in 
authorized power to the level they told us they originally planned to 
operate at; and (3) a ``standstill'' on transmitting their second 
channel (closer to the GPS band) for some undefined period of time.
    The FCC is currently evaluating this recommendation as well as 
considering all the comments received in the public comment period. The 
Government testing did not consider the configuration LightSquared is 
now proposing, although NPEF testing was done at the power level they 
indicate. The TWG did not plan to test this configuration either, but 
in the final days of their testing did collect some data. The TWG 
report is inconclusive as to whether this lower channel transmission 
does or does not cause harmful interference to most GPS receivers. The 
limited data collected is highly disputed and all seven of 
LightSquared's subgroups recommended further study of this planned 
change to the phasing. The federal departments and agencies are 
recommending retesting once the FCC defines the final configuration.

High-Precision Receivers

    However all parties concur the class considered ``High-Precision'' 
would still be impacted even under the first phase of LightSquared's 
new proposal. LightSquared's TWG report indicates 31 of 33 receivers 
tested in this subgroup failed in an environment where LightSquared was 
not transmitting in the upper half of their band. This class of 
receivers involves many of those used in advanced scientific and 
research applications. For example, the receivers used in EarthScope's 
Plate Boundary Observatory can measure movements due to tidal forces 
less than a one millimeter. Receivers like these would fit into the 
``High-Precision'' category and will eventually be in every county in 
the country. This National Science Foundation project is critical to 
our understanding of the interior of the Earth and supports research on 
earthquakes, tsunamis and global climate change.
    Another example of a service which may be affected would be the 
National Institute of Standards and Technology (NIST) Time and 
Frequency Measurement and Analysis Service (TMAS) and (FMAS). 
LightSquared implementation, even under their new configuration, may 
impact NIST's ability to provide high-precision calibration services to 
national laboratories and private sector customers nationwide. Even 
non-GPS related research may depend on accurate time and frequency 
calibration received from NIST.
    High-Precision GPS is also used by the Environmental Protection 
Agency for numerous research applications and is an integral part of 
their Field EnvironmentaL Decision Support system, or FIELDS. This 
impacts areas such as hazard waste site clean-up, response to oil 
spills, emergency preparedness, revitalization and development. Another 
NSF-funded environmental research project involves spatial variability 
in plant nitrogen and forage quality related to grassland fires. This 
directly affects grazing habits of herbivores.
    A final example would be potential impacts to efficient power 
distribution. The future ``Smart Grid'' incorporates geographically 
diverse Phasor Measurement Units (PMUs) to ensure alternating current 
is phase synchronized across the network. There are numerous economic 
and environmental benefits to this including reduced overall energy 
consumption, increased efficiency in demand response/load management 
programs, better utilization of equipment, reduction in carbon 
emissions, and the ability to more easily substitute renewable forms of 
energy. With the aid of precise GPS timing, the Department of Energy 
will be able to decrease the likelihood and the severity of major 
blackouts.
    None of these systems I've mentioned above were directly tested by 
either the NPEF or the TWG, so we do not know if they would be 
impacted. But both sets of tests did indicate increased susceptibility 
to interference for those higher-end, more sophisticated systems. Both 
the NPEF and the TWG subgroups recommended further testing, especially 
on the 10 MHz low configuration and on any proposed measures to 
mitigate harmful effects.

Summary

    The extensive and comprehensive testing done by LightSquared, the 
NPEF, and the GPS Industry conclusively demonstrates harmful 
interference from LightSquared's intended deployment of their high-
power terrestrial broadband system and should not be allowed to 
commence commercial operations until the identified problems are 
resolved.

        The Administration believes that we must protect existing GPS 
        users from disruption of the services they depend on today and 
        ensure that innovative new GPS applications can be developed in 
        the future. At the same time, recognizing the President's 
        instruction to identify 500 MHz of new spectrum for innovative 
        new mobile broadband services, we will continue our efforts at 
        more efficient use of spectrum. Therefore, in the short run, we 
        will participate in the further testing required to establish 
        whether there are any mitigation strategies that can enable LSQ 
        operation in the lower 10MHz of the band. We also encourage 
        commercial entities with interests to work with Lightsquared 
        toward a possible resolution, though any proposed mitigation 
        must be subjected to full testing. The challenge of meeting the 
        President's goal also depends on long-term actions by Federal 
        agencies in the area of research and development, procurement 
        practices that encourage spectrally efficient applications, and 
        new policy development.

    Further study is needed on alternative concepts, including the most 
recent LightSquared proposal. The National Coordination Office will 
assist as directed by the Space-Based PNT Executive Committee in any 
follow-on efforts. I thank you for this opportunity to speak on an 
issue with a very significant impact to federal science activities and 
to over a billion world-wide users. I look forward to your questions.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairman Hall. Thank you very much.
    Dr. Applegate, you may proceed.
    I am sorry. I am told Ms. Glackin is next in line.

                 STATEMENT OF MS. MARY GLACKIN,

          DEPUTY UNDER SECRETARY, NATIONAL OCEANIC AND

                   ATMOSPHERIC ADMINISTRATION

    Ms. Glackin. Thank you. Mr. Chairman, Ranking Member 
Johnson, and Members of the Committee, thank you for the 
opportunity to speak today about the importance of GPS to NOAA 
and the operational impacts we could face as a result of GPS 
interference from the LightSquared network.
    GPS technology is a key enabler for nearly all of NOAA's 
mission activities, and for this reason we are very interested 
and involved in the activities surrounding LightSquared and 
GPS. NOAA contributed equipment and experts to the two major 
testing efforts just described. My testimony will address the 
potential effects of the original and the modified LightSquared 
Spectrum Plans based on our analysis of the data.
    Based on our work to date, GPS interference under 
LightSquared's original plan would cause serious degradation 
for a wide range of NOAA systems, resulting in the loss of 
critical services and potentially loss of life and property. 
These include satellite, airborne, sea-based, and terrestrial 
systems used for weather warnings, forecasting, climate 
observation, search and rescue, among others.
    First and foremost, our entire fleet of meteorological 
satellites would be put at risk. Without GPS, the ground 
systems that control the NOAA spacecraft would fail to keep 
proper time, causing widespread errors, leading to inaccurate 
warnings of tornadoes, hurricanes, and other severe weather 
events and eventually our ability to command and control the 
satellites would be compromised.
    Likewise, without precise GPS times, NOAA's search and 
rescue satellite ground stations would produce less accurate 
and less timely distress alerts, leading to longer response 
time, greater risk to human life, and increased costs.
    We are concerned that LightSquared's original broadcast 
would interfere with onboard GPS for newer satellites, 
including our NPP satellite in low-earth orbit and even GOES-R 
in GS geostationary orbit.
    My written testimony also highlights other critical NOAA 
systems put at risk at the LightSquared's original proposal, 
including 23,000 environmental sensor platforms that depend on 
GPS for accurate geo-referencing, time stamping, and 
communication of data that enable timely storm and flood 
warnings, use in weather balloons and hurricane dropsondes that 
measure wind speeds.
    LightSquared's proposed solution involves voluntary power 
limits and postponement of one of its two planned channels, the 
upper 10 megahertz next to GPS. Unfortunately, LightSquared's 
own report to the FCC demonstrates that the new spectrum plan 
involves--would still raise issues for high-precision GPS 
receivers featuring a wideband design.
    We have identified at least five major NOAA functions that 
require wideband GPS equipment. These include the COSMIC System 
of satellites to improve global and weather climate models, 
monitoring sea level trends to protect natural and human 
communities, the ground-based GPS meteorology project to 
improve short-term forecasts, the issuance of the U.S. Total 
Electron Count product to inform the public of space weather 
conditions and space storms, and maintaining the National 
Spatial Reference System to ensure the compatibility among U.S. 
maps and surveys.
    Three of these five activities depend on NOAA's nationwide 
network of Continuously Operating Reference Stations, or CORS, 
which collect and share precise data about GPS satellite 
orbits. CORS provides a consistent positioning technology, 
accurate to an inch, used by millions to anchor nautical 
charts, build roads and railways, and respond to disasters.
    CORS alone includes 1,800 wideband receivers owned by NOAA 
and 190 partner stakeholder organizations, and without a 
suitable mitigation for the lower channel LightSquared 
interference, major portions of CORS could cease functioning, 
forcing NOAA to revert to less accurate and much more costly 
methods to define the National Spatial Reference System.
    LightSquared has stated its belief that filtering can 
mitigate interference for wideband GPS users. We are concerned 
that a filter capable of blocking out the powerful LightSquared 
signal at a lower channel may also block the GPS signal, 
rendering our equipment useless. This is something that must be 
tested and, in any event, would not be feasible to apply to 
satellites that are already in space.
    Mr. Chairman, we must protect existing GPS users from 
disruption of services on which they depend. At the same time 
we recognize the need to use spectrum more efficiently to 
improve broadband access. We recommend further testing of 
LightSquared's proposal to assess GPS interference in the lower 
10 megahertz and to establish whether there is any feasible 
mitigation strategies.
    We appreciate LightSquared's offer to not transmit in the 
upper 10 megahertz and strongly support efforts to identify 
alternative means of achieving the purpose of the signal that 
was planned there.
    Thank you for your attention, and I look forward to any 
questions.
    [The prepared statement of Ms. Glackin follows:]

               PRepared Statement of Ms. Mary M. Glackin,
                 Deputy Under Secretary for Operations,
            National Oceanic and Atmospheric Administration
    Mr. Chairman, Ranking Member Johnson, and Members of the Committee, 
thank you for the opportunity to speak today on the importance of the 
Global Positioning System (GPS) to the National Oceanic and Atmospheric 
Administration (NOAA) and the operational impacts we could face as a 
result of GPS interference from the proposed LightSquared 
communications network.
    My name is Mary Glackin, and I am the Deputy Under Secretary for 
Operations at NOAA.
    From daily weather forecasts, severe storm warnings, and climate 
monitoring to fisheries management, coastal restoration, and supporting 
marine commerce, NOAA's products and services support economic vitality 
and affect more than one-third of America's gross domestic product. GPS 
technology is a key enabler for all of these activities, integrated 
into our operational systems and functions across all of the line 
offices at NOAA.
    For this reason, NOAA has been very interested and involved in the 
recent activities surrounding LightSquared Subsidiary LLC and its 
conditional authorization to broadcast in the 1525-1559 MHz band next 
to the GPS signal. NOAA contributed GPS equipment and experts to both 
of the major interference testing efforts that took place this spring--
namely, the Technical Working Group led by LightSquared, and the 
government's National Space-Based Positioning, Navigation, and Timing 
Systems Engineering Forum.
    Those testing efforts focused primarily on the original 
LightSquared broadcasting plan involving two channels, referred to as 
the upper 10 MHz and lower 10 MHz channels. But both groups also 
performed initial testing of LightSquared's modified spectrum plan 
involving only the lower 10 MHz channel. My testimony today will 
address potential effects of both the original and modified 
LightSquared spectrum plans, based on our analysis of the empirical 
test data collected to date.

Potential NOAA Impacts of LightSquared's Original Spectrum Plan

    In response to tasking from the National Space-Based Positioning, 
Navigation, and Timing Executive Committee, we recently conducted an 
extensive review of GPS usage across NOAA, including the National 
Weather Service, the National Ocean Service, the Office of Oceanic and 
Atmospheric Research, the National Marine Fisheries Service, and the 
National Environmental Satellite, Data, and Information Service.
    Our review concluded that interference to GPS under LightSquared's 
original spectrum plan would cause serious performance degradation or a 
total loss of mission for a wide range of our operational systems, 
resulting in the loss of critical services and potential loss of life 
and property. These include major satellite, airborne, sea-based, and 
terrestrial systems used for weather forecasting, climate observation, 
search and rescue, vessel navigation, nautical charting, emergency 
response, and geodesy.
    Our entire fleet of meteorological satellites would be put at risk. 
All of the ground stations that control the current GOES (Geostationary 
Operational Environmental Satellite) and POES (Polar-orbiting 
Operational Environmental Satellite) spacecraft depend on GPS for 
accurate system timing. Without GPS, these ground systems would 
eventually fail to keep proper time, causing widespread errors that 
degrade the quality of satellite-based weather and climate 
measurements. The result would be less accurate warnings of tornadoes, 
hurricanes, and other severe weather directly affecting U.S. public 
safety, property, and businesses. Eventually, if the timing errors 
reach the order of a few microseconds, spacecraft could become unstable 
and we could completely lose the ability to command and control them.
    Likewise, NOAA's satellite-based search and rescue system, SARSAT, 
uses multiple GPS receivers at its ground stations to determine and 
maintain precise time. Since 1982, SARSAT has contributed to over 
28,000 worldwide rescues--including last year's rescue of Abby 
Sunderland, the 16-year-old who capsized in the Indian Ocean while 
sailing around the world. SARSAT ground stations use GPS time maintain 
the clocks on the satellite instruments that relay distress alerts. 
Without precise GPS time, the accuracy and timeliness of distress alert 
position calculations are significantly impacted. This leads to larger 
search areas, increased rescue personnel and fuel costs, longer 
response times, and ultimately, greater risk to rescuers and persons in 
distress.
    Our future satellites, including the NPOESS Preparatory Project 
(NPP) and GOES-R, will use on-board GPS receivers for timing and orbit 
determination. The testing to date has shown that LightSquared's 
original broadcast could cause interference to GPS equipment in low 
Earth orbit, where NPP will fly. Our own engineering analysis suggests 
that it could even affect GOES-R at geostationary orbit, since GPS 
reception is already weak at that long distance. NPP and GOES-R are 
essential to continuing our weather and climate observations; without 
reliable GPS, their data will become almost useless.
    Aside from our satellites, NOAA has deployed over 23,000 
environmental sensor platforms across the planet that depend critically 
on GPS for accurate georeferencing and time stamping of data. All of 
the sensor data must be tightly bound to the same geospatial and time 
scales, or it cannot be combined and ingested into our weather and 
climate models. The sensor platforms also require GPS time to 
synchronize their radio transmitters, so they can share limited radio 
spectrum as they relay data via the GOES and POES Data Collection 
Systems. Prolonged, continuous GPS interference at sensor platforms 
would cause their radios to start transmitting at the wrong times, and 
eventually cease operation. This would cause data corruption and gaps, 
degrading our modeling, forecasting, and disaster warning capabilities. 
Redesigning the radio system and redeploying it to over 23,000 remote 
locations would require new technology whose cost cannot be estimated 
at this time.
    Similarly, NOAA's network of NEXRAD weather radars and sea surface 
radar altimeters require GPS-based time synchronization to enable the 
sharing of radio frequencies among dozens of radars. The NEXRAD system 
is critical to issuing timely severe storm and flood warnings, and 
local weather forecasts. The oceanographic radar systems measure 
conditions at the ocean surface and ocean currents to improve weather 
and climate models, as well as models used to inform search and rescue 
operations at sea. NOAA used these radars to predict the growth of the 
Deepwater Horizon oil spill last year. Loss of GPS timing would require 
either greater use of spectrum, which is very unlikely, or loss of 
current NOAA capabilities.
    NOAA's radiosondes and dropsondes--instruments we attach to weather 
balloons and drop from aircraft into hurricanes--are entirely dependent 
on GPS for accurate position and velocity measurements. These 
measurements provide wind speed data used for aviation forecasts and as 
input to global numerical weather prediction models. Widespread 
interference to GPS would force us to re-engineer these critical 
systems using alternative methods. These methods would be less accurate 
and take many years to develop and implement. Meanwhile, we would be 
left with major data gaps for numerical weather prediction models, 
support to air traffic, and hurricane forecasts.
    NOAA's fleet of 19 ships employs a variety of GPS and differential 
GPS receivers for navigation and scientific use. These vessels support 
oceanographic, atmospheric, fisheries and coral reef research, nautical 
charting, environmental monitoring, and ocean exploration. In addition, 
NOAA has numerous fleets of smaller vessels used for research, 
education, damage assessment, law enforcement, environmental 
observation, and buoy maintenance. If GPS service becomes unavailable 
or unreliable along U.S. coasts and waterways, NOAA vessels will be 
unable to perform many operations and missions.
    I have described just a few of the myriad NOAA systems that depend 
on GPS and that would be impacted by GPS interference under 
LightSquared's original spectrum plan.

Potential NOAA Impacts from LightSquared's Modified Spectrum Plan

    LightSquared's proposed solution to the problem involves voluntary 
power limits and the postponement of one of its two planned broadcast 
channels--the upper 10 MHz bordering the GPS signal.
    Unfortunately, the existing data from the interference testing 
groups, including LightSquared's own report to the FCC, demonstrates 
that the new spectrum plan, involving the lower 10 MHz channel, still 
raises issues for high-precision GPS receivers that feature a wideband 
design. As I mentioned, NOAA participated in this testing. 
Specifically, we provided five different wideband receivers that are 
representative of the equipment in use at NOAA for high-precision 
positioning. During the tests, four out of the five models failed when 
subjected to only the lower 10 MHz LightSquared channel. Since many 
critical NOAA operations require high-precision, wideband GPS 
equipment, we support further testing of LightSquared's proposal and 
continued investigations into mitigation options for wideband 
applications.
    We have identified at least five major NOAA systems or functions 
that require wideband GPS equipment. These include:

    <bullet>  (1) the six-satellite COSMIC system that observes the 
Earth's atmosphere to improve global weather and climate models;

    <bullet>  (2) the monitoring of sea level trends to protect natural 
and human communities;

    <bullet>  (3) the Ground-Based GPS Meteorology (GPS-Met) project, 
which measures atmospheric moisture to improve short-term weather 
forecasts;

    <bullet>  (4) the issuance of the U.S. Total Electron Content (US-
TEC) product to inform surveyors and other customers about space 
weather conditions affecting GPS accuracy; and

    <bullet>  (5) the maintenance of the National Spatial Reference 
System to ensure compatibility among U.S. maps, surveys, and other 
geospatial products.

    Three of these five activities depend on NOAA's management of a 
nationwide network of Continuously Operating Reference Stations, or 
CORS, which collect and share precise data about GPS satellite orbits. 
CORS provides a consistent positioning technology, accurate to an inch, 
that is used by millions of people throughout the United States, from 
surveyors to farmers to the FAA. This network is critical to anchoring 
nautical charts, building roads and railways, surveying airports, and 
responding to natural disasters and other emergencies, such as 
Hurricane Katrina and the Deepwater Horizon oil spill. For example, it 
allows FEMA flood maps to be seamlessly overlaid with levee surveys 
from the Army Corps of Engineers.
    Unlike consumer GPS devices used for basic positioning, high-
precision GPS equipment costs thousands of dollars per unit, and the 
economic value it provides to society is similarly high. In the case of 
CORS alone, there are over 1,800 reference stations, many of which have 
multiple GPS receivers. This multimillion dollar investment has been 
made not only by NOAA, but over 190 stakeholder organizations, 
including states, local communities, universities and other federal 
agencies. They all have a shared interest in maintaining a common 
standard for geospatial positioning in the United States, so the 
construction and maintenance of roads, bridges, railways, inland 
waterways, and other projects that cross jurisdictional boundaries all 
use the same coordinate system.
    If testing confirms that high-precision GPS receivers are 
significantly degraded by LightSquared's lower channel, and a suitable 
mitigation is not developed, major portions of the CORS network could 
cease functioning. Depending on the geographic distribution of the 
remaining sites, the entire network could fail to serve its intended 
purpose, forcing NOAA to use less accurate, more labor-intensive, and 
more costly methods such as line-of-sight triangulation to define the 
National Spatial Reference System.
    For example, the cost to update the International Great Lakes 
Datum--a water level reference system of enormous economic importance 
to the United States and Canada for maritime navigation and shipping--
could increase from under $30 million using GPS to $160 million using 
older methods. In addition, the widespread socioeconomic benefits of 
CORS use, estimated at $758 million annually, could be lost due to 
interference at CORS sites. \1\
---------------------------------------------------------------------------
    \1\  Leveson, Irving. 2009. Socio-Economic Benefits Study: Scoping 
the Value of CORS and GRAV-D. NOAA's National Geodetic Survey, 
Washington, D.C.
---------------------------------------------------------------------------
    Similarly, we must find a way to preserve the high-precision GPS 
receivers used to measure sea level rise, which are subject to the same 
interference risk as the CORS equipment. Monitoring of ecological 
observations within an accurate and consistent geospatial framework 
requires high-precision GPS. Losing the availability or reliability of 
this technology would have a profound effect on our ability to monitor 
the impacts of sea level changes and inundation from storms and coastal 
flooding on coastal communities and ecosystems. This would undermine 
the ability of communities to identify their risk to sea level change 
and episodic storm events.
    Finally, we have concerns about the COSMIC satellite system that 
uses the ``GPS radio occultation'' technique to probe the Earth's 
atmosphere. We use COSMIC data operationally to significantly increase 
the accuracy of hurricane forecasts and other weather models. COSMIC 
flies in low Earth orbit and would have been impacted by LightSquared's 
original broadcast plan. The next round of testing needs to assess 
whether wideband receivers in low Earth orbit, including those on 
COSMIC, are affected by LightSquared's new plan involving only the 
lower channel with proposed maximum power levels. If they are affected, 
the mitigation options will be limited, as the COSMIC satellites are 
already in space and cannot be modified.For the wideband GPS receivers 
that are on the ground, LightSquared has stated its belief that new 
radio signal filtering techniques and/or exclusion zones can mitigate 
the interference concern for GPS users. Our engineers are concerned 
that a filter capable of blocking out the powerful LightSquared signal 
at the lower channel may also prevent the receiver from detecting the 
GPS signal, rendering it useless. This is something that must be 
investigated thoroughly in the next round of testing, so that NOAA does 
not lose important operational capabilities. If a filter-based solution 
is identified, it must preserve the receiver's high-precision 
functionality and it must not impose an unreasonable cost burden on 
NOAA and its partners. Establishing exclusion zones to keep 
LightSquared base stations away from major GPS users such as CORS sites 
may be more feasible, although this creates its own set of problems.

Conclusion

    Mr. Chairman, the Administration believes that we must protect 
existing GPS users from disruption of the services they depend on today 
and ensure that innovative new GPS applications can be developed in the 
future. At the same time, recognizing the President's instruction to 
identify 500 MHz of new spectrum for innovative new mobile broadband 
services, we will continue our efforts at more efficient use of 
spectrum. Therefore, in the short run, we recommend further testing in 
order to assess the GPS interference concerns in the lower 10 MHz of 
the band and to establish whether there are any feasible mitigation 
strategies. We also encourage commercial entities with interests to 
work with LightSquared toward a possible resolution, though any 
proposed mitigation must be subjected to full testing. The 
Administration appreciates LightSquared's offer to not transmit in the 
upper 10 MHz of its band, right next to GPS, and strongly supports 
efforts to identify alternative means of achieving the intended purpose 
of the signal that was planned there. The challenge of meeting the 
President's goal also depends on long-term actions by federal agencies 
in the area of research and development, procurement practices that 
encourage spectrally efficient applications, and new policy 
development.
    NOAA has communicated our concerns to the National 
Telecommunications and Information Administration (NTIA), the agency 
that is responsible for managing federal agencies' use of spectrum, and 
with which the FCC has stated it will consult in determining whether 
the interference concerns raised by this matter have been resolved.
    NTIA, on behalf of impacted federal agencies, has previously 
informed the FCC, on two occasions, that the LightSquared proposal 
``raises significant interference concerns'' with respect to GPS and 
GNSS receivers and has urged the FCC to ensure these concerns are 
resolved before permitting LightSquared to become operational. \2\
---------------------------------------------------------------------------
    \2\  Letter from Lawrence E. Strickling, Assistant Secretary for 
Communications and Information, U.S. Department of Commerce, to Julius 
Genachowski, Chairman, Federal Communications Commission, (January 12, 
2011). See also, Letter from Lawrence E. Strickling, Assistant 
Secretary for Communications and Information, U.S. Department of 
Commerce, to Julius Genachowski, Chairman, Federal Communications 
Commission, (July 6, 2011).
---------------------------------------------------------------------------
    This concludes my prepared statement. I thank you for your 
attention and look forward to your questions.
    Chairman Hall. And thank you for staying within the five 
minutes.
    Mr. Sparrow, you may proceed, sir.

                STATEMENT OF MR. VICTOR SPARROW,

                   DIRECTOR, SPECTRUM POLICY,

              SPACE COMMUNICATIONS AND NAVIGATION,

             SPACE OPERATIONS MISSION DIRECTORATE,

         NATIONAL AERONAUTICS AND SPACE ADMINISTRATION

    Mr. Sparrow. Okay. Good morning Chairman Hall, Ranking 
Member Johnson, and distinguished Members of the Committee. 
Thank you for inviting NASA to testify on the potential impacts 
of the proposed LightSquared Network on NASA's scientific and 
exploration activities. My name is Victor Sparrow, and as you 
have mentioned, I am the Director of Spectrum Policy and 
Planning for NASA.
    My testimony today will focus on some of NASA's GPS-
dependent applications and their vulnerability to interference 
from the proposed network. I have gone into more detail in my 
written testimony and would be pleased to provide more 
information on any of these applications if needed.
    NASA relies on GPS technology and capabilities to monitor 
and improve our scientific understanding of the Earth, 
including climate studies and solid earth hazards, such as 
earthquakes and volcanic activity. This knowledge of our 
dynamic environment enhances resource management and 
protection, as well as environmental impact mitigation efforts.
    NASA also uses GPS data for ground-truth calibration, often 
supported by field measurements. Precise knowledge of their 
location is critical to enable accurate calibration of 
instruments aboard many of NASA's orbiting earth science 
spacecraft.
    NASA also collects data used in Unmanned Aerial Vehicles 
and crewed aircraft. For example, NASA recently flew 
sophisticated radar to study the oil disaster in the Gulf of 
Mexico and the impact of the Mississippi River floods on levees 
and farmlands. These UAVs and other aircraft conducting 
airborne science flights rely heavily on GPS data for accurate 
navigation and critical science measurements.
    Spacecraft also use GPS for highly precise navigation. This 
may involve obtaining signals from very low angles, including 
those from just over the horizon. Based on testing and 
analysis, NASA is concerned that powerful signals from a 
ground-based terrestrial network may cause disruption of these 
signals, degrading the precision of the spacecraft's 
orientation.
    The worldwide search and rescue community uses the proposed 
band for downlink messages. There is a new system, the Distress 
Alerting Satellite System, developed by NASA's Goddard Space 
Flight Center, which is intended to integrate future GPS 
satellites to replace the existing search and rescue system 
that will be decommissioned in 2016.
    As far as testing is concerned, NASA has participated in 
several efforts to analyze the potential impacts from the 
proposed network. NASA was part of the industry-led TWG and led 
the work of the Space-Based subgroup. NASA also participated in 
the High Precision Receiver sub-group.
    NASA is also a member of the federal agency National Space-
Based Positioning, Navigation, and Timing or PNT Systems 
Engineering Forum or NPEF, conducting tests and analysis work 
to interference to GPS receivers.
    Finally, NASA was involved in the test and analysis efforts 
conducted by RTCA, an advisory board to the FAA.
    Results of the TWG and NPEF test and analysis efforts 
indicate that significant and harmful interference would occur 
to terrestrial and space-based GPS receivers from the proposed 
network. NASA's test results firmly support the conclusion at 
this point that deployment of the LightSquared network would 
jeopardize NASA's low-earth orbit and terrestrial-based science 
missions that are dependent and reliable on GPS reception. 
Similarly, analysis conducted on aviation-based scenarios in 
the RTCA efforts demonstrated that the deployment and operation 
of the propose network would not be compatible with aviation 
GPS operations. The significant disruption of GPS-based 
aviation systems would adversely impact NASA's aviation 
research missions.
    The Technical Working Group considered several mitigation 
options, none which of yet have been demonstrated to be 
effective in mitigating potential interference to GPS.
    In conclusion, Mr. Chairman, NASA has participated in 
federal agency and industry-led test and analysis efforts 
related to the deployment of the LightSquared Network and its 
potential impact to GPS. At this time it is clear to NASA that 
the FCC-imposed condition requiring resolution of GPS 
interference issues prior to commencing commercial operations 
has not been satisfied, including LightSquared's modified plan 
of June 30. Impacts to NASA's GPS-dependent systems from 
interference created by the network would be substantial. It is 
important to reiterate that NASA fully supports the Nation's 
efforts to increase broadband wireless access, but such efforts 
should be compatible with our critical GPS assets. The critical 
science and engineering applications that GPS makes possible, 
benefiting Americans in many ways, should not be jeopardized.
    I would like to thank the Committee for its continued 
support of NASA and its programs, and I look forward to 
answering your questions you may have. Thank you.
    [The prepared statement of Mr. Sparrow follows:]

              Prepared Statement of Mr. Victor D. Sparrow,
            Director, Spectrum Policy and Planning Division,
         Human Exploration and Operations Mission Directorate,
             National Aeronautics and Space Administration
    Good morning Chairman Hall, Ranking Member Johnson, and Members of 
the Committee. Thank you for inviting the National Aeronautics and 
Space Administration (NASA) to testify today on this very important 
issue concerning the potential impacts of the proposed LightSquared 
network on NASA's activities. My name is Victor Sparrow, and I am 
Director of the Spectrum Policy and Planning Division at NASA.
    NASA recognizes the importance of maximizing the utility of the 
radio spectrum, and fully supports the President's Wireless Innovation 
Initiative and the Executive Memo setting a goal of 500 MHz for mobile 
broadband to achieve this end. This effort is needed to enable the 
continued growth of, and innovation in, wireless broadband capabilities 
and services. It is important to ensure, though, that projects being 
undertaken to pursue this initiative are compatible with the many 
Global-Positioning-System-dependent (GPS-dependent) systems that are 
also critical to the Nation. The capabilities, benefits, and innovation 
of the GPS utility should not be degraded or disrupted in the pursuit 
of increased wireless broadband access.
    My testimony today will focus on some of NASA's GPS-dependent 
applications, and their significant vulnerability to interference from 
the network proposed by LightSquared and under consideration by the 
Federal Communications Commission (FCC). Impacted systems would include 
ground-based, airborne, and space-based receivers used to support 
activities such as: Earth Science research, weather forecasting, 
disaster monitoring, ground-truth calibration of instruments on orbit, 
precision navigation for aircraft and spacecraft, and search and rescue 
efforts. Research into the development of future aeronautical 
applications might be affected, as well. The Administration believes 
that we must protect existing GPS users from disruption of the services 
they depend on today and ensure that innovative new GPS applications 
can be developed in the future. At the same time, recognizing the 
President's instruction to identify 500 MHz of new spectrum for 
innovative new mobile broadband services, we will continue our efforts 
at more efficient use of spectrum. Therefore, in the short run, we 
recommend further testing in order to assess the GPS interference 
concerns in the lower 10 MHz of the band and to establish whether there 
are any feasible mitigation strategies. We also encourage commercial 
entities with interests to work with LightSquared toward a possible 
resolution, though any proposed mitigation must be subjected to full 
testing. The Administration appreciates LightSquared's offer to not 
transmit in the upper 10 MHz of its band, right next to GPS, and 
strongly supports efforts to identify alternative means of achieving 
the intended purpose of the signal that was planned there. The 
challenge of meeting the President's goal also depends on long-term 
actions by Federal agencies in the area of research and development, 
procurement practices that encourage spectrally-efficient applications, 
and new policy development.

NASA Science-Related Uses of GPS Technology

    In addition to depending upon GPS to provide robust navigation 
services, NASA relies on GPS technology and capabilities to monitor and 
improve our understanding of Earth science, including climate change 
and solid Earth hazards, such as earthquakes and volcanic activity. 
This knowledge of our dynamic environment enhances resource management 
and protection, and environmental impact mitigation efforts. Some 
examples of the use of GPS-dependent space-based applications to 
improve our knowledge of the Earth include: determining the 
atmosphere's water content; improving the accuracy of weather 
forecasts; and enabling (as part of a multi-instrument suite) ocean 
topography measurements to determine currents and long-term changes in 
sea height. Ground-based GPS networks are also playing an increasingly 
prominent role in monitoring ground movement in order to identify 
potential conditions that may precede earthquakes and volcanic 
activity.
    NASA also uses GPS data for ground-truth calibration measurements, 
often supported by field measurements. Precise knowledge of the 
location of these measurements is critical to enabling accurate 
calibration of instruments aboard orbiting spacecraft. This important 
procedure is completely dependent on the availability of the in situ 
GPS location data. Without ground-truth measurements, the resulting 
observations from spacecraft instruments, and interpretations of the 
data they collect, would be suspect. This application of the GPS system 
impacts many Earth Science missions.
    In addition to data collected from satellites or in situ 
measurements on the ground, data are also collected using Unmanned 
Aerial Vehicles (UAVs) and crewed aircraft. For example, NASA's highly 
successful UAV Synthetic Aperture Radar project recently flew a 
sophisticated radar to study the Gulf of Mexico oil disaster and the 
impact of the Mississippi River floods on levees and farmland. These 
UAVs and other aircraft use GPS for navigation. Airborne science 
flights carrying lidars or altimeters rely on GPS data for all the 
science measurements they obtained.
    Spacecraft also use GPS for highly precise navigation, using as 
many GPS satellites' signals as their receivers are able to acquire at 
one time. This may involve obtaining signals from very low angles, 
including those from just over the receiving spacecraft's ``horizon.'' 
Based on testing and analysis of receivers used for a similar low look 
angle scenario (``radio occultation'' measurements), NASA is concerned 
that powerful signals from a ground-based terrestrial network may cause 
disruption of those signals, degrading the precision of the 
spacecraft's orientation.
    NASA uses GPS for weather sensing applications with a technique 
known as GPS radio occultation. This relies on the bending of GPS radio 
signals by the atmosphere as they travel from the GPS satellites in 
medium Earth orbit to a spacecraft in low Earth orbit (LEO). 
Specifically, this technique is used to estimate the temperature and 
water vapor content of the atmosphere by evaluating the minute changes 
in the GPS signal. These measurements define a vertical profile within 
the atmosphere. This technique, developed by NASA, is now being used 
operationally by the National Oceanic and Atmospheric Administration 
(NOAA) to improve its long-range weather forecasts.

NASA Support for GPS-Based Search and Rescue (SAR) Efforts

    The worldwide Search and Rescue (SAR) community uses the 1544 MHz 
band for downlink messages. The effects of the LightSquared network on 
the global SAR capability have not yet been determined. It is critical 
to test the compatibility of these systems before a final regulatory 
decision is made which might affect future federal and international 
infrastructure plans. NASA is supporting the integration of a next-
generation SAR capability onto the GPS satellites. The new system, the 
Distress Alerting Satellite System (DASS), is intended to succeed the 
existing COSPAS-SARSAT \1\ system as it is decommissioned around 2016. 
DASS is expected to significantly enhance current SAR operations by 
providing near-instantaneous detection and location of emergency 
beacons (NASA's Goddard Space Flight Center currently hosts a prototype 
ground station for such applications).
---------------------------------------------------------------------------
    \1\  COSPAS-SARSAT is the international satellite search-and-rescue 
network. COSPAS is an acronym for the Russian words 11Cosmicheskaya 
Sistyema Poiska Avariynich Sudov'' (``Space System for the Search of 
Vessels in Distress''), and SARSAT for ``Search And Rescue Satellite 
Aided Tracking.''

---------------------------------------------------------------------------
NASA Aeronautical Research and GPS

    NASA's aeronautics research supports the development of the FAA's 
NextGen air traffic system. NASA's work in this area may or may not be 
impacted, depending on the resolution of the GPS signals interference 
issue. If the spectrum is not protected for aviation uses, certain GPS-
enabled capabilities would not be possible. These include advanced 
Flight Management Systems which would allow for precision positioning 
and navigation (e.g., area navigation and required navigation 
performance). Substantial operational efficiencies would be lost (such 
as improvements enabled by Automatic Dependent Surveillance-Broadcast, 
or ADS-B technologies), and the benefits of NASA's aeronautics research 
into NextGen applications that assume GPS-enabled precision would not 
be realized.

Test and Analysis of LightSquared's Impacts

    NASA has participated in several efforts to analyze the potential 
impacts of the LightSquared proposal. The Agency was part of the 
industry-led Technical Working Group (TWG), which analyzed and tested 
GPS receiver performance in the presence of interfering signals 
representing LightSquared terrestrial broadcasts. Specifically, NASA 
led the work of the Space-Based Receiver (SBR) subgroup of the TWG, and 
participated in the work of the High Precision Receiver (HPR) subgroup.
    NASA is also a member of the National Space-based Positioning, 
Navigation, and Timing (PNT) Systems Engineering Forum (NPEF), a 
federal agency group that performed test and analysis work related to 
interference to GPS receivers.
    Finally, NASA was involved in the test and analysis effort 
conducted by the RTCA (formerly the Radio Technical Commission for 
Aeronautics), an advisory body to the Federal Aviation Administration. 
The FAA chartered an RTCA committee to investigate the impact to 
aviation and NextGen of the LightSquared implementation plan. This team 
concluded that all three phases of the currently proposed LightSquared 
deployment plan are incompatible with aviation GPS operations. RTCA 
concluded that use of the upper 10 MHz band segment should not be 
allowed from an aviation perspective and that use of the Lower 10 MHz 
channel as a possible mitigation technique would require additional 
study.
    Results of the TWG and NPEF test and analysis efforts indicate 
significant and harmful interference to terrestrial and space-based GPS 
receivers from the LightSquared network, were it to be deployed as 
originally intended. NASA's test results support the conclusion at this 
point that if the LightSquared network were to be deployed as 
originally intended, NASA's LEO and terrestrial-based science missions 
that are dependent on reliable GPS reception would be jeopardized. 
Similarly, analysis conducted on aviation-based scenarios in the RTCA 
effort showed significant disruption of GPS-based aviation systems, 
thereby impacting NASA aviation research missions.

Mitigation Options

    Mitigation options for preventing the disruption of GPS by the 
deployment and operation of the LightSquared network, including a 
proposal to only use the lower 10 Megahertz (MHz) channel of the 
planned two-channel deployment, were identified in the TWG and NPEF 
Reports. However, none of these options have yet been demonstrated to 
be effective in mitigating potential interference to GPS. Although 
limited testing was conducted by the TWG on the susceptibility of some 
GPS devices to the use of only the lower 10 MHz LightSquared channel, 
limitations-- such as filters that have yet to be designed or are 
theoretical or speculative in nature--prevented adequate testing of 
this mitigation approach. NASA believes it would be premature to allow 
the use of only the lower 10 MHz channel as a solution, until testing 
has been completed and it is established that there is no negative 
impact on GPS users.

Conclusion

    Mr. Chairman, NASA has participated in the federal agency and 
industry-led test and analysis efforts related to deployment of the 
LightSquared network and its potential impacts to GPS. At the 
conclusion of these efforts, it is clear to NASA that the FCC-imposed 
condition requiring resolution of GPS interference issues prior to 
commencing commercial operations has not been satisfied, including by 
LightSquared's modified plan of June 30, 2011. Impacts to NASA's GPS-
dependent systems from interference created by the network would be 
substantial, impacting airborne and spaceborne science, as well as 
certain space operations. It is important to reiterate that NASA fully 
supports the Nation's efforts to increase wireless access, but those 
efforts should be implemented in such a way that our critical GPS 
assets, and the many worthwhile, innovative science and engineering 
applications they make possible, are not jeopardized.
    I would like to thank this Committee for its continuing support of 
NASA and its programs. I would be pleased to respond to any questions 
you may have at this time.

    Chairman Hall. Thank you, Mr. Sparrow.
    The Chair now recognizes Mr. Appel.

               STATEMENT OF HON. PETER H. APPEL,

                  ADMINISTRATOR, RESEARCH AND

             INNOVATIVE TECHNOLOGY ADMINISTRATION,

                  DEPARTMENT OF TRANSPORTATION

    Mr. Appel. Chairman Hall, Ranking Member Johnson, and 
distinguished Members of the Committee, thank you for the 
opportunity to appear before you today.
    The Global Positioning System is vital to multimodal 
transportation safety and efficiency now and in the future. The 
Next Generation Air Transportation System or NextGen will use 
GPS to shorten routes, save time and fuel, reduce traffic 
delays, increase capacity, and permit controllers to monitor 
and manage aircraft with greater safety margins. Positive Train 
Control will increasingly depend on GPS to prevent train 
collisions and derailments and accidents caused by railroad 
switches left in an incorrect position.
    The Intelligent Transportation System Program for surface 
transportation relies on GPS for vehicle collision-warning and 
crash-avoidance systems.
    To provide the accuracy necessary for precision navigation, 
GPS receivers are designed with a wide front end so precision 
receivers also pick up signals from the adjacent Mobile 
Satellite Service band, the MSS band.
    Until the recent FCC action on LightSquared, this did not 
create a potential conflict. The GPS and MSS bands were both 
designed to be ``quiet,'' limited to weak satellite signals. 
GPS receivers easily filtered out the MSS signals.
    The Department of Transportation assessed the impact of 
test results from LightSquared's original operating plan and 
concluded that the planned use of GPS for NextGen, Positive 
Train Control, and Intelligent Transportation System research 
and applications would not be feasible under this scenario.
    Based on the test results of using both the upper and lower 
portion of the LightSquared band, aviation use of GPS would be 
significantly compromised due to the aggregate effect of 40,000 
LightSquared transmitters. This would impact GPS receivers 
onboard over 60,000 aircraft, resulting in substantial retrofit 
costs and delay. Safety benefits of using GPS for approach and 
landing in all weather conditions and addressing controlled 
flight into terrain and runway incursions would not be fully 
realized.
    As a mitigation technique, there would be heavy reliance on 
aging legacy ground-based systems which do not meet the 
performance requirements for NextGen. The aviation industry 
also could have a demand for a non-U.S. satellite navigation 
system, such as Russia's GLONASS system, which operates farther 
away in frequency from LightSquared than does GPS.
    For Positive Train Control, GPS is the least costly method 
for transmitting location information. If GPS were deemed 
unreliable, most railroads would have to switch to transponder-
based technology identifying alternative approaches, would 
significantly delay PCT implementation and increase costs.
    The Intelligent Transportation Systems Program and their 
industry partners have invested many years and millions of 
dollars in safety-based research that leverages GPS to make 
significant improvements in surface transportation crash 
avoidance. A degradation or loss of GPS will affect the 
operation of connected vehicle safety applications that will 
assist drivers in preventing crashes.
    Recently, LightSquared proposed to initially broadcast only 
on the lower 10 megahertz portion of the band in an attempt to 
avoid many of the interference issues. It is important to 
realize that any future use of the upper portion of the band 
would introduce all of the impacts uncovered by the test 
results previously discussed. Any future examinations of 
LightSquared should be made under the paradigm that only the 
lower 10 megahertz portion of the band will be utilized.
    While this scenario may lessen the impacts on aviation and 
other modes of transportation, it is important that the new 
scenario be thoroughly analyzed and tested. High-precision GPS 
receivers used for airfield and flight procedure surveys, 
flight test tracking, space weather monitoring, and timing 
applications might be impacted.
    The DOT would like to work towards a win-win, if one 
exists, that allows for increased broadband access without 
disrupting existing and planned GPS-based services. The DOT is 
also responsible for representing the Space-Based Positioning, 
Navigation, and Timing or PNT interested partner civilian 
federal agencies, as well as our own. Applications which may 
require access to both GPS and MSS signals such as precision 
agriculture and many scientific and surveying systems may be 
most difficult to resolve.
    We are concerned that if terrestrial broadband 
transmissions are allowed anywhere in the MSS band, they may 
disrupt existing high-precision GPS uses. The Department of 
Transportation has communicated its concerns to the National 
Telecommunications and Information Administration, NTIA, which 
has expressed concerns to the FCC and has urged that they be 
resolved before permitting LightSquared to operate.
    Going forward, the Transportation Deputy Secretary, John 
Porcari, has committed the Department to working with NTIA and 
the other federal agencies to ensure that we will have a plan 
in place such that the GPS systems in development now will not 
be compromised by interference in the years to come.
    Thank you very much, and I look forward to answering your 
questions.
    [The prepared statement of Mr. Appel follows:]

               Prepared Statement of Hon. Peter H. Appel,
                      Administrator, Research and
                 Innovative Technology Administration,
                   U.S. Department of Transportation
    Chairman Hall, Ranking Member Johnson, and Members of the 
Committee:
    Thank you for the opportunity to appear before you today to discuss 
such an important topic.
    The Global Positioning System (GPS) is one of the greatest success 
stories of government and private sector innovation. Today, the use of 
GPS is ubiquitous. No one knows exactly how many commercial uses are 
built around GPS. Worldwide sales of GPS navigation devices exceed $20 
billion, annually, and an estimated $3 trillion worth of commerce 
relies on GPS for tracking, timing and navigation.
    The United States clearly is the leader in space-based positioning, 
navigation, and timing (PNT) and we must continue to maintain and 
improve GPS, its augmentations, and backup capabilities.
    GPS is vital to multimodal applications of transportation safety 
and efficiency. The Next Generation Air Transportation System (NextGen) 
will transform America's air traffic control system from an aging 
ground-based system of today to a satellite-based system of the future. 
NextGen GPS technology will be used to shorten routes, save time and 
fuel, reduce traffic delays, increase capacity, and permit controllers 
to monitor and manage aircraft with greater safety margins. Positive 
Train Control (PTC) will increasingly depend on GPS to prevent train-
to-train collisions, train derailments, and accidents caused by 
railroad switches left in an incorrect position.
    The Intelligent Transportation System (ITS) program will rely on 
GPS as a key technology for vehicle collision-warning and crash-
avoidance systems. GPS-based location is also a crucial element of the 
Next Generation-911 public safety response systems currently in 
development.
    Per U.S. National Space-based PNT policy, the Department of 
Transportation also is responsible for representing the space-based PNT 
interests of partner civilian federal agencies, as well as our own. 
These applications include millions of GPS receivers used for precision 
agriculture and scientific and surveying systems such as those that 
NASA, NOAA, Department of the Interior, and others rely on.
    To provide the accuracy necessary for precision navigation, GPS 
receivers have been designed with a ``wide front end'' that pick up 
signals greater than the band authorized for GPS. In order to pick up 
this wide range of signals, precision receivers also pick up signals 
from the adjacent band, reserved for Mobile Satellite Service (MSS).
    Until recently, this did not create a conflict. The GPS and MSS 
bands were both designed to be ``quiet,'' limited to weak satellite 
signals, a tiny fraction of a watt when they reached the Earth. GPS 
receivers easily filtered out the MSS signals.
    In January 2011, the Federal Communications Commission (FCC) 
approved the application of LightSquared to broadcast broadband signals 
in the MSS band, contingent on LightSquared resolving potential 
interference to GPS. The LightSquared-led Technical Working Group (TWG) 
performed measurements and submitted its results and findings to the 
FCC on June 30th.
    Technical staff from the Federal Aviation Administration (FAA) 
participated in the TWG testing. In addition, the FAA commissioned 
RTCA, Inc. to study the impact of LightSquared's proposed operations on 
aviation. The Department of Transportation also participated in a joint 
federal study--the National Space-Based PNT Engineering Forum (NPEF)--
to assess the impact on a broad range of common government and 
commercial GPS receivers.
    The tests, based on the original operating plan that LightSquared 
had submitted to the FCC, focused on ``overload interference''--
interference with the GPS receivers that ``listened in'' to the 
adjacent MSS band. The powerful broadband signal overwhelmed filters 
and effectively blocked GPS signals in almost all of the devices 
tested.
    The Department of Transportation assessed the impact of these test 
results from LightSquared's original operating plan and concluded that 
the planned use of GPS for NextGen, Positive Train Control, and 
Intelligent Transportation System research and applications would not 
be feasible under this scenario.
    Based on the test results of using both the upper and lower portion 
of the LightSquared band-- the original LightSquared operating plan--
aviation use of GPS would be significantly compromised due to the 
aggregate effect of 40,000 high-power LightSquared transmitters. This 
would impact GPS receivers onboard over 60,000 aircraft, resulting in 
substantial retrofit costs. Benefits of providing more direct routes 
and improving capacity, as well as safety benefits of using GPS for 
approach and landing in all weather conditions, and addressing 
controlled flight into terrain and runway incursions, would not be 
fully realized.
    As a mitigation technique, there would be heavy reliance on aging 
legacy ground-based systems which do not meet the performance 
requirements for NextGen. The aviation industry also could have a 
demand for a non-U.S. satellite navigation system, such as Russia's 
GLONASS system, which operates farther away in frequency from 
LightSquared than does GPS.
    The FAA has initiated an Alternative Positioning, Navigation, and 
Timing (APNT) research program to identify technologies that meet the 
requirements of NextGen in the event that GPS is disrupted.
    Other transportation applications that rely on GPS also would be 
affected. For Positive Train Control, use of GPS is the least costly 
method for transmitting location information. If GPS were deemed to be 
unreliable, most railroads would have to switch to the transponder-
based technology such as that used for the Advanced Civil Speed 
Enforcement System (ACSES) currently in place on the Northeast 
Corridor.
    A need to identify alternate and complementary sources for 
positioning, navigation, and timing would result in significant 
increases in PTC implementation time and costs.
    The Intelligent Transportation Systems Joint Program Office and 
their industry partners have invested many years and millions of 
dollars in safety-based research that leverages GPS to make significant 
improvements in surface transportation crash avoidance. A degradation 
or loss of GPS will affect the operation of Vehicle-to-Vehicle and 
Vehicle-to-Infrastructure applications that provide the location and 
speed of other vehicles assisting drivers in preventing crashes, 
thereby reducing the substantial number of fatalities and injuries that 
occur each year.
    On June 30th, LightSquared submitted a Recommendation Paper to the 
FCC proposing to initially broadcast only on the lower 10 MHz portion 
of the band in an attempt to avoid many of the interference issues. 
LightSquared plans to ``standstill'' on use of the upper portion of the 
band. It is important to realize that any future use of the upper 
portion of the band would introduce all of the impacts uncovered by the 
test results previously discussed. As a result, any future examinations 
of LightSquared should be made under the paradigm that only the lower 
10 MHz portion of the band would ever be utilized for the proposed 
high-power terrestrial transmitters.
    While this scenario may lessen the impacts on aviation and other 
modes of transportation, it is important that the new scenario--at 
which LightSquared only operates at the lower 10 MHz portion of its 
spectrum--be thoroughly analyzed and tested to determine any impact to 
GPS performance.
    The FAA is concerned that high-precision GPS receivers used for 
airfield and flight procedure surveys, flight test tracking, space 
weather monitoring, and timing applications might be impacted. Also, 
applications which require access to both GPS and MSS signals such as 
precision agriculture may be the most difficult to resolve.
    The Department of Transportation would like to work towards a 
``win-win''--if one exists-- that allows for increased broadband 
access, without disrupting existing and planned GPS-based services, 
such as NextGen.
    However, we are concerned that if terrestrial broadband 
transmissions are allowed anywhere in the MSS-band, they will disrupt 
existing GPS uses including precision agriculture and many scientific 
and surveying systems such as those that NASA, NOAA, Department of the 
Interior, and others rely on.
    The Department of Transportation has communicated its concerns to 
the National Telecommunications and Information Administration (NTIA), 
the agency that is responsible for managing federal agencies' use of 
spectrum, and with which the FCC has stated it will consult in 
determining whether the interference concerns raised by this matter 
have been resolved. NTIA has advised the FCC that the LightSquared 
proposal ``raises significant interference concerns'' and has urged the 
FCC to ensure these concerns are resolved before permitting 
LightSquared to become operational. \1\
---------------------------------------------------------------------------
    \1\  Letter from Lawrence E. Strickling, Assistant Secretary for 
Communications and Information, U.S. Department of Commerce, to Julius 
Genachowski, Chairman, Federal Communications Commission, (January 12, 
2011). See also, Letter from Lawrence E. Strickling, Assistant 
Secretary for Communications and Information, U.S. Department of 
Commerce, to Julius Genachowski, Chairman, Federal Communications 
Commission, (July 6, 2011).
---------------------------------------------------------------------------
    The Department of Transportation will look for solutions to the 
challenges of our partner agencies, as well as our own, in interagency 
discussions. Going forward, Deputy Secretary John Porcari has committed 
the Department to work with NTIA and the other federal agencies to 
ensure that we have a plan in place such that the GPS systems in 
development now will not be compromised by interference in the years to 
come.
    The Administration believes that we must protect existing GPS users 
from disruption of the services they depend on today and ensure that 
innovative new GPS applications can be developed in the future. At the 
same time, recognizing the President's instruction to identify 500 MHz 
of new spectrum for innovative new mobile broadband services, we will 
continue our efforts at more efficient use of spectrum.
    Therefore, in the short run, we will participate in any further 
testing or analysis required to establish whether there are any 
mitigation strategies that can enable LightSquared operation in the 
lower 10 MHz of the band. We also encourage commercial entities with 
interests to work with Lightsquared toward a possible resolution, 
though any proposed mitigation must be subjected to full testing. The 
challenge of meeting the President's goal also depends on long-term 
actions by federal agencies in the area of research and development, 
procurement practices that encourage spectrally efficient applications, 
and new policy development.
    Thank you and I look forward to answering your questions.

    Chairman Hall. I thank you very much, and our next--who is 
next up? Dr. Applegate for five minutes. Thank you, sir.
    Mr. Applegate. Thank you.

               STATEMENT OF DR. DAVID APPLEGATE,

              ASSOCIATE DIRECTOR, NATURAL HAZARDS,

            U.S. GEOLOGICAL SURVEY, U.S. DEPARTMENT

                        OF THE INTERIOR

    Dr. Applegate. Well, Chairman Hall, Ranking Member Johnson, 
and Members of the Committee, I want to thank you for the 
invitation to testify at this hearing. I am the Associate 
Director for Natural Hazards at the U.S. Geological Survey, and 
we are the science agency for the Department of the Interior.
    The Department has significant concerns about the proposed 
LightSquared system, which could have negative impacts on the 
reception of Global Positioning System signals. The USGS and 
our colleagues across Interior make extensive use of GPS 
technology. Testing performed this year on LightSquared's 
original deployment plan has failed to demonstrate the 
satisfactory effectiveness of mitigation techniques. Proposed 
alternatives, meanwhile, require further testing to be fairly 
judged. The Department feels that the proposal should not be 
approved at this time.
    The USGS and our sister bureaus at Interior face a wide 
range of potential impacts from GPS interference. Many Interior 
bureaus have law enforcement and public safety missions, for 
example, Interior Department police officers and fire crews use 
GPS for navigation in both remote back country and urban 
settings.
    At the USGS GPS is an essential tool for many of our 
mission responsibilities, including streamgaging, mapping and 
surveying, and in my area of responsibility, natural hazards 
monitoring and research.
    Streamgages and water quality monitors operated by the USGS 
and our partners provide data used to manage water resources, 
to forecast floods and droughts, and for many other purposes. 
GPS signals are used to calibrate these streamgages. In 
addition, modern streamgages have radios that use the GPS 
timing signal to make near real-time transmission of data 
possible. There are about 9,000 of these radios in use, and 
without them the quality of data from the streamgages would be 
diminished. Losing those capabilities would reduce the accuracy 
of National Weather Service flood forecasts and would likely 
diminish the ability of the Army Corps of Engineers to minimize 
flood damage.
    With respect to our mapping mission, nearly all of the 
mapping data collected today involves the use of GPS. All 
modern airborne or satellite-based systems are dependent on GPS 
for navigation, position, and geolocation of the data. LiDAR 
technology can determine elevation to within centimeters but 
requires equally precise GPS positioning data to validate it.
    Nowhere is our stake in this issue more significant than in 
our natural hazards mission. Under the Stafford Act, the USGS 
issues warnings and forecasts for earthquakes, volcanoes, and 
landslides, and we support other agencies, especially NOAA, for 
a host of other threats. All of these responsibilities depend 
on reliable, redundant monitoring infrastructures.
    For rapid reporting of earthquakes and their impacts, the 
USGS relies on our Advanced National Seismic System here in the 
U.S. and the Global Seismographic Network worldwide, which we 
maintain in cooperation with the National Science Foundation 
and the IRIS Consortium. The 2,500 seismic sensors in these 
networks use GPS for precise timing, and a small change in the 
timing signal, even just a few stations, can degrade the 
accuracy of our response products.
    Our ability to monitor deformation of the earth's crust 
requires the most precise, accurate, and reliable GPS signals. 
With our university cooperators, along with the National 
Science Foundation and the UNAVCO Consortium, we maintain and 
use over 1,000 permanent continuously operated GPS stations to 
monitor ground deformations along faults like the San Andreas. 
Dense networks of these high-data rate, high-precision GPS 
stations are particularly important for earthquake monitoring 
in at-risk urban areas in Southern California, the San 
Francisco Bay Area, and the Pacific Northwest.
    Our network of volcano observatories relies on real-time 
data from 220 continuously reporting GPS stations in order to 
forecast and detect eruptions for volcanically active areas 
across the Western U.S. These GPS instruments provide unique 
information, which are not often available from other 
monitoring methods and almost never with the near real time 
availability provided by GPS. Losing our GPS monitoring 
capabilities would result in a severely decreased ability to 
provide early as possible warning of volcanic unrest. This 
would be a significant public safety concern for communities 
near volcanoes, such as those in the Pacific Northwest and 
Alaska. It is also a concern for air traffic to the hazard of 
volcanic ash.
    GPS has become so pervasive that it risks being taken for 
granted. Many of these applications are critical, even 
fundamental, to the missions of the USGS and the Department of 
the Interior. The Department is committed to the development of 
solutions that ensure no loss of critical national security 
capabilities, including GPS. We look forward to working with 
our federal partners as well as Congress to address long-term 
solutions regarding a balance between federal spectrum 
requirements and the expanding demand for mobile broadband 
services.
    Thank you again for your attention to this important 
matter, and I would be happy to answer your questions.
    [The prepared statement of Dr. Applegate follows:]

               Prepared Statement of Dr. David Applegate,
                Associate Director for Natural Hazards,
        U.S. Geological Survey, U.S. Department of the Interior
    Chairman Hall, Congresswoman Johnson, thank you for inviting me to 
this hearing. My name is Dave Applegate. I am the Associate Director 
for Natural Hazards at the U.S. Geological Survey (USGS). The USGS is 
the science agency for the Department of the Interior (DOI).
    As you already know, the Department has significant concerns about 
the proposal for a satellite communications system being developed by 
the firm LightSquared. The proposed system could have negative impacts 
on the reception of Global Positioning System signals, or GPS. The USGS 
and our colleagues across DOI make extensive use of GPS technology--
some of our work is entirely dependent upon it. Testing performed this 
year on LightSquared's original deployment plan has failed to 
demonstrate the satisfactory effectiveness of mitigation techniques. 
Proposed alternatives, meanwhile, require further testing to be fairly 
judged. The Department of the Interior feels that the proposal should 
not be approved at this time and has expressed this position to the 
National Telecommunications and Information Administration, which 
represents the spectrum interests of the Federal agencies before the 
Federal Communications Commission.
    I am, of course, most familiar with the uses of high-precision GPS 
technology in the fields related to my charge of natural hazards 
research and monitoring. However, DOI, the USGS, and our sister bureaus 
have identified a wide range of impacts of potential GPS interference 
to capabilities used for mapping, navigation, and timing. Many Interior 
bureaus have law enforcement and public safety missions, including a 
significant role in wildfire response nationwide. Law enforcement 
officers and fire crews use GPS for navigation in both remote 
backcountry and urban areas. Any degradation of GPS signal could make 
it more difficult for personnel to navigate. They would have to revert 
to navigating by ``pencil-and-map.'' Miscommunication and delays also 
would be a life-safety risk for personnel and the public. It is even 
possible that investigations by Department law-enforcement agents could 
be called into doubt due to the greater inaccuracy of manual 
geolocation techniques.
    For our part at the USGS, GPS technology is an essential tool for 
many of our mission responsibilities. Some examples include 
streamgaging, mapping and surveying, and in my area of expertise, 
geologic hazards.
    Streamgages and water quality monitors operated by the USGS and its 
partners provide data used to manage water resources, forecast floods 
and droughts, inform the design and operation of dams, levees, water--
and wastewater treatment plants, and irrigation systems, and the 
regulation and monitoring of water pollution and its impacts. GPS 
signals in mobile applications are used to accurately position flow-
measuring equipment and obtain data needed to calibrate streamgages. In 
addition, modern streamgages have radios that use the GPS timing signal 
to make near real-time transmission of data possible. There are about 
9,000 of these radios in use and without them the quality of data from 
the streamgages would be diminished. The impact of losing the 
capabilities of these radios is varied and significant. For example, it 
would reduce the accuracy of National Weather Service flood forecasts 
and would likely diminish the ability of flood-fighting agencies such 
as the Corps of Engineers to minimize flood damage. The confidence and 
timeliness of water-management decisions made by states, the Bureau of 
Reclamation, and the Army Corps of Engineers could also be impacted. 
Since 2009, the USGS has invested $11.5 million in GPS-based satellite 
radios and 91 acoustic doppler current profilers. Without the GPS-
driven streamgage satellite radios, the increase in costs will approach 
$6.6 million per year based on the expense of periodically resetting 
physical clocks at each streamgage.
    As with our work to better understand water resources, the USGS 
relies on strong partnerships to fulfill our mapping missions. The 
science and craft of mapping have come a long way since this USGS 
mission began in the late 19th Century. Today, nearly all of the data 
collected involves the use of GPS. All modern airborne or satellite-
based systems are dependent on GPS for navigation, positioning and 
geolocation of the data. Ortho-rectified imagery needs GPS to reliably 
determine the location of each image. LiDAR technology, meanwhile, can 
determine elevation to within centimeters, but requires equally precise 
GPS positioning data to validate it. High-precision LiDAR data are also 
useful in my field because the technology can reveal hidden faults, map 
out ancient landslides, and determine the shape of volcanoes in 
unprecedented detail. Since 2008, USGS has made between $18 million and 
$20 million in lidar acquisition purchases per year. The 2010 total was 
over $40 million, including a substantial investment of Recovery Act 
funds.
    Nowhere is our stake in this issue more significant than in our 
mission responsibilities for natural hazards. Under the Stafford Act, 
the USGS issues warnings and forecasts for a variety of geologic 
hazards, and we support other agencies for a host of other threats. All 
of these responsibilities depend on reliable, redundant monitoring 
infrastructures, like networks of seismometers or streamgages.
    For rapid reporting of earthquakes and their impacts, the USGS 
relies on our Advanced National Seismic System (ANSS) here in the U.S. 
and the Global Seismographic Network (GSN) worldwide, in cooperation 
with the National Science Foundation and IRIS Consortium of 
universities. The 2,500 seismic sensors in these networks use GPS for 
precise timing, and a small change in the timing signal at even just a 
few seismic stations can degrade the accuracy of earthquake's location, 
and hence all downstream response products.
    Our ability to monitor deformation of the Earth's crust requires 
the most precise, accurate, and reliable GPS signals. We and our 
university cooperators, along with the National Science Foundation and 
UNAVCO consortium, maintain and use over 1,000 permanent continuously 
operating GPS stations to track plate motions and monitor ground 
deformation due to earthquakes along faults like the San Andreas and 
hundreds of others nationwide. Dense networks of high data rate, high-
precision GPS stations are particularly important for earthquake 
monitoring for at-risk urban areas in southern California, the San 
Francisco Bay Area, and the Pacific Northwest. The estimated capital 
cost of the USGS investment in these geodetic networks is $26 million, 
including $6 million in Recovery Act funds used to upgrade existing 
networks. For the NSF Earthscope project alone, GPS network capital 
costs are about $100 million and current operation and maintenance 
costs are $11 million yearly. UNAVCO expert analysis shows that this 
NSF investment would be put in jeopardy if the LightSquared Network is 
given approval to proceed.
    Our network of volcano observatories relies on real-time data from 
220 continuously reporting GPS stations in order to forecast and detect 
eruptions for volcanically active areas around the western United 
States. These GPS instruments provide unique information on the 
location of magma and the size of an impending eruption, which seismic 
or other types of data do not. The impact of interference of GPS 
signals on the monitoring of U.S. volcanoes would be substantial. The 
three-dimensional deformation data gathered from continuously recording 
GPS stations are often not available from any other monitoring method, 
and almost never with the near-real-time availability provided by the 
GPS networks. We now rely on our GPS monitoring capabilities, and 
losing these would result in a severely decreased ability to perform 
our duties in providing earliest possible warning of volcanic unrest. 
This would be a significant public safety concern for communities near 
volcanoes, such as those in the Pacific Northwest and Alaska. It is 
also a concern for air traffic in the northern Pacific Ocean due to the 
hazard of volcanic ash, a hazard that was recently demonstrated by the 
eruption of Icelandic volcanoes. Similar technology is used to monitor 
16 potential landslide sites. The USGS capital investment in GPS 
receivers currently used for volcano monitoring is $3.5 million of 
which $1.5 million came from Recovery Act funds.
    Recent testing has demonstrated that reception of the L1 signal, 
the civilian-use band of frequencies, by high-precision receivers used 
by DOI is significantly degraded when exposed to the proposed 
LightSquared signals tested thus far (recently proposed alternatives 
will require further testing to be sufficiently understood and fairly 
judged). Given the wide use of such receivers and the uncertainty of 
technical fixes, it is impossible to predict exactly how much it would 
cost to replace these receivers. The Department estimates that it has 
invested about $100 million in the technology and it could cost as much 
as $500 million to replace it. Also, there could be a cost in lost 
situational awareness and ongoing scientific research.
    GPS is vitally important in acquiring virtually every type of 
spatially referenced data in use today. It has become so pervasive that 
it is taken for granted. Many of these applications are critical-even 
fundamental-to the missions of the USGS and the Department of the 
Interior. A short-term requirement for replacement or modification 
would be chaotic and expensive; a gradual upgrade would require 
adequate funding, careful planning, and several years.
    The Department fully supports the national economic and security 
goals of the President's 500 MHz initiative and is committed to the 
implementation of more effective and efficient use of the finite radio 
frequency spectrum and the development of solutions that ensure no loss 
of critical National Security capabilities, to include GPS. The 
Department will continue to work with its Administration partners and 
NTIA, as well as with Congress, to address long-term solutions 
regarding a balance between federal spectrum requirements and the 
expanding demand for mobile broadband services.Thank you again for 
inviting me today and for your attention to this important matter. I 
would be happy to answer any questions you may have.

    Chairman Hall. I thank you, sir, and Mr. Carlisle, you may 
proceed, sir.

             STATEMENT OF MR. JEFFREY J. CARLISLE,

          EXECUTIVE VICE PRESIDENT, REGULATORY AFFAIRS

                AND PUBLIC POLICY, LIGHTSQUARED

    Mr. Carlisle. Chairman Hall, Ranking Member Johnson, 
Members of the Committee, thank you very much for giving me the 
opportunity to speak with you today about this issue.
    We are going to make a major investment in U.S. 
infrastructure, and let me be extremely clear about this. We 
are not going to implement that investment in a way that will 
degrade or destroy GPS. Nor do we believe that the FCC would 
ever allow us to do so. This is not a zero sum game. Americans 
do not have to choose between a robust GPS and a competitive 
broadband wireless network. They can have both, because this is 
an issue of responsible receiver design and coordination of the 
network. It is a technical issue that can be solved just as it 
is solved every time anybody deploys a wireless network in the 
United States.
    As was mentioned earlier, we are investing $14 billion over 
the next eight years in deploying this network. This investment 
also includes support of our satellite, which was launched last 
November, which in and of itself was a $1 billion investment in 
American technology leadership. Part of that investment was 
$250 million in space technology that have never been invented 
yet, and as a result we have the largest commercial dish ever 
launched into space anywhere.
    Now, why did we make this investment, and why are we 
committing to invest more? Because the certainty of the FCC 
regulatory regime allowing us to deployment a ground-based 
network and this was not developed within the last few months 
as it is sometimes portrayed. This was actually the result of a 
four-year process that the FCC conducted from 2001, to 2005, 
and I have detailed this process in my testimony, but I will 
just emphasize a few points here.
    This process resulted--there was the--there were the 
original rules, there was out authorization under the rules 
in--the original rules were written in 2003, we were authorized 
in 2004, and the rules were reconsidered in 2005. That 
reconsideration is relevant for a very specific point. In that 
reconsideration in 2005, the FCC did two things. It removed any 
limit on the number of base stations or cell towers we could 
deploy in our network. It also established a power level of 1.6 
kilowatts for those base stations. That is what we tested, that 
is what we are using, and that is what we have committed to use 
going forward.
    Also as part of this process it included the GPS 
manufacturers, and it included review at every one of these 
steps; 2003, 2004, 2005, by NTIA's interdepartmental committee 
that review--interagency committee that reviews all decisions 
by the FCC that have a potential impact on federal spectrum. 
The agencies here today can have--can and have made their 
concerns known through that committee on any number of spectrum 
issues, including this one.
    So why was that last issue relevant? Well, during the 
process from 2001 to 2005, the GPS industry said that the only 
issue that we were supposed to be worried about was our signal 
going into GPS, that it was powerful, it was going to taper off 
into GPS and overwhelm the GPS signal. We reached an agreement 
in 2002 to prevent that. Our signal is filtered so it doesn't 
taper off into GPS.
    The issue of receiver sensitivity where the receivers or 
receiver overload where the receivers look into our band, so it 
doesn't matter what kind of filtering we put in, they can still 
be overloaded by our transmitters, that was never raised during 
this four-year period. It was first raised by the GPS Industry 
Council in September of last year after we had already 
committed $4 billion of investment to this project on the basis 
of the rules that had been written six years previously.
    So where are we today? We are moving forward with the 
proposal that has been discussed. We are moving to the other 
end of the GPS spectrum at a cost of $100 million to the 
company. We are reducing our power by 90 percent, not 50 
percent. Ninety percent to the levels established in 2005, and 
this week we also discussed limiting the power that will reach 
the ground so that we will not interfere with the vast majority 
of devices. We will also fund research into resilient precision 
devices and coordinate the deployment of our network to avoid 
interference with them.
    We are committed to solving this issue, because if we get 
it wrong, Americans won't have access to another competitive 
broadband network. They will basically have two, and that is a 
pretty big stake right now, particularly for jobs, education, 
and scientific progress in the United States.
    Thank you very much for you time, and I look forward to 
answering your questions.
    [The prepared statement of Mr. Carlisle follows:]

             PREPARED STATEMENT OF MR. JEFFREY J. CARLISLE,
                       EXECUTIVE VICE PRESIDENT,
           REGULATORY AFFAIRS AND PUBLIC POLICY, LIGHTSQUARED
    My testimony today will explain the network that LightSquared is 
building, extensive interference testing, and steps that LightSquared 
plans to take to mitigate interference. LightSquared is investing 
billions of dollars in American infrastructure, in order to bring 
competitive wireless broadband service across the country. We will do 
so in a way that protects the GPS-related work of the agencies under 
this Committee's jurisdiction. Indeed, LightSquared is in very much the 
same position as the agencies testifying before you today. We find 
long-planned and long-authorized operations threatened because the 
manufacturers of GPS devices have been building and selling receivers 
that ignored rules the FCC established in 2003 and 2005 with their 
knowledge, and without their opposition. Nevertheless, LightSquared is 
committed to working with the Committee and the agencies to do our part 
in addressing a problem we did not create, and we have already made 
substantial and real proposals. The interference issue is a question of 
technology choice, and can be addressed through proper design.

I. Lightsquared Is Building Critical Infrastructure for the 21st 
        Century

    LightSquared is investing $14 billion over the next eight years to 
build a nationwide wireless broadband network. This investment will 
support over 15,000 jobs a year for each of the five years that it will 
take to construct this network. When completed, our ground network will 
provide over 260 million people with wireless broadband service at 
expected speeds of 5 to 10 megabits per second. The ground network will 
provide the scale needed to make our new high-power satellite system 
viable over the long term, which will provide disaster-resistant 
service to a new generation of user devices that are the same size, 
weight, and cost as today's terrestrial mobile devices. LightSquared's 
network promises to increase competition in the marketplace, give 
consumers new choices, broaden access to broadband, increase public 
safety and emergency response, and, ultimately, lower prices.
    This network is the culmination of years of hard work and billions 
of dollars of investment. LightSquared has been authorized to use 
spectrum for mobile satellite services (MSS) since 1989, and launch its 
first satellite in 1996. For the last 15 years, it has provided voice 
and data services over its satellites to federal, state and local 
governments, transportation and maritime industries, and others who 
need reliable communications when a ground network is unavailable.
    In 2003, the FCC first issued rules authorizing the use of 
satellite spectrum for ground networks. The FCC issued an authorization 
to LightSquared's predecessor in 2004, and finalized the spectrum rules 
in 2005 on reconsideration. Since then LightSquared has worked hard to 
bring its network to market. It coordinated spectrum and developed 
technology to support an integrated satellite and ground network.
    Now we are ready to move forward, and this investment is coming at 
a particularly crucial time. The U.S. ranks 15th in the world when it 
comes to broadband, according to a recent Cisco survey. Congestion in 
urban markets is leading to an unacceptable level of dropped calls and 
``no service'' displays. At the same time, many consumers in rural 
America don't even have a wireless broadband option: 28 percent of 
people who live in rural America still have no access to broadband. 
This puts rural communities at a disadvantage when it comes to 
attracting new businesses, creating jobs and gaining access to 
education.
    Wireless infrastructure in the U.S. is manifestly unready to meet 
the challenges of the 21st century. The U.S. is seeing the beginning of 
almost vertical growth in data usage. Data usage in the will jump from 
under 2 million terabytes per year to almost 14 million terabytes in 
2015. Spectrum is needed to carry that data, and spectrum is severely 
limited.
    The FCC has already identified a need for at least 500 MHz of 
additional spectrum to be freed for broadband use over the next 10 
years. We are bringing 40 MHz of spectrum to be used for broadband 
services--a significant down payment on the FCC's 10-year goal. No 
other company has such a significant slice of airwaves that is ready to 
deliver network capacity to our spectrum-starved nation, and no other 
company could conceivably offer this broad coverage in the same time 
frame.
    It is important to understand that LightSquared will do this in a 
way that is completely different from other wireless companies in two 
ways.
    First, LightSquared will be the only wireless broadband network 
with an integrated satellite. Our first satellite was launched in 
November 2010, with the largest dish ever placed on a commercial 
spacecraft--seven stories tall. This represented a $1 billion 
investment in U.S. space technology. Our satellite allows a smartphone, 
tablet, data stick, or other device to link to the satellite when the 
ground network is not available, either because the device is out of 
range, or when ground networks have been destroyed by natural 
disasters. LightSquared already has a history of providing satellite 
communications in the places they are needed most: in Mississippi after 
Hurricane Katrina; in Kentucky after widespread and destructive ice 
storms; in Joplin, Missouri after its tornado; and in Maryland, 
Delaware, and Virginia after Hurricane Irene. The size and cost of 
satellite-enabled devices, assuming we can take advantage of the scale 
offered by the ground network, will be the same as that of regular 
cellular devices. This is why the deployment of the ground network is 
so critical. A sustainable, reliable satellite function promises 
substantial long-term benefit to government, public safety, and 
individual consumers.
    Second, LightSquared will be the first wholesale-only network. We 
will sell capacity to wireless companies, retailers and other companies 
that want to provide broadband services, and they can then provide the 
integrated network to their consumers. Thus, when we build our network, 
we're not just enabling LightSquared as a competitor, we're enabling 
dozens of competitors in the marketplace.
    In sum, then, what LightSquared is doing is making a massive 
private investment in critical U.S. infrastructure, making better and 
more efficient use of spectrum, and enabling wireless competition, all 
to the benefit of American consumers, public safety, and the nation as 
a whole.

II. GPS Interference Has Been Studied Comprehensively

    Part of LightSquared's spectrum is directly adjacent to the 
spectrum used by GPS. This is not a new development. When 
LightSquared's predecessor first proposed using satellite spectrum for 
a ground network over 10 years ago, the GPS community, represented by 
the US GPS Industry Council (USGIC), asked us to voluntarily limit our 
energy that could bleed over into the GPS band. If we did nothing, 
comparatively powerful base stations used in cell sites would drown out 
faint GPS signals. We agreed to limits on emissions out of our band 
into GPS that were 1,000 times stricter than what the FCC required, and 
designed our network around this agreement. Moreover, the power levels 
we are using today in our base stations are the same as what the FCC 
authorized in 2005, and we have committed to stay at those levels. I 
have attached a chronology, with citations to the public record, as 
Attachment 1 to my testimony.
    The current concerns about interference do not stem from a concern 
about emissions into the GOPS band. Instead, in September 2010, the 
USGIC raised a new and different issue arising out of the fact that 
certain GPS receivers are designed to not only capture GPS signals, but 
also capture signals from our band and could be desensitized, or 
overloaded. Accordingly, no matter how strictly we limited our out of 
band emissions, we could still cause overload of some GPS receivers. I 
have provided illustrations showing this effect as Attachment 2 to my 
testimony.
    Much of the advocacy by the GPS manufacturers over the last nine 
months has tried to portray this issue as having arisen only this year 
because LightSquared somehow changed the ``nature'' of its network. 
This narrative has been stated and restated with a purpose: to distract 
lawmakers from the fact that GPS manufacturers failed to raise this 
issue at the FCC when it was developing its rules and could have 
addressed this issue in the design of their receivers years ago. In 
2005, they knew that the FCC rules allowed LightSquared to deploy tens 
of thousands of base stations in our band, all broadcasting at a power 
of 1.5 kw. Thus, if LightSquared's predecessor had had the resources to 
build its network at that time, it could have built exactly the same 
network as is planned today. Indeed, in 2003, the USGIC stated to the 
FCC that the effect of their rules was to allow us to use tens of 
thousands of base stations. (See Attachment 1 for citation.)
    The GPS community's convenient story that we caused the problem 
because we asked for a modification to the types of end user devices 
that could be brought to our network is easily demonstrated to be 
false. End user devices have nothing to do with the overload effect the 
GPS community identified--it is entirely a function of the number and 
power of our base stations, which as I stated above was established in 
2005. Moreover, as I stated above, the GPS community raised this issue 
in September 2010, two months before we asked for any modification for 
end user devices. Finally, the USGIC did acknowledge, eight years ago, 
that we would operate tens of thousands of base stations in our band. 
The possible scale and scope of our use of the network was well known 
by, or at least obvious to, any of the large companies that manufacture 
GPS receivers, all with presences in Washington, and yet they did 
nothing. This, despite the fact that the Department of Defense's 
standards for use of the GPS constellation specify that manufacturers 
should use a receiver that filters out signals from adjacent bands if 
they expect to have full performance.
    Notably, the original rules in 2003, our authorization in 2004, and 
the reconsideration of those rules in 2005 were all subject to full 
review by the NTIA's Interdepartment Radio Advisory Committee process, 
which includes input from all impacted federal agencies. Thus, when the 
FCC issued decisions allowing us to deploy tens of thousands of base 
stations, all transmitting at the powers we will use today, federal 
agencies had extensive and repeated opportunities for comment and 
input. Of course, as users of GPS devices, it is extremely difficult, 
if not impossible, for federal agencies to study this issue fully 
without the support and involvement of the GPS receiver manufacturers. 
The manufacturers' failure to identify the overload issue until a year 
ago may well explain why Federal Government users did not raise this 
issue earlier.
    In the end, the GPS manufacturers either failed to understand the 
vulnerability of their own receivers or took the calculated risk that 
LightSquared would not be able to complete its network. Either way, 
they did nothing to prepare their receivers or their users for the 
changed spectrum environment.
    Despite the history of this issue, the fact remains that many 
receivers were placed into the stream of commerce that were not going 
to be compatible with the uses established by the FCC in 2003 and 2005. 
If LightSquared was going to be able to move forward with its network 
within any reasonable period of time, the responsible thing to do would 
be to test to determine the scope of the issue and possible mitigation. 
This is exactly what the FCC did when, in January of this year, it 
ordered us to work with the GPS community and federal agencies on joint 
testing.
    What followed is perhaps the most extensive study of interference 
ever conducted. The Technical Working Group (TWG), co-chaired by 
LightSquared and the USGIC, comprised 37 individuals with strong 
technical expertise representing a full range of GPS receiver 
categories, installed user groups, and other interested parties. The 
TWG included representatives of all the major GPS manufacturers, the 
four major wireless companies, two public safety organizations, the 
Department of Defense, FAA, NASA, Boeing, Rockwell, and Lockheed 
Martin. The TWG also relied on advisors representing a full range of 
stakeholders including manufacturers, user groups and individual 
experts in the GPS field. Over a three-and-a-half month period, the TWG 
tested over 130 devices across seven GPS receiver categories--aviation, 
cellular, general location and navigation, high-precision, networks, 
space-based receivers, and timing receivers. The Final TWG Report was 
filed June 30.
    Separately, the Department of Defense, RTCA (the aviation safety 
standards organization) and the Jet Propulsion Laboratory conducted 
their own analysis and tests of dozens of GPS receivers. LightSquared 
provided equipment and engineering expertise for each of these tests. 
Several reports or summaries have already been made public including 
reports from RTCA and the NPEF Report of government receivers derived 
from the DoD tests. Accordingly, over the past nine months, there has 
been more than adequate opportunity in numerous venues to fully test 
receiver vulnerability.

III. Lightsquared and GPS Can Coexist

    Key to understanding mitigation options is understanding that the 
vast majority of GPS receivers look only at LightSquared's spectrum 
that is immediately adjacent to GPS. LightSquared's original plan, 
before USGIC advised of the overload issue in September 2010, was to 
use this spectrum first, and then bring additional spectrum online 
later, when it needed further spectrum to serve capacity needs. This 
additional spectrum is on the other end of LightSquared's band, as far 
away as possible from the border with GPS. Indeed, the frequencies 
LightSquared planned to use far away from GPS are a full 23 MHz removed 
from the bottom of the GPS frequency.
    Unsurprisingly, then, testing shows that LightSquared's planned 
deployment would cause interference with a broad range of different 
types of GPS receivers, because the planned deployment would have 
started close to GPS. They also show, however, that use of the spectrum 
far away from GPS does not cause interference for the vast majority of 
GPS receivers. Among the recommendations of the NPEF report was a 
recommendation to conduct further testing of the 10 MHz furthest away 
from GPS, as the testing conducted by the Federal Government agencies 
on receivers so far has shown minimal or no interference. Similarly, 
the RTCA report stated that the 5 MHz furthest away from GPS does not 
cause a problem for aviation receivers under worst- case analyses, and 
that further analysis is needed to confirm that the next 5 MHz is 
similarly clear. Notably, the RTCA also noted that aviation receivers 
tested performed significantly better than the minimum performance 
standards. LightSquared is optimistic that this further analysis will 
not change the report's conclusion.
    LightSquared has developed its position in response to the actual 
testing data, and has made the following proposal to resolve GPS 
interference issues:

    <bullet>  First, LightSquared will operate at lower power than 
permitted by its existing FCC authorization, staying at the power level 
authorized in 2005.

    <bullet>  Second, LightSquared will agree to a standstill in the 
terrestrial use of its upper 10 MHz of its frequencies immediately 
adjacent to the GPS band.

    <bullet>  Third, LightSquared will commence terrestrial commercial 
operations only on those portions of its spectrum that pose no risk to 
the vast majority of GPS users and will coordinate and share the cost 
of underwriting a workable solution for the relatively small number of 
legacy precision measurement devices that may be at risk.

    <bullet>  Fourth, just this week, LightSquared has made a proposal 
to the FCC to limit the power reaching the ground to levels that would, 
based on actual testing data, definitely eliminate interference issues 
for the vast majority of receivers. More detail on this proposal was 
provided to the FCC earlier this week, and is attached as Attachment 3 
hereto.

    Initially, it should be noted that, though they are employed for a 
variety of important uses, legacy precision GPS receivers represent a 
small fraction of the overall installed base of GPS receivers. As 
compared to the 400 to 500 million cellular, personal navigation and 
aviation receivers that will be covered by our move to spectrum far 
away from GPS, precision receivers amount to approximately 500,000, 
used primarily in agriculture, surveying and construction. Precision 
receivers are also used in some of the scientific work undertaken by 
the agencies before the Committee. Some, but not all, precision 
receivers may still be impacted by operations on the other side of our 
band from GPS if they are specifically designed to look all the way 
across the band. These receivers use satellite signals from our band to 
augment the precision of their receivers. Notably, however, testing 
showed that not all precision receivers are so impacted. Ten out of 38 
tested receivers were resilient to our operations in the spectrum 
farthest from GPS. The interference issue, then, is not a physics 
issue. It is a technology design issue and can be addressed through 
proper design.
    Contrary to the claims of some of the GPS manufacturers, there are 
technical and operational solutions that will allow us to deploy our 
network while retaining the benefits provided by using these devices. 
LightSquared can coordinate its rollout so agricultural receivers and 
many other receivers in remote locations will not be near LightSquared 
base stations for several years. LightSquared will underwrite the 
development of filtering technology for new receivers that can then be 
used consistently with the placement of our network. LightSquared will 
also work with Inmarsat to find a place in our band where precision 
manufacturers can be placed over the long term, isolated from 
terrestrial operations and where they can have a much higher certainty 
for their ongoing operations than they do today.

IV. Conclusion

    LightSquared has never dismissed or made light of the sincere 
concerns expressed by the GPS community over the interference issues 
raised by the design of GPS receivers. Nor has LightSquared ever said 
that, because it is a receiver issue, it is the job of the 
manufacturers to solve alone. LightSquared has an obligation to be a 
good neighbor, however or whenever this issue arose. By taking the 
steps I've outlined in my testimony, LightSquared will address this 
issue for over 99% of the receivers currently used. These steps are not 
inexpensive to us, and they are not easy, but they can and must be 
done. We are stepping up to this commitment so that Americans can get 
the benefit of our significant investment in critical infrastructure, 
and continue to have all the benefits of a robust GPS system.

LIGHTSQUARED AND GPS--THE FACTS

    For the last decade, LightSquared has planned to deploy a 
terrestrial network, and worked with the GPS community to make sure its 
network would not interfere with GPS.

Lightsquared's Service Has Been Expected for Almost 10 Years

    <bullet>  In 2001, LightSquared proposed using satellite spectrum 
for a fully-capable ground network. In 2002, after discussions with the 
GPS industry representatives, LightSquared agreed (http://
fjallfoss.fcc.gov/ecfs/document/view?id=6513283601) to curtail any 
portion of its signal that crossed into GPS frequencies. This agreement 
imposed restrictions that were 1,000 times stricter than what the FCC 
rules eventually required. http://edocket.access.gpo.gov/
cfr<INF>-</INF>2010/octqtr/pdf/47cfr25.253.pdf.

    <bullet>  In 2003, the FCC adopted initial rules allowing 
LightSquared's ground network to operate near GPS. http://
hraunfoss.fcc.gov/edocs<INF>-</INF>public/attachmatch/FCC-03-15A1.pdf. 
These rules were adopted after a full review by DoD, FAA and all other 
interested government agencies. As the FCC said recently, ``extensive 
terrestrial operations have been anticipated in [LightSquared's 
spectrum band] for at least 8 years.'' FCC MSS Flexibility Order, Sec.  
27 (Apr. 6, 2011). http://hraunfoss.fcc.gov/edocs<INF>-</INF>public/
attachmatch/FCC-11-57A1.pdf.

The GPS Industry Understood the Scope of Lightsquared's Network

    <bullet>  When the rules were first written in 2003, the FCC had an 
explicit limit in the technical characteristics as to the number of 
base stations LightSquared could build--1,750 per 200 KHz channel, 
which, when applied to the company's network, would equal a little over 
10,000 base stations. ATC Report and Order, FCC 03-15, at Sec. Sec.  
144-47 (February 10, 2003). http://hraunfoss.fcc.gov/
edocs<INF>-</INF>public/attachmatch/FCC-03-15A1.pdf.

    <bullet>  In 2003, the U.S. GPS Industry Council (``USGIC'') stated 
that the restrictions of the 2002 agreement were necessary to protect 
GPS against ``[t]he increased user density from potentially millions of 
MSS mobile terminals operating in ATC mode . . . [and] potentially tens 
of thousands of ATC wireless base stations.'' Reply Comments of USGIC, 
IB Docket No. 01-185, at 2 (Sept. 4, 2003) (emphasis added). http://
fjallfoss.fcc.gov/ecfs/document/view?id=6515082621.

    <bullet>  In 2004, the USGIC supported the LightSquared application 
for authority to operate a ground network under the 2003 rules, stating 
that the 2002 agreement was ``intended to protect GPS receivers and at 
the same time allow [LightSquared] to maximize the utility of its ATC 
[ground network] service to its users.'' Letter from USGIC to FCC (Mar. 
24, 2004). http://licensing.fcc.gov/myibfs/
download.do?attachment<INF>-</INF>key=366878.

    <bullet>  In 2005, the FCC removed all limits on the number of base 
stations LightSquared could build and increased their permissible power 
to 1.6 kw, the level at which LightSquared now plans to operate. ATC 
Order on Reconsideration, FCC 05-30, at Sec. Sec.  48-50, 53 (February 
25, 2005). http://hraunfoss.fcc.gov/edocs<INF>-</INF>public/
attachmatch/FCC-05-30A1.pdf Again, this decision was reviewed by all 
interested government agencies and was not challenged by USGIC.

    <bullet>  Beginning in 2006 and continuing to 2010, LightSquared 
disclosed its intent to build a wireless network using tens of 
thousands of base stations in its annual filings with the SEC http://
www.sec.gov/Archives/edgar/data/756502/000119312506067030/d10k.htm and 
http://www.sec.gov/Archives/edgar/data/756502/000119312510041110/
d10k.htm.

The GPS Industry Knew About Lightsquared's
Planned Power Levels and Did Not Object

    <bullet>  In 2009, LightSquared asked the FCC to increase the power 
levels of its base stations by approximately 10 times to 15 kw, to 
match the power levels at which other wireless networks are permitted 
to operate. http://licensing.fcc.gov/myibfs/
download.do?attachment<INF>-</INF>key=-164606.

    <bullet>  USGIC did not object to even those higher power levels. 
It objected only to the possibility of interference into the GPS band 
from low-power indoor femtocells, an objection it withdrew (http://
licensing.fcc.gov/myibfs/download.do?attachment<INF>-</INF>key=738501) 
in August 2009 after reaching agreement with LightSquared. http://
licensing.fcc.gov/myibfs/download.do?attachment<INF>-</INF>key=731265.

    <bullet>  In March 2010, the FCC approved LightSquared's increased 
power levels. http://hraunfoss.fcc.gov/edocs<INF>-</INF>public/
attachmatch/DA-10-534A1.pdf. As with all previous FCC proceedings, the 
order was issued after a public proceeding and was fully coordinated 
with all interested Federal Government agencies. Neither GPSIC, nor any 
other party, filed for reconsideration or review of this order.

    <bullet>  Also in March 2010, the FCC required LightSquared to 
build a ground network reaching 260 million people by the end of 2015. 
http://hraunfoss.fcc.gov/edocs<INF>-</INF>public/attachmatch/DA-10-
535A1.pdf. Neither GPSIC, nor any other party, filed for 
reconsideration or review of this requirement.

Lightsquared Is Doing Everything It Can to Work With GPS
to Address Issues Raised Only a Few Months Ago

    <bullet>  In September 2010, USGIC raised for the first time 
(http://fjallfoss.fcc.gov/ecfs/document/view?id=7020912452)--in a 
general mobile satellite proceeding--the possibility that some GPS 
receivers may be subject to interference because they can be 
overpowered by signals transmitted by LightSquared inside the spectrum 
the FCC licensed to LightSquared.

    <bullet>  In November 2010, LightSquared applied (http://
licensing.fcc.gov/myibfs/download.do?attachment<INF>-</INF>key=852869) 
to allow devices onto its ground network that do not also communicate 
with its satellite. This application did not change the power, number, 
deployment or any other technical characteristic of LightSquared's base 
stations. USGIC raised the same objection it raised in September.http:/
/licensing.fcc.gov/myibfs/download.do?attachment<INF>-</INF>key=854795.

    <bullet>  Although the interference issue was irrelevant to this 
application, LightSquared, in January 2011, proposed a rigorous program 
of testing to determine the extent of the susceptibility of GPS 
receivers to LightSquared's transmissions, which the FCC made a 
condition of granting LightSquared's application on Jan. 26, 2011. 
http://hraunfoss.fcc.gov/edocs<INF>-</INF>public/attachmatch/DA-11-
133A1.pdf.

    <bullet>  The FCC validated the GPS testing process in April 2011 
by unanimous Commission vote, noting USGIC's September 2010 comments 
and the cooperative testing program, and stating that ``responsibility 
for protecting services rests not only on new entrants but also on 
incumbent users themselves, who must use receivers that reasonably 
discriminate against reception of signals outside their allocated 
spectrum.'' FCC MSS Flexibility Order, Sec.  27 (Apr. 6, 2011). http://
hraunfoss.fcc.gov/edocs<INF>-</INF>public/attachmatch/FCC-11-57A1.pdf.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairman Hall. Thank you, sir, and at this time we 
recognize Dr. Pace.

                  STATEMENT OF DR. SCOTT PACE,

               DIRECTOR, SPACE POLICY INSTITUTE,

                  GEORGE WASHINGTON UNIVERSITY

    Dr. Pace. Thank you, Mr. Chairman. Wonderful opportunity 
today, and I appreciate the Committee's interest in this.
    Other witnesses have ably described the importance of GPS 
signals to their agencies and scientific users, and as is 
fairly clear, scientific users tend to be the most demanding, 
seeking the most precision and accuracy possible. The highest 
precision GPS receivers are designed to receive not only the 
full range of radio-navigation satellite signals, including 
GPS, but also the mobile satellite service signals in the 
adjacent bands that you have heard about that carry wide area 
differential correction from commercial providers, and in many 
cases the reception of those signals is part of a contractual 
requirement.
    It is important to understand that GPS is not a 
communication service. It is a navigation service. It requires 
precision-timed measurements, not just the reception of ones 
and zeros, and that precision time is what results in precision 
position. The evolution of these high-precision capabilities 
has been made possible because of carefully considered past 
spectrum management decisions to use this particular spectrum 
neighborhood for satellite services, not terrestrial ones.
    In addition to the federal science agencies you have heard 
from, the university-scientific community is also concerned 
with this issue. In January of this year the CEO of the 
University Space Research Association, comprising 105 Ph.D. 
granting universities, wrote that USRA member universities are 
engaged in research in all aspects of GPS use and testing. All 
of these have the potential to be adversely affected by the 
LightSquared proposal unless rigorous measures are implemented 
to mitigate interference of the reception of GPS signals.
    The Technical Working Group final report, showed GPS 
interference. The TWG rightly used multiple approaches to 
characterize the interference. There were paper calculations, 
along with testing in controlled environments such as anechoic 
chambers, and finally, realistic operational scenarios were 
defined for specific categories of users as well as live sky 
field tests were conducted on government-controlled ranges.
    Virtually all tests, the precision receivers, those used by 
scientists and deployed in networks around the world, were 
harmfully impacted. The GPS community concluded that 31 of 33 
high-precision receivers tested were significantly affected. We 
can talk about the other two.
    There is no viable or verifiable technological solution 
that has been identified to date that would allow a ground-
based broadband communication network to operate in close 
proximity to GPS signals. This is why the band has for decades 
been intentionally allocated for space services. Even if some 
new as yet unforeseen technology did appear, the industrial, 
commercial, and public sector users of GPS equipment routinely 
take up to 15 years to complete a normal replacement cycle; 
software cycles can be fast, but hardware takes longer.
    GPS is arguably the most efficient use of spectrum the 
world has ever seen. Almost a billion people are currently 
benefiting from today's signal, and this use represents a 
massive installed base and source of advantage for the United 
States of which international scientific cooperation is but one 
part.
    If LightSquared were deployed in a way that caused harmful 
interference with GPS, a major beneficiary as you have heard, 
would likely be the Russian GLONASS System as its operating 
frequencies are farther away from LightSquared base-station 
frequencies. I should add that GALILEO and COMPASS probably 
would be equally harmed because they share frequencies similar 
to GPS.
    Now, there are competing national policy objectives that 
need to be reconciled. On June 28 the Administration released 
two major policy statements. The first was aimed at expanding 
spectrum for wireless broadband use; a memorandum from the 
President called for collaboration between the FCC and the 
National Telecommunications and Information Administration to 
make available a total of 500 megahertz of federal and non-
federal spectrum over the next 10 years.
    However, the memorandum cautioned that agencies were to 
quote, ``take into account the need to ensure no loss of 
critical, existing, and planned federal, state, local, and 
tribal government capabilities.''
    On the very same day the White House also released a 
National Space Policy that specifically referred to GPS as a 
form of space-based position, navigation, and timing, and in 
this policy the President said, ``The United States must 
maintain its leadership in the service, provision, and use of 
global navigation satellite systems.'' More specifically, this 
required, ``the protection of radio navigation spectrum from 
disruption and interference.''
    In my judgment the safest and most fact-based course of 
action on the data we have to date is to conclude that the 
terms of the LightSquared conditional waiver have not been met 
and to withdraw the LightSquared license to deploy a 
terrestrial network in the 1525 to 1559 megahertz band. It is 
the only approach fully consistent with the terms of both the 
National Space Policy and the broadband memorandum, and I would 
argue the FCC's own regulations.
    The last 20 years have seen continuous innovation in the 
ability to use GPS for measurements of the Earth, the 
atmosphere, and the biosphere via precise positioning, 
navigation, and timing. If the LightSquared terrestrial network 
is allowed to operate as proposed, it would create new, 
additional, and as of yet unforeseen costs for federal science 
agencies as well as state and local governments who rely on 
high-precision GPS-derived data. It would mark a permanent 
decline in the capabilities that GPS has afforded scientific 
application in the United States. Such operations would be 
contrary to the technical facts established by independent 
testing. They would improperly place burdens on the victim 
service, in this case GPS. They would undermine the 
international credibility of the United States as built for GPS 
and would be contrary to the National Space Policy and the 
terms of the President's own broadband initiative.
    Thank you for your attention, and I would be happy to 
answer any questions you might have.
    [The prepared statement of Dr. Pace follows:]

                 Prepared Statement of Dr. Scott Pace,
                   Director, Space Policy Institute,
                      George Washington University
    Thank you, Mr. Chairman, and thanks to this Committee, for 
providing an opportunity to discuss this important topic. The subject 
of today's hearing is a complex one that involves not just federal 
science activities, but national security, public safety, foreign 
policy, and the health of economic sectors from agriculture to 
information technology.
    Specifically, the Committee has asked that witnesses address the 
impact of the proposed LightSquared mobile terrestrial commercial 
communications network on federal science agencies and to discuss the 
recent report of the FCC-mandated technical working group that was 
tasked to examine radiofrequency interference with GPS as well as 
possible mitigation strategies. The technical evidence gathered to date 
clearly shows that the LightSquared network poses an unacceptable 
interference threat to all GPS users and especially high-precision 
scientific users of GPS.
    I have been involved with GPS issues for over 20 years, beginning 
with work at the U.S. Department of Commerce around the time of the 
first Gulf War. While at the RAND Corporation, I supported the Office 
of Science and Technology Policy during the creation of the first 
Presidential Decision Directive on GPS in 1996. I have also been 
involved in domestic and international conflicts over radio frequency 
spectrum used by GPS for almost as long, including negotiations at the 
International Telecommunications Union and proceedings before the 
Federal Communications Commission. I am currently the Director of the 
Space Policy Institute at George Washington University and am speaking 
today purely in a personal capacity and my comments do not necessarily 
represent the views of any agency, organization or company.

The LightSquared Network Represents a Major Change in Spectrum Use

    The most commonly used GPS signal, L1, is located in the spectrum 
band 1559-1610 MHz. This band is specifically ``zoned'' internationally 
for radionavigation satellite services (RNSS) like GPS, the Russian 
GLONASS system, and the European Galileo system. On either side of the 
band are bands for mobile satellite services (MSS) at 1525-1559 MHz, 
below GPS, and at 1610-1660.5 MHz, above GPS. The key point is that the 
entire ``neighborhood'' is oriented to satellite services and such 
services require ``quiet'' spectrum as the powers of signals 
transmitted from space are many orders of magnitude weaker than those 
transmitted by typical terrestrial stations. There are major power 
differences between satellite services as well. The power of a MSS 
signal is much greater than that of signal coming from a GPS satellite. 
Thus MSS and GPS signals operate in adjacent bands where their 
functions are compatible with each other but they do not operate in the 
same band since MSS signals would easily drown out the GPS 
signal.Figure 1 shows how proposed uses of the 1525-1559 MHz band next 
to GPS have evolved over the past 10 years. (Attachment 1 provides a 
more detailed history of regulatory highlights.)

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    MSS services, such as those offered by Inmarsat, have historically 
operated purely through satellites. This enables service over very wide 
regions or even the entire globe. However, there will be coverage gaps 
for areas either outside the satellite service area, or more commonly, 
when dense urban environments block the weak satellite signals. This 
led to interest in creating an ancillary terrestrial component (ATC) to 
the MSS service in which ground-based towers would ``fill in'' the 
coverage gaps and thus enable better service to a wider range of 
customers. The GPS community was concerned the deployment of 
terrestrial base stations would create interference to the adjacent 
RNSS band. The U.S. GPS Industry Council negotiated with the proposed 
MSS ATC operator, then known as MSV, and reached a technical agreement 
on ``out-of-band'' emission limits to restrict any harmful spillover 
into the RNSS band. This agreement was also predicated on the 
requirement that the ATC would remain tied to satellites and that the 
need to avoid self-interference between the satellites and terrestrial 
components of the same company meant the MSS band would remain 
relatively quiet. This helped ensure compatibility with GPS users next 
door.
    The U.S.-licensed operator of MSS ATC in the L-band went through 
several ownership changes, including the most recent transfer of 
license to what became LightSquared in March 2010. The essential 
operational situation remained unchanged until November 2010 when 
LightSquared requested relaxation of the ``gating requirement'' which 
tied the ground-based ATC system to the satellite service. This would 
allow the terrestrial network to carry broadband services and the 
satellites would now be effectively ``ancillary'' to the ground network 
as they are not capable of providing broadband level service. In 
effect, satellite spectrum would be ``rezoned'' to allow deployment of 
high-powered, terrestrial base stations in urban areas and across the 
country. This is the situation that the GPS community sought to avoid a 
decade ago. Unfortunately, the FCC granted a conditional waiver to 
LightSquared on January 26, 2011. The waiver was conditioned on the 
creation of an industry-led technical working group to examine the 
potential for interference to GPS and possible means of mitigation.

Scientific and High-Precision GPS Users Depend on Large Bandwidths

    Other witnesses have ably described the importance of GPS signals 
to their agencies and scientific users. These users tend to be very 
demanding, seeking the most precision and accuracy possible. This in 
turn requires taking in the most information possible not only from GPS 
signals but other Global Navigation Satellite Systems (GNSS) such as 
Galileo and using accuracy augmentation signals that are carried on MSS 
systems. Figure 2 shows the 2 MHz wide (pink) GPS signal used by common 
smart phones. The wider blue region shows the full RNSS band used by 
more capable receivers, including those designed to receive signals 
from foreign GNSS systems as well as GPS. The green bars show the 
proposed upper (close to GPS) and lower (farther from GPS) channels for 
LightSquared's 4G long-term evolution (LTE) service.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Figure 3 shows the bandwidth of the highest precision GPS 
receivers. They are designed to receive not only the full range of RNSS 
signals, including GPS, but also MSS signals in the adjacent band that 
carry wide-area differential GPS corrections from commercial providers 
such as Starfire. Developed by John Deere and precision farming groups, 
a Starfire-capable receiver can produce centimeter-level position 
measurements. Powerful transmissions from LightSquared base stations 
would unavoidably jam the reception of weaker MSS signals used by the 
high precision GPS receivers. Thus when talking about receiver 
bandwidths, it is not enough to receive just the GPS signal itself, but 
all the services used for precision positioning, navigation, and 
timing. The evolution of high precision capabilities has been possible 
because of carefully considered past spectrum management decisions to 
use this particular neighborhood for satellite services, not 
terrestrial ones.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    In addition to the federal science agencies, the university 
scientific community is concerned with the LightSquared network. I 
serve on the board of the Universities Space Research Association, a 
non-profit organization of 105 Ph.D.-granting universities conducting 
space and aeronautics-related research. In January of this year, prior 
to the FCC granting the requested waiver of the satellite requirement, 
the CEO of USRA wrote:

        `` . . . USRA member universities are very engaged in research 
        on all aspects of GPS use and testing. This includes 
        development of the impending Federal Aviation Administration's 
        transition to a satellite based navigation system, known as 
        NextGen . . . Satellite data used by universities involving GPS 
        tracking and geodetic networks across the United States could 
        also be impacted. These applications range from global 
        environmental monitoring, weather prediction, and earthquake 
        monitoring to advanced concepts such as training for space 
        systems engineers. All of these have the potential to be 
        adversely affected by the LightSquared proposal unless rigorous 
        measures are implemented to mitigate interference to the 
        reception of GPS signals.''

International Concerns

    While LightSquared is currently a domestic issue, it has attracted 
international notice and concern. The Japan GPS Council (JGPSC) is the 
non-profit association composed of the major firms and organizations of 
the civil GPS applications and users in Japan. On May 27, they provided 
a letter to the FCC docket stating:

        GPS receivers are properly designed to operate in the 
        ``satellite'' neighborhood that exists in the domestic and 
        international tables of frequency allocations in the 1525-
        1660.5 MHz range. There are no unaccounted-for high-power 
        terrestrial signals anywhere in the world that pose the threat 
        of harmful interference to GPS and other RNSS users. At least 
        there were none until LightSquared's new owners 
        opportunistically decided to try to convert what has always 
        been an ATC-enhanced satellite band into a new home for high-
        power terrestrial mobile broadband signals. The physics is 
        clear; LightSquared cannot provide 4G LTE service in the 
        satellite neighborhood without causing harmful interference.

        (The) U.S. and Japan have worked in close cooperation at the 
        domestic level as well as in international fora to protect and 
        preserve spectrum for GPS in order to safeguard national 
        security applications as well as maintaining flexibility and 
        opportunity for continued commercial innovation and critical 
        public infrastructure . . .

        Any threat to the integrity or availability of GPS in U.S. 
        markets would undermine and devalue the substantial investment 
        that Japanese firms have made to serve users and customers in 
        the U.S. Japanese firms provide products and equipment for 
        high-precision applications to U.S. customers, . . .

        Any policy which would allow degradation of GPS service in the 
        U.S. would also raise question as to the integrity of the 
        stated U.S. commitment to maintain GPS as a stable and reliable 
        global standard for positioning, navigation and timing.

    The European Commission expressed similar concerns in a July 19th 
letter to the FCC docket. This letter cited technical concerns raised 
by the European Space Agency and concerns about impacts to Galileo, 
which is to be interoperable with GPS:

        The band immediately below 1559 MHz, allocated by the Radio 
        Regulations to the mobile-satellite service (MSS), has been 
        used for satellite-based transmissions for many years and has 
        proved to be broadly compatible with RNSS systems above 1559 
        MHz. The LightSquared proposal for a terrestrial network 
        deployment in MSS spectrum would completely change the nature 
        of radio transmissions in the band.

        Analysis carried out in Europe, including by our own technical 
        partner the European Space Agency, has shown that transmissions 
        from LightSquared base stations do indeed have considerable 
        potential to cause harmful interference to Galileo receivers 
        operating in the United States. Interference effects have been 
        determined to occur in the range 100m to almost 1,000km, 
        depending on the type of receiver being used. This obviously 
        presents a grave threat to the viability of providing a Galileo 
        service covering U.S. territory--a service which many studies 
        have shown will not only benefit Galileo users, but those of 
        GPS too as the two systems will be interoperable through a 
        common signal design providing significantly improved coverage 
        and accuracy in urban environments.

    Europe and Japan are major international partners in every area of 
scientific cooperation. Harmful interference to GPS and other GNSS 
systems in the United States would undermine that cooperation. It would 
also undermine the long-standing international commitment the United 
States has made to protection of RNSS spectrum, not just GPS, from 
harmful interference. This, in turn, calls into question the ability of 
the United States to be a leader at a time when other systems from 
Europe, Japan, Russia, China, and India are being deployed. Ironically, 
if LightSquared were deployed in a way that caused harmful interference 
to GPS, a major beneficiary would likely be the Russian GLONASS system. 
Its operating frequencies are located farther away from the 
LightSquared base station frequencies. Damaging GPS and driving users 
to a Russian space system are not desirable outcomes for the United 
States.

The Technical Working Group Final Report Shows GPS Interference

    The TWG Final Report documents issues associated with the 
interference threat to GPS receivers and GPS-dependent applications 
resulting from LightSquared's proposal to deploy a high-power 
terrestrial broadband system in the 1525-1559 MHz and 1626.5-1660.5 MHz 
bands on either side of the 1559-1610 MHz band used by GPS, GLONASS, 
and other satellite navigation systems. These bands were licensed to 
LightSquared for mobile-satellite service and ancillary terrestrial 
component use, prior to the Bureau's January 2011 decision to 
conditionally waive the satellite ``gating'' requirement.
    The final report is over 1,000 pages long, and detailed summaries 
are available from the participating companies and government agency 
observers. LightSquared also participated in the testing and 
contributed to the final report. A key strength of the TWG report is 
that it used multiple approaches to characterizing interference. Paper 
calculations of potential interference were made, along with testing in 
controlled environments (e.g., anechoic chambers), and finally 
realistic operational scenarios were defined for specific categories of 
users and ``live sky'' field tests were conducted on government-
controlled ranges. This reflects a best practice for interference 
studies when national security or public safety applications are at 
risk--no one approach is to be trusted but all are done to see if 
consistent results are achieved.
    Consistent results were achieved, supporting the expectations of 
early analytical estimates. Specifically, the planned LightSquared 
deployment would create harmful or significant interference for all 
categories of GPS receivers. There were three categories of 
interference that were examined. The first was ``out of band 
emissions'' from LightSquared into the GPS band. The observed emissions 
were in compliance with MSS ATC limits set in 2005 and were not a 
source of harmful interference. The second was ``receiver overload'' or 
11receiver desensitization'' due to the powerful terrestrial 
transmissions exceeding the GPS receiver's normal tolerances with the 
MSS bands. The third was an effect known as ``intermodulation'' in 
which separate LightSquared signals interact to produce a composite 
signal in a different part of the spectrum. In this case, 
intermodulation products were observed on and near the center frequency 
of the primary GPS signal known as L1.
    Figure 4 shows a snapshot from testing conducted in New Mexico 
earlier this year. The two large peaks are the expected LightSquared 
terrestrial signals and the smaller peak to the right is the observed 
intermodulation effect that lies at the same location as the GPS L1 
signal.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The operational impact of interference effects for scientific 
applications can be inferred from impacts to high precision receivers, 
networks of high precision receivers, and space applications. Virtually 
all tested precision receivers, those used by scientists and deployed 
in networks around the world, were harmfully impacted. In the TWG 
report, the GPS community concluded that 31 of 33 high precision 
receivers tested were significantly affected in the testing. This is an 
unavoidable and natural consequence of taking in as much of the GPS 
signal as possible using a wideband receiver. It is a natural 
consequence of accessing multiple radionavigation satellite systems 
that share the same RNSS band as GPS. Giving up access to the best GPS 
signals available or access to other RNSS satellite systems is not a 
solution for scientific users.
    In addition to direct effects on the receipt of GPS signals, the 
LightSquared signals create co-channel interference to MSS signals in 
the 1525-1559 MHz band where they operate. This blocks the receipt of 
those signals by GPS receivers that use them to create ``differential 
corrections'' to augment the accuracy of the basic GPS receiver. The 
FCC has licensed commercial firms such as Starfire and OmniSTAR to 
provide augmentation services that scientific, agricultural, and other 
users rely on today across the country.
    Due to the large distances involved, GPS receivers used for 
navigation on spacecraft may not suffer harmful interference from the 
LightSquared network. However, GPS receivers looking at the Earth would 
be affected. Such receivers are used to understand the ionosphere and 
atmosphere by looking at the behavior of the GPS signal as it passes 
through them. This enables great improvements to weather forecasts, 
tracking hurricanes and typhoons, and establishing precise climate 
benchmarks to allow actual measurements of climate change.
    In addition to scientific research, State and local governments use 
high precision GPS for mapping, surveying and infrastructure 
maintenance. High precision data is used in Geographic Information 
Systems (GIS) for asset management, emergency preparedness, disaster 
response and E911 mapping, public sector water, wastewater and electric 
utilities, public works, environmental management, dam and structure 
monitoring, environmental health, insurance rating districts, flood 
zones, tax appraisals, the provision of geodetic control networks, and 
a host of other functions.

The Government's NPEF Report Is Consistent With TWG Report Results

    The National PNT Engineering Forum (NPEF) report contains the 
results of testing by federal agencies, including the science agencies, 
and had technical results consistent with those of the TWG effort. As 
with the TWG, multiple approaches were taken to ensure theoretical and 
experimental results agreed with each other. A summary of the TWG 
report is available from the National Coordination Office and in other 
testimony. I would like to therefore highlight the two recommendations 
made by the NPEF:

    <bullet>  Recommendation 1: LightSquared should not commence 
commercial services per its planned deployment for terrestrial 
operations in the 1525-1559 MHz Mobile-Satellite Service (MSS) Band due 
to harmful interference to GPS operations.

    <bullet>  Recommendation 2: The U.S. Government should conduct more 
thorough studies on the operational, economic and safety impacts of 
operating the LightSquared Network, to include additional ATC signal 
configurations not currently in LightSquared planned spectrum phases, 
effects on timing receivers, as well as transmissions from LightSquared 
handsets. As part of these studies the compatibility of ATC 
architectures in the MSS L-Band with GPS applications should be 
reassessed.

    The two recommendations underscore the infeasibility of operating 
the LightSquared network as proposed without harmful interference to 
GPS. The recommendations also note areas where testing was incomplete, 
raising deeper questions about the feasibility of operating even 
previously approved MSS ATC networks in the band, never mind a 
broadband terrestrial network. The MSS ATC networks approved earlier 
had never been deployed and realistic equipment was not available to 
verify the regulatory limits truly prevented harm to GPS. Given the 
discovery of intermodulation products, a reexamination of the 
feasibility of ``traditional'' ATC would be prudent.

LightSquared's Proposed Solution Is Not Sufficient

    LightSquared has proposed to change the order in which they would 
deploy the same frequencies in the band adjacent to GPS. There are two 
channels of spectrum in the band adjacent to GPS, which they originally 
planned to deploy in a certain order. They now propose to suspend, for 
what is implied to be a short time, use of the upper 10 MHz channel and 
begin with the lower 10 MHz channel. This would potentially result in 
impacting high precision scientific users first and other users, such 
as aviation, later.
    The company has also proposed reducing the power of the terrestrial 
base stations by 50% from allowable levels. Unfortunately, that does 
not help, as cell site transmitter providers do not even supply 
equipment at the very high 15.8-kilowatt level the FCC proposes to 
allow. All testing was done with equipment that was available, that is, 
at roughly 10% of the maximum allowable level.
    Even if it was considered acceptable to sacrifice high precision 
GPS users, the ``lower 10 MHz'' approach could be solution only if it 
was a complete solution. Unfortunately, it is not. LightSquared has 
been consistently clear that a commercially viable network would 
require more spectrum, preferably close to where they would already be 
operating.
    Deployment in the lower block alone has not been concluded to be 
compatible with GPS and would likely require around 15 years prior to 
commencement for new technology to be developed and existing user 
equipment to be replaced. However, without a permanent restriction on 
use of additional spectrum for terrestrial operations in other parts of 
the band, this approach merely shifts the burden of mitigation to the 
existing GPS users.
    Section 25.255 of the FCC's rules makes the obligation of resolving 
harmful interference to other services that is caused by MSS ATC 
operations the sole responsibility of the ATC operator. \1\ Nominally, 
at least, even under the LightSquared order, LightSquared is still an 
ATC operator subject to Section 25.255. It cannot require authorized 
users of another service to take measures--especially measures deemed 
infeasible or inappropriate by a substantial majority of the TWG--to 
mitigate the harmful interference. This obligation is LightSquared's 
alone.
---------------------------------------------------------------------------
    \1\  47 C.F.R. Sec.  25.255.
---------------------------------------------------------------------------
    There is no viable or verifiable technological solution that has 
been identified to date that would allow a ground-based broadband 
communications network to operate in close proximity to GPS signals. 
This is in part why the band has, for decades, been internationally 
allocated for space services. Even if some new, as yet unforeseen, 
technology did appear, the industrial, commercial and public sector 
users of GPS equipment routinely take up to 15 years to complete a 
normal replacement cycle. Equipment installed on aircraft, vessels, 
agricultural, construction and mining machinery, commercial vehicles or 
high-cost professional instruments used today are not thrown away after 
a few years of use--their lifetimes are measured in decades.
    There is one possible solution available today that I am aware of. 
LightSquared could operate the satellite part of its network, serving 
rural and public safety users outside of cellular coverage areas, in 
the L-band adjacent to GPS while developing its new high-powered 
terrestrial portion of its network in a different band, where it would 
be compatible with adjacent uses. Possible locations include the S-Band 
(above 2 GHz) or the 700 MHz bands already allocated to terrestrial 4G 
wireless services. The MSS satellite part of the LightSquared network 
is compatible with neighboring GPS uses and thus can coexist with all 
GPS services, applications and existing user equipment. The terrestrial 
component of the LightSquared network has not yet been built; therefore 
it is at least technically feasible to move to a different band from 
the outset, thus avoiding large scale disruption to GPS users across 
the United States.

Competing National Policy Objectives Need To Be Reconciled

    On June 28, 2010, the Administration released two major policy 
statements. The first was aimed at expanding spectrum for wireless 
broadband use. \2\ The Memorandum from the President called for 
collaboration between the FCC and the National Telecommunications and 
Information Administration to ``make available a total of 500 MHz of 
Federal and nonfederal spectrum over the next 10 years, suitable for 
both mobile and fixed wireless broadband use.'' However, the Memorandum 
cautioned that agencies were to ``take into account the need to ensure 
no loss of critical existing and planned Federal, State, local, and 
tribal government capabilities . . . .'' \3\
---------------------------------------------------------------------------
    \2\  The White House, ``Unleashing the Wireless Broadband 
Revolution,'' Office of the Press Secretary, June 28, 2010.
    \3\  op cit.
---------------------------------------------------------------------------
    On the same day, the White House also released a new National Space 
Policy that specifically referred to GPS as a form of space-based 
positioning, navigation, and timing. \4\ In the policy, the President 
said, ``The United States must maintain its leadership in the service, 
provision, and use of global navigation satellite systems.'' More 
specifically, this required the ``Protection of radionavigation 
spectrum from disruption and interference.''
---------------------------------------------------------------------------
    \4\  The White House, ``National Space Policy,'' Office of the 
Press Secretary, June 28, 2010.
---------------------------------------------------------------------------
    Considering the objectives of both policies, there seem to be four 
options for consideration by the FCC, Administration and Congress:

    <bullet>  1. Accept the most recent LightSquared proposal to begin 
deployment in the lower 10 MHz of the 1525-1559 MHz band. Additional 
testing to define mitigation measures should be required as a condition 
of approval.

    <bullet>  2. Rescind the LightSquared waiver and bar commercial 
operations even in the lower 10 MHz pending completion of further 
testing and demonstration of specific mitigation measures by 
LightSquared to preclude harmful interference to GPS.

    <bullet>  3. Assist LightSquared in finding alternative spectrum 
for its terrestrial network outside the L-band. The FCC would have to 
explore legal and regulatory challenges in aiding such as move that may 
or may not be economically feasible for the company.

    <bullet>  4. Conclude that the terms of the LightSquared 
conditional waiver have not been met and withdraw LightSquared license 
to deploy a terrestrial network in the 1525-1559 MHz band.

    In my judgment, the safest and most fact-based course of action is 
number 4. It is the only approach fully consistent with the terms of 
both the National Space Policy and the Broadband Memorandum as well as 
the FCC's own regulations.

Conclusion

    It is sometimes argued that accommodations by legacy systems need 
to be made to enable new uses of spectrum and that doing so enables 
more efficient use of a scarce, natural resource. When it comes to 
spectrum efficiency, GPS is arguably the most efficient use of spectrum 
the world has ever seen; almost a billion people are currently 
benefitting from the 20 MHz GPS signal that is available today. In fact 
the entire global population could use GPS without any additional 
spectrum being used. This use represents a massive installed base and 
source of advantage for the United States, of which international 
scientific cooperation is but one part. Most importantly, it represents 
a high degree of trust and confidence in the United States and its 
stewardship of GPS.
    If allowed to operate in either its original or modified form, the 
LightSquared terrestrial network would create unacceptable harmful 
interference to GPS users and high precision scientific users in 
particular. Such operations would be contrary to the technical facts 
established by independent testing; they would improperly place burdens 
on the victim service, in this case GPS, undermine the international 
credibility the United States has built for GPS, and would be contrary 
the National Space Policy and the terms of the President's own 
broadband initiative.
    The last 20 years have seen continuous improvement in the ability 
to use GPS for measurements of the Earth, the atmosphere, and the 
biosphere via precise positioning, navigation, and timing. If the 
LightSquared terrestrial network is allowed to operate as proposed, it 
will mark a permanent decline in the beneficial capabilities GPS has 
afforded scientific users in the United States. It would create new, 
additional, and unforeseen, costs for federal science agencies as well 
as State and local governments who rely on high precision GPS-derived 
data.
    Thank you for your attention. I would be happy to answer any 
questions you might have.

ATTACHMENT 1--HISTORICAL NOTES ON MSS ATC AT L-BAND

    August 17, 2001: Notice of Proposed Rulemaking (NPRM) on MSS ATC 
Released

    <bullet>  Based on applications of ICO and Motient MSS systems

    <bullet>  Included consideration of out-of-band emission limits to 
protect GPS

    July 25, 2002, Agreement Between MSV and U.S. GPS Industry Council

    <bullet>  Parties reach agreement on a--100 dBW/MHz limit for MSS 
ATC base stations in order to protect GPS/RNSS in the 1559-1610 MHz 
band.

    <bullet>  Predicated on the assumption that ATC use remained tied 
to satellites and that the service would be relatively low-density 
fill-in.

    February 10, 2003: First Report and Order and NPRM on MSS ATC 
Released

    <bullet>  FCC makes clear that MSS ATC is to augment satellite 
service:

        Para. 1: ``We do not intend, nor will we permit, the 
        terrestrial component to become a stand-alone service.''

        Footnote 5: ``While it is impossible to anticipate or imagine 
        every possible way in which it might be possible to `game' our 
        rules by providing ATC without also simultaneously providing 
        MSS and while we do not expect our licensees to make such 
        attempts, we do not intend to allow such `gaming.' For example, 
        even if an MSS licensee were to enter an agreement to lease 
        some or all of the access to its authorized MSS spectrum to a 
        terrestrial licensee such spectrum could only be used if its 
        usage met the requirements to ensure it remained ancillary to 
        MSS and were used in conjunction with MSS operations, i.e., 
        that it met all of our gating requirements. The purpose of our 
        grant of ATC authority is to provide satellite licensees 
        flexibility in providing satellite services that will benefit 
        consumers, not to allow licensees to profit by selling access 
        to their spectrum for a terrestrial-only service.''

    <bullet>  Adopts ``Gating Criteria'' (FCC Part 25.149(b)(4)) to 
limit terrestrial deployment to that which is ancillary to the 
satellite component of the network. Effectively prohibits ATC-only or 
stand-alone terrestrial services.

    <bullet>  Declined to adopt limits on emissions into the RNSS band 
(1559-1610 MHz) more stringent than GMPCS rules (-70 dBW/MHz) for BS 
and METs and mentioned possible rulemaking on GPS protection in a 
future proceeding.

    <bullet>  Number of base stations limited to 1725.

    <bullet>  EIRP limited to 14.1 dBW (AE6 25 watts) towards the 
horizon and maximum EIRP of 23.9 dBW (AE6245 watts) per sector (derived 
from limit on per-carrier EIRP of 19.1 dBW and the number of carriers 
per sector limited to three).

    November 8, 2004: MSV Order and Authorization Released

    <bullet>  MSV commits to meeting a--100 dBW/MHz limit in 1559-1610 
MHz RNSS band, which FCC imposes as a condition of the authorization 
(noting these limits are more stringent than FCC rules require).

    <bullet>  Limit of 1725 base stations increased to 2415.

    <bullet>  Gating criteria in 25.149(b)(4) retained.retaining the 
prohibition against stand-alone terrestrial services.

    <bullet>  Overhead gain suppression relaxed to permit base-station 
antenna gain of up to 27 dB below the maximum directional gain in 
vertical angles from 30.5 to 55.5 and up to 30 dB below the maximum 
directional gain in vertical angles from 55.5 to 145.5, as requested.''

    <bullet>  Aggregate EIRP increased (subject to some restrictions) 
to 26.9 dBW toward the physical horizon and 31.9 dBW in other 
directions.

    February 25, 2005: Memorandum Opinion and Order (MO&O) Released

    <bullet>  Limit on number of base stations eliminated in favor of 
delta T/T limit of 6% to protect Inmarsat MSS in the L-band.

    <bullet>  Aggregate EIRP increased by rule (beyond just waiver 
granted to MSV) to 31.9 dBW (AE61550 watts) generally and 26.9 dBW 
(AE6490 watts) per base station sector toward the horizon, representing 
an 8 dB increase over the previous power limits that apply when three 
carriers are used within an antenna sector.

    <bullet>  Gating criteria in 25.149(b)(4) retained.retaining the 
prohibition against stand-alone terrestrial services.

    <bullet>  No L-band MSS ATC network or equipment deployed.

    Note: Order includes extensive testing and analysis of Inmarsat 
terminals and interference from MSV ATC network.

    December 21, 2007: Inmarsat-MSV Spectrum Sharing Agreement

    <bullet>  According to Satellite Today (January 2008): The 
agreement was defined in two phases. Phase one, from December 2007 to 
September 2011, gives the companies an 18- to 30-month period to 
transition to the modified band plan, including ``modification of 
certain of Inmarsat's network and end user devices and a shift in 
frequencies between the MSV parties and Inmarsat,'' according to the 
U.S. Securities and Exchange Commission report. MSV will be allocated 
28 MHz of L-band spectrum and will pay Inmarsat $250 million in cash 
and $87.5 million in equity for additional spectrum. During phase two, 
from January 2010 to January 2013, Inmarsat will be able to modify the 
amount of spectrum it uses over North America and make that bandwidth 
available to MSV for rental use. MSV will pay $115 million for this 
additional spectrum.

    <bullet>  No L-band MSS ATC network or equipment yet deployed.

    March 26, 2010: FCC Issues Order on Harbinger Acquisition of 
SkyTerra

    <bullet>  Relevant Milestones:

        March 27, 2009: Harbinger begins acquisition of SkyTerra with 
        filing to FCC for transfer and control of SkyTerra to Harbinger 
        Capital Partners, Ltd.

        November 24, 2009: FCC issues Protective Order allowing 
        submissions by Harbinger and SkyTerra to be handled as 
        proprietary and confidential material upon request.

        February 26, 2010: Harbinger submits information on its 
        business model, including the planned build-out of an extensive 
        terrestrial network, and requests it be treated as proprietary 
        and confidential information as allowed by the Protective 
        Order. The new business model (including the proposed building 
        of an extensive terrestrial network) is not coordinated with 
        the IRAC and Federal agencies.

        March 26, 2010: FCC issues a Memorandum Opinion and Order and 
        Declaratory Ruling finalizing the acquisition of SkyTerra (to 
        be renamed LightSquared) by Harbinger.

        March 26, 2010: Harbinger files a letter with the FCC on the 
        same day the Harbinger Order is released, making available 
        information on its business plans (including the building of an 
        extensive terrestrial network) that was filed under a request 
        for confidential treatment on February 26, 2010.

        April 1, 2010: Verizon files Petition for Partial 
        Reconsideration of the Harbinger Order, alleging various 
        process fouls and irregularities in the proceeding (believed to 
        be still pending)

        .April 2, 2010: AT&T files Petition for Reconsideration of the 
        Harbinger Order, alleging various process fouls and 
        irregularities in the proceeding (believed to be still 
        pending).

        April 15, 2010: Harbinger withdraws its request that the 
        February 26, 2010, information on its business plans be treated 
        as confidential material.

    March 26, 2010: FCC Releases Order and Authorization to modify 
SkyTerra ATC license

    <bullet>  Aggregate EIRP increased to 42 dBW (AE615.85 kilowatts) 
per sector.

    <bullet>  No change to gating requirement and tying of ATC to 
satellites.

    <bullet>  Power density limits relaxed near airports and waterways 
subject to Inmarsat making its terminals less susceptible to receiver 
overload interference (see paragraphs 35, 36).

    <bullet>  Increased protection for GPS from femtocells added to 
SkyTerra authorization: PSD of emissions in the 1559-1605 MHz band 
limited to -114.7 dBW/MHz and that PC data cards transmitting to such 
femtocells should limit the PSD of emissions in the 1559-1605 MHz band 
to -111.7 dBW/MHz.

    <bullet>  No L-band MSS ATC network or equipment yet deployed.

    November 2010: FCC Initiates LightSquared Waiver Proceeding

    <bullet>  November 18, 2010: LightSquared Files Report to FCC on 
its MSS ATC Plans and notes that if the plans are not in conformance 
with the ``gating criteria'' in FCC's rules, request that the 
requirement be waived.

    <bullet>  November 19, 2010: FCC initiates proceeding on LSQ waiver 
request by placing the application on Public Notice and inviting public 
comment. By a separate Order on November 26, FCC extended comment 
deadline to December 2, 2010, with reply comments due December 9, 2010.

    <bullet>  No L-band MSS ATC network or equipment yet deployed.

    January 26, 2011: FCC Grants LightSquared Waiver of Gating Criteria

    <bullet>  Federal agencies object to granting the gating waiver 
prior to completion of technical studies establishing whether GPS would 
be protected. The Department of Defense separately expresses its 
opposition to the FCC Chairman.

    <bullet>  While noting agency objections and the creation of a 
``new interference environment'' NTIA does not formally block the FCC 
waiver proposal.

    <bullet>  On January 26, 2011, FCC granted a waiver to LightSquared 
of FCC rule 25.149(b)(4), permitting stand-alone terrestrial use for 
the first time.

    <bullet>  Establishes Technical Working Group (TWG) to examine 
potential interference to GPS.

    <bullet>  Report from the TWG due to FCC on June 15, 2011. The FCC 
later granted a two-week extension to June 30, 2011 at the request of 
LightSquared.

    <bullet>  No L-band MSS ATC network or equipment deployed. First 
base station equipment provided for testing in April 2011.

    June 30, 2011: FCC places TWG Report on docket for Public Comment

    <bullet>  Period for comments closes July 30, 2011. Period for 
reply comments closes August 15, 2011.

    Chairman Hall. All right. Thank you, and thank you for your 
testimony. I would remind the Members of this Committee that 
the rules require and allow questioning for five minutes.
    And the Chair at this point will open the round of 
questions. I relegate myself to five minutes. Hope each of you 
can stay within that deal.
    And I will start out by asking Mr. Appel, are you familiar, 
Mr. Appel, with the LightSquared impact to aviation that is 
based on LightSquared? Yes. I think written by and prepared by 
J.C. Johns. Is he the director?
    Mr. Appel. He is one of the FAA officials overseeing a lot 
of this effort. Yes.
    Chairman Hall. All right, and for the first five, one, two, 
three, four--Mr. Russo, Ms. Glackin, Mr. Sparrow, Mr. Appel, 
you are all the representatives of the people, are you not? All 
appointed, not elected, appointed, and serving, and I believe, 
Mr. Appel, you were just confirmed by the Senate, were you not? 
Recently.
    Mr. Appel. 2009, actually.
    Chairman Hall. Well, good luck to you.
    Mr. Appel. Thank you.
    Chairman Hall. And I guess I will ask all of you, Mr. 
Appel, are you familiar with the FAA's analysis of the impact 
on LightSquared's network, and that is what this study is.
    Mr. Appel. Yeah. There have been a number of internal 
analyses of the FAA, and I am generally familiar with them. 
Yes.
    Chairman Hall. And is this assessment based on studies of 
LightSquared, LightSquared's Technical Working Group, their 
radio technical commission for aeronautics, and other national 
PNT engineering form reports?
    Mr. Appel. My understanding is that the work that the FAA 
did was in conjunction with the Technical Working Group and 
those other groups. Yes.
    Chairman Hall. And I think in my opening statement I 
mentioned some of the real problems. Did that--let us talk 
about the impact of LightSquared's network. Did that assessment 
indicate an increase in potential aviation fatalities?
    Mr. Appel. My understanding was that there was an internal 
FAA analysis looking at the initial LightSquared proposals that 
did some early estimates based on the original scenario. I 
think that a lot of that work has been superceded by looking at 
the current scenario.
    Chairman Hall. And I think the estimate was around 800 
reduced fatalities over 10 years, and to be more--to be exact, 
that is something I think we should be, there is a 64 air 
carrier and one was mentioned by the one that had a Congressman 
aboard. I think I remember the day that Congressman left here 
to go on an international meeting. It was a lot of secrecy 
about it. I have even been told that some people thought the 
airplane was shot down because he was on it, which is a bad 
loss of life there, and they were supposedly over into the 
wrong airways when they got shot down.
    But that was the 64. That is part of the air carrier and 
then the general aviation part, there is 730 reduced fatalities 
over 10 years according to this potential averted fatalities 
report and for a total 794, not 800, but 794, and also in the 
report they indicated the cost of money. That based on input 
from RTCA as well as National Space-Based Position, Navigation, 
and Timing Systems Engineering Forum, proposed LightSquared 
development would result in an estimated aviation community 
cost. Community cost of at least $72 billion stemming from two 
billion loss of existing GPS efficiency benefits, five billion 
loss of existing GPS safety benefits, 59 billion due to delayed 
NextGen benefits, and six billion in aircraft retrofit costs.
    Additionally, LightSquared deployment resulted in an 
additional 30 million tons of CO<INF>2</INF>, and FAA would be 
forced to re-plan 17 billion in NextGen investments with 
associated additional development costs. Those are within the 
findings of the FAA, Federal Aviation Administrator's research 
and report.
    Are you satisfied with that, the accuracy of it, and have 
you examined it on your own?
    Mr. Appel. My--I have looked at it. My colleague, the head 
of the FAA, the Administrator, Randy Babbitt, when asked about 
this issue, has made clear that he is not going to let anything 
happen that is going to jeopardize safety of aviation. We have 
gotten progressively better and better every year in our 
aviation safety in this country, and the FAA takes every 
measure possible to ensure that no matter what the potential 
threat to safety, we address it before it happens.
    Chairman Hall. All right. I just have a little bit more 
time left. I think you have answered my question, and I would 
ask Ms. Glackin, and you are the only one I will ask this 
because I don't have the time and because you are associated 
with the weather, and we are all aware of some weather around 
here, this Nation at this time, more than ever before. I don't 
ever remember this many earthquakes or forest fires.
    If NOAA received full funding for its satellite programs 
but the LightSquared proposal was approved, how would the 
Nation's weather forecasting capabilities be affected?
    Ms. Glackin. NOAA has----
    Chairman Hall. If you can give me a good quick answer.
    Ms. Glackin. Yeah. I was going to say even with that full 
funding NOAA has concerns about the impacts of LightSquared 
because depending on how it is implemented it touches so many 
parts of our warning mission, from our radars on the ground to 
the satellites that are operating in space.
    So I couldn't give you any confidence today that we would 
be able to successfully deliver on that mission. It would be 
impacted to some degree, and we would need to do much more 
testing to understand that.
    Chairman Hall. And in closing, Mr. Russo, Mr. Sparrow, Mr. 
Appel, Dr. Applegate, would your answers have been similar to 
her answer as it affects the division you represent for the 
people of the United States?
    Mr. Russo. Yes, sir.
    Chairman Hall. Each of you have a yes or no on that?
    Mr. Sparrow. Yes, sir.
    Mr. Appel. Yes, sir.
    Dr. Applegate. Yes.
    Chairman Hall. All right. I have used up all my time.
    At this time I recognize Ms. Johnson, the Ranking Member, 
for five minutes or whatever time you have to use. Ms. Johnson.
    Ms. Johnson. Thank you very much.
    Chairman Hall. I went over about almost a minute.
    Ms. Johnson. A little over a minute.
    Chairman Hall. You can go for six minutes if you want to.
    Ms. Johnson. I understand that minimal testing was done by 
the Technical Working Group to examine whether LightSquared's 
proposed plan to re-phase its bandwidth use and reduce power 
will mitigate the network's impact on most GPS applications. 
Agency statements today are consistent in their call for 
additional testing.
    What do agencies need to know about the new LightSquared 
proposal to assess its impact on their programs? How long this 
process take, and I would like to hear from all witnesses, but 
let's start with Mr. Russo and Mr. Carlisle.
    Mr. Russo. Yes. The first part of the question in terms of 
what we would need to know, the first thing we need to know is 
what the final end-state configuration is. In LightSquared's 
recommendation paper of 29-June they had three recommendations. 
One was to broadcast initially in the lower 10 megahertz of 
their band, two was the reduction in power to basically the 
same power level that we were testing at, and the third one is 
the one that is problematic for us, which is that at some point 
in the future they would be broadcasting in the upper half, and 
that point is undefined. They called it a standstill period, 
and we don't know at what point that would occur. That is the 
key missing piece to being able to construct a new test to say 
whether we will or will not have substantial interference.
    And in terms of how long it would take, that will depend 
somewhat on that answer.
    Mr. Carlisle. To be clear, it is not true that there was no 
testing at the lower 10 by the Technical Working Group. In 
fact, every subgroup tested the lower 10, and it wasn't either 
in the final days. Some of the subgroups had from the very 
beginning of their work a plan to test the lower 10 against 
their devices.
    So in effect, there has been testing of 130 devices across 
seven different categories on the lower 10, and some of those 
categories are fine. Precision is not as we have heard here 
today. We take a measurement of 10 out of the 38 precision 
devices that were ultimately tested actually will operate fine 
in the presence of the power levels that will reach the ground 
in our network.
    But very quickly I would say if there is a specific plan 
for additional federal testing, we have yet to hear it from any 
agency at this point. The only claim we have seen in terms of 
additional testing needed is from the Department of Defense to 
test certain classified receivers that were not tested on the 
lower 10 as part of the Department of Defense's testing.
    But we are completely open to speaking with the government 
agencies about facilitating further discussion on this and also 
about whether the upper 10 that Mr. Russo just mentioned is 
ever going to be--it can be used down the road.
    Ms. Johnson. Do you want to comment on that?
    Ms. Glackin. I would just comment quickly, point out that 
Mr. Russo's original testimony really highlighted some of the 
shortfalls in the testing that was done, and in particular that 
only one transmit antenna was part of the testing 
configuration, and we know that there is--there can be 
interference effects, you know, are additive there and also the 
fact that the time period was so compressed. There is a lot of 
complexity to work through.
    Ms. Johnson. Thank you. Mr. Russo, in your opinion is it 
technically feasible to design a filter that simultaneously 
allows GPS users to listen to signals in LightSquared's 
allocated band, and block LightSquared's signals?
    Mr. Russo. I am sorry, ma'am. I don't know the answer to 
that. We are dealing with a very large power difference. At 
half a mile the LightSquared signal is five billion times more 
powerful than the GPS signal by the time it gets down from 
space. That is a big number to be able to reconcile.
    Dr. Parkinson from Stanford University expressed it this 
way, that the GPS signal is like a teaspoon of water. The 
LightSquared signal is Niagara Falls. That is about a five 
billion difference. I am a very optimistic person. I think that 
given time, given the right technical people talking to each 
other there may be a way to do this, but I certainly don't know 
that, and I certainly would want to see that tested before I 
would be able to say that would work.
    Ms. Johnson. Can you estimate its cost?
    Mr. Russo. No. I am sorry. I can't.
    Ms. Johnson. Mr. Carlisle, would you like to comment on 
that?
    Mr. Carlisle. Yes, I would. Actually, its effect which is 
the comparison of our base station power against the power 
level of GPS signals was known in 2005. So my question 
generally would be why did the GPS manufacturers not test that 
and determine there was an effect? Why was the overload effect 
never mentioned during the four years of testing, and why 
wasn't that made a condition of our--any sort of condition 
about our investing and deploying the network? It was only 
brought up in the last year.
    Now, we have done everything we can in order to address 
this issue, and we have made sincere, real commitments in order 
to address it, but at the end of the day this is a six-year-old 
issue on which nothing was done in order to address receiver 
overload.
    Ms. Johnson. One last quick question. Dr. Pace, would you 
comment on that?
    Dr. Pace. Well, I would first of all say I agree that 
trying to overcome a billion dollar, I mean, excuse me, a 
billion times power difference is technically very difficult, 
and because of that technical uncertainty it is difficult to 
say how much money would be required.
    With regard to how long this issue was known, I think one 
additional fact is that the FCC time and time again from the 
original discussions in 2002, up until January of 2010, were 
very adamant that they would forbid any sort of stand-alone 
terrestrial wireless service. In fact, they made a number of 
points in the proceedings about how they would not allow 
evasions of the satellite requirement, what was called the 
gating requirement, the need to link to a satellite.
    This linkage is very important because it meant that the 
ground-based systems, the ancillary treshold component, could 
not interfere with the satellite, and therefore, the mobile 
satellite service band would remain a quiet band. So I would 
say that the GPS industry for the period that Mr. Carlisle 
mentions was relying on the assurances of the FCC that the band 
would remain a satellite band, and the issue of numbers of 
ground stations and powers and so forth is truly an ancillary 
issue to the core question of would this band remain a 
satellite band. If it is a satellite band, then you have no 
problem. If it is not a satellite band, you have a problem that 
you see here today.
    Ms. Johnson. Thank you. My time has expired.
    Chairman Hall. Thank you. The gentleman from Wisconsin, the 
Vice Chairman of this Committee, Mr. Sensenbrenner, is 
recognized for five minutes.
    Mr. Sensenbrenner. Thank you very much.
    Mr. Carlisle, all of your contracters on this panel don't 
seen to have a high regard for your position, and I have got a 
few questions. Maybe I can blow a little bit of the fog away.
    Say you don't get permission from the FCC to use the high-
end band, meaning the upper 10, for LightSquared. Would you 
still invest the $14 billion in this project?
    Mr. Carlisle. We would invest the maximum amount of money 
necessary in order to build out on the spectrum we had. So if 
we can't use the--if we can build out on the lower 10, we will 
invest as much as we need to get a robust network.
    Mr. Sensenbrenner. How much would that be?
    Mr. Carlisle. I can't tell you that sitting here right now. 
I would need a network engineer and a business model to go 
through that, but right now the plan is 14 billion.
    Mr. Sensenbrenner. Now, what would happen if there was a 
reduction in power? You know, we have heard about the teaspoon 
of water versus Niagara Falls. Would you still be able to make 
a go of it if you got a tablespoon of water?
    Mr. Carlisle. Well, that is--in order to provide a wireless 
broadband network, you need cell towers or base stations that 
are operating consistent with the power levels that you need 
for that in order to make it economically viable. Otherwise you 
just have so many cell towers it becomes economically 
infeasible to provide service.
    So at the power levels we have committed to right now, that 
is a network that is the size of between 30,000 and 40,000 base 
stations.
    Mr. Sensenbrenner. Okay. Now, you made a deal with Sprint, 
and they have got a lot of cell towers around the country.
    Mr. Carlisle. Uh-huh.
    Mr. Sensenbrenner. Because you would have access to those, 
would you still spend the 14 billion?
    Mr. Carlisle. Our plan is yes. We are spending nine billion 
with Sprint alone in order to deploy the network, and the 14 
billion is the total of capital and operating expenses over 
eight years.
    Mr. Sensenbrenner. Now, how much of that is Sprint's money, 
and how much of that is LightSquared's money?
    Mr. Carlisle. Nine, the $9 billion is what we are spending 
to get the network deployed.
    Mr. Sensenbrenner. Is this LightSquared's money?
    Mr. Carlisle. I believe so. Yeah. I am not sure what the--
we are spending--we are giving--spent $9 billion to----
    Mr. Sensenbrenner. You know, I noticed the name of what is 
now LightSquared has been changed as a result of reorganization 
several times in the last decade, which is----
    Mr. Carlisle. Right.
    Mr. Sensenbrenner[continuing]. Not particularly comforting 
to me, you know, unless something end up midstream on this. The 
other line of questioning I would like to have in the time that 
I have remaining is what kind of testing has there been on 
precision GPSs, which are the most expensive ones and, you 
know, the ones that I would say that we need particularly in a 
transportation sector to make passengers safe.
    We have heard that retrofitting as a result of potential 
interference would cost billions of dollars, largely in an 
airline industry that really isn't all the financially healthy. 
What kind of testing have you done on this stuff?
    Mr. Carlisle. Well, if you are talking about--the Technical 
Working Group tested both aviation receivers, which are used in 
aircraft, and also the standards that are applicable to the WAS 
network that is going to be used for Next Generation, and 
separately-tested precision receivers, which are largely used 
in agriculture, construction, survey, and for scientific 
research as we have heard today.
    Those precision receivers were tested fully on the bottom 
10. In terms of the level of the scale that we are talking 
about here, if we are talking about cellular phones, personal 
navigation devices, aviation receivers, and timing receivers, 
it is about 400 million devices around the country. If we are 
talking about precision as it was tested at the Technical 
Working Group, it is less than a million, probably about--
between 500,000 and 750,000 receivers.
    Mr. Sensenbrenner. Okay.
    Mr. Carlisle. So in terms of the investment needed to 
replace those receivers, this is not, you are not talking about 
replacing 400 million receivers. You are talking about 
replacing a much smaller number.
    Mr. Sensenbrenner. One of the complaints I have heard is 
that LightSquared has been changing the parameters of what it 
proposes to do before the testing is completed. The Committee 
has information that you have a newer proposal. Has that been 
filed with the FCC yet?
    Mr. Carlisle. We have a proposal in addition to our last 
proposal. It was filed at the FCC on Wednesday, and it is 
attached to my testimony.
    Mr. Sensenbrenner. Okay. Now, are you going to stick by 
that proposal until the testing is done, or if something bad 
comes out, is there going to be another proposal that would be 
filed, in which case the testing would have to go to square 
one?
    Mr. Carlisle. Well, let me respond to that in this way. We 
are sort of--we are acting in a situation where the GPS 
manufacturers have--and the federal agencies have most of the 
information about what GPS devices they use and how they 
operate. So our original proposal was in the absence of having 
that information. As the information started to become 
available, started to become obvious that there was going to be 
a problem on the upper 10, we came up with a proposal that 
would mitigate the issue by moving to the lower 10 at a cost of 
$100 million to the company.
    That is what you do when you see engineering problems.
    Mr. Sensenbrenner. I don't think that answers my question 
of whether we are going to have to go back to square one again 
with a new proposal if the testing shows that there is another 
problem that comes up.
    Mr. Carlisle. Well, the proposal we have discussed this 
week is in addition to our other proposal, so it is incremental 
on top of it. If there are additional issues discussed, that 
come to light with regard to federal receivers or other 
receivers, we will take that into account and see what we can 
do to fix it. But at this point you do raise a very good issue 
in that we have made all the proposals to solve this issue, and 
we are spending all the money to do it. The GPS manufacturers 
have not.
    Mr. Sensenbrenner. Well, GPS was there first, and a lot of 
people use GPS, and, you know, I don't want to have to face my 
constituents at a town meeting if their GPS ends up not being 
what it is supposed to be and what it has been as a result of 
spectrum interference.
    You know, Mr. Carlisle, I wish I could have gotten more 
direct answers to questions that were pretty direct, but maybe 
you can supply them with written testimony later on.
    Mr. Carlisle. I would be happy to if there is anything I 
didn't answer. Sorry about that.
    Chairman Hall. All right. The gentleman's time has expired.
    The Chair recognizes the gentleman from California, Mr. 
McNerney, recognized for five minutes.
    Mr. McNerney. Thank you, Mr. Chairman. I just want to say 
to Mr. Carlisle, you knew this was going to be a tough 
afternoon, so I appreciate your coming out here and testifying.
    The frustrating thing is that every one of us would like to 
see you move forward because of the economic boom that 
broadband brings, but we are all very concerned about the 
impact on a very well-established and growing set of industries 
and businesses.
    One of the things I heard you say was that the problem in 
your opinion can be solved by responsible receiver design, and 
by that I take it you mean GPS receivers. And so that implies a 
significant investment by the GPS people, and I am not even 
sure that that technology exists. A lot of folks here don't 
seem to think that it does, but I agree with Mr. Russo. I think 
that there are technical solutions in the future that if enough 
investment is made will become available.
    So I am not going to be writing off anything at this point, 
but I would like to have a little bit more comfort that the 
technical solutions on the receiver side actually work.
    Now, you have charted out a plot on page seven of your 
Power Point that shows a 40 db reduction in signal 
transmission. How many orders of magnitude is 40 db, Dr. Pace? 
Do you have an idea? Because we are talking about a nine order 
of magnitude difference in signals. Is 40 db equal to nine 
orders of magnitude?
    Dr. Pace. I would have to go back and get my computer.
    Mr. McNerney. Yes. Does----
    Dr. Pace. I may look at Tony to save me, but it is on the 
order of multiple orders of magnitude. I mean, 1 db is a major 
change, 10 I think is an order of magnitude. So I would guess 
about four orders of magnitude unless someone wants to correct 
me.
    Mr. McNerney. Well, and Ms. Glackin is also concerned about 
the attenuated part also causing distortion of the GPS signal. 
We have a seven nanosecond delay. Is seven nanoseconds 
acceptable in precision GPS?
    Dr. Pace. I would have to say no, because, again, this is 
something that is very interesting in the different 
applications, and Mr. Carlisle is quite correct to point out 
the differences in the different categories of receivers. A 
seven nanosecond delay created by a filter may not be an issue 
for say a smart phone, but a seven nanosecond delay can be on 
the order of several meters of error that can be introduced, 
which is a big deal if you are a precision farmer working at 
two to 10 centimeters.
    So it depends on what is the baseline level of performance 
you are going to be looking for. A filter that may work for 
certain categories of users may not be applicable to others, 
and as Mr. Carlisle mentioned, the precision users are probably 
the most stressing of the folks you have to deal with.
    Mr. McNerney. Well, I mean, it seems to me that there are 
technical solutions in the future, and I want to go there, but 
what is happening is that you are sort of saying and Mr. 
Carlisle, you are saying that the rules have changed along the 
way from what was originally required, but the problem is that 
if you are talking about public safety, that is a losing 
argument. We need to get to a point where the public safety 
people are comfortable, or this isn't going to go forward. I 
mean, that is the bottom line, so I see a great deal of 
cooperation on your part and earnest effort to get there, but I 
am not convinced that we are there yet, and anything you can do 
to convince me or the Members of this panel would be useful.
    Mr. Carlisle. If I could respond on two things. First of 
all, on public safety the primary use of GPS by public safety 
is two ways. On timing receivers and in simulcast networks, the 
public safety entity is used and in vehicles and for mission-
specific use of personal navigation devices.
    Under our current set of proposals no public safety devices 
will have--no personal navigation devices will have a problem 
with the deployment of our network as long as we are operating 
on the lower 10 megahertz. On the timing devices that should 
also be the case, but if some of these timing devices happen to 
be in close proximity to one of our transmitters, there are 
replacement antennas available that are completely filtered 
against our signal that are available on the market today for 
$100 each. So this is an issue that can be handled.
    In terms of precision receivers, this is directly out of 
the report. It is slide 12 in the Power Point attachment to my 
testimony. This line is the power level that we will be 
broadcasting at that will reach the ground. These dots are all 
precision receivers that were tested. Now, most of those fall 
below the line and would show harmful interference. These ten 
above the line would operate fine in the presence of our 
signal.
    This is a design choice. It is not an immutable physics 
problem. We know it because we can see the performance of the 
receivers.
    Mr. McNerney. Okay. Well, one of the issues that has been 
brought up is a lack of testing in the lower 10 band, so I just 
don't think we are quite there yet, and I want to see what you 
are proposing to go forward because it just--we need jobs, and 
this is going to create them, but in my opinion we are not 
quite there yet, and I would like to see that happen.
    So with that I will yield back.
    Chairman Hall. I thank the gentleman.
    Next the gentleman from Maryland, Dr. Bartlett, is 
recognized for five minutes.
    Mr. Bartlett. Thank you very much.
    It seems to me that the actions of the FCC seven years ago 
might have anticipated that we would be here today talking 
about this problem because as I understand it, the FCC granted 
LightSquared, then known as MSV, conditional approval to build 
its integrated ATC ground-based wireless network using its 
satellite spectrum near the GPS signal. Wouldn't it have been 
expected that the enormous disparity between the GPS satellite 
signal and these ground signals would have produced some bleed 
that we would have this problem?
    I am a little concerned as to why that spectrum so close to 
GPS was granted. I am also confused by the FCC's rulings here. 
In 2003, when they adopted the initial rules allowing 
commercial satellite service providers who operate a ground-
based integrated with their satellite service, they made this 
statement. The purpose of our grant of ATC authority is to 
provide satellite licensees flexibility in providing satellite 
services that will benefit consumers, not to allow licensees to 
profit by selling access to their spectrum for terrestrial-only 
service.
    And then I note that on January 26 of this year the FCC 
granted LightSquared a conditional waiver of its ATC authority 
integrated service rule meaning its customers could offer 
terrestrial-only services.
    Now, did our staff make an error in this briefing paper, or 
is this a direct contradiction?
    Mr. Carlisle. Are you asking me or----
    Mr. Bartlett. Whoever can answer. Because it appears to me 
a direct contradiction. My concern is that I think that we, the 
government, are somewhat complacent in this problem that I 
wonder why we were ever--gave a spectrum so close to the GPS 
signal that when you have a billion time disparity, wasn't it 
anticipated that there was going to be a bleed over? Who would 
have thought there wouldn't have been a bleed over that would 
compromise the GPS? For at least the low-end technical 
receivers.
    Mr. Carlisle. Well, Congressman, the FCC process is only as 
good as the input it gets, and at the time from 2001 to 2005, 
the only issue that was discussed was the possibility of our 
signal bleeding over into GPS.
    Mr. Bartlett. Well, was it a given that being a billion 
times, if you went to a ground based and pumped it up, wasn't 
it just anticipated that a billion times more powerful signal 
was going to bleed over?
    Mr. Carlisle. And that is why we entered into an agreement 
in 2002, with the GPS Industry Council to filter our 
transmission so it would not bleed over. The issue that was 
not----
    Mr. Bartlett. It is bleeding over because many of the 
devices you tested were compromised by it, and now you are 
using only the lower end of it, which still bleeds over is my 
understanding.
    Mr. Carlisle. Well, as Dr. Pace's testimony points out, the 
testing actually showed that if you look at what our signal is 
doing, it is not tapering off into GPS and causing a problem. 
We have filtered it. The problem is caused by receivers that 
are looking not only at the GPS signal but also looking at our 
signals.
    So even if we have a filter so we don't bleed over into 
GPS, they are still seeing our signal. It is a receiver-side 
issue that was never raised between 2001 and 2005.
    Mr. Bartlett. But if the frequencies were further apart, 
this wouldn't be a problem. Right?
    Mr. Carlisle. Not--no, it would not be a problem and----
    Mr. Bartlett. Okay.
    Mr. Carlisle[continuing]. That is why we have offered to 
move to the lower part of our spectrum.
    Mr. Bartlett. Was there no signal more distinct from GPS 
that could have been given to LightSquared? I am confused as to 
why they ended up with a spectrum so close to the GPS.
    Mr. Carlisle. Well, we had been licensed to use that 
spectrum since 1989, when the FCC added the possibility of 
having a ground network. The only issue related to GPS 
interference that was raised was the issue that we accounted 
for in our filtering. This receiver overload issue was not 
raised to the FCC until September of 2010. Entities that had 
the information, the performance of their receivers and how 
much spectrum they actually look at, the GPS manufacturers did 
not raise it until then.
    Mr. Bartlett. But even with the filtering and even with 
only using the lower half of the band, don't we still have a 
very significant number of GPS receivers that are compromised?
    Mr. Carlisle. The testing shows that that would be 
precision receivers primarily, which amount to perhaps 750,000 
in the country compared to 400 million other types of----
    Mr. Bartlett. They both are big numbers.
    Mr. Carlisle. But not--in terms of precision receivers, not 
an impractical number to handle over time.
    Mr. Bartlett. Thank you, Mr. Chairman.
    Chairman Hall. I yield you another minute. Dr. Pace has 
been holding his hand up there for about five minutes, I think 
wants to help answer this question.
    Dr. Pace. Thank you. The thing I would have to add is that 
when the discussions took place between the GPS Industry 
Council and the predecessor organization, MSV, I was at NASA at 
the time, and so I knew that these two groups were going off to 
have these conversations with each other and the out-of-band, 
the emission limits, bleed-over issue was certainly one of the 
issues that was discussed in great detail before the groups 
came back to the FCC and came back to the government agencies 
to talk about what their solution was.
    I think an integral part of that solution was the fact that 
this was still supposed to be an ancillary terrestrial 
component, an add-on extension, a fill-in service to a 
satellite service. So the satellite gating requirement and the 
preservation of the band as a satellite band was crucial. It 
was not a matter of looking at one solution in isolation, that 
is the out-of-band emissions into the GPS band. It was a total 
look at what that band was like, what the neighborhood was 
like, and it rested on the assurances of the Commission that 
they intended and wanted to preserve that band for mobile 
satellite services.
    So I recall the very deep technical discussion, there was a 
total package that was looked at, there are a number of 
technical characteristics that were preserved. If one was to go 
and change those characteristics and say convert this satellite 
band to a mobile service, a terrestrial band, the normal 
process one would go through is a notice of proposed 
rulemaking. This is what happened up at other bands, what is 
called the S band up around two gigahertz. You have probably 
heard of Charlie Ergen and DISH Network and some of these other 
guys have proposals there.
    So the FCC engaged in proper notice and proposed rulemaking 
when they made other major changes. In this particular case 
they granted a waiver without really in my view sufficient 
technical data in place to support that waiver, then testing 
occurred after the fact to see if it could be made to work. 
They made a major change in the allocation of the band from 
satellite to a terrestrial service without the notice of 
proposed rulemaking that they engaged in in other areas.
    So I think your phrase that the government is a little 
compliant in this is actually quite true, that there were 
indications and encouragements made for a very worthy cause of 
more broadband but where sufficient homework was not done, and 
that has led to the situation we are facing today.
    Chairman Hall. Thank you very much.
    Next--do you yield back now, professor?
    Mr. Bartlett. One final comment, Mr. Chairman. I wonder is 
there not a technology that could migrate this system for the 
ground-based component that would make it not competitive or 
threatening to GPS?
    Do we have receivers that are designed to receive both the 
terrestrial signal and the space signal, or are they two kinds 
of--strength is enormously different; I would judge that you 
got two different----
    Mr. Carlisle. There are, well, for our band, yes, we are 
going to--the concept that this is going to be a terrestrial-
only network is wrong. We will continue to have an integrated 
network. We invested in a satellite. We will continue to use 
it. We will have dual-mode devices that will enable these 
devices to talk to the satellite and loop through it.
    Mr. Bartlett. But they are dual mode----
    Mr. Carlisle. Yes.
    Mr. Bartlett. [continuing]. Because they have a part of it 
which receives the terrestrial signal and another part which 
receives the space.
    Mr. Carlisle. Absolutely.
    Mr. Bartlett. We aren't concerned about the satellite I 
understand. It is only the terrestrial part of it that is a 
concern. Why cannot we simply migrate that signal so that it is 
not competitive?
    Mr. Carlisle. To the ground----
    Mr. Bartlett. Yes.
    Mr. Carlisle. Network somewhere else.
    Mr. Bartlett. Completely move the band width.
    Mr. Carlisle. Well, that has been proposed by some of the 
GPS manufacturers. We have invested $4 billion in the spectrum 
so far and but what those proposals amount to is go somewhere 
else and spend another $4 billion to develop your technology in 
another band. So that is one problem.
    The other problem is that where is it? Every piece of 
spectrum that is suitable for a ground network is already taken 
by someone else.
    Chairman Hall. I would be upset if I hadn't caused that 
last question, but I always get more of out Dr. Bartlett's 
questions than I do out of the answers. Thank you. You are a 
good Member.
    And we have another good Member that has been very patient. 
The gentlelady from Maryland, Ms. Edwards, my friend, is 
recognized for five minutes.
    Ms. Edwards. Thank you, Mr. Chairman, and thank you also to 
the Ranking Member and to our witnesses today.
    You know, I am just coming at this from your basic 
consumer. I think none of us can, you know, question the fact 
that GPS is so pervasive in our lives that obviously we don't 
even know it anymore because it is everywhere and everything, 
and that is a good thing, and I think it is one of those 
examples where the government has made a significant 
investment, and it is good government work, and you know, at a 
time when we seem to be, you know, cutting back and challenging 
every single aspect of government, I think the American public 
can be thankful for the investment that the Federal Government 
and taxpayers made in the development of GPS.
    I think the confusion here is that we have competing 
national policy directives. On the one hand we have the, all of 
the good work of our scientific and technological agencies that 
are dependent on GPS for important and critical services, and 
on the other hand we have a policy directive from the 
Administration, which I think is, you know, right in terms of 
expanding the ability of broadband to be accessed in multiple 
communities, and that was my signal that I am going to keep 
going until my time is up.
    And so--and I share that, I share the value of doing that. 
I mean, in urban and suburban areas, even like ones represented 
in my Congressional district, that are plenty of people who for 
a variety of reasons because of the level of competition and 
the lack of access, there are plenty of communities 
underserved, both suburban and urban, who need greater access 
and need that at competitive rates that people can afford. In 
rural areas, obviously, that challenge exists, too, and so it 
is a great goal to have to expand broadband access.
    And so what I would like to know is given the level of 
investment that the Federal Government has put in and the 
competing policy directives, why it is that our agencies don't 
have some responsibility and the Federal Government doesn't 
have some responsibility to figure out a solution that allows 
LightSquared to move forward at the same time that we protect 
our vital GPS services. And it does seem to me that our federal 
agencies can't just sort of sit and wait and say, well, 
LightSquared, you figure that out without some responsibility 
of our own agencies.
    I mean, NextGen, for example, is just in development. Why 
is it that we are not investing in the technology that is going 
to allow for the existence of these two services, even if it 
means that at least part of the band width isn't used in order 
to guard GPS but then allows LightSquared to develop the part 
of the band with--that can be used.
    And so my question for the agencies is what investment are 
you all making to try to meet the dual directives, policy 
directives of the Administration that I outlined previously?
    Any one of you can take that question.
    Mr. Russo. I will start off, see if I can get part of this. 
We recognize the dual directives. The one piece I want to point 
out is that the President's broadband directive also contains 
the caveat that it not be done at the expense of critical 
federal, state, and local capabilities. So he recognized that 
when they gave the initiative out, that, you know, do this but 
do this without stepping on other things.
    In terms of investment, we do need to make ourselves more 
efficient, and as Dr. Pace said, GPS is really the most 
efficient spectrum use we have ever seen, where we have a 
billion users in 20 megahertz. But we concur that we need to 
work towards making it even more efficient in the future. Our 
demands for spectrum are going to continue to grow, especially 
in terms of our broadband needs.
    So we do have a responsibility to try to work with all of 
our partners to make that more efficient, and the FCC is the 
lead for that.
    In terms of this specific issue, we have taken out of hide 
all of the technical experts that we have available to try to 
work this problem. We don't have--this NPEF I talked about is 
not a standing organization. When I sent the tasker out, people 
had to be pulled from their regular jobs in order to come 
together to do this testing.
    So the departments and agencies don't want to do this 
perpetually. They want to be able to do this on a focused 
answer. We can't do this 365 days a year. You haven't 
authorized us the money to be able to keep these people as a 
standing test for anything that somebody might come up with.
    So that is part of the answer. We are willing to work on 
future testing and future alternatives to try to make this 
work. We are seeking a win-win solution, and that is guidance 
we will receive from the White House, and we are all working 
towards that. Could we do more? Maybe. We are also resource 
constrained.
    Ms. Edwards. Could I hear for a moment from the Department 
of Transportation because, you know, NextGen is just in 
development. You are not finished, you are not done, you are 
not, you know, where you need to be yet. Why is it that you 
can't work on some technological solution that allows the 
compatible existence of these two technologies?
    Mr. Appel. Certainly. The Department of Transportation 
believes that we would want nothing more than to have expanded 
broadband capabilities. Expanded broadband capabilities has 
tremendous benefits for transportation in improving efficiency, 
in improving environmental sustainability, and just getting 
better routings, not just from the navigation GPS but from 
better broadband applications across the spectrum.
    So in the case of this win-win that Mr. Russo is talking 
about, yes, we are--the FAA has put people, we are working very 
closely with the Technical Working Group, not just to find 
problems, but to find solutions, to find that win-win.
    In the case of NextGen in particular, yeah, we want to make 
NextGen work as well as it can based on what we have with which 
to work. A lot of the receivers, for example, on which NextGen 
will be based are already either there or in development. There 
are future aspects of NextGen, there will be several billion 
dollars in additional investment from each of the public and 
private sector, and that can be affected by the state of the 
world today, but there is also a lot that is already in place 
that we have to work from.
    So we just--so bottom line we would want to as best as we 
can help find the win-win solution. We would also have to 
accept that there are certain give-ins that we have to deal 
with.
    Ms. Edwards. Thank you, Mr. Chairman. I failed in staying 
in my five minutes.
    Chairman Hall. You did pretty good. I thank the gentlelady, 
and I thank the gentleman for his answers.
    The gentleman from California, Mr. Rohrabacher, is 
recognized for five minutes.
    Mr. Rohrabacher. Thank you, Mr. Chairman, and I have been 
trying to take in the information. I was actually--when I left, 
I was watching you from my office, which is what we often do.
    Let me ask, first of all, let me suggest that--is it 
Carlisle? Is that how you pronounce your name? You are doing a 
terrific job for your company. Let me just note that you have 
got all of these guys against you, and there you are, and you 
are holding your own, and I often find myself in that position, 
so I certainly appreciate it.
    Chairman Hall. The gentleman's time is almost over.
    Mr. Rohrabacher. Let me--so I am trying to glean exactly 
how we get to the core of the issues here, but because I admire 
the job you are doing doesn't mean I agree with the positions 
that you have taken.
    The--we are talking about a company now, LightSquared, that 
received a waiver originally from what other companies would 
have been expected to, and how much did LightSquared pay for 
the right to own this band?
    Mr. Carlisle. We received the spectrum in 1989, when 
spectrum was still allocated on a competitive process. Auctions 
didn't start until the late 1990s.
    Mr. Rohrabacher. So how much did you pay?
    Mr. Carlisle. We paid nothing at the time.
    Mr. Rohrabacher. You paid nothing at the time for that 
right, and you had a waiver for other restrictions, and so 
while I would have to admit that my sympathies might be a 
little bit greater if I would have learned that your company 
had actually paid a great deal of money out of their pocket for 
the right to this to begin with, so we are recognizing that 
this was a publicly-owned asset that was transferred ownership 
to your company for nothing.
    Mr. Carlisle. Sir, can I respond to that?
    Mr. Rohrabacher. Yes. Please.
    Mr. Carlisle. Okay. Originally when we received the 
allocation, it was before auctions were in place. That is how 
spectrum was allocated, and in fact, that is how the original 
cellular networks were built by the companies that own them.
    Mr. Rohrabacher. Yes.
    Mr. Carlisle. Cingular, all the rest of them, they got 
spectrum for nothing as well----
    Mr. Rohrabacher. Yeah.
    Mr. Carlisle [continuing]. Before auctions were instituted. 
We subsequently invested several billion dollars to put up 
satellites to use it----
    Mr. Rohrabacher. Right.
    Mr. Carlisle [continuing]. And provide public safety 
services and significant public benefit to the United States. 
When our company was acquired for $3 billion last year, that 
was an investment in the spectrum, and further investment----
    Mr. Rohrabacher. When you were granted this and the waiver 
was specifically--had something to do with whether or not--as 
long as you were not interfering with others' use of the band 
near your band width, was that correct? I mean, that was part 
of the agreement that you had when you received this right to 
this band width. You did not receive----
    Mr. Carlisle. Are you talking about the waiver in January?
    Mr. Rohrabacher. The waiver and the original grant. You 
were--wasn't there pre-condition that this would not be 
interfering with other activities in nearby band widths?
    Mr. Carlisle. Well, anybody who receives spectrum has the 
obligation not to interfere with adjacent bands.
    Mr. Rohrabacher. Right.
    Mr. Carlisle. We are operating within the limits----
    Mr. Rohrabacher. Okay.
    Mr. Carlisle [continuing].On our network.
    Mr. Rohrabacher. And wasn't it pretty well understood as 
then the satellite that if you did choose to go the satellite 
route in the development of your right to use this band, that 
it might, indeed, complicate things to the point that you were 
interfering or there was a potential interference, because now 
you are using satellite rather than ground-based systems.
    Mr. Carlisle. Well, there was no issue with the development 
of our satellite network, which we have operated for 15 years. 
That is--that does not cause interference with GPS. The 
potential interference comes from the ground-based network.
    Mr. Rohrabacher. Okay. I am trying to--that is what I am 
trying to learn here. We are not--none of us are engineers. So 
right now what we have heard from these witnesses is that there 
is potential interference at least in a very small, maybe 98 
percent has been corrected, but there is a small area where 
there might be some kind of interference, and you have, of 
course, confirmed that.
    Now, you don't--your company's position isn't that you 
should move forward even though there is this potential 
interference. You seem to be saying if the people who are being 
interfered with will buy certain types of technology, that 
interference can be overcome or might, it might be overcome.
    Mr. Carlisle. Well, and we have committed to fund the 
research of the--take the cost of that off the GPS 
manufacturers and fund it ourselves. So we have actually put 
earnest money up in order to solve this problem.
    Mr. Rohrabacher. And but that is in terms of the scientific 
research. Have--are we satisfied that the science exists, not 
that we will pay for it until it comes out, that the science 
exists to take care of the problem, meaning that last entity or 
part of the band that will possibly interfere with GPS? Is the 
consensus that technology exists, or is this a--something that 
is--you are suggesting that it might exist if we made this 
investment in research and development?
    Mr. Carlisle. We know it exists today because these 
receivers, these precision receivers are just fine. It is a 
technology design choice.
    Mr. Rohrabacher. I have one last question, Mr. Chairman. 
Are you in agreement with that, that you were--he said we are 
satisfied that the technology does exist by this test?
    Mr. Russo. Sir, there is not a consensus on that. Some of 
the receivers passed, but they may have a different 
application. Not all precision receivers do the same thing. The 
GPS community is so diverse and the way this TWG report is 
presented, it is--there is an anonymous receivers. In order to 
get everybody's cooperation, the manufacturers that submitted 
devices didn't want their device to be named. So I don't know 
whether the ones that are above the line, what specific 
function they do. So it may be that they don't need to be as 
precise as other ones, and therefore, can have more filtering.
    So the answer from inside the government is that our 
technical experts are split as to whether it is even feasible 
that we could put a filter in that was both strong enough to 
knock out the LightSquared signal and still allow us to do our 
mission. That is the hard part is the second part of that, not 
the first part.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman, for the 
extra time.
    Chairman Hall. Thank you. The Chair recognizes Mr. 
Neugebauer, who is one of the members who asked for this 
hearing, and recognize him for five minutes or whatever time he 
has to use.
    Mr. Neugebauer. Well, thank you, Mr. Chairman. I think this 
has been a good hearing, and one of the problems of being one 
of the last people in the question queue is I think a lot of 
the questions and statements that I wanted to make have been 
asked, but I do appreciate you holding this hearing. I think it 
is an important issue. Certainly, you know, the broadband issue 
is for--spreading that around to the rest of the country is 
important, but it is also important that we protect our GPS as 
well.
    And so I ask unanimous consent, Mr. Chairman, that a letter 
that we wrote the FCC Chairman, which you so kindly joined in 
on June the 7th, as well as the response I received, that they 
be made a part of this record.
    Chairman Hall. Without objection.
    [The information can be found in Appendix 2.]
    Mr. Neugebauer. I also ask unanimous consent that the 
testimony of the Save our GPS Coalition be made a part of the 
record for today's hearing as well. They were not able to 
provide a witness for today but ask that their testimony be 
included in the record.
    Chairman Hall. Is there objection? The Chair hears none.
    [The information can be found in Appendix 2.]
    Mr. Neugebauer. And I thank the Chairman and I thank the 
Chairman for having this hearing.
    Chairman Hall. And you yield back. I would say this. The 
members of the Committee may have additional questions. We may 
have to ask you to respond to those in writing, if we might, 
and the record will remain open for two weeks for additional 
comments from members.
    I ask for unanimous consent to enter a number of documents 
into the record that were previously shared with the minority, 
including the list of over 400 individuals who submitted 
comments to the Committee. And I have heard a lot of testimony 
about funds. I have heard very little testimony about the 800 
fatalities. We maybe need another hearing for that sometime in 
the near future.
    But hearing no objection, it is so ordered.
    [The information can be found in Appendix 2.]
    Chairman Hall. The Chairman calls this hearing adjourned.
    [Whereupon, at 4:04 p.m., the Committee was adjourned.]
                                Appendix

                              ----------                              


                   Answers to Post-Hearing Questions


<SKIP PAGES = 000>

                   Answers to Post-Hearing Questions
Responses by Mr. Anthony Russo, Director, The National Coordination 
        Office
 for Space-Based Positioning, Navigation, and Timing

 Questions submitted by Chairman Ralph Hall

Q1.  How common are the wideband and high precision GPS receivers that 
are at risk of interference from LightSquared's modified business plan 
that starts commercial operations with just the ``lower'' portion of 
its spectrum?

A1.  In response to an August 9th request by Mr Strickling (NTIA 
Administrator), federal agencies identified a current inventory of over 
one million wideband and high precision GPS receivers. This inventory 
does not include State, local, tribal, or commercial high precision 
receivers. While the number of non-federal receivers is unknown, it 
would be in the hundreds of thousands. According to a September 29th 
market study conducted by ABI Research, the high precision market is 
expected to double between now and 2016. Areas that are expected to 
experience strong growth include agriculture, construction, aviation, 
GIS mapping, and military high precisionb applications.
    There is no universally accepted definition of what constitutes a 
``wideband'' or ``high precision'' receiver, so the number of affected 
receivers might vary based on different interpretations.

Q1a.  How much do they cost?

A1a.  High precision receivers vary greatly in terms of their mission 
requirements and applications. Therefore, there is also a wide 
variation in cost. On the lower end of the high precision market, 
receivers cost between $4,000 and $20,000. On the higher end, receivers 
can be as high as $40,000 to $50,000, occasionally even higher.

Q1b.  What is the normal upgrade or re-equipage cycle for these GPS 
receivers at federal departments and agencies?

A1b.  The federal agencies were not able to provide an estimate of 
their normal upgrade time, but federal users do typically keep their 
equipment much longer than their commercial counterparts. Certain high 
precision applications, for example aviation infrastructure, would 
require longer--as much as 10-15 years. Fifteen years was also the 
upper end identified by GPS Industry in the FCC-directed Technical 
Working Group final report. It should be noted that LightSquared 
disputed this estimate and believes it could be accomplished in 
significantly less time.

Q2.  LightSquared has agreed to a ``standstill'' on the use ofthe 
``upper'' portion of their spectrum, the portion closest to the GPS 
signal. LightSquared has stated they would like to work with the GPS 
community to develop mitigation strategies in order to initiate 
commercial operations of the upper spectrum within two to three years.

Q2a.  Are federal agencies prepared to upgrade or re-equip all their 
GPS equipment in that time frame?

A2a.  No federal agency has indicated they are prepared to upgrade or 
re-equip in this time frame.

Q2b.  What would be the cost to implement this strategy at federal 
departments and agencies?

A2b.  No feasible mitigation has been proposed for tbe ``upper'' 
portion of the spectrum. Even the LightSquared-compatible receiver 
recently announced by JAVAD GNSS does not mitigate upper channel 
induced interference. No credible estimate of implementation cost can 
be provided until the set of effective mitigation solutions is 
identified and fully tested. Certainly re-equipage of GPS equipment 
across the Federal Government would cost tens of billions of dollars if 
it is necessary.

Q2c.  Is two to three years a reasonable time frame to expect federal 
agencies to upgrade or re-equip?

A2c.  No, there is no way federal agencies would be able to accomplish 
such widespread equipment changes in this time frame. We have one 
previous data point on how long is ``reasonable'' when faced with the 
issue of upgrading or re-equipping. In 2008, a Memorandum of 
Understanding (MOU) between the Departments of Defense and 
Transportation was set to expire, which had allowed the used of ``semi-
codeless'' techniques. These techniques took advantage of the encrypted 
military signal to augment the accuracy of civil applications. Because 
this decision impacted several hundred thousand civilian high precision 
receivers, the Federal Government spent considerable time analyzing the 
impacts and engaging industry to quantify the installed base affected, 
estimate its economic value, and determine an acceptable time frame for 
deferring the planned GPS military signal modications to allow an 
extension of semi-codeless accesss for civilian GPS access. It took 
longer to conduct interagency coordination of the task statement than 
the entire amount of time devoted to LightSquared testing.
    Office of the Secretary of Defense (OSD) authorized deferral of 
changes to the military GPS signal until December 31, 2020, so that 
civilian users of semi-codeless GPS augmentations techniques could have 
more time to upgrade or change to alternatives. OSD established and 
announced this revised policy via Federal Register notification. That 
is more than 12 years after an effective migitation was identified.

Q3.  LightSquared's modified business plan starts commercial operations 
with just the ``lower'' portion of its spectrum and will be limited to 
urban areas. Does this satisfy your concerns about short-term 
interference issues to wideband and high precision GPS receivers? If 
not, why not?

A3.  No, the modifications to LightSquared's plans have not satisfied 
the concerns about interference to GPS receivers. During the first 
round of GPS interference testing, the limited tests performed using 
only the lower LightSquared channel demonstrated significant 
interference to wideband, high precision GPS receivers. According to 
the FCC-directed Technical Working Group Report's Executive Summary, 31 
of 33 high precision receivers experience harmful interference even 
with transmissions restricted to the ``lower'' portion of the 
LightSquared spectrum allocation. In addition, many of these 
receivers--supporting a diverse set of important applications--are used 
in urban environments and will be affected by the first day of 
LightSquared operations.
    On behalf of multiple federal agencies, we recommended to NTIA 
additional testing be performed to better understand the interference 
effects of the lower channel on high precision receivers, and to 
determine whether receiver mitigation techniques proposed by 
LightSquared are effective. Both NTIA and FCC have concurred with this 
recommendation, and we expect NTIA to request this testing as soon as 
LightSquared can provide the propsed receiver mitigation hardware.

Q4.  Given that LightSquared has clearly shown that it intends to 
ultimately utilize both the upper and the lower portion of its 
spectrum, even with its new business proposal to start with just the 
lower portion, how is the new proposal really any different to your 
agency than their original proposal?

A4.  Their new proposal is significant and constructive. It reduces the 
impact to most GPS receivers in the near term and provides several 
years to find mitigations (if they exist) for the second phase of their 
implementation. However, LightSquared's filings and their congressional 
testimony to several committees indicate they still intend to operate 
in both the lower and upper portion of their identified spectrum. 
Therefore, the end-state remains unchanged and the extensive testing by 
LightSquared, GPS industry, and the government all indicate unresolved 
interference problems that cannot be addressed in the expected time 
frame. Contrary to media accounts, neither LightSquared nor the FCC 
have taken upper channel operations ``off the table.''

Q5.  I understand there are now other companies exploring a similar 
terrestrial broadband business plan but in an entirely different part 
of the spectrum that would not interfere with the GPS signal. If we can 
accommodate the President's goals for the Broadband Initiative using 
spectrum that doesn't interfere with GPS, why should we risk the 
taxpayer investment in GPS?

A5.  We strongly support protecting the taxpayer investment in GPS 
including the modernization of GPS to ensure innovative new 
applications in the future. At the same time, we continue to support 
the President's goals to identify 500 MHz of spectrum to make available 
for innvative mobile broadband services. We welcome all new entrants to 
the broadband marketplace provided they demonstrate they can provide 
new broadband services without jeopardizing existing and planned space-
based Positioning, Navigation, and Timing (PNT) capabilities.

Q6.  Will the filters proposed by JAVAD GNSS and LightSquared mitigate 
the interference problem to wideband and high precision GPS receivers? 
If not, why not?

A6.  Maybe. JAVAD GNSS claims its filters mitigate the interference 
problem for the first phase (``lower 10 MHz'') of LightSquared's 
planned deployment. Although currently this applies to only the small 
number of precision receivers built by JAVAD GNSS, the company also 
claims it can adapt their proprietary solution to devices built by 
other manufacturers. Other manufacturers are also working independently 
on designing solutions for their own systems. It should be noted this 
solution does not mitigate upper channel overload interference or the 
intermodulation products that will occur when LightSquared implements 
their upper channel, which is still in their plans as filed with the 
FCC. This JAVAD GNSS solution, by itself, also does not mitigate the 
co-channel interference to GPS augmentation systems like StarFire and 
OmniStar that receive signals from satellite service providers, such as 
LightSquared and Inmarsat, in the Mobile Satellite Service (MSS) band. 
However, if JAVAD GNSS is able to demonstrate they have successfully 
done as they have claimed, it represents a very significant step to 
resolving the problems for many users.

Q6a.  If so, what testing has been done to demonstrate their 
effectiveness? If filters are developed and tested, how long would it 
take to retrofit existing units? How much would this cost?

A6a.  We are not aware of any independent testing done to demonstrate 
the effectiveness of this solution. Extensive, independent tests must 
be conducted once hardware is made available. The testing must not only 
ensure the filtering out of the LightSquared transmission, but also 
verify required performance characteristics can still be met with the 
modified devices. At this time, it is unclear how long it would take to 
retrofit existing units, and LightSquared has stated it may not be 
possible to retrofit some types of units. We do not know how much 
retrofitting would cost for those units where it is feasible to do so.

Q7.  Are there currently any mitigation strategies that make sense for 
wideband or high precision GPS receivers?

A7.  The three key strategies for mitigation LightSquared interference 
to GPS are: (1) frequency separation, (2) physical separation, and (3) 
reduction in the LightSquared transmitted power. LightSquared has 
already offered to move (temporarily) from the GPS boundary as far as 
possible within the band allocated to MSS. They have also proposed a 
subtantial reduction in their authorized tramsmit power. LightSquared 
has expressed some flexibility in working with the federal agencies on 
the location of their towers to protect certain fixed installations 
(for example, military training facilities) that must use wideband GPS 
receivers. Physical separation is a major factor since the resulting 
interference power reduces with the square of the separation distance.
    In addition to mitigation measures that LightSquared can do on the 
transmit side, there are also potential strategies for mitigation on 
the receiver side. The most logical mitigation strategy for the lower 
portion of the MSS spectrum is to reduce the bandwidth and steepen the 
``cutoff'' slope of the radio frequency (RF) filters used by GPS 
receivers; however, this will likely result in some accuracy and 
performance degradation to the receivers. Precision GPS receivers 
traditionally have used very wideband filters to capture as much GPS 
signal energy as possible in order to achieve the best possible 
accuracy. Another reason for the wideband filters is to allow reception 
of differential correction signals from communications satellites in 
the MSS band, which improve navigation accuracy. Precision agriculture 
and some military applications depend on these correction signals. 
Relocation of these correction signals to the top of the MSS band and 
not transmitting terrestrial signals in the upper part of the MSS band 
are both necessary in order to contemplate a way to mitigate 
terrestrial signals in the lower part of the band. Whether mitigation 
filters can be successful without impairing present or future accuracy 
has not been confirmed.
    There is no known mitigation strategy for mitigation of the 
interference resulting from use of the upper portion of the MSS band.

Q8.  Mr. Carlisle states in his testimony that ``the GPS manufacturers 
failed to raise issue at the FCC when it was developing its rules and 
could have addressed this issue in the design of their receivers years 
ago.''


Q8a.  Does identifying who is to blame for the current interference 
issues minimize the interference to U.S. government receivers today?

A8a.  No.

Q8b.  Does the fact that GPS companies did not mention these issues in 
the past minimize interference to U.S. government rceeivers today?

A8b.  No.

Q8c.  To your knowledge, did the U.S. Government raise concerns (at any 
time) about potential interference to high precision receivers that 
``look'' into spectrum licensed to LightSquared?

A8c.  GPS interference concerns with respect to Ancillary Terrestrial 
Component (ATC) operation in the MSS band were raised immediately by 
the federal agencies through the NTIA when LightSquared's predecessor 
first submitted their application in 2001. At the time, the primary 
interference concern was out-of-band-emissions (OOBE). LightSquared 
successfully developed a custom filter for their base stations that 
mitigates OOBE interference. The concerns about ``overload'' or 
desensitization interference effects that severely affect wideband GPS 
receivers--many used for high precision applications--were not raised 
within the Federal Government until relatively recently. The government 
raised a concern about this particular type of interference effect in 
December 2010. Prior to that time, GPS had some protection from 
overload interference effects because of the satellite ``gating'' 
requirements for dual mode (terrestrial/satellite) handsets the FCC 
included in the original 2003 Order and in all subsequent Orders 
between 2003 and 2010.
    Based on federal agency comments, NTIA wrote a letter to FCC 
(January 12, 2011) which raised significant interference concerns and 
conveyed the agencies' desire to have a waiver decision deferred 
pending testing. On that date the Deputy Secretary of Defense also 
wrote to the FCC Defense Commissioner citing national security concerns 
and also strongly recommending deferral. To address these concerns, the 
FCC made the January 26, 2011, ATC waiver approval--which waived the 
gating requirements for the first time--conditional on resolving the 
overload interference to GPS.

Q9.  I understand that you have proposed additional testing of the 
LightSquared proposal over the next six months. What type of GPS 
receivers would be tested? Are there specific areas that are of more 
concern than the others?

A9.  The Government's evaluation conducted by the National Space-Based 
Positioning, Navigation, and Timing Systems Engineering Forum (NPEF) 
from February to May of this year had some significant limitations. I 
described these limitations in detail in my testimony to this 
Committee. The NPEF final report recommends an additional evaluation 
period of at least six months to enable completion of a thorough 
assessment of LightSquared's network. Some of the specific reasons 
identified for this additional testing: (1) Testing of LightSquared's 
new signal configuration (``10 MHz Low'') which had not been identified 
at the time of the NPEF testing; (2) Effects of multiple ATC towers 
instead of one tower (interference effects aggregate); (3) Testing of 
timing receivers which the NPEF could not evaluate due to schedule 
constraints; (4) Systems-level testing vice just looking at GPS 
receivers; (5) Testing of propsed mitigation strategies; and (6) 
Testing of LightSquared handsets which were not available to the 
government during the NPEF testing. This additional test period has not 
been directed or authorized at this time.
    Separate from the additional testing recommended above, the NTIA 
requested (on September 9, 2011) that the NPEF revalidate two of the 
seven areas tested by the FCC-directed Technical Working Group. These 
areas focus on cellular devices and General Location/Navigation systems 
such as personal navigation devices used by consumers in their cars. 
This effort is underway and we expect to complete testing of these two 
areas by November 30, 2011.

Q10.  What is the National Coordination Office's official 
recommendation to the FCC for granting a final license to LightSquared? 
Please explain your concerns.

A10.  The National Coordination Office (NCO) is an administrative 
office serving the National Space-Based Positioning, Navigation, and 
Timing Executive Committee. It is not a decision-making or policy-
making body. Therefore all NCO recommendations are provided through the 
Executive Committeee and not directly to FCC. Ultimately, NTIA filed 
the measurement recommendations on behalf of the Administration.
    The Executive Committee's recommendations are:

    <bullet>  LightSquared should not commence commercial services per 
its planned deployment for terrestrial operations in the 1525--1559 MHz 
Mobile-Satellite Service (MSS) Band due to harmful interference to GPS 
operations.
    <bullet>  The U.S. Government should conduct more thorough studies 
on the operation, economic, and safety impacts of operating the 
LightSquared Network, to include compatibility of ATC architectures in 
the MSS L Band with GPS-dependent applications, signal configurations 
not currently in LightSquared planned spectrum phases, effects on 
timing receivers, and transmissions from LightSquared handsets.

    The Executive Committee (EXCOM) remains concerned the interference 
issues are still not resolved, despite several constructive mitigation 
proposals from LightSquared. The EXCOM would like to see thorough 
testing of all proposed mitigation strategies. In addition, the EXCOM 
has expressed concern about the need for a defined ``end-state.'' 
LightSquared's authorization, their recommendations filed with the FCC, 
and their testimony to three Congressional Committees all refer to 
using both the lower and upper channels. The upper channel transmission 
has beeen discribed as being put in ``standstill,'' but that term lacks 
clarity and makes it difficult to fully estimate the ultimate cost and 
timeline for interference mitigation.

Q11.  How much would additional testing on high precision receivers 
cost?

A11.  There has not been any cost estimate done on how much additional 
testing of high precision receivers would cost. We have taken an 
initial inventory of how many high precision devices are in use by 
federal agencies, but no testing has been initiated to date.

Q11a.  Do agencies already have funding available to conduct this 
testing?

A11a.  No agency has funding to conduct this testing. Multiple agencies 
have raised the lack of funding as a concern if we are asked to 
complete this testing in a timely fashion.

Q11b.  Has LightSquared offered to fund additional testing on their new 
proposal?

A11b.  Yes, LightSquared has offered, in general terms, to partially 
fund this testing and has offered in-kind services such as use of their 
contracted test facilities and LightSquared hardware. It is not clear 
if federal agencies can accept the funding LightSquared is offering. 
The NCO continues to address this issue through discussion with 
government legal counsel, but has not yet identified a mechanism where 
we can accept this offer.

Q12.  Have you been involved in any efforts to quantify the potential 
costs to the Federal Government of mitigating interference from the 
LightSquared proposal?

A12.  Yes. At the request of the National Executive Committtee for 
Space-Based Positioning, Navigation, and Timing (EXCOM), I tasked each 
member agency to quantify costs of mitigating GPS interference and to 
provide their estimate to NTIA. The relevant text from my June 8th task 
letter is:

    <bullet>  ``To the extent possible, qualify, quantify, and describe 
risks to your agency's GPS-based mission capability, including `lost 
benefits' if GPS performance were degraded (or lost) due to 
LightSquared's signals including the costs to modify (or replace) GPS 
receiver infrastructure and the time frame required to replace that 
infrastructure.''

Q12a.  Do you currently have any ``order of magnitude'' estimates of 
the total potential costs?

A12a.  Some of the agencies that provided estimates to NTIA also 
provided the NCO a courtesy copy. Not all agencies were able to provide 
the requested estimates because of the uncertainties of the final end-
state signal configuration and of the effectiveness of mitigation 
techniques. Some were able to answer only in general terms, while 
others did make an ``order of magnitude'' estimate. NTIA has asked me 
not to provide copies of these estimates to Congress because they are 
still considered pre-decisional and part of the deliberative process of 
the Executive Branch.

Q13.  State and local governments are also heavy users of GPS 
equipment. Is any effort being made to estimate the potential costs to 
state and local governments of mitigating interference from the 
LightSquared proposal?

A13.  I am not aware of any effort to provide an overall estimate of 
the impact to State and local governments. The FCC has regulatory 
responsibility over non-federal users. State and local governments are 
very significant users of GPS and especially high precision GPS. There 
are over 100 high precision networks, supporting tens of thousands of 
receivers, in use by 37 different States and more are being built. Some 
of the areas supported are: heavy construction, municipal surveying, 
high precision agriculture, roadwork, machine control, disaster 
response, emergency first responders, asset management, intelligent 
transportation, structural integrity monitoring, wastewater treatment 
service, water distribution systems, and many others.
    NITA represents federal agency interests in this matter. However, 
in their response to NTIA, several federal agencies (i.e., Department 
of Transportation) also have represented the concerns of non-federal 
entities they regulate. I am unaware of the manner and extent to which 
NTIA will factor in these concerns in its recommendation to the FCC. 
The FCC is responsible for issues concerning State and local government 
use of spectrum, but I am not aware of any attempt to estimate the cost 
impacts of interference mitigation on those entities. State and local 
governments were allowed to file comments to the FCC Public Notice, and 
many did. However, these include only anecdotal estimates for narrow 
application. A few examples:

    <bullet>  The North Carolina Department of Agriculture cited: 
``Basic land navigation, forest fire response, suppression, and 
reporting affecting some 1,400 communities at risk, fire suppression 
aviation assets such as firespotting aircraft and water-dropping 
helicopters and airplanes, and forest measurement services for 300,000 
private forestland owners. In addition, damaging America's GPS would 
nullify over $1,000,000 of taxpayer investment in GPS-based tools for 
the NC Forest Service alone.''

    <bullet>  The Wisconsin Department of Transportation has invested 
approximately $20M in a Height Modernization Program that relies on 
high precision GPS reference stations. They have over 900 registered 
users of the GPS Continuously Operating Reference Station (CORS), a 
system our preliminary results indicate would be impacted by operation 
at ``10 MHz Low.''

    <bullet>  Houston County, a small rural county in Minnesota, told 
the FCC it invested $90,000 in high precision GPS equipment and would 
have to revert to more labor-intensive methods requiring additional 
personnel and longer delivery times.

    <bullet>  The City of Bellevue in Washington State says survey 
projects that can be done with high precision GPS receivers in less 
than a year would require 10 years to complete with other methods. They 
estimate high precision GPS has saved them ``many millions of 
dollars.''

Questions Submitted by Ranking Member Eddie Bernice Johnson

Q1.  There seems to be a difference of opinion among LightSquared 
proponents and detractors on when federal agencies initially voiced 
concerns about the LightSquared network. In your view, when was the 
issue of potential interference first surfaced by federal agencies, 
what triggered agencies' concerns, and what was your office's 
involvement? Were these concerns relayed to the FCC? What was the FCC's 
response?

A1.  Federal agencies immediately raised concerns about potential 
interference to GPS when LightSquared's predecessor company applied for 
a license in 2001 for an Ancillary Terrestrial Component (ATC) to its 
Mobile Satellite Service (MSS). These concerns primarily dealt with 
Out-of-Band-Emissions (OOBE), or transmissions from LightSquared's 
signals that would bleed into GPS's band. Through collaboration between 
federal agencies, LightSquared's predecessor, the GPS industry, and 
NTIA, the FCC addressed the concerns in its rulemaking. Since then, 
LightSquared invested considerable money to have custom filters 
designed for their transmitters to meet OOBE restrictions. Government 
testing confirms that LightSquared base station transmissions meet the 
OOBE requirements established in the original rulemaking. We have not 
yet conducted testing on potential OOBE created by LightSquared 
handsets, since no handsets have been available for testing.
    A second type of interference effect is called ``Intermodulation'' 
and occurs when transmissions from the two high power LightSquared 
channels interact with the front end of a GPS receiver to create a 
third signal (also called an ``Intermodulation Product'') inside the 
receiver. NTIA raised this as a concern to FCC in 2002. At the time, 
there were no LightSquared base stations or hardware available to 
conduct testing. Recent government testing of actual hardware in 2011 
found that intermodulation effects did occur with dual-channel 
LightSquared transmissions and the intermodulations product is 
unfortunately created in the center of the GPS receive frequency band. 
LightSquared has acknowledged this effect and points out that it will 
not occur if they only broadcast one channel in the lower half of their 
spectrum. The issue is unresolved for the eventual dual-channel 
transmissions.
    A third type of interference called ``overload'' or 
``desensitization'' interference involves the inability of current 
filters on GPS receivers to screen out the high power signals from 
nearby terrestrial base stations. Some GPS reveivers also intentionally 
use filters wide enough to receive signals from across the MSS band. 
One reason for this is to receive correction signals from MSS providers 
(like LightSquared) that improve the accuracy of GPS signals. 
LightSquared's proposed transmissions are properly within their own 
band, but are billions of times more powerful than the weak satellite 
signals that are currently operating in the Mobile Satellite Service 
band. To the best of my knowledge, federal agencies did not raise 
overload interference to GPS as an issue until December 2010, in part 
because of assumptions GPS was protected by satellite ``gating'' 
requirements which forced terrestrial handsets to also be capable of 
working with the MSS satellite.
    Neither my office, nor the Executive Committee it serves, existed 
in 2001-2002, when the federal agencies first raised concerns about 
MSS/ATC interference. However, we have been involved in the current 
issue concerning overload interference. The issue of overload 
interference was brought to my attention on December 21, 2010, in the 
context of LightSquared's application for a waiver to the integrated 
service rules which would have resulted in a de facto repurposing of 
the spectrum for terrestrial broadband instead of MSS. This represented 
a significant change to the interference environment in terms of the 
number and density of the ATC base stations we would expect to see. I 
immediately brought the issue to the attention of the Executive 
Steering Group (Assistant Secretary-level) and on December 27, I wrote 
to NTIA to request that any action on LightSquared's request for waiver 
be deferred until testing could be performed. On January 3, 2011, I 
provided a point paper to all the members of the Executive Committee 
(Deputy Secretary-level) and requested the Deputy Secretary of Defense 
engage the FCC Chairman to seek a delay to the waiver decision until 
specific interference effects and mitigation actions could be 
identified.
    Based on the engagement of the Co-Chairs of the Executive Committee 
(Mr. Lynn and Mr. Porcari) with NTIA and FCC, as well as senior level 
engagement from all of the departments that are GPS stakeholders, the 
FCC agreed to grant the waiver only on a conditional basis. One of the 
conditions stated that LightSquared is not to commence commercial 
operations until the overload GPS interference concerns are resolved. 
On September 13, the FCC issued a Public Notice [DA 11-1537] stating 
additional targeted testing is needed to ensure any potential 
commercial terrestrial service offered by LightSquared will not cause 
harmful interference to GPS operations.

Q2.  A terrestrial network was envisioned by LightSquared's 
predecessors as a fill-in to their mobile satellite services. They have 
had permission to build an extensive terrestrial network for eight 
years. Can you explain why federal agencies waited until just recently 
to point out that such ground-based towers could drown out GPS signals?

A2.  This question contains an incorrect premise. Eight years ago, 
LightSquared's predecessor received permission to build an ancillary 
terrestrial network, not an extensive network. There are a number of 
serious constraints that went along with this permsision, and ancillary 
was defined by FCC (in part) as being ``for the purpose of augmenting 
signals in areas where the principal service signal, the satellite 
signal, is attenuated.'' The examples given were urban areas where the 
buildings might block a satellite signal and inside buildings.
    Eight years ago, the FCC Order authorizing ancillary terrestrial 
service also contained strict technical limits on the transmit power, 
the bandwidth, the total number of terrestrial base stations, and other 
parameters. Many of these limits were changed over the years in 
reconsideration actions, modfications, amendments, and waivers. There 
is absolutely nothing wrong with this; requirements, market conditions, 
and technology all evolve over time so the rules need to evolve also. 
However it is not accurate to equate the system LightSquared proposes 
today with what was envisioned when the predecessor received permission 
in 2003.
    Two important restrictions on ATC use did not change between 2003 
and 2011: (1) The terrestrial service needed to remain ancillary to the 
satellite service, and (2) terrestrial and space services must remain 
integrated. The purpose for the latter requirement was acknowledged by 
LightSquared's predecessor in its application in 2001. ``Because MSV's 
<Mobile Satellite Venture> own satellite system will be the most 
affected by signals generated by ancillary terrestrial operations, it 
will have every incentive to monitor and minimize these signal levels 
in order to ensure that the quality of its satelllite service is not 
compromised.'' In other words, the integrated service rules requiring 
terrestrial handsets to be able to communicate with the satellite 
ensure intererence protection fo GPS because of the self-interference 
issue.
    This integrated service rule is not a minor administrative 
technicality. Two months before LightSquared applied for its waiver to 
this rule, GlobalStar had its license suspended for failing to meet the 
appropriate criteria. The criteria FCC established are `` . . . 
intended to ensure compliance with the ancillary requirement.'' While 
many of the technical criteria in the various FCC Orders are difficult 
for non-spectrum experts to comprehend, the FCC's made its intent in 
these Orders crystal clear. Examples from the 2003 Order:

    <bullet>  ``The purpose of our grant of ATC authority is to provide 
satellite licensees flexibility in providing satellite services that 
will benefit consumers, not to allow licensees to profit by selling 
access to their spectrum for a terrestrial-only service.''

    And

    <bullet>  ``We reiterate our intention not to allow ATC to become a 
stand-alone system . . . We will not permit MSS/ATC operator to offer 
ATC-only subscriptions . . . .''

    So while it is legitimate to question why federal agencies did not 
act more forcefully to the easing of some of the technical restrictions 
that occurred incrementally throughout 2003-2011, the principal change 
to the nature of the terrestrial service was not anticiated until 
LightSquared's November 2010 request that essentially changes the 
entire purpose of the spectrum. FCC's conditional waiver of the 
integrated service rules allows changes that had asserted would 
``never'' be permitted and now permits--for the first time in this 
band--a primary and stand-alone terrestrial service. However, the FCC 
also clearly made this change conditional on resolving the GPS 
interference conerns and that work is in progress.

Q3.  NOAA's prepared statement says that its engineers are concerned 
that a filter capable of blocking out the powerful LightSquared signal 
at the lower channel may also prevent the receiver from detecting the 
GPS signal, rendering it useless.

Q3a.  In your opinion, is it technically feasible to design a filter 
that simultaneously allows GPS users to listen to signals in 
LightSquared's allocated bandwidth and block LightSquared's signals?

A3a.  In my opinion, yes, it is possible to block LightSquared signals 
in the lower channel while allowing GPS receivers to receive signals in 
the upper part of LightSquared's band. LightSquared has recently 
announced partnership with a GPS manufactureer and with a filter 
company and has provided information to NTIA and FCC supporting the 
feasibility of this. The federal agencies have not yet been provided 
this information or conducted testing of these concepts.
    However, the key issue is not simply blocking out LightSquared 
signals, but being able to still perform the intended mission of the 
receiver after adding this filtering. Filters add cost and weight to a 
receiver and cause performance problems such as: signal attenuation, 
increased thermal noise floor, phase and group delay variations with 
temperature and between frequencies, and loss of narrow correlator 
processing benefits. Because of the diversity of high precision GPS 
applications, thorough testing of modified receivers integrated with 
proposed changes to antennas and the new filter must be conducted 
before we can evaluate whether LightSquared's proposal mitigates the 
interference issues.

Q3b.  Can you estimate its cost?

A3b  No, we currently do not have sufficiant information.

Q3c.  What are the challenges associated with certifying such filters 
for aviation use?

A3c.  The Federal Aviation Adminstration (FAA) could provide a more 
complete answer, but I do know the airworthiness process requires a 
very detailed assessment of all hardware and software functions to 
ensure no unintended effects that would create a safety issue. This 
process typically takes five years to certify new devices once there is 
a new agreed-upon technical standard. Retrofitting aviation systems 
with newly certified devices can take another 10 years or more.

Q4.  What can Congress do to protect the future value of spectrum and 
ensure user receivers do not bleed into spectrum not assigned to them?

A4.  The Executive Committee has not sought any congressional action 
and remains committed to working these concerns through the regulatory 
process with NTIA and FCC.

Q4a.  What are the challenges associated with establishing receiver 
standards to preclude devices from picking up unintended spectrum?

A4a.  The primary challenges are the size and diversity of the 
installed user base and the lengthy transition time it would take to 
implement significant changes.

Q5.  Your testimony highlights testing that was conducted by federal 
agencies independent of the work mandated by the FCC. Can you quantify 
the level of resources and staff time expended in doing such testing?

A5.  The original testing conducted by the National Space-Based 
Positioning, Navigation, and Timing Engineering Forum (NPEF) was 
initiated February 9, 2011, and concluded in a final report signed June 
2, 2011. The effort involved support from all members of the agencies 
that make up the Executive Committee. The total cost to government 
agencies of this first round of testing was approximately $1.2M. This 
does not include the considerable efforts that have been done in 
support of LightSquared analysis outside of this particular test phase, 
such as the 10 government personnel who were detailed to support the 
Technical Working Group, the people who supported the FAA/RTCA 
analysis, or the staff personnel who have been trying to keep senior 
agency leaders, White House officials, and congressional staff informed 
about the complex issues raised in this testing.

Q5a.  Were there any lessons learned that federal agencies might apply 
if called on to conduct more interference testing?

A5a.  Yes. This testing has made us much more aware the government does 
not have a standing infrastructure to conduct this type of technical 
assessment in the very short time frames requested. The testing we did 
was successful, but ad hoc and with significant limitations. More time 
is needed in upfront planning to include the identification of 
personnel, test facilities, and other resources. Because no funding or 
personnel lines exist for this type of work, everything used to support 
this testing had to be reallocated from other tasks and negatively 
impacted the intended use of those resources. Limitations on resources 
limited the test, especially in terms of the numbers and types of 
devices that could be tested.
    More time is needed regarding the identification of test articles 
because GPS is essential to so many different applications. And more 
time is needed for the coordination and staffing of results and 
analyses at the end of testing because of the large number of 
government agencies that are stakeholders.
Responses by Ms. Mary Glackin, Deputy Under Secretary,
National Oceanic and Atmospheric Administration

Questions submitted by Chairman Ralph Hall

Q1.  How common are the wideband and high precision GPS receivers that 
are at risk of interference from LightSquared's modified business plan 
that starts commercial operations with just the ``lower'' portion of 
its spectrum?

Q1a.  How much do they cost?

Q1b.  What is the normal upgrade or re-equipage cycle for these GPS 
receivers at your agency?

A1, 1a, 1b.  Wideband, high-precision GPS receivers are commonly used 
throughout the construction, mining, surveying, and agricultural 
industries. They are also used in shipping port operations, offshore 
oil rig positioning, pipeline and cable infrastructure mapping, and 
other critical business operations. Within the government, such GPS 
equipment is widely used for geodesy. surveying, earthquake monitoring, 
weather forecasting, spacecraft control, space-based Earth 
observations, sea level measurement, and many other applications.
    Wideband GPS receivers are high-end products that are much more 
expensive than consumer-grade GPS gear. A typical wideband receiver 
costs thousands of dollars per unit. Some cost tens of thousands of 
dollars. Many are used in broad networks consisting of hundreds or 
thousands of high-precision receivers, such as NOAA's nationwide 
network of over 1,800 Continuously Operating Reference Stations (CORS). 
The receivers that make up CORS are owned and operated by over 200 
government, academic, and private organizations. NOAA presently owns 85 
receivers. The cost for replacing these receivers would be 
approximately $22,000 to $27,000 per site.
    Users in the government and in the commercial sector expect their 
capital investments in high-precision GPS equipment to last for many 
years--typically, a decade or longer. As a point of reference, in 2008, 
when the U.S. Government announced its intent to phase out certain 
types of wide band, high precision GPS equipment known as ``semi-
codeless'' receivers, it gave users until December 31, 2020--12 years--
to re-equip. This extended time period was chosen to allow users to 
replace their costly GPS equipment as part of their normal 
recapitalization and upgrade cycle.

Q2.  LightSquared has agreed to a ``standstill'' on the use of the 
``upper'' portion of their spectrum, the portion closest to the GPS 
signal. LightSquared has stated they would like to work with the GPS 
community to develop mitigation strategies in order to initiate 
commercial operations of the upper spectrum within two to three years.

Q2a.  Is NOAA prepared to upgrade or re-equip all their GPS equipment 
in that time frame?

Q2b.  What would be the cost to implement this strategy within your 
agency?

Q2c.  Is two to three years a reasonable time frame to expect federal 
agencies to upgrade or re-equip?

A2-2c.  NOAA is not prepared to support a replacement or upgrade of all 
our GPS equipment in order to mitigate LightSquared use of the upper 
spectrum within two to three years. At this time, we do not have a 
complete estimate of the cost of all NOAA GPS receivers. We do not 
believe it is reasonable to expect federal agencies to upgrade or re-
equip any GPS equipment before suitable mitigations have been 
identified, fully verified, costed, and made available.

Q3.  LightSquared's modified business plan starts commercial operations 
with just the ``lower'' portion of its spectrum and will be limited to 
urban areas. Does this satisfy your concerns about short-term 
interference issues to wideband and high precision GPS receivers? If 
not, why not?

A3.  No, the modifications to LightSquared's plans have not satisfied 
NOAA's concerns about interference to wideband, high precision GPS 
receivers. During the first round of GPS interference testing, the 
limited tests performed using only the lower LightSquared channel 
demonstrated significant interference to wideband, high precision GPS 
receivers. NOAA supports recent calls for additional testing to better 
understand the interference effects of the [ower channel on high 
precision receivers, and to find out whether receiver mitigation 
techniques proposed by LightSquared are effective.

Q4.  Given that LightSquared has clearly shown that it intends to 
ultimately utilize both the upper and the lower portion of its 
spectrum, even with its new business proposal to start with just the 
lower portion, how is the new proposal really any different to your 
agency than their original proposal?

A4.  In terms of the impacts to NOAA operations, and the potential 
costs to re-equip, we still have the same concerns we had under 
LightSquared's original operating plan.

Q5.  I understand there are now other companies exploring a similar 
terrestrial broadband business plan but in an entirely different part 
of the spectrum that would not interfere with the GPS signal If we can 
accommodate the President's goals for the Broadband Initiative using 
spectrum that doesn't interfere with GPS, why should we risk the 
taxpayer investment in GPS?

A5.  The President has set a goal of repurposing 500 MHz. The 
Administration continues to explore whether LightSquared can implement 
its proposed system while protecting GPS.

Q6.  Does NOAA feel that adequate testing has been done on all of the 
issues associated with LightSquared interference on the agency's 
missions? Should there be more testing on high precision units?

A6.  NOAA concurs with the National Space-Based Positioning, 
Navigation, and Timing Executive Committee (PNT EXCOM) that adequate 
testing has now been completed and no additional testing is warranted 
at this time.

Q7.  Will the filters proposed by JAVAD GNSS and LightSquared mitigate 
the interference problem to wideband and high precision GPS receivers? 
If not, why not? If so, what testing has been done to demonstrate their 
effectiveness? Who should pay for this testing?

A7.  Javad GNSS announced new receivers in September, but we have not 
had a chance to test them or review any test results associated with 
them. In order to mitigate the interference to wideband and high 
precision GPS receivers, the equipment must not only block out the 
jamming effects of the LightSquared signal, but also demonstrate high 
precision performance similar to today's equipment. In addition to new 
receivers, Javad and other companies have also announced filters that 
may be retrofitted onto existing high precision equipment. We have not 
had an opportunity to test these filters. Again, it is not enough to 
block out the jamming effects using filters; existing receivers must be 
able to continue delivering high precision measurements, or they will 
fail to perform their intended function.

Q8.  Are there currently any mitigation strategies that make sense for 
wideband or high precision GPS receivers?

A8.  The National Space-Based PNT Systems Engineering Forum explored a 
wide range of potential mitigation strategies but could not identify 
any feasible solution other than to move LightSquared's terrestrial 
transmissions to another part of the radio spectrum, far away from GPS 
bands. At this time, there are no known mitigation strategies for 
LightSquared's use ofthe upper 10 MHz band. We believe the power levels 
proposed by LightSquared for the lower 10 MHz signal may be impossible 
to overcome unless filter solutions are demonstrated that can mitigate 
the interference without impacting receiver performance.

Q9.  How much would it cost your agency to mitigate the interference 
issues from the LightSquared signal on your missions?

Q9a.  Does your agency currently have funds set aside for this purpose?

A9, 9a.  At this time, we do not have a complete estimate of the cost 
of all NOAA GPS receivers that would need to be replaced or upgraded to 
mitigate LightSquared's proposed signals. NOAA's current budget does 
not include any funding for GPS interference mitigation.

Q10.  Since August 15, the FCC has had the ability to rule on the 
LightSquared proposal, and to my knowledge, NTIA has yet to submit 
comments to the FCC on behalf of affected agencies.

Q10a.  Has NTIA provided your comments to the FCC?

Q10b.  Will NOAA submit its comments directly to the FCC if NTIA fails 
to do so? If so, when?

Q10c.  Would you agree that your agency's assessment should be made 
public so that everyone can understand the extent to which LightSquared 
interference to GPS will impact the ability of your agency to perform 
its duties, and the costs that may be incurred due to this 
interference?

A10c .  NOAA has followed, and will continue to follow, the established 
process by which federal agencies provide comments to the FCC through 
NTIA, the Administration's lead agency for spectrum policy matters, 
rather than each agency submitting comments directly to the FCC. The 
impact statements contain core deliberative communications from 
Executive Branch agencies that provide critical advice to NTIA in its 
role as spectrum manager on behalf of the Federal Government. Agency 
inputs as part of this deliberative process have not been released to 
the public.

Q11.  I understand from my staff that were briefed by NOAA officials 
that there are significant issues with interference from the 
LightSquared signal on the GPS signal utilized in major NOAA systems 
used for weather forecasting, climate observation, search and rescue, 
vessel navigation, emergency response mapping, geodesy, time 
distribution, and census operations. Do you have an estimate on what 
the costs to NOAA may be to mitigate interference from the LightSquared 
signal?

A11.  We have some rough estimates on costs to mitigate LightSquared 
interference to a few specific NOAA systems, but we do not have an 
estimate for the total cost to mitigate all systems across NOAA. If 
LightSquared is allowed to proceed with operations involving signals in 
both the upper and lower 10 MHz, we are concerned that this would 
negatively impact currently operational capabilities essential to our 
mission.

Q12.  Given that LightSquared has modified its original business plan 
to start commercial operations with just the ``lower'' portion of its 
spectrum, the spectrum furthest away from the GPS signal, do you feel 
that there has been adequate testing on the impacts to NOAA's systems 
if their latest proposal is approved?

A12.  Adequate testing has not been completed at this time. NTIA and 
FCC recently called for additional testing to better understand the 
interference effects caused by LightSquared's lower channel only. Part 
of this testing, focusing on cellular and general/personal navigation 
receivers, has just been completed, but the data have not been 
analyzed. NOAA actively participated in the latest testing and will 
also engage in the future testing involving wideband receivers. Please 
note that the latest testing, like the original testing, occurred on an 
extremely compressed schedule that prevented us from testing all the 
equipment that could potentially be affected by the LightSquared 
proposals.

Q13.  I understand it is LightSquared's stated intent to eventually 
utilize its entire authorized spectrum, including the upper portion 
near the GPS signal, as it builds out its network. How much time would 
be required to upgrade existing equipment, and how much would that 
cost?

Q13a.  Does NOAA currently have funding available for these upgrades?

Q13b.  What would NOAA cut in order to fund these upgrades?

A13-13b.  At this time, we do not have a complete estimate of the cost 
of all NOAA GPS receivers that would need to be replaced or upgraded to 
mitigate LightSquarcd's proposed signals. NOAA's current budget does 
not include any funding for GPS interference mitigation. NOAA cannot 
plan to upgrade or re-equip any GPS equipment before suitable 
mitigations have been identified, fully verified, costed, and made 
available.

Q14.  The limited testing conducted by the TWG showed significant 
interference from the LightSquared signal on high precision GPS 
equipment even with the newly proposed LightSquared strategy to limit 
initial commercials operations to the ``lower'' spectrum using less 
power. LightSquared maintains that filters can be developed to minimize 
their interference with the GPS signals.

Q14a.  Can you tell the Committee how NOAA plans to use filters to 
mitigate the interference issues?

Q14b.  What are the costs associated with developing these filters?

Q14c.  Since NOAA weather satellites are already in orbit and future 
satellites are already designed or built, how would those assets be 
affected?

A14-14c.  We have no current plans to use filters to mitigate 
interference to our high precision equipment, as the FCC has not 
approved LightSquared network operations, and the proposed filters do 
not exist yet. We do not know what the filters would cost, but they 
will likely cost more than the $300-$800 price that Javad GNSS cited to 
retrofit Javad's own products. It is important to note that this cost 
only includes the hardware; it does not account for the significant 
labor costs involved in retrofitting, re-certifying, and retraining, 
nor does it include the operational impacts of taking systems offline 
for upgrades. NOAA has hundreds of devices that may need upgrading. In 
the case ofthe six COSMIC satellites in space and the NPP satellite 
launched October 28, our latest analysis suggests that LightSquared's 
lower channel will not affect the receivers used on the COSMIC 
satellites. However, we remain concerned about potential interference 
to COSMIC if LightSquared eventually operates using its upper channel 
since we have no way of modifying the GPS receivers they carry on 
board.

Q15.  Approximately two months ago I asked all agencies within this 
Committee's jurisdiction to provide the Committee with the comments 
they submitted to NTIA regarding the LightSquared proposal. I have not 
yet received responses from NOAA, NIST, and DHS. Will NOAA agree to 
provide those comments to the Committee so that we, and the American 
people, can better understand the impact that the LightSquared proposal 
would have on NOAA operations?

A15.  NOAA has followed, and will continue to follow, the established 
process by which federal agencies provide comments to the FCC through 
NTIA, the Administration's lead agency for spectrum policy matters, 
rather than each agency submitting comments directly to the FCC. The 
impact statements contain core deliberative communications from 
Executive Branch agencies that provide critical advice to NTIA in its 
role as spectrum manager on behalf of the Federal Government. Agency 
inputs as part of this deliberative process have not been released to 
the public.

Q16.  If LightSquared's modified spectrum plan on June 30, 2011 (which 
only involves the lower 10 MHz) were to be implemented, what 
capabilities in service would the agency lose?

A16.  NOAA has several major capabilities at risk under the lower 
channel proposal. We need to do more testing to confirm the scope ofthe 
potential impacts. The capabilities include:

    <bullet>  (1) GPS-based surveying of airport runways and 
shorelines;

    <bullet>  (2) monitoring sea level trends (rise and fall), to 
protect natural and human communities;

    <bullet>  (3) the Ground-Based GPS Meteorology project, which 
measures atmospheric moisture to improve short-term forecasts;

    <bullet>  (4) issuance of the U.S. Total Electron Content product, 
to inform the public of space weather conditions affecting GPS 
accuracy; and

    <bullet>  (5) maintaining the National Spatial Reference System, to 
ensure compatibility among U.S. maps and surveys.


Q17.  Please list the systems and functions that would be impacted by 
GPS interference.

Q17a.  How would weather forecasting bc impacted?

A17, 17a.  GPS interference--under both the original and modified 
LightSquared plans--threatens to disable or degrade our environmental 
satellites and sensors, causing data corruption and gaps that reduce 
the accuracy of our weather forecasts and warnings. We are particularly 
concerned that our Ground-based GPS Meteorology (GPS-Met) system, which 
depends on wideband GPS receivers, could be significantly impacted by 
LightSquared's use of the lower channel. Loss of the data from GPS-
based weather instruments would not stop us from predicting hurricanes 
and other severe weather, but our forecasts would be less accurate. For 
example, we would have to issue storm warnings to broader swaths of the 
Nation, causing needless public concern and the expense of needless 
evacuations, which can cost up to $1 million per mile of coastline. The 
hurricane warnings would become less accurate as landfall is approached 
due to LightSquared interference with GPS in the coastal areas.

Q17b.  How would climate observation be impacted?

A17b.  The same sensors we use for weather forecasting feed data into 
our longer- term climate models. The term ``climate'' refers to weather 
conditions any time in the future beyond two weeks. GPS interference 
would lead to degraded climate modeling accuracy.

Q17c.  How wouId search and rescue be impacted?

A17c.  NOAA's Search and Rescue Satellite-Aided Tracking (SARSAT) 
system relays distress signals via satellite from emergency beacons to 
the ground stations and mission control center, which sends alerts and 
beacon locations to search and rescue authorities. It is a major 
component of the International COSPAS-SARSAT system, a critical life 
and safety service with national and international requirements. SARSAT 
ground stations (Local User Terminals, or LUTs) utilize multiple GPS 
receivers to determine and maintain precise time. LUTs calibrate the 
oscillators that keep time for the SARSAT instruments on GOES and POES 
satellites. GPS is also integrated into some distress beacons to 
determine the user's location and include it in the distress alert. The 
ability of such beacons to independently and more accurately determine 
and report their locations greatly improves response times and the 
chances of a successful rescue. The current MSS/ATC rules require that 
all base stations within 27 kilometer or within the radio horizon of a 
SARSAT LUT earth station be coordinated. This requirement applies to 
base stations operating throughout the 1525-1559 MHz band which would 
cover both the upper and lower 10 MHz signal proposals from 
LightSquared. Given the coordination requirements in the current rules 
for SARSAT LUTs, GPS receivers used at LUTs should not be impacted by 
the LightSquared original or current spectrum proposal. NOAA is 
planning to conduct tests with LightSquared to verify the 27-kilometer 
coordination distance provides sufficient protection. GPS interference 
on land or along coasts would prevent GPS-enabled emergency beacons 
from reporting accurate distress locations. We hope to perform 
additional testing of GPS-enabled search and rescue beacons in the 
future.

Q17d.  How would vessel navigation be impacted?

A17d.  NOAA operates a fleet of 19 vessels in the Pacific and Atlantic 
Oceans for oceanographic, atmospheric, fisheries and coral reef 
research, nautical charting, environmental monitoring and ocean 
exploration. The fleet employs a variety of GPS and differential GPS 
receivers for navigation and scientific use. Position Heading and 
Attitude Sensors are used to determine the vessel's position, heading 
and attitude (heave, pitch and roll) with input from GPS receivers. If 
GPS service became unavailable and unreliable, NOAA vessels would be 
unable to perform many of their operations and missions. Overcoming 
these impacts would require extensive equipment purchases and 
installations on NOAA vessels (assuming a replacement system and 
equipment are available), the costs of which are not within our current 
operational and capital budget.
    The existing MSS/ATC rules require that the emissions from a base 
station operating in the 1525-1541.5 MHz and 1547.5-1559 MHz bands at 
the water edge of a navigable waterway is limited to a total power flux 
density (PFD). Given the base station PFD requirements in the current 
rules, GPS receivers on board vessels should not be impacted by the 
original or current spectrum proposal made by LightSquared. NOAA hopes 
to test some marine navigation equipment in a future round of 
interference testing to verify this is the case.

Q17e.  How would emergency response mapping be impacted?

A17e.  Following major disasters, NOAA flies aircraft over the affected 
areas to collect aerial imagery. Such imagery facilitates disaster 
relief efforts in areas affected by natural disasters, such as 
hurricanes, earthquakes, floods, etc., as well as manmade disasters 
such as oil spills. NOAA also deploys vessels after severe storm events 
to scan the seafloor for potential hazardous obstructions that may 
impede safe passage of the Marine Transportation System. GPS is used to 
georeference the aerial imagery and provides a spatial context to its 
suite of ocean mapping sensors, making it possible to identify areas 
devoid of landmarks and accurately map underwater hazards. Without 
accurate GPS, the locations of these features might not be known, and 
NOAA anticipates there would be resulting impacts on marine commerce, 
as well as reductions in the U.S. government savings enabled by NOAA 
emergency response. Potential loss of savings enabled by NOAA emergency 
response imagery is estimated at $1.42 million per 10,000 affected 
homes, while a marine transportation shut-down in just Hampton Roads 
alone could impede an estimated $5 million worth of cargo every hour. 
We have not identified any possible mitigation for the loss of GPS in 
this function; NOAA would lose this capability.

Q17f.  How would geodesy be impacted?

A17f.  NOAA's National Geodetic Survey uses a nationwide network of 
Continuously Operating Reference Stations (CORS) to define the National 
Spatial Reference System (NSRS). CORS is a network of high precision 
GPS receivers at over 1,800 fixed reference stations across the United 
States that continuously observe the GPS satellite orbits and relay the 
data to a central archive. The NSRS and CORS data are distributed to 
users via the Online Positioning User Service (OPUS), which processes 
and corrects collected GPS measurements with high precision. NSRS also 
provides the basis for real time positioning networks (RTNs) operated 
by states in support of agriculture, maritime operations, surveying, 
floodplain mapping, etc.
    Based on initial testing, we believe the wideband, high precision 
GPS receivers in the CORS network are at risk of interference even if 
LightSquared only uses its lower 10 MHz channel. Without reliable GPS, 
the entire CORS network could become unusable, and we would be forced 
to use less accurate, more labor-intensive, and more costly methods to 
define the NSRS. For example, the cost to update the International 
Great Lakes Datum would increase from less than $30 million using GPS 
to $160 million using traditional line-of-sight survey methods. The 
Nation could lose an estimated $758 million in annual socioeconomic 
benefits from CORS. State investments in real time positioning networks 
(RTN) that depend on CORS for NSRS access would be lost, as would the 
significant economic activities RTNs support. OPUS would not function 
as designed, affecting approximately 20,000 users/month, resulting in a 
$12 million/month loss of economic benefits. It is unclear at this time 
whether filtering is possible without losing the functionality of high 
precision GPS receivers. If filtering is possible, upgrading every CORS 
site would be time and labor intensive, and likely cost millions of 
dollars, a cost that would be borne largely by the States, 
universities, and other CORS stakeholders. There would also be 
significant outreach and training costs, and increased operating costs.

Q17g.  How would time distribution be impacted?
A17g.  We use GPS time to synchronize nearly all of our environmental 
sensors to the same time scale. This ensures that millions of data 
inputs are kept in proper chronological order as they are ingested into 
models and analyzed. GPS time synchronization is also critical to the 
transmission of data from more than 23,000 land, sea, and mobile-based 
observational platforms via the GOES and POES Data Collection Systems 
(DCS). Examples of platforms include the National Water Level 
Observation Network, National Estuarine Research Reserves System-wide 
Monitoring Program weather and water quality stations, Coastal Marine 
Automated Network, and weather and hurricane observing buoys. Each 
platform transmits at predefined wavelengths and times. GPS receivers 
discipline the platform transmitters to maintain their frequency and 
time assignments. GPS receivers at the GOES and POES ground stations 
keep the satellites in time synchronization with the DCS platforms.
    Prolonged, continuous GPS interference at DCS platforms would lead 
to clock drift. Data could be transmitted at the wrong times, resulting 
in lost, missing, or corrupt data affecting weather forecast models and 
climate records. After a certain amount of time without access to GPS, 
the DCS platform radios are programmed to cease transmission and shut 
down, resulting in data gaps. Interference to the GPS receiver on the 
GOES-R satellite could prevent it from properly relaying any data from 
DCS platforms. To mitigate widespread GPS interference, the entire DCS 
would have be re-engineered so fewer platforms transmit data on the 
same frequencies per hour. The result would be a drastic (roughly one 
order of magnitude) reduction in data collection capability. The cost 
to apply the fix to all of the deployed platforms could be 
prohibitively expensive, leading to losses of capability.

Q17h.  Would the entire fleet of NOAA satellites be put at risk?

A17h.  Yes. There is a real possibility that GPS interference from 
LightSquared's network could adversely affect our satellite ground 
stations' ability to command and control our current satellites. Our 
future satellites could also be affected if LightSquared transmissions 
interfere with their onboard GPS equipment.

Q18.  Does NOAA have any way to mitigate the loss of GPS service?

A18.  We would need to implement mitigations on a system-by-system 
basis, as there is no single solution that addresses all types of GPS 
uses across NOAA. We have identified potential mitigations to some of 
our systems, but almost none of these have been demonstrated, costed, 
or tested. Some NOAA functions could be accomplished by reverting to 
older technologies and methods, but we would lose operational 
capabilities and cost efficiencies associated with GPS. For certain 
systems, such as satellites already in space, we have no way to 
mitigate potential GPS interference.

Q19.  How much would it cost to replace all of NOAA's GPS receivers?

A19.  At this time, we do not have a complete estimate of the cost of 
all NOAA GPS receivers that would need to be replaced or upgraded to 
mitigate LightSquared's proposed signals. NOAA cannot plan to upgrade 
or re-equip any GPS equipment before suitable mitigations have been 
identified, fully verified, costed, and made available.

Q20.  How much would it cost to retrofit all of NOAA's GPS receivers, 
if a filter could be developed?

A20.  At this time, we do not have a complete estimate of the cost of 
all NOAA GPS receivers that would need to be replaced or upgraded to 
mitigate LightSquared's proposed signals. NOAA cannot plan to upgrade 
or re-equip any GPS equipment before suitable mitigations have been 
identified, fully verified, costed, and made available.

Q21.  What programs would NOAA cut in order to pay for these upgrades?

A21.  If and when we get to the point when we need to pay for upgrades, 
we will analyze all of our mission priorities to determine what lost 
GPS-based capabilities we need to preserve and what future improvements 
or other activities we may need to defer in order to do so. Given that 
the cost of mitigation is unknown at this time, it would be impossible 
to perform such analysis.

Q22.  Does NOAA have any way to modify, replace, or retrofit GPS 
receivers in space, or being prepared for launch?

A22.  No, we do not. If LightSquared transmissions affect those 
satellites, we will have no way to mitigate the interference. Those 
satellites could lose capability to maintain accurate orbits and orient 
themselves correctly, leading to degraded weather forecasts and climate 
data collection.

Q23.  If LightSquared was allowed to use both the upper and lower 10 
MHz of its spectrum (as it has states it eventually intends to do), how 
would NOAA operations be impacted?

A23.  It is expected that interference to GPS from both the upper and 
lower LightSquared channels would cause serious performance degradation 
or a total loss of mission for a wide range of NOAA's operational 
systems, resulting in the loss of critical services and potential loss 
of life and property. These systems include major satellite, airborne, 
sea-based, and terrestrial systems used for weather forecasting, 
climate observation, search and rescue, vessel navigation, nautical 
charting, emergency response, and geodesy. Since virtually all of 
NOAA's operational systems and functions are integrated with GPS 
technology, the impacts would be felt across all of our Line Offices. 
The American public, which relies on NOAA for weather forecasting, 
research, and life-saving capabilities, could experience severe 
degradation or total loss of some products and services.

Q24.  Please describe how the following systems would be impacted by 
the LightSquared network (as planned on June 30, 2011). Please include 
an assessment of the costs associated with each individual system/
program.

A24.  The LightSquared operating plan of June 30, 2011, still includes 
eventual use of the problematic upper 10 MHz channel next to GPS. The 
information below is based on our concerns about the upper channel. We 
have not yet had a chance to test whether all of the systems and 
functions below would be adversely affected by use of the lower 10 MHz 
channel only.

GOES/POES/NPP/JPSS

    The Geostationary Operational Environmental Satellite (GOES) system 
provides continuous monitoring of the Western Hemisphere to support 
warnings of tornadoes, hurricanes, and other severe weather directly 
affecting U.S. public safety, protection of property, and economic 
health and development. The current Polar-orbiting Operational 
Environmental Satellite (POES) system, the National Polar-orbiting 
Operational Environmental Satellite System Preparatory Project (NPP), 
and the future Joint Polar-orbiting Satellite System (JPSS) collect 
global data to support weather forecasting, climate change research, 
monitor volcanic eruptions, detect forest fires, and support search and 
rescue. Today's GOES and POES satellite operation centers use GPS on 
the ground to maintain the accuracy of local frequency standards used 
for system timing applications in their respective mission systems. The 
ground stations routinely upload time corrections to the satellites to 
keep them synchronized with the GPS time scale used at the ground 
stations and across NOAA. The GOES and POES ground stations also use 
GPS time to generate and upload highly accurate spacecraft ephemeris 
(orbit information) essential for attitude control and navigation.
    Any loss of GPS lock at the operational centers takes a minimum of 
20 minutes to re-establish. Prolonged, continuous GPS interference at 
the ground stations would cause timing systems to drift out of 
specification, causing widespread errors that could not be effectively 
managed, even with constant, manual application of time corrections. 
This would cause attitude control and timing inaccuracies on the 
satellites, degrading the quality of weather and climate measurements 
and leading to less accurate warnings of severe weather. Eventually, if 
the timing systems get into errors on the order of a few microseconds, 
spacecraft could become unstable and ground stations could completely 
lose the ability to command and control them. If NOAA ground stations 
cannot be protected from interference through LightSquared exclusion 
zones or physical relocation, the satellite operation centers would 
likely need to procure and maintain new cesium clocks for time 
reference at high initial and annual cost.
    NOAA's next-generation satellites, including GOES-R, NPP, and JPSS, 
will use on-board GPS receivers to provide autonomous orbit 
determination and a time reference accurate to 250 nanoseconds. Loss of 
GPS on board these satellites would cause them to rely on less accurate 
star trackers for pointing, degrading data quality and forecasts. The 
next-generation satellites cannot be upgraded as long as a mitigating 
filter has not been developed, proven, space-qualified, and made 
available. This is especially true for those satellites that are now 
being readied for launch. We would have to develop ground-based 
ephemeris products and time corrections for the next-generation 
satellites, adding cost and labor requirements to the programs.

GOES and POES Data Collection Systems (DCS)

    The GOES and POES Data Collection Systems (DCS) enable the 
collection of essential data from over 23,000 land, sea, and mobile-
based observational platforms, which use the GOES and POES satellites 
as data relays. Examples of platforms include the National Water Level 
Observation Network, National Estuarine Research Reserves System-wide 
Monitoring Program weather and water quality stations, Coastal Marine 
Automated Network, and weather and hurricane observing buoys. Each 
platform transmits at predefined wavelengths and times. GPS receivers 
discipline the platform transmitters to maintain their frequency and 
time assignments. GPS receivers at the GOES and POES ground stations 
keep the satellites in time synchronization with the DCS platforms.
    Prolonged, continuous GPS interference at DCS platforms would lead 
to clock drift. Data could be transmitted at the wrong times, resulting 
in lost, missing, or corrupt data affecting weather forecast models and 
climate records. After a certain amount of time without access to GPS, 
the DCS platform radios are programmed to cease transmission and shut 
down, resulting in data gaps. Interference to the GPS receiver on the 
GOES-R satellite could prevent it from properly relaying any data from 
DCS platforms. To mitigate widespread GPS interference, the entire DCS 
would have be re-engineered so fewer platforms transmit data on the 
same frequencies per hour. The result would be a drastic (roughly one 
order of magnitude) reduction in data collection capability. Applying 
the fix to all of the deployed platforms would incur costs in terms of 
hardware, labor, and travel to many remotely located platforms.

COSMIC and COSMIC-2

    The Constellation Observing System for Meteorology, Ionosphere and 
Climate (COSMIC) is designed to fill in global gaps in atmospheric data 
where weather balloon observations are scarce. COSMIC involves six 
satellites in low Earth orbit that use the GPS radio occultation 
(GPSRO) technique to perform atmospheric soundings of pressure, 
temperature, water vapor, and electron density. The technique involves 
the observation of the GPS satellite signals from other satellites in 
space. The signals refract (bend) as they pass through the limb of the 
Earth's atmosphere. Measuring the amount of GPS signal refraction 
through different ``slices'' of the atmosphere allows researchers to 
derive the physical properties of those slices. COSMIC data 
significantly improves the modeling of hurricanes and other storm 
patterns. COSMIC also collects global data on electron density to 
improve space weather forecasts.
    GPS interference from the LightSquared network could prevent the 
collection of GPSRO data over the United States. At this time, our 
analysis suggests that receivers on the COSMIC satellite will not be 
affected if LightSquared uses its lower channel only. However, we 
remain concerned about potential interference to COSMIC, which is 
already suffering from degraded operations as it operates beyond its 
design life, if LightSquared eventually operates using its upper 
channel. If interference occurs under any scenario, there would be no 
possible mitigation; this entire capability would be lost.

SARSAT

    NOAA's Search and Rescue Satellite-Aided Tracking (SARSAT) system 
relays distress signals via satellite from emergency beacons to the 
ground stations and mission control center, which sends alerts and 
beacon locations to search and rescue authorities. It is a major 
component of the International COSPAS-SARSAT system, a critical life 
and safety service with national and international requirements. SARSAT 
ground stations (Local User Terminals, or LUTs) utilize multiple GPS 
receivers to determine and maintain precise time. LUTs calibrate the 
oscillators that keep time for the SARSAT instruments on GOES and POES 
satellites. GPS is also integrated into some distress beacons to 
determine the user's location and include it in the distress alert. The 
ability of such beacons to independently and more accurately determine 
and report their locations greatly improves response times and the 
chances of a successful rescue.
    GPS interference on land or along coasts would prevent GPS-enabled 
emergency beacons from reporting accurate distress locations. We hope 
to perform additional testing of GPS-enabled search and rescue beacons 
in the future.
    The current MSS/ATC rules require that all base stations within 27 
kilometer or within the radio horizon of a SARSAT LUT earth station be 
coordinated. This requirement applies to base stations operating 
throughout the 1525-1559 MHz band which would cover both the upper and 
lower 10 MHz signal proposals from LightSquared. Given the coordination 
requirements in the current rules for SARSAT LUTs, GPS receivers used 
at LUTs should not be impacted by the original or current spectrum 
proposal made by LightSquared. NOAA is planning to conduct tests with 
LightSquared to verify the 27-kilometer coordination distance provides 
sufficient protection.

NOAA Emergency Response Imagery

    Following major disasters, NOAA flies aircraft over the affected 
areas to collect aerial imagery. Such imagery facilitates disaster 
relief efforts in areas affected by natural disasters, such as 
hurricanes, earthquakes, floods, etc., as well as manmade disasters 
such as oil spills. NOAA also deploys vessels after severe storm events 
to scan the seafloor for potential hazardous obstructions that may 
impede safe passage of the Marine Transportation System. GPS is used to 
georeference the aerial imagery and provides a spatial context to its 
suite of ocean mapping sensors, making it possible to identify areas 
devoid of landmarks and accurately map underwater hazards. Without 
accurate GPS, the locations of these features might not be known, and 
NOAA anticipates there would be resulting impacts on marine commerce, 
as well as reductions in the U.S. Government savings enabled by NOAA 
emergency response. Potential loss of savings enabled by NOAA emergency 
response imagery is estimated at $1.42 million per 10,000 affected 
homes, while a marine transportation shut-down in just Hampton Roads 
alone could impede an estimated $5 million worth of cargo every hour. 
We have not identified any possible mitigation for the loss of GPS in 
this function; NOAA would lose this capability.

Global Maritime Distress and Safety System (GMDSS)

    GMDSS is used to facilitate worldwide rescue of distressed vessels 
and aircraft. It disseminates navigational warnings, meteorological 
warnings and forecasts, and other urgent safety-related information to 
all ships on the world's oceans, regardless of location or atmospheric 
conditions. The National Weather Service participates in the GMDSS by 
preparing meteorological forecasts and warnings for broadcast via 
systems that use GPS to program the receiver properly for receipt of 
the appropriate data.
    The existing MSS/ATC rules require that the emissions from a base 
station operating in the 1525-15415 MHz and 1547.5-1559 MHz bands at 
the water edge of a navigable waterway is limited to a total power flux 
density (PFD). The PFD limits in the current rules were developed in 
coordination with the Coast Guard specifically to protect GMDSS 
operations in navigable waterways. Given the base station PPD 
requirements in the current rules, GMDSS receivers on board vessels 
should not be impacted by the original or current spectrum proposals 
made by LightSquared. NOAA hopes to test some marine navigation 
equipment in a future round ofinterference testing to verify this is 
the case.

Next-Generation Radar (NEXRAD)

    NEXRAD is a network of 159 high resolution weather surveillance 
radars that transmit data that can be processed to show patterns of 
precipitation and its movement. Each radar contains a GPS unit for time 
stamping of data, troubleshooting, and auditing purposes. NEXRAD 
communications require extremely accurate timing and rely on GPS for 
Universal Time Coordinated (UTC) stamps.
    If the radar loses GPS time, it will rely on local equipment. Over 
a prolonged period, the equipment will begin to drift, causing radar 
pointing errors and system alarms. Forecasters and air traffic 
controllers could generate erroneous reports. This problem is somewhat 
mitigated by software that ensures internal timing sources match, even 
if they are wrong. If GPS service is not available, the Radar 
Operations Center will need to engineer a separate time server and make 
a significant number of changes, mostly in software, to rehome radar 
sub-components to the new time source.

Continuously Operating Reference System (CORS)

    CORS is a network of high precision GPS receivers at over 1,800 
fixed reference stations across the United States that continuously 
observes the GPS satellite orbits and relays the data to a central 
archive. CORS provides the means for defining the National Spatial 
Reference System (NSRS), the common standard for all U.S. geospatial 
activities such as mapping and surveying. The NSRS and CORS data are 
distributed to users via the Online Positioning User Service (OPUS), 
which processes and corrects collectcd GPS measurements with high 
precision. NSRS also provides the basis for real time positioning 
networks (RTNs) operated by states in support of agriculture, maritime 
operations, surveying, floodplain mapping, etc.
    Based on initial testing, we believe thc wideband, high precision 
GPS receivers in the CORS network are at risk of interference even if 
LightSquared only uses its lower 10 MHz channel. Without reliable GPS, 
the entire CORS network could become unusable, and we would be forced 
to use less accurate, more labor-intensive, and more costly methods to 
define the NSRS. For example, the cost to update the International 
Great Lakes Datum would increase from less than $30 million using GPS 
to $160 million using traditional line-of-sight survey methods. The 
Nation could lose an estimated $758 million in annual socioeconomic 
benefits from CORS. State investments in real time positioning networks 
(RTN) that depend on CORS for NSRS access would be lost, as would the 
significant economic activities RTNs support. OPUS would not function 
as designed, affecting approximately 20,000 users/month, resulting in a 
$12 million/month loss of economic benefits. It is unclear at this time 
whether filtering is possible without losing the functionality of high 
precision GPS receivers. If filtering is possible, upgrading every CORS 
site would be time and labor intensive and likely cost millions of 
dollars, a cost that would be borne largely by the states, 
universities, and other CORS stakeholders. There would also be 
significant outreach and training costs, and increased operating costs.

Aeronautical Survey Program

    NOAA provides airport geodetic control, runway, navigational aid, 
obstruction, and other aeronautical data that is critical to the 
operation of the National Airspace System. This data is used to develop 
runway approach procedures and obstruction charts. We use high 
precision GPS equipment to perform the field surveys.
    Based on initial testing, we believe the wideband, high precision 
GPS receivers we use for aeronautical surveying are at risk if 
LightSquared uses its lower channel only. If our aeronautical surveying 
equipment were to cease functioning, we would have to conduct the 
surveys using traditional methods that are less accurate, resulting in 
decreased safety at the airports we survey in the future. Using 
traditional surveying methods would also significantly increase the 
time and cost, and reduce the number of surveys that could be performed 
each year. A single survey mark cost $14,649 in 1984 using traditional 
methods vs. $822 in 2004 with GPS, and the team costs dropped from 
$439,455 to $24,647.
    The existing MSS/ATC rules require that the emissions from a base 
station operating in the 1525-1559 MHz band at the edge of all airport 
runways and aircraft stand areas, including takeoff and land paths, is 
limited to a total power flux density (PPD). The planned future round 
of interference testing involving high precision GPS equipment should 
provide data on whether the existing PFD limits provide adequate 
protection for ground surveying equipment at airports.

Coast Mapping Program

    NOAA provides the critical baseline data for demarcating the 
Nation's marine territorial limits, including its Exclusive Economic 
Zone, and for the geographic reference needed to maintain coastal 
resources and many other uses. We use GPS to georeference shoreline 
information during data collection.
    GPS interference would prevent the georeferencing. We have not 
identified any possible mitigation for the loss of GPS; NOAA would lose 
capability.

National Data Buoy Center Observation System

    NOAA's National Data Buoy Center operates a network of weather and 
hurricane observing buoys, coastal stations, the Tropical Atmosphere 
Ocean climate monitoring buoys, and tsunami detection stations that 
provide hourly observations on wind, atmospheric, and sea surface 
conditions. The system depends on continuous GPS capability for 
positioning, data acquisition system timing, and transmission of data.
    GPS interference in coastal areas would cause weather and hurricane 
observing buoys and Coastal Marine Automated Network (C-MAN) stations 
to cease transmitting all weather data via GOES satellite (see GOES and 
POES Data Collection Systems). The positions of affected buoys would be 
unknown. Affected buoys that break free of their moorings would not be 
tracked, causing a navigation hazard and loss of the buoy. To mitigate 
the loss of GPS, we could outfit the weather and hurricane buoys and 
the C-MAN stations with IRIDIUM data transmission capability at an 
estimated cost of $2 million (one-time cost) plus an annual maintenance 
cost of $1 million. If expedited deployment of new equipment were 
required to restore service, the additional cost is estimated to be $25 
million for additional labor and ship time. The estimated cost to 
replace buoys that go adrift and become lost at sea due to the 
inability to track buoy position, cover additional logistics costs for 
transportation to and from ports, and provide larger vessels for the 
additional buoy spares would be $14 million per year. This is a 
recurring cost and includes equipment purchases and preparation of 35 
spare buoys per year.

Radiosonde Upper-Air Observing System

    NOAA flies instruments called radiosondes on weather balloons to 
measure profiles of pressure, temperature, and relative humidity from 
the Earth's surface to the mid-stratosphere. The data is used by 
weather forecasters in numerical prediction models and by the aviation 
industry for use in air traffic. Each instrument includes a GPS 
receiver to provide accurate position and velocity data as it is 
carried aloft. The velocity data is used to compute the winds aloft and 
the positioning data is used to determine the instrument's height. One 
site uses GPS height data to derive the air-pressure measurement, and 
there are actions under way to implement the same technology in all 
radiosondes.
    Prolonged, continuous GPS interference would render our radiosondes 
incapable of reporting any wind data, directly impacting the National 
Weather Service's numerical weather prediction models, aviation weather 
products, independent reference for calibration of satellite remote 
sensing systems, and international commitments to exchange global 
atmospheric wind and thermodynamic information. Alternate methods would 
cost approximately $1 million for research and development and up to 
$20 million to implement. They would require at least five years to 
develop and as long as 15 years to implement, yet produce less data 
accuracy and quality. One alternative method is to triangulate 
radiosonde course and speed for computation of wind data. A second 
method is to modify the system to operate as a radio-theodolite and use 
radio-direction finding to compute wind data.

GPS Dropsondes

    NOAA's ``hurricane hunter'' aircraft release instruments called 
dropsondes into the eye of hurricanes to obtain data, enabling 
forecasters to track and predict hurricane movements. This results in 
warnings that save human lives and property. These data are also used 
by the hurricane research community. Each dropsonde contains a GPS 
receiver, along with pressure, temperature, and humidity sensors to 
capture atmospheric profiles and thermodynamic data.
    Interference with the GPS signals would affect hurricane 
reconnaissance and surveillance missions, especially along the 
immediate coast of the United States, and would hamper any ability to 
accurately predict the strength, location, and direction of a hurricane 
or cyclone and to implement disaster management plans. If the 
LightSquared system interferes with the signals from dropsondes, this 
would require dropsonde redesign efforts exceeding $200,000, including 
redesign, prototypes, and testing.

Hydrological and Geospatial Data

    NOAA's National Weather Service relies upon geospatial hydrologic 
data received from numerous internal and external sources, with over 
14,000 data collection platforms. These data support weather forecasts 
and storm alerts of significant rainfall/snowfall. The data collection 
platforms use GPS to correct normal clock drift.
    Disruption of the GPS signal would result in transmission of data 
at incorrect times, which may result in lost, missing, or corrupt data, 
affecting the National Weather Service's ability to provide hydrologic 
forecast services. To mitigate widespread GPS interference, the entire 
data collection system would have be re-engineered so fewer platforms 
transmit data on the same frequencies per hour. The result would be a 
drastic (roughly one order of magnitude) reduction in data collection 
capability. Applying the fix to all of the deployed platforms would 
incur costs in terms of hardware, labor, and travel to many remotely 
located platforms.

Digital Gamma Radiation Detection Systems

    NOAA flies digital gamma radiation detection systems on aircraft to 
measure soil moisture and snow water. These systems are often the sole 
source of in situ data available during floods driven by spring 
snowmelt, such as those experienced recently in the Upper Midwest. The 
data streams provided by these systems contain GPS-derived location 
information, necessary for assimilating gamma-based measurements into 
river forecasting decision support systems.
    Imprecise gamma flight line location would decrease the accuracy, 
precision, and confidence of flood forecast models dependent on these 
data. The gamma survey system's GPS data stream could be replaced with 
the aircraft's GPS location data stream at a cost of about $10,000. But 
if the avionics were also degraded by LightSquared transmissions, no 
mitigation would be possible, and this current NOAA capability would be 
lost.

Observation Station Location Data

    Accurate and precise measurements of observation station locations 
are essential to the assimilation and validation of ground-based 
observations of hydrometeorological variables. Station locations are 
routinely measured using commercial GPS receivers.
    In the absence of GPS, the National Weather Service would use USGS 
topographic maps to determine the locations of observation stations. 
This imprecise data will have an unacceptable effect on model-generated 
forecasts of water levels and flooding by decreasing model confidence 
levels. We have not identified any possible mitigation for the loss of 
GPS; NOAA would lose capability.

Tsunami Warning Centers

    The National Weather Service operates tsunami warning centers in 
Alaska and Hawaii as part of an international cooperative effort among 
26 member states to save lives and protect property. Both centers are 
highly dependent on reliable GPS to conduct their mission. Both use 
seismic and sea-level data, nearly all of which are timed using GPS 
clocks, to detect and analyze earthquakes for their tsunami potential 
and to detect and measure tsunami waves to forecast their impact. 
Further, all of the computers within the two centers that are used to 
do the analysis and create and issue the products are timed using GPS 
clocks.
    In the presence of GPS interference, the clocks would begin 
drifting such that within a fairly short time--probably less than a 
day--timings would be affected, degrading the tsunami warning centers' 
performance. Also, many of the coastal sea level stations have a small 
(as small as five seconds) time window in which to send their data to 
the satellite. If the local clock drifts out of the window, then the 
transmission can overlap with the transmission from another gauge, 
destroying both sets of data. To mitigate widespread GPS interference, 
the entire data collection system would have be re-engineered so fewer 
platforms transmit data on the same frequencies per hour. The result 
would be a drastic (roughly one order of magnitude) reduction in data 
collection capability. Applying the fix to all of the deployed 
platforms would incur costs in terms of hardware, labor, and travel to 
many remotely located platforms.

Pacific Island GPS Sensors

    These sensors provide continuous total accumulated moisture within 
the atmosphere for a better depiction of the atmosphere as conditions 
change. They also support atmospheric modeling. The sensors provide 
geologic information on island vertical and horizontal displacement. 
These data also provide information about the duration and strength of 
seismic activities. GPS provides time and position data as well as 
detection of water vapor based on the atmospheric effects on the GPS 
signals.
    GPS interference would result in a loss of sensor data. We have not 
identified any possible mitigation for the loss of GPS; NOAA would lose 
capability. These sensors provide valuable information in the Pacific 
that cannot otherwise be obtained without great cost to the Nation.

Alaska Fisheries Science Center (AFSC)

    The Alaska Fisheries Science Center (AFSC) generates scientific 
information and analysis necessary for the conservation, management, 
and utilization of the Alaska region's living marine resources, and GPS 
is linked to every geo-referenced piece of data collected for this 
purpose. It is used for accurate data mapping, precise sampling, and 
geographic information system analysis to understand distributions of 
fish, protected species, habitat biota, oil, and marine chemistry. For 
instance, it is used to follow marine mammals through tracking collars 
and geo-referenced photography. Without GPS, mammal positions would 
have to be calculated with Service Argos, with a significant loss of 
precision. Additionally observer data, fisheries survey data, acoustic 
mapping and hydrographic mapping all rely on the accuracy and 
dependability of GPS. The above-mentioned benefits of GPS are not 
specific to AFSC. Over the last decade almost every fisheries science 
program and commercial fishing operation has come to rely on GPS to 
provide economical, accurate, high-quality positioning information.
    Emergency beacon (G-EPIRB) signals use GPS positions and are 
critical to personnel safety, particularly for those operating in 
remote and harsh environments such as the Alaska region. AFSC issues 
hundreds of personal locator beacons to staff and contracted fishery 
observers. It also distributes several dozen GPS units used by field 
researchers and small vessel operators when operating in remote areas. 
NOAA vessels and small boats rely entirely on GPS for positioning and 
navigation of field operations, even in waters considered near shore. 
In emergency situations, GPS degradation could prevent fast responses 
and position certainty. As a result, personnel would be exposed to more 
safety risks than their jobs currently pose.
    Without GPS, economical and accurate positioning and geospatial 
referencing will be much more expensive, time consuming, and 
inaccurate. At a minimum, service interruptions would compromise our 
ability to enforce fishing regulations (vessel monitoring system 
accuracy), monitor habitat changes, and collect accurate geospatial 
research and commercial catch data. At worst, it could invalidate data 
needed to support decision-making actions required by the Magnuson-
Stevens Fishery Conservation and Management Act, the Endangered Species 
Act, the Marine Mammal Protection Act, and a host of other legislation.

National Estuarine Research Reserve System (NERRS)

    The NERRS System-wide Monitoring Program provides high-resolution 
data on water quality and weather at 28 coastal reserves across the 
Nation. Sentinel site networks are now being established to track the 
impacts of coastal uplift and sea level rise on coastal ecosystems. 
Monitoring of ecological observations within an accurate and consistent 
geospatial framework requires high precision GPS. It is used to connect 
tidal and geodetic datums, establish spatial relationships between 
trends observed within a network of surface elevation tables, and 
monitor the rate of local vertical land movement, as well as the height 
of the marsh surface and ground water relative to local sea level. In 
many locations, elevation changes below one centimeter can have 
profound effects on the structure and function of coastal ecosystems; 
therefore high-precision GPS capability is critical.
    Based on initial testing, we believe the wideband, high precision 
GPS equipment used to measure sea level trends is at risk even under 
the LightSquared lower channel only. If high precision GPS service 
became unavailable or unreliable, it would have profound effects on the 
ability to monitor impacts of sea level changes and inundation from 
storms and coastal flooding on coastal communities and ecosystems. This 
would undermine the ability of communities to identify their risk to 
sea level change and episodic storm events. The loss of GPS service 
would require extensive reliance on field-based leveling, which is 
exponentially more expensive in terms of time and labor costs.

Coastal Services Center

    The Center works with state and local coastal programs to determine 
data needs and deliver the data, tools and training needed to turn 
these data into useful information relative to socioeconomics, 
orthoimagery, marine boundaries, land cover, hydrography, elevation, 
etc. GPS receivers are used in marking boundaries and mapping 
shorelines, monitoring erosion, assisting with dock permitting and 
other management plans, tracking endangered animals, and rapidly 
assimilating post-storm damage assessments. LIDAR elevation mapping and 
aerial photography use high precision GPS. Validation of the mapped 
data also requires high precision GPS.
    If GPS services were not available, elevation products needed to 
meet requirements for flood mapping and sea level rise mapping may not 
be possible. It was only with the advent of high precision GPS that 
wide-area coverage at the required accuracies became feasible. Aerial 
photography could still be done, but at additional costs for crews to 
put down target panels and survey them in. That surveying would also 
have to be done with older, more expensive, technology. Costs might be 
anywhere from 50-100 percent greater.

Center for Operational Oceanograpbic Products and Services (CO-OPS)

    CO-OPS provides the national infrastructure, science, and technical 
expertise to monitor, assess, and distribute oceanographic data for 
coastal waters, including historical and real-time observations and 
predictions of tide, current, water level, and other coastal 
oceanographic data. GPS time synchronization is necessary for the time 
stamping of data shared and ingested to produce products (six-minute 
data, high and low data, hourly heights, and datums).
    If the GPS signals are degraded or not reliable, all CO-OPS 
operations would be affected. Loss of GPS time stamps would prevent 
data processing and reduce support to the Physical Oceanographic Real-
Time System, hydrographic surveys photogrammetry, National Water Level 
Observation Network, VDatum, COASTAL partners, OCS, other federal 
agencies, and the general public. We have not identified any possible 
mitigation for the loss of GPS; NOAA would lose capability.

Bench Mark Elevation Data

    This data is necessary to vertically reference water level 
observations to establish tidal datums. Without a vertical datum 
reference, water level data have minimal value and cannot be used to 
update tidal datums, derive nautical chart depths from bathymetric 
survey data, or establish privately owned land, state-owned land, 
territorial sea, exclusive economic zone, and high seas boundaries. CO-
OPS collects GPS observations on bench marks and submits the data to 
the OPUS database.
    Lost or degraded GPS signals would affect the collection of 
ellipsoid elevations, geodetic elevations and hence would affect the 
compilation of the VDatum Complete List for the VDatum Program, which 
in turn would affect the development and update of the VDatum models. 
We have not identified any possible mitigation for the loss of GPS; 
NOAA would lose capability.

National Current Observations Program (NCOP)

    NCOP supports tidal current predictions for various coastal regions 
and location as well as recovery of expensive subsurface measurement 
systems. It relies on GPS position data to mark locations of moored 
current measurement instrumentation.
    Loss of GPS would result in inaccurate or missing position data and 
potential loss of instrumentation. We have not identified any possible 
mitigation for the loss of GPS; NOAA would lose capability.

Sea Surface Radar Altimeters

    These instruments measure sea state and ocean currents to improve 
weather and climate models, as well as models used to inform NOAA and 
Coast Guard search-and-rescue efforts and other operations at sea. GPS 
time synchronization enables time-based sharing of radio frequencies 
among dozens of radars. This capability will soon become a requirement 
by international and domestic regulations for all high frequency 
radars, as it allows for nearly simultaneous use of the same transmit 
frequency.
    Loss of GPS time synchronization would prevent the radar network 
from properly sharing the radio frequencies, degrading data collection 
capabilities and reducing the accuracy of meteorological models. The 
systems would not comply with the impending regulations. The systems 
would be required to operate on a non-interference basis. Radars would 
need much more spectrum to continue operating at current levels. 
Increased spectrum requirement will result in lost capability due to 
lack of available frequencies. Capability would be lost in support of 
Coast Guard search and rescue activities and NOAA/Coast Guard oil spill 
response. We have not identified any possible mitigation for the loss 
of GPS; NOAA would lose capability.

Ship Mounted Current Profiler Systems

    NOAA vessels measure sea currents by combining GPS motion data 
(ship's speed over ground, course over ground, and heading) with 
acoustic profiler data to obtain current measurements referenced to 
earth-fixed coordinates. In coastal areas where the impact would be 
greatest, interference to GPS on our vessels would lead to inaccurate 
or missing position and motion data. We have not identified any 
possible mitigation for the loss of GPS; NOAA would lose capability.

NOAA

Vessel Navigation Systems

    NOAA operates a fleet of 19 vessels in the Pacific and Atlantic 
Oceans for oceanographic, atmospheric, fisheries and coral reef 
research, nautical charting, environmental monitoring and ocean 
exploration. The fleet employs a variety of GPS and differential GPS 
receivers for navigation and scientific use. Position Heading and 
Attitude Sensors are used to determine the vessel's position, heading 
and attitude (heave, pitch and roll) with input from GPS receivers.
    The existing MSS/ATC rules require that the emissions from a base 
station operating in the 1525-J541.5 MHz and 1547.5-1559 MHz bands at 
the water edge of a navigable waterway is limited to a total power flux 
density (PFD). Given the base station PFD requirements in the current 
rules GPS receivers on board vessels should not be impacted by the 
original or current spectrum proposal made by LightSquared. NOAA hopes 
to test some marine navigation equipment in a future round of 
interference testing to verify if this is the case.

Electronic Chart Display (ECDIS) and Information System/Electronic 
        Navigational Charts (ENC)

    ECDIS and ENCs replace paper nautical charts aboard maritime 
vessels. The International Maritime Organization (IMO) mandated 
carriage of ECDlS and ENCs aboard commercial vessels starting in July 
2012. An ECDIS displays the information from an ENC and integrates 
current position information from GPS and other navigational sensors. 
Interference to GPS on vessels would lead to incorrect operation of 
IMO-mandated ECDIS and ENCs for navigation. We have not identified any 
possible mitigation for the loss of GPS; NOAA would lose capability.

Autonomous Underwater Vehicles (AUV)

    NOAA uses AUVs in robotic studies of lakes, the ocean, and the 
ocean floor. A variety of sensors measures the concentration of various 
elements or compounds, the absorption or reflection of light, and map 
features of the ocean. AUVs navigate using an underwater acoustic 
positioning system. Surface references, such as a support ship, use 
baseline positioning to calculate where the AUV is relative to the 
known (GPS) position of the surface craft. When operating completely 
autonomously, the AUV will surface and take its own GPS fix.
    Interference with GPS positioning data along U.S. coasts would 
render information mapped by the UAV inaccurate or speculative. We have 
not identified any possible mitigation for the loss of GPS; NOAA would 
lose capability.

Ocean Mapping Sensor Network

    NOAA uses this network to acquire hydrographic data to update the 
Nation's nautical charts and navigation products. NOAA is responsible 
for surveying 3.2 million miles of the U.S. Exclusive Economic Zone. 
GPS provides precise positioning for acquiring hydrographic survey 
data. NOAA's Office of Coast Survey relies heavily on this data to 
accurately position its sensors.
    Our analysis ofthe LightSquared testing data suggests that our 
survey boats could be affected from as far as 1.2 miles from shore. We 
have not identified any possible mitigation for the loss of GPS; NOAA 
would lose capability.

Ground-Based GPS Meteorology Project (GPS-Met)

    GPS-Met provides atmospheric profiles across the United States in 
support of improved weather forecasting, climate monitoring, and 
satellite sensor calibration and validation. GPS-Met utilizes high 
precision GPS receivers co-located with surface meteorological sensors 
to calculate the total precipitable water vapor directly above the 
site, vastly improving short-term weather forecasting.
    Based on initial tests, we believe the wideband, high-precision GPS 
equipment used by GPS-Met is at risk even if LightSquared uses its 
lower channel only. GPS interference would prevent GPS-Met data and 
products from being assimilated into operational weather models used by 
forecasters for nowcasting. Model and forecaster prediction skill, 
especially during severe weather, would fall. Atmospheric river 
observatories and warning systems would be rendered largely useless. 
Independent monitoring of weather balloon and aircraft moisture 
observation quality would stop, allowing increased inclusion of errors 
in models, time series, climate records, and satellite data products. 
As GPS-Met is based entirely on wideband GPS observations, we stand to 
lose this entire capability.

Scanning Doppler Lidar Systems

    These systems measure atmospheric wind velocity in a large cone and 
produce three-dimensional portraits of atmospheric activity. The Lidar 
systems are operated on moving platforms, including research vessels 
and aircraft. Differential GPS is used to measure the platform 
orientation and motion, control the pointing of the scanning device, 
and remove the impact of the platform's motion from the measurements.
    GPS interference is already a problem for the sensitive 
differential GPS navigation systems around ports. Increased 
interference to vessels near coastal urban areas or to aircraft over 
land would worsen the situation. There is currently no backup 
navigation system for making stabilized Doppler Lidar wind 
measurements. We have not identified any possible mitigation for the 
loss of GPS; NOAA would lose capability.

Wind Profiling Radars

    NOAA operates a network of 35 wind profiling radars around the 
United States. They detect wind speed and direction at various 
elevations to support forecasting and timely reporting for flight 
planning. GPS is used to synchronize the time stamps across the 
national network and provide location information for collected data.
    Without GPS time stamps and georeference information, data cannot 
be properly ingested into weather models, degrading the accuracy of 
forecasts. To mitigate GPS interference, NOAA could purchase and 
maintain atomic time standards for each of the 35 radar sites at great 
expense. However, even absent GPS interference, the wind profilers arc 
expected to experience interruptions in the future once the European 
Galileo satellites, which operate on the same frequency as the 
profilers, are launched.

Space Weather Prediction Center

    SWPC provides space weather information and warnings to a variety 
of customers including airlines, power distribution systems, oil rigs 
and survey vessels, marine construction surveyors, satellite operators, 
and GPS users. It also produces ionospheric models that can be applied 
as corrections to improve GPS positioning accuracy. SWPC uses networks 
of high precision GPS reference stations to observe GPS signal delays 
that reveal the electron content of the upper atmosphere.
    Based on initial testing, we believe the wideband, high precision 
GPS equipment used by SWPC is at risk even if LightSquared uses its 
lower channel only. GPS interference would degrade the accuracy and 
usefulness of SWPC products such as the U.S. Total Electron Content 
(US-TEC) product, which informs surveyors, construction operations, and 
other customers about space weather conditions affecting GPS accuracy. 
We have not identified any possible mitigation for the loss of GPS; 
NOAA would lose capability.

Frequency Measurement and Analysis Service; Time Measurement and 
        Analysis Service/Phasor Measurement Units/Inter-American 
        Metrology System

    NOAA is not involved with these particular systems and functions.
Responses by Mr. Victor Sparrow, Director, Spectrum Policy,
Space Communications and Navigation,
Space Operations Mission Directorate,
National Aeronautics and Space Administration

Questions submitted by Chairman Ralph Hall

Q1.  How common are the wideband and high precision GPS receivers that 
are at risk of interference from LightSquared's modified business plan 
that starts commercial operations with just the ``lower'' portion of 
its spectrum?

Q1a.  How much do they cost?

Q1b.  What is the normal upgrade or re-equipage cycle for these GPS 
receivers at your agency?

A1, 1a, 1b.  Radio occultation techniques used by Global Positioning 
System (GPS) receivers (also known as GPS occultation science) are 
believed to be the most susceptible to severe interference from the 
LightSquared network and were studied both in the Federal 
Communications Commission (FCC)-mandated technical Working group (TWG) 
and the National Space-based Positioning, Navigation, and Timing (PNT) 
Systems Engineering Forum (NPEF). Both space-based and ground-based 
radio occultation science programs would be affected:

    <bullet>  Space Missions Affected: NASA estimates 20-plus 
satellites will be launched for radio occultation measurements over the 
next 10 years. The normal upgrade cycle for flight receivers is 10 
years, and the effective mission length of these satellites has been 
about eight years.

    <bullet>  Ground-based Tracking Networks Affected: For impacts to 
NASA ground-based GPS occultation science on the Global Differential 
GPS (GDGPS) network, the cost is approximately $50 thousand per 
station, for a total of at least 100 NASA sites, which results in a 
conservative estimate of $5 million. An additional 500-plus sites for 
International Global Navigation Satellite Systems (GNSS) Service (IGS) 
totals $25 million, with an additional $50 million for the National 
Science Foundation (NSF) Plate Boundary Observatory.

    <bullet>  Uninhabited Aerial Vehicle Synthetic Aperture Radar 
(UAVSAR): NASA operates aircraft-based radar which uses both augmented 
GPS to provide accurate real-time navigation and centimeter-level post 
processed positioning to achieve the precision required for 
interferometric synthetic aperture radar.

    There are, however, additional impacts to other programs and 
missions, including:

    <bullet>  Geodetic Science: It is difficult to estimate the costs 
associated with disturbing the GPS-based measurements used to maintain 
and update the reference frame, but these could be significant because 
such errors will in turn affect high precision applications that use 
GPS for climate and environmental monitoring.

    <bullet>  Tracking of Launch Vehicles: NASA uses GPS for tracking 
launch vehicles at Wallops Flight Facility (WFF) and as the primary 
tracking source for the Autonomous Flight Safety System (AFSS) being 
developed by WFF and Kennedy Space Center (KSC). NASA also uses 
commercial rockets to launch science missions from the Eastern and 
Western Air Force Ranges that increasingly rely on GPS. Not knowing 
where a vehicle is during a launch because of GPS interference could 
result in a rocket and its payload being destroyed unnecessarily.

    Since the interference degradation from LightSquared emissions is 
highly dependent on the specific design of the GPS receiver front-end, 
the effect on other space receivers is unknown at this time.

Q2.  LightSquared has agreed to a ``standstill'' on the use of the 
``upper'' portion of their spectrum, the portion closest to the GPS 
signal. LightSquared has stated they would like to work with the GPS 
community to develop mitigation strategies in order to initiate 
commercial operations of the upper spectrum within two to three years.

Q2a.  Is NASA prepared to upgrade or re-equip all their GPS equipment 
in that time frame?

Q2b.  Can you tell the members of the Committee what the cost would be 
to implement this strategy within your agency?

Q2c.  Is two to three years a reasonable time frame to expect federal 
agencies to upgrade or re-equip?

A2-2c.  The proposed filters are not yet available to NASA, and 
preliminary discussions with filter manufacturers (e.g., Delta 
Microwave, which was referred to NASA by LightSquared) indicate that 
filtering for high precision GPS receivers would result in significant 
degradation in receiver performance and accuracy. If interference 
mitigation techniques are identified, testing would be necessary to 
determine the impact on receiver performance.
    A more realistic time frame to upgrade and/or re-equip missions 
under development has been demonstrated by the U.S. Department of 
Defense (DoD), which provided a decade of transition time for worldwide 
GPS codeless/semi-codeless users to migrate to the new L2C signal by 
2020 to enable unfettered GPS Precise Positioning System (GPS PPS) Flex 
Power on the modernized GPS constellation.
    It will take 10 or more years for most of the GPS receivers that 
are operating in space today (or close to launch now) to reach the end 
of their operational life. It is not feasible to retro-fit satellites 
that are already on orbit, so harmful interference would directly 
compromise these missions.

Q3.  LightSquared's modified business plan starts commercial operations 
with just the ``lower'' portion of its spectrum and will be limited to 
urban areas. Does this satisfy your concerns about short-term 
interference issues to wideband and high precision GPS receivers? If 
not, why not?

A3.  NASA testing shows that the use of just the lower 10 MegaHertz 
(MHz) band still results in significant interference to NASA's next 
generation space-based GPS receiver and terrestrial high precision 
science receivers. Further, NASA expects that the addition of filters 
to reduce the interference from the lower 10 MHz LightSquared signal 
would cause significant performance degradation. If interference 
mitigation techniques are identified, testing would be necessary to 
determine the impact on receiver performance.

Q4.  Given that LightSquared has clearly shown that it intends to 
ultimately utilize both the upper and the lower portion of its 
spectrum, even with its new business proposal to start with just the 
lower portion, how is the new proposal really any different to your 
agency than their original proposal?

A4.  For GPS high precision receivers, there would be very little 
difference; NASA's testing shows that the use of just the lower 10 MHz 
band still results in significant interference to the Agency's 
missions, particularly Uninhabited Aerial Vehicle-Synthetic Aperture 
Radar (UAVSAR), geodetic science, and launch operations. Future GPS 
flight receivers will need to be equipped to deal with all LightSquared 
signals that may be broadcast during the mission lifetime.

Q5.  I understand there are now other companies exploring a similar 
terrestrial broadband business plan but in an entirely different part 
of the spectrum that would not interfere with the GPS signal. If we can 
accommodate the President's goals for the Broadband Initiative using 
spectrum that doesn't interfere with GPS, why should we risk the 
taxpayer investment in GPS?

A5.  NASA fully supports the Administration's goal of identifying 
additional spectrum for broadband use, and will continue to 
cooperatively investigate and assess mitigation strategies, while 
seeking not to compromise the performance of NASA's GPS-dependent 
systems or missions.

Q6.  Does NASA feel that adequate testing has been done on all of the 
issues associated with LightSquared interference on their agency's 
missions? Should there be more testing on high precision units?

A6. Since the interference degradation from the LightSquared emission 
is highly dependent on the specific design of the GPS receiver front-
end, the effect on other space receivers is unknown at this time.
    Additional analyses are also needed for ``non-high-precision'' 
receivers used by NASA and other space operators, in applications such 
as: (1) International Space Station (ISS) operations, including human 
and/or automated space vehicles performing rendezvous with the Station; 
and (2) launch vehicles and/or space vehicles performing re-entry and 
landing where a vehicle could be operating much closer to an 
interfering source.
    The issue of interference with GPS receivers from LightSquared 
handset emissions has not been completely tested. In NASA's view, 
extensive testing of handset emissions is a necessity before any 
LightSquared field use.

Q7.  Will the filters proposed by JAVAD GNSS and LightSquared mitigate 
the interference problem to wideband and high precision GPS receivers? 
If not, why not? If so, what testing has been done to demonstrate their 
effectiveness?

A7.  These filters have not been made available to NASA for assessment. 
Preliminary discussions with experienced filter manufacturers (e.g., 
Delta Microwave) indicate that filtering for high precision GPS 
receivers would result in significant degradation in receiver 
performance and accuracy.
    The JAVAD website states, ``We have also invented a unique solution 
for timing applications in which we dynamically compensate for group 
delay variations with the accuracy of better than 100 picoseconds. We 
are developing techniques to reduce this to better than 10 
picoseconds.'' NASA has not had the opportunity to test the accuracy of 
these statements but, even if accurate, 10 picoseconds is 30 times 
higher than nominal system noise error at C/No = 52 dB-Hz, which 
amounts to independent 1-second errors of 0.3 ps at the GPS L1 
frequency (100 picoseconds is 300 times higher), and would still fail 
to meet the requirements of NASA missions such as GRACE (which requires 
0.060 nanosecond precision to enable gravity field measurements).
    In addition, these filters would only remove the signals in the 
lower portion of the spectrum allocated to LightSquared; if the company 
eventually utilizes the upper portion, as well, the filters would not 
mitigate signal interference.

Q8.  Are there currently any mitigation strategies that make sense for 
wideband or high precision GPS receivers?

A8.  NASA is not aware of any mitigation strategies at the proposed 
LightSquared frequencies that would not impose significant performance 
penalties on the high precision receivers. If interference mitigation 
techniques are identified, testing would be necessary to determine the 
impact on receiver performance.

Q9.  How much would it cost your agency to mitigate the interference 
issues from the LightSquared signal on your missions?

Q9a.  Does your agency currently have funds set aside for this purpose?

A9, 9a.  NASA is not aware of any mitigation strategies that would not 
impose significant performance penalties on its high precision 
receivers. No funds have been authorized or set aside for mitigation of 
interference impacts due to LightSquared emissions in the upper 10 MHz 
portion of the spectrum. Additionally, many receivers are already 
serving operational missions on-orbit, so there is no way to retrieve 
the satellite to retrofit the impacted receivers if the upper 10 MHz is 
used by LightSquared. We are also concerned about the impact to the 
next generation of GPS receivers used for future missions that could be 
impacted by LightSquared emissions in both the upper and lower 10 MHz 
areas.

Q10.  Since August 15, the FCC has had the ability to rule on the 
LightSquared proposal, and to my knowledge, NTIA has yet to submit 
comments to the FCC on behalf of affected agencies.

Q10a.  Has NTIA provided your comments to the FCC?

Q10b.  Will NASA submit its comments directly to the FCC if NTIA fails 
to do so? If so, when?

Q10c.  Would you agree that your agency's assessment should be made 
public so that everyone can understand the extent to which LightSquared 
interference to GPS will impact the ability of your agency to perform 
its duties, and the costs that may be incurred due to this 
interference?

A10-10b.  To NASA's knowledge, NTIA has not provided formal comments, 
on behalf of the Administration, to the FCC on the LightSquared 
proceedings. However, NTIA did provide the NPEF Report to the FCC on 
July 6, 2011. NASA has no plans to submit comments directly to the FCC, 
but reserves the option to do so. NASA provided its assessment in 
testimony to the House Committee on Science, Space and Technology on 
September 8, 2011.

Q11.  The NASA letter to the NTIA states that NASA extensively uses 
high precision GPS receivers for scientific applications and ``we have 
seen no evidence that these receivers can be filtered without 
significantly reducing receiver accuracy and performance.''

Q11a.  Is additional testing necessary to determine the impacts on 
these high precision GPS receivers?

Q11b.  Should LightSquared be required to satisfy all members of the 
GPS community, including those high precision users that are not 
represented by industry, before they're allowed to commence commercial 
operations?

A11-11b.  The interference degradation from the LightSquared emission 
is highly dependent on the specific design of the GPS receiver front-
end, so the effect on other high precision space receivers is unknown 
at this time.
    Additional testing could help to quantify the degree of impact to 
high precision GPS receivers, but it is clear that significant impacts 
will be introduced with current LightSquared plans unless interference 
mitigation techniques are identified that do not impact performance. In 
NASA's view, commercial operations should not be allowed to commence if 
significant interference would occur to existing NASA operations and 
scientific research that benefits the Nation as a whole. NASA cannot 
speak for all members of the GPS community.

Q12.  One possible solution proposed by NASA is to ``find alternative 
spectrum, including spectrum holdings LightSquared already has, in 
which to conduct LightSquared's planned terrestrial operations.'' Can 
you expand on this solution for the Committee? What other spectrum 
could be utilized by LightSquared for its operations? Would that 
spectrum be far removed from the GPS signal and not cause significant 
interference issues?

A12.  NASA fully supports the Administration's goal of identifying 
additional spectrum for broadband use, and will continue to 
cooperatively investigate and assess mitigation strategies, while not 
compromising the performance of NASA's GPS-dependent systems or 
missions.
    LightSquared press releases refer to its control of 59 MHz of 
spectrum, some of which is presumably available for terrestrial use. 
Some of the spectrum is around 1.4 GigaHertz (GHz) and some is around 
1.6 GHz, both removed from the 1.5 GHz region where GPS operates. While 
testing and analysis would be necessary for verification, the use of 
spectrum away from GPS helps reduce interference considerably.

Q13.  Since it is well established that LightSquared intends to operate 
on the upper 10 megahertz of the L-Band after some interim period, and 
since it is also well established that such use of the upper 10 
megahertz channel will have catastrophic negative results for GPS 
reception, is the use of the Low-10 option a viable option?

A13.  Testing by NASA Jet Propulsion Laboratory (JPL) engineers 
indicates the use of just the lower 10 MHz band still results in 
significant interference to NASA's next generation space-based GPS 
receiver and terrestrial high precision science receivers. These are 
similar to receivers used by other nations to process GPS and other 
similar PNT systems such as Galileo. Moreover, with respect to the 
interference impact to NASA space receivers from LightSquared emissions 
in the lower 10 MHz band, it should be noted that only two space 
receivers were tested during the TWG process. Since the interference 
degradation from the LightSquared emission is highly dependent on the 
specific design of the GPS receiver front-end, the affect on other 
space receivers, including those used onboard the ISS and NASA launch 
vehicles, is unknown at this time. NASA has identified this to NTIA as 
an area for further study.
    The implementation of a system that causes GPS ``dead spots'' would 
have a significant impact on NASA's scientific research. There are many 
examples where this interference would be detrimental, some of which 
are described below.

    <bullet>  Ground-truth measurements. In order to calibrate on-orbit 
instruments, scientists often use ground-truth measurements. Precise 
knowledge of the location of these measurements is critical to enabling 
accurate calibration of the on-orbit instrument. For example, for a new 
spacecraft instrument taking a measurement of algae blooms in lakes or 
air samples, measurements are taken over a precisely identified time 
and location, as defined by the spacecraft GPS location data. The 
ground measurement is also precisely known (in time and location) based 
on GPS data. If the measurements on the spacecraft match the 
measurements on the ground, scientists know the on-board instrument is 
working properly. This important calibration procedure is completely 
dependent on the availability of the in situ GPS location data. Without 
this ground truth of the instrument data, the resulting observations 
and data interpretations will be suspect.

    <bullet>  Ground-based infrastructure. The National Research 
Council recently published a report on the national imperatives for a 
precision positioning infrastructure. NASA is a lead agency in the 
operation and maintenance of this infrastructure, and interference with 
GPS operations would compromise the utility of this infrastructure. 
There are numerous applications of ground-based science that are 
dependent on the precise location information available from GPS. One 
critical type of science is research on natural hazards such as 
earthquakes, landslides, and volcanic eruptions. In this research area, 
the smallest movement of the Earth's surface is tracked to better 
understand the possibility of catastrophic events. These measurements 
must be extremely precise if scientists are to have insight into the 
pressures building up within fault zones or volcanoes that ultimately 
result in a release of the pressure in the form of an earthquake or 
volcanic eruption. Natural hazards research has become increasingly 
dependent on GPS data, the loss or impairment of which could be 
devastating and jeopardize thousands of lives.

    <bullet>  Ionospheric measurements. The sun routinely sends out 
radiation that, on Earth, is trapped by the ionosphere. When a 
particularly strong solar flare erupts, it has the potential to send 
enough radiation to disrupt (and even disable) the country's electric 
power grid and to disrupt communications and radar tracking. By using 
very precise GPS measurements, scientists can watch for changes in the 
ionosphere to mitigate the effect of these changes or to prepare for 
impending events. This information is useful to a broad group of users 
including electric companies (which can take action to protect their 
systems), radar and radio operators, and scientists who seek to better 
understand and respond to this phenomenon. Without these GPS 
measurements, notification of potential disruptions would be delayed, 
resulting in damage to the power grid or interference to radar and 
radio transmissions.

    <bullet>  Uninhabited Aerial Vehicle (UAV) and Aircraft operations. 
Not all science data are collected from satellites or in situ 
measurements; some are collected using UAVs and other aircraft. For 
example, NASA's highly successful UAV Synthetic Aperture Radar (SAR) 
project recently flew a sophisticated radar to study the Gulf of Mexico 
oil disaster and the impact of the Mississippi floods on levees and 
farmland. These UAVs and other aircraft use GPS for navigation, and 
would not be usable for this type of science without it (or without a 
costly change to perform navigation using another method). In the case 
of interferometric SAR, no other navigation is capable of determining 
the relative position between repeat UAV passes with sub-centimeter 
accuracy to allow successful data collection.

    <bullet>  Precision spacecraft navigation. Spacecraft use GPS for 
precise navigation. While the LightSquared transmission towers would 
not interfere with the use of GPS signals that are directly overhead of 
the spacecraft, there would be interference with ultra-precise 
navigation that requires the input of multiple GPS signals 
simultaneously. In this instance, the scientific satellite would be 
looking at a very low angle to obtain the signals from GPS satellites 
that are farther away. The high power emissions from the LightSquared 
transmission towers would interfere with these low look-angle signals, 
thereby reducing the accuracy of the navigation information and leading 
to a degradation of the science data. Many spacecraft also use a 
reference system of ground networks that would be dramatically impacted 
by this GPS interference. The U.S. hosts a significant number of ground 
observatories that function as reference sites for the precision 
navigation of satellites and aircraft, and interference to the GPS 
signal would degrade the science data.

    <bullet>  Weather sensing. GPS radio occultation uses the bending 
of GPS signals by the atmosphere as they travel from the GPS satellites 
to an orbiting spacecraft. This NASA-developed technique is now used 
operationally by NOAA to improve their long-range weather forecasts. 
The interference to the GPS signal would render this technique, which 
looks all the way down to the Earth's surface, useless over the 
continental U.S., thus impacting the accuracy of NOAA's weather 
forecasts. Radio occultation is also used to help set an absolute 
benchmark to answer the question of global climate change. Geographical 
biases due to, for example, degraded results near the continental 
United States, would be a severe challenge to this important benchmark.

    In addition, although the plans of LightSquared are for towers 
within the continental United States, approval for this U.S. Company 
could have global implications. There is great concern that companies 
outside the U.S. will pick up this technology, causing scientific 
impacts across the globe and eroding the capabilities of all Global 
Navigation Satellite Systems, not just the U.S. GPS. In short, use of 
just the lower 10 MHz for high-precision GPS receivers does not appear 
technically acceptable to NASA.
    In summary, due to the very physics of GPS-based PNT, there is no 
apparent option that would allow the high-precision GPS receivers to 
operate in the presence of the LightSquared lower 10 MHz signal unless 
interference mitigation techniques are developed that do not impact 
performance.

Q14.  Now that the United States is dependent on Russia for access to 
the International Space Station and the failure of the Soyuz Launch 
Vehicle leaves the U.S. grounded, how would NASA operations be impacted 
if the U.S. was dependent upon Russia's GLONASS system, or any other 
precision, navigation, and timing system?

A14.  The impact to NASA is minimal since the cause of the Soyuz 
failure has been determined and Soyuz flights have resumed. The 
Progress 45 mission was successfully launched on a Soyuz vehicle on 
October 30, 2011.
    The proposed LightSquared network, however, does have the potential 
to cause significant impact to NASA and other U.S. rocket launches. 
NASA uses GPS for tracking launch vehicles at Wallops Flight Facility 
(WFF) and as the primary tracking source for the Autonomous Flight 
Safety System being developed by WFF and Kennedy Space Center (KSC). 
NASA also uses commercial rockets to launch science missions from the 
Eastern and Western Air Force Ranges that increasingly rely on GPS. Not 
knowing where a vehicle is during a launch because of GPS interference 
could result in a rocket and its payload being destroyed unnecessarily. 
The costs of a failed mission depend on the vehicle and payload, but 
could be in excess of $1 billion.
    In terms of using the Russian GLONASS system for navigation, as 
suggested in the question, the Russian GLONASS system uses a very 
different signal structure that requires its own receivers. It is not 
fully interoperable with GPS receivers, although there are receivers 
that process both GPS and GLONASS signals. Also, GLONASS has had 
serious reliability problems in the past. Therefore, GLONASS is not a 
substitute for GPS today, and other international systems are not yet 
operational.

Questions Submitted by Ranking Member Eddie Bernice Johnson

Q1.  I understand that NASA uses high precision receivers on its 
satellites. Limited tests have shown that such high precision receivers 
may be more prone to interference from the proposed LightSquared 
network than say, the GPS receiver in cell phones.

Q1a.  What NASA applications require high precision receivers?

A1a.  NASA scientists use GPS science receivers, in combination with 
other measurement techniques such as laser ranging and radar 
altimeters, to monitor our environment. This includes, for example, 
monitoring the changes in Earth's surface, sea level height, and 
atmospheric measurements, and providing precise knowledge of Earth's 
shape and rotation (Figure 1). Global Positioning System (GPS) 
technology has become an essential tool for monitoring and improving 
our understanding of Earth systems, including climate change and solid 
earth hazards, such as earthquakes and volcanic activity. This 
knowledge of our environment and its changes is also used for resource 
management, protection, and environmental impact mitigation.
    Some examples of the use of GPS to improve our knowledge of the 
Earth are: determining the atmosphere's water content; improving the 
accuracy of weather forecasts; sensing changes in the small-scale 
distribution of ground water; accurately measuring the mass changes in 
glaciers and polar ice caps; setting an accurate present-day benchmark 
for the global averaged atmospheric temperature; generating ``now-
casts'' of space weather; and enabling ocean topography measurements to 
determine currents and long-term changes in sea height. Ground-based 
GPS networks are also playing an increasingly prominent role in 
monitoring ground movement to identify potential conditions that may 
precede earthquakes and volcanic activity. In addition, some insurance 
companies use GPS-based maps of accumulated tectonic strain to predict 
risk. The same data are used by other Government agencies beyond NASA. 
GPS technology assists NASA scientists in understanding the physical 
characteristics of the Earth and its atmosphere, and changes over time. 
The Earth system, like the human body, comprises diverse components 
that interact in complex ways. Scientists work to understand the 
Earth's ionosphere, atmosphere, oceans, interior, and biosphere as a 
single connected system. The planet is changing on all spatial and 
temporal scales.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Specific satellite-based NASA GPS-based science applications 
include, but are not limited to: radio occultation, gravity field 
modeling, altimetry, surface reflectometry, precise time transfer, 
global topography, and aeronomy.

    <bullet>  Radio Occultation: GPS facilitates weather forecasts and 
also provides an unbiased benchmark for analyzing climate change. Early 
use of radio occultation (RO) data from the COSMIC-1 constellation has 
been incorporated into weather models and has demonstrated an 8-hour 
improvement in weather forecast skill at day four and 15-hour 
improvement at day seven. This means without RO data, scientists could 
predict with a certain confidence 48 hours in the future. After adding 
RO data, they can now predict with the same confidence out to 56 hours. 
Radio occultation data provide a very well calibrated measure of the 
global average atmospheric absolute temperature and, thus, measurements 
can be compared from one mission to another with very low systematic 
errors. This will provide a key benchmark for climate change studies.

    <bullet>  Gravity Field: GPS enables measurement of the Earth's 
gravity field with high resolution in time and space. For example, the 
GRACE mission can measure a one-centimeter change in ground water level 
over the state of Ohio with one-month temporal resolution. Some 
applications include hydrology, measurement of variations in mass 
captured in ice caps and glaciers due to global temperature changes, 
and determination of ocean currents at depths which have societal 
applications to fisheries and transportation.

    <bullet>  Altimetry: GPS facilitates precise orbit determination in 
altimetry (measuring sea level height and/or ice sheet thickness). 
Ocean altimetry data from missions such as TOPEX/Poseidon, Jason, the 
Ocean Surface Topography Mission (OSTM), and Jason-3 use GPS to 
translate radar altimeter measurements to place the ocean surface in an 
Earth fixed reference frame, which supports applications such as 
fisheries, transportation, weather, and sea level rise. Data from 
missions such as the Ice, Cloud, and land Elevation Satellite (ICESat), 
and ICESat Follow-On enable the determination of ice sheet thickness 
and estimation of the ``global ice budget'' to observe the effects of 
climate change.

    <bullet>  Surface Reflectometry: The use of GPS signal surface 
reflections is currently being developed to provide synoptic altimetry 
and scatterometry observables. This is an important tool for 
applications such as, for example, measuring sea level height in real 
time.

    <bullet>  Time Transfer: GPS facilitates precise time transfer 
between satellites as needed for coordinated observations from separate 
satellite platforms. For example, the GRACE constellation used GPS time 
transfer with 0.060 nanosecond precision to enable gravity field 
measurements.

    <bullet>  Global Topography: GPS supports orbit determination for 
global topographic mapping. For example, GPS provided 60-centimeter 
navigation of the Space Shuttle during the Shuttle Radar Topography 
Mission (SRTM), which used Interferometric Synthetic Aperture Radar 
(InSAR) to obtain the first global topographic map.

    <bullet>  Aeronomy: The inference of atmospheric state (aeronomy) 
from observed drag using precise GPS-determined orbits is used to 
improve models of the upper atmosphere. These models enable space 
missions to better estimate the effect of atmospheric drag and orbit 
decay of spacecraft in Low Earth Orbit (LEO).

    The science data obtained using GPS enable the continually improved 
precise navigation provided by GPS to all other GPS users. In turn, 
these scientific data have enabled GPS to continue improving. Thus, the 
data from Earth science missions support the continued improvement of 
GPS capabilities while, at the same time, GPS provides data for 
scientific research.
    The potential disruption of GPS reception due to interference from 
the LightSquared terrestrial wireless network could affect a number of 
terrestrial and space-based NASA science missions. Affected terrestrial 
missions include primarily Earth science applications such as geodesy 
(e.g., earthquake monitoring and measurement of changes on the Earth's 
surface) and environmental monitoring relying on GPS measurements at 
the ground sites of the Global Differential GPS System (GDGPS) and 
International Global Navigation Satellite Systems Service (IGS). Space-
based science missions potentially affected would include receivers 
used for GPS occultation measurements for atmospheric and ionospheric 
monitoring and characterization.

Q1b.  Are these high precision receivers only space-based?


A1b.  No, as described in the response to the previous question.

Q1c.  Are there any alternatives to GPS for conducting such science 
missions?

A1c.  GPS is a valuable tool that supports a broad range of NASA 
science applications. The proposed mitigation techniques do not address 
the concerns of GPS-based science applications. There are no practical 
alternatives to GPS since they'd have to be specific to each of the 
areas described in the response to question 1a and, thus, prohibitively 
expensive. Should GPS not be available to support high precision 
science, it is likely that most of these science applications would 
quite simply not be performed.

Q1d.  What current missions would be impacted, and what science is NASA 
at risk of losing? What upcoming missions would be affected?

A1d.  There are substantial risks to ongoing and planned NASA missions 
and science. In addition to impacts to space missions, and ground-based 
networks, there are also impacts when supporting operations such as 
rocket launches.
Direct Impact to NASA Science

    <bullet>  Space Missions Affected: NASA estimates 20-plus 
satellites will be launched for radio occultation measurements over the 
next 10 years. The normal upgrade cycle for flight receivers is 10 
years, and the effective mission length of these satellites has been 
about eight years.

    <bullet>  Ground-based Tracking Networks Affected: For impacts to 
NASA ground-based GPS occultation science on the Global Differential 
GPS (GDGPS) network, the cost is approximately $50 thousand per 
station, for a total of at least 100 NASA sites, which results in a 
conservative estimate of $5 million. An additional 500-plus sites for 
International Global Navigation Satellite Systems Service (IGS) totals 
$25 million with an additional $50 million for the National Science 
Foundation (NSF) Plate Boundary Observatory.

    A conservative overall estimate of the cost to NASA space and 
ground-based science missions directly at risk from LightSquared is 
$2.1-plus billion.

Impact to Rocket Launches

    NASA uses GPS for tracking launch vehicles at Wallops Flight 
Facility (WFF) and as the primary tracking source for the Autonomous 
Flight Safety System (AFSS) being developed by WFF and Kennedy Space 
Center (KSC). NASA also uses commercial rockets to launch science 
missions from the Eastern and Western Air Force Ranges that 
increasingly rely on GPS. Not knowing where a vehicle is during a 
launch because of GPS interference could result in a rocket and its 
payload being destroyed unnecessarily.

Additional Impacts

    <bullet>  NASA Geodesy: It is difficult to estimate the costs 
associated with disturbing the GPS-based measurements used to maintain 
and update the reference frame, but these could be significant because 
these errors would in turn affect high precision uses such as climate 
and environmental monitoring.

    In summary, over the coming decade, scientists will be analyzing 
the data from orbiting spacecraft to characterize, understand, and 
predict variability and trends in Earth's system for both research and 
applications. Over a third of the U.S. economy is influenced by 
climate, weather, space weather, and natural hazards, and other 
applications of Earth Science. Thus, costs to society and the nation of 
losing NASA's existing GPS-dependent capabilities would go well beyond 
the estimated $2.1-plus billion in direct costs.

Q2.  NASA said in the Technical Working Group report that ``it was 
impossible to adequately evaluate and thoroughly investigate potential 
interference mitigation options for space-based and high precision 
receivers.'' LightSquared said in the same section of the report that 
it believes that a new type of receiver currently in development could 
be modified to achieve complete mitigation with minimal impact on NASA 
science missions.


Q2a.  What receivers did NASA and the Technical Working Group test?

Q2b.  What is required to evaluate a mitigation technology?

Q2c.  What is your view of LightSquared's assessment that a receiver 
currently in development could be modified to provide complete 
mitigation?

A2-2c.  Only two space receivers (IGOR and TriG) were tested during the 
TWG process. Since the interference degradation from the LightSquared 
emission is highly dependent on the specific design of the GPS receiver 
front-end, the effect on other space receivers, including those used 
onboard the ISS and NASA launch vehicles, is unknown at this time.
    The proposed filters have not yet been made available to NASA from 
LightSquared or the filter manufacturers and, therefore, would need to 
be evaluated before a complete mitigation can be implemented. However, 
preliminary discussions with filter manufacturers (e.g., Delta 
Microwave, which was referred to NASA by LightSquared) indicate 
filtering for high precision GPS receivers would result in significant 
degradation in receiver performance and accuracy.
    A mitigation technology must be evaluated analytically (e.g., via 
simulations), tested under controlled conditions (e.g., in anechoic 
chambers), and be operationally practical in real-world scenarios.
    Lacking an actual filter or other mitigation technology to test, it 
is not possible to prove claims that mitigation is possible or to 
measure the degree of performance degradation likely to be experienced 
by the GPS receiver. Complete mitigation is a desirable goal, but as 
yet there is no evidence to prove that this is possible, and much to 
suggest that it is not. If interference mitigation techniques are 
identified, testing would be necessary to determine the impact on 
receiver performance.
Responses by Hon. Peter H. Appel,
Administrator, Research and Innovative Technology Administration,
Department of Transportation

Questions submitted by Chairman Ralph Hall

Q1.  How common are the wideband and high precision GPS receivers that 
are at risk of interference from LightSquared's modified business plan 
that starts commercial operations with just the ``lower'' portion of 
its spectrum?


Q1a.  How much do they cost?

Q1b.  What is the normal upgrade or re-equipage cycle for these GPS 
receivers at your agency?

A1-1b.  Many Global Positioning System (GPS) receivers use wide 
portions of the GPS frequency band to provide extremely precise 
measurements used for applications such as safety-of-life 
transportation applications, precision agriculture, earthquake and 
infrastructure monitoring, severe weather forecasting, and surveying.
    The wider bandwidth allows for better signal tracking, which 
improves the accuracy over low-cost GPS units that often are designed 
to function using a narrow bandwidth. These wideband GPS receivers 
include 90 percent of those used for aviation today in the U.S. (more 
than 60,000 aircraft), another 5,600-8,000 receivers on international 
operators' aircraft from 105 nations coming into the U.S., and all of 
those receivers planned to be used in the future to support the Next 
Generation Air Transportation System (NextGen) navigation and 
surveillance. Wideband and high-precision receivers are also used in 
Unmanned Aircraft Systems and National Airspace System infrastructure.
    Many of the high-precision applications for transportation involve 
surveying, machine control for construction, airborne and ground flight 
inspection, and reference receivers for differential networks. The cost 
for these receivers is generally a few thousand dollars. The Federal 
Aviation Administration (FAA) Wide Area Augmentation System (WAAS) 
Program uses this class of receiver in all its ground reference station 
sites. The WAAS receivers generally cost on the order of $40,000 per 
unit. Beyond federal use, State and local governments and their 
contractors employ tens of thousands of high precision and timing 
receivers on a daily basis for road construction, asset management, and 
infrastructure monitoring.
    Timing receivers are used nationwide for traffic signal and 
operations coordination in road and rail, in ground stations for 
Automatic Dependent Surveillance-Broadcast and the Automatic 
Identification System, and serve a number of applications at Air Route 
Traffic Control Centers.
    The retrofit of existing aircraft occurs at points of opportunity 
as industry cycles its respective aircraft through maintenance cycles. 
The normal upgrade cycle ranges from 10 to 20 years. For other 
transportation applications, it is usually on the order of seven to 10 
years. For positive train control (PTC) systems, however, the 
anticipated upgrade cycle will be much closer to the 15- to 20-year 
range.

Q2.  LightSquared has agreed to a ``standstill'' on the use of the 
``upper'' portion of their spectrum, the portion closest to the GPS 
signal. LightSquared has stated they would like to work with the GPS 
community to develop mitigation strategies in order to initiate 
commercial operations of the upper spectrum within two to three years.

Q2a.  Is DOT prepared to upgrade or re-equip all their GPS equipment in 
that time frame?

Q2b.  What would be the cost to implement this strategy within your 
agency?

Q2c.  Is two to three years a reasonable time frame to expect federal 
agencies to upgrade or re-equip?

A2-2c.  No mitigation measures have been identified for LightSquared's 
use of the upper 10 megahertz (MHz) portion of the band. If mitigation 
measures are identified, it would then take a minimum of 10 years to 
re-equip systems, based on an assumption of three years to complete 
standards and product development, followed by seven years to complete 
the retrofit. Based on these considerations, DOT cannot upgrade or re-
equip GPS equipment in a two- or three-year period.
    The cost for DOT and its stakeholders to implement this strategy is 
likely over $10 billion, based on historical standards and equipment 
development and certification costs, in addition to the costs to 
industry of an upgrade/re-equip investment cycle. FAA estimates $6 
billion in unplanned aviation retrofit costs alone.
    In addition, the lack of mitigation measures would preclude many 
freight railroads' and commuter railroads' deployment of PTC by 
December 31, 2015, which is mandated by section 104 of the Rail Safety 
Improvement Act of 2008 (RSIA) (49 U.S.C. 20157). With the exception of 
the Northeast Corridor, the railroad industry is progressing with the 
implementation of GPS-based PTC systems. The same mitigation-time 
considerations would be applicable the current GPS-based PTC systems. 
Shifting to non-GPS-based PTC systems, in an attempt to meet the RSIA's 
deadline, would result in nonrecoverable expenditures for GPS-based PTC 
systems on the order of $3 billion to $4 billion or more as a yet-to-
be-determined cost for alternative non-GPS-based PTC technology. As the 
GPS-based technology is cheaper than non-GPS-based technology, the 
current, roughly 20-to-1 adverse cost-benefit ratio would become 
significantly worse.

Q3.  LightSquared's modified business plan starts commercial operations 
with just the ``lower'' portion of its spectrum and will be limited to 
urban areas. Does this satisfy your concerns about short-term 
interference issues to wideband and high precision GPS receivers? If 
not, why not?

A3.  Initially limiting LightSquared service to urban areas does not 
satisfy DOT's concerns, as aviation and other transportation safety and 
timing applications are widespread in urban areas. Per the U.S. 
National Space-Based PNT [Position, Navigation, and Timing] Policy, DOT 
is responsible for representing the space-based PNT interests of 
partner civilian Federal agencies, as well as our own.
    The impact of LightSquared's initially operating on the lower 10 
MHz will not be fully understood until additional testing is conducted. 
However, limited testing on the lower 10 MHz has demonstrated it is 
incompatible with many existing GPS high precision and timing receivers 
that operate both in urban and rural environments.
    Additional testing of the lower 10 MHz is required to assess the 
impact to general navigation and cellular devices that are prevalent 
within urban areas.
    Additionally, no testing has been performed on the effects of the 
LightSquared user handsets on GPS receivers. The frequency band 
proposed by Light Squared for these devices is 1620.5-1660.5 MHz. No 
testing has been performed on the handsets due to non-availability of 
hardware.

Q4.  Given that LightSquared has clearly shown that it intends to 
ultimately utilize both the upper and the lower portion of its 
spectrum, even with its new business proposal to start with just the 
lower portion, how is the new proposal really any different to your 
agency than their original proposal?

A4.  The new proposal is substantively no different than LightSquared's 
original proposal, other than it delays implementation of the upper 10 
MHz channel, which testing has demonstrated to have significant impact 
on virtually all GPS applications.
    As noted previously, the impact of LightSquared initially operating 
on the lower 10 MHz will not be fully understood until additional 
testing is conducted; however, limited testing on the lower 10 MHz has 
demonstrated it is incompatible with many existing GPS high precision 
and timing receivers.

Q5.  I understand there are now other companies exploring a similar 
terrestrial broadband business plan but in an entirely different part 
of the spectrum that would not interfere with the GPS signal. If we can 
accommodate the President's goals for the Broadband Initiative using 
spectrum that doesn't interfere with GPS, why should we risk the 
taxpayer investment in GPS?

A5.  DOT recognizes that there are other satellite-based terrestrial 
broadband business plans being proposed. DOT supports the President's 
National Broadband Plan and welcomes approaches to providing increased 
wireless broadband services that do not impact existing critical 
infrastructure systems, such as GPS.

Q6.  Does DOT feel that adequate testing has been done on all of the 
issues associated with LightSquared interference on the agency's 
missions? Should there be more testing on high precision units?

A6.  Testing and analysis to date have clearly demonstrated that 
LightSquared operations on the upper 10 MHz are incompatible with 
virtually all GPS applications. Limited testing on the lower 10 MHz has 
demonstrated that the proposed LightSquared signal emissions are 
incompatible with many existing GPS high-precision and timing 
receivers.
    Additional testing of the lower 10 MHz is required to assess any 
impact to general navigation and cellular devices, as well as for high 
precision and timing receivers once the LightSquared-proposed filters 
and antennas for these devices are available.

Q7.  Will the filters proposed by JAVAD GNSS and LightSquared mitigate 
the interference problem to wideband and high precision GPS receivers? 
If not, why not? If so, what testing has been done to demonstrate their 
effectiveness? Who should pay for this testing?

A7.  The proposed filter offered by LightSquared and a GPS receiver 
manufacturer, JAVAD, is designed to address LightSquared emissions only 
in the lower 10 MHz. It does not resolve the interference problem with 
LightSquared's potential use of both the lower and upper 10 MHz 
channels. There is no known filter solution that could mitigate the 
degradation caused by an upper 10 MHz channel LightSquared signal 
emission.
    To our knowledge, no tests have been performed regarding the 
filter's ability to reject the LightSquared signal while still 
maintaining GPS receiver capability. LightSquared has stated that the 
filter for the high-precision and timing devices will be available for 
Federal Government testing in November 2011 and March 2012, 
respectively.
    LightSquared has offered to pay for testing, but it is not clear 
that the Federal Government can legally accept this offer. DOT has no 
position on who should pay for this testing. DOT continues to pursue 
ways to participate in the testing within existing resources, as DOT 
could not have anticipated this unexpected expense and made the 
appropriate budgetary request.

Q8.  Are there currently any mitigation strategies that make sense for 
wideband or high precision GPS receivers?

A8.  There are currently no known mitigation strategies that make sense 
for wideband or high precision GPS receivers. Mitigation measures have 
not been identified for LightSquared's use of the upper 10 MHz portion 
of the band. LightSquared and JAVAD have proposed a filter designed to 
address LightSquared emissions only in the lower 10 MHz. To our 
knowledge, no tests have been performed regarding the filter's ability 
to reject the LightSquared signal while still maintaining GPS receiver 
capability.

Q9.  How much would it cost your agency to mitigate the interference 
issues from the LightSquared signal on your missions?

Q9a.  Does your agency currently have funds set aside for this purpose?

A9-9a.  There are currently no known mitigation strategies that make 
sense for wideband or high precision GPS receivers. Mitigation measures 
have not been identified for LightSquared's use of the upper 10 MHz 
portion of the band. If mitigation measures are identified, it would 
take a minimum of 10 years to re-equip systems, as previously stated.
    As previously stated, the cost for DOT and its stakeholders to 
implement this strategy is likely over $10 billion. FAA estimates $6 
billion in unplanned aviation retrofit costs alone.
    DOT does not have any funds identified to mitigate interference 
issues from the LightSquared signal for our mission, and it is not 
clear that the issues could be mitigated at any cost.

Q10.  Since August 15, the FCC has had the ability to rule on the 
LightSquared proposal, and to my knowledge, NTIA has yet to submit 
comments to the FCC on behalf of affected agencies.

Q10a.  Has NTIA provided your comments to the FCC?

Q10b.  Will DOT submit its comments directly to the FCC if NTIA fails 
to do so? If so, when?

Q10c.  Would you agree that your agency's assessment should be made 
public so that everyone can understand the extent to which LightSquared 
interference to GPS will impact the ability of your agency to perform 
its duties, and the costs that may be incurred due to this 
interference?

A10-10c.  To our knowledge, the National Telecommunications and 
Information Administration (NTIA) has not formally provided DOT's July 
21, 2011, comments on LightSquared's proposal to the Federal 
Communications Commission (FCC). DOT does not plan to submit its 
comments directly to the FCC. DOT supports NTIA's role as the principal 
Executive Branch adviser on telecommunications policies.
    DOT looks forward to participating in the upcoming test of the 
lower 10 MHz on general navigation and cellular devices and then 
testing precision and timing receivers early next year. We anticipate 
that NTIA will provide the outcome of those tests to the FCC.

Q11.  The DOT letter to the NTIA provides many details on the impact on 
the Next Generation Air Transportation System (NextGen) from the latest 
LightSquared proposal. Estimates range from 10 years to design and 
certify modified equipment in the civil aviation fleet, delayed 
deployment of NextGen by 10 years, and additional costs of billions of 
dollars.

Q11a.  How is DOT planning to pay for these delays and the necessary 
mitigation implementation?

A11-11a.  Current technology does not provide a mitigation capability 
for certified aircraft avionics without severe performance degradation. 
If a compatible GPS equipment mitigation were identified and determined 
acceptable, the FAA estimates that the cost impact to modify all 
aircraft would be $6 billion. The necessary avionics modification costs 
would normally be an airlines and aircraft operators' expense. 
Additionally, approximately $17 billion in NextGen investments would 
need to be replanned including civil aviation industry estimated 
investments of $9 billion and $8 billion in FAA infrastructure 
investments. The FAA would require additional obligation authority to 
address cost growth as a result of replanning and procurement, 
integration, and logistics support for U.S. National Airspace System 
(NAS) GPS timing and high-precision infrastructure equipment.

Q12.  Your testimony mentions a possible mitigation technique where 
NextGen would rely on the navigation signals of the Russian GLONASS 
System instead of GPS. To what extent will the NextGen program rely on 
the Russian GLONASS system if the FAA is forced to proceed with this 
mitigation strategy?

A12.  The FAA would not find it acceptable to base the U.S. National 
Airspace System, as a key element of U.S. critical infrastructure, 
solely on the use of a foreign global navigation satellite system 
(GNSS). FAA NextGen infrastructure is currently based upon the use of 
GPS and the Wide Area Augmentation System (WAAS). The 2010 National 
Space Policy states ``Foreign positioning, navigation, and timing (PNT) 
services may be used to augment and strengthen the resiliency of GPS.''
    When the Russian Federation achieves full GLONASS operational 
status and provides GLONASS performance standard commitments to the 
international community that are consistent with International Civil 
Aviation Organization (ICAO) standards and recommended practices, the 
FAA and GPS manufacturers could assess the cost effectiveness of 
developing GPS/GLONASS equipment that might provide acceptable function 
in the presence of LightSquared's proposed upper 10 MHz channel 
emissions. However, GLONASS-capable receivers, which operate on 
frequencies further away from the proposed LightSquared base station 
frequencies, would also need to be assessed for potential interference 
from LightSquared user handsets that transmit at GLONASS frequencies.
    It should be noted that the FAA has worked with other elements of 
the U.S. government to encourage interoperability of other governments' 
GNSS with GPS. Most foreign GNSS providers plan to transmit an 
interoperable wideband L1 signal that is compatible with the modernized 
GPS L1C signal. These new wideband GNSS signals are expected to have 
greater susceptibility to the effects of LightSquared interference.

Q13.  DOT estimates that aircraft retrofit costs will be $6 billion and 
take six to 10 years to fully deploy. What are the costs associated 
with the loss of productivity or environmental impacts from the delays 
to the NextGen system?

A13.  The FAA estimated that if LightSquared were to use the upper 10 
MHz channel starting in 2014, the loss of productivity and 
environmental impacts over a 10-year retrofit/replanning period would 
result in an estimated impact to aviation community of at least $2 
billion in baselined GPS aviation efficiency benefits. In addition, it 
would severely impact the NextGen program, with a loss of $59 billion 
in estimated benefits and an associated 31 million tons of additional 
carbon dioxide emissions savings.

Q14.  What is the impact on safety if the GPS signal is unavailable or 
degraded because of interference from the LightSquared network signal?

A14.  DOT provided the results of an operational, economic, and public 
safety impact assessment of the original LightSquared Concept of 
Operations (upper and lower 10 MHz channels) in a letter to NTIA on 
July 21, 2011, which is posted on the Committee's website. DOT supports 
the statement made by FCC Chairman Genachowski during an August 9, 
2011, press conference on LightSquared, ``We're not going to do 
anything that creates problems for GPS safety and service as we explore 
technical solutions that will both protect GPS and allow a new service 
to launch.''

Q15.  DOT has stated that use of the LightSquared ``upper'' portion of 
its spectrum, the portion closest to the GPS signal, is unacceptable at 
any power level. However, LightSquared's newly proposed plan still 
relies on the utilization of the upper spectrum in the 2013-14 time 
frame. How long would it take the Department to implement mitigation 
measures and re-equip its systems to be compatible with this time 
frame?

A15.  As previously stated, no mitigation measures have been identified 
for LightSquared's use of the upper 10 MHz portion of the band, and if 
mitigation measures are identified, re-equipping systems would take at 
least 10 years.

Q16.  Your testimony states that approximately 60,000 civil aircraft 
would need to be retro-fitted with new GPS equipment to mitigate the 
impacts of the interference from the LightSquared signal. How much 
would it cost the FAA and the airlines to retro-fit those aircraft?

A16.  A mitigating technology has not been developed and may not be 
feasible. The FAA estimate was based on an assumed replacement of 
existing GPS avionics equipment. The FAA estimated that aircraft 
equipment retrofits would cost the airlines and aircraft operators $6 
billion to retrofit, if LightSquared deployed using both the upper and 
lower 10 MHz channels.

Q17.  LightSquared has stated that their new approach will solve ``99.5 
percent'' of the interference problems for GPS. Do you agree with that 
assumption? Can you explain how LightSquared has quantified this claim?

A17.  DOT does not agree with that assumption based upon an 
understanding of current technology. No one knows exactly how many GPS 
receivers are in use today. Moreover, none of the testing groups--the 
Technical Working Group, RTCA, Inc. or the National Space-Based PNT 
Engineering Forum--performed comprehensive testing of just the lower 10 
MHz option. More testing is needed to determine which users would be 
affected.
    DOT has no insight into how LightSquared quantified this estimate.

Questions submitted by Acting Ranking Member Mr. Costello

Q1.  Your prepared statement indicates that FAA has initiated an 
Alternative Positioning, Navigation, and Timing research program to 
identify technologies that meet the requirements of NextGen in the 
event that GPS is disrupted. What is the nature of the research 
program, when was it initiated, and what has been accomplished so far?

A1.  The Alternate Positioning Navigation and Timing (APNT) research 
program is tasked to assess various architectures to provide position, 
navigation, and timing (PNT) services, as a backup to GPS for the U.S. 
National Airspace System (NAS) in the 2025 time frame. This program was 
initiated in 2009, with a goal of identifying a more cost-effective 
backup for temporary GPS disruptions (e.g., testing or interference). 
The APNT program is not intended to replicate the full performance and 
economic efficiencies provided by GPS and the Wide Area Augmentation 
System (WAAS). APNT studies and public meetings are being conducted to 
scope the requirements for, and technical trade-offs of, a cost-
effective GPS backup for the NAS.

Q2.  How is the safety of General Aviation impacted by the potential 
loss of GPS capability? Has FAA documented any decrease in fatalities 
in General Aviation as a direct result of the use of GPS?

A2.  The safety benefits associated with General Aviation (GA) use of 
GPS have been significant. The earliest hard evidence of the benefits 
from such equipment came from the CAPSTONE program in Alaska and its 
demonstration of GPS navigation, moving maps and Automatic Dependent 
Surveillance-Broadcast (ADS-B). Based on a before-and-after comparison 
of accidents in Alaska from FY 2002 through FY 2005 (before the surge 
in glass cockpits as standard equipment in the GA fleet improved 
visibility), a detailed study by FAA and Mitre found that CAPSTONE 
alone would reduce fatal accidents in Alaska by one-third.
    Nationally, in the past five years fatal Controlled Flight Into 
Terrain (CFIT) accidents in GA and Part 135 (commuter and on-demand) 
operations have decreased 44 percent from the preceding five years, 
while fatal approach-and-landing accidents and all fatal accidents at 
night have decreased by 30 percent. GPS and glass cockpits together are 
a primary explanation for these improvements, and these rapid 
improvements will likely continue for several more years as GPS-based 
equipment continues to penetrate the GA market. The actual decrease in 
fatalities from CFIT, approach-and-landing, and nighttime accidents has 
averaged 76.6 per year over the past five years versus the preceding 
five years. Part of this decrease can be attributed to the fact that GA 
and on-demand Part 135 hours flown are down an average of about 6.2% 
annually in the past five years versus the preceding five years, so one 
would expect at least some decline in various types of accidents. 
However, if one were to adjust the annual average to account for this 
reduction in volume, there remains an annual average observed reduction 
of about 73 fatalities per year that FAA believes is attributable 
directly to GPS.
    With the loss of GPS, those benefits already achieved would be 
immediately reversed, and the opportunity for even more long-term 
benefits would be lost. Unlike air carriers, GA losses would not be 
offset by air traffic control and Instrument Landing Systems (ILS) 
because the GA fleet would either not be equipped with ILS or may not 
be under air traffic control.

Q3.  Assuming filters can be developed, what is involved in certifying 
new electronics incorporating such filters and retrofitting the 
aircraft fleet? What is the basis for FAA's projected time frame of 10 
years to perform retrofits?

A3.  It is technically questionable if filters can be developed that 
would mitigate the negative effects of GPS on aviation users and still 
provide the required performance, and comply with the size and 
environment constraints required to install them on aircraft. Assuming 
such a technical breakthrough is possible, it typically takes several 
years to develop a revised technical standard that is agreed to by the 
industry. The development of an approved product takes several more 
years, as a specific design is updated to ensure reliable performance 
under the stressing conditions of an aircraft and to ensure there are 
no failure conditions that adversely affect safety.
    Once the equipment is available, it can take years to retrofit all 
aircraft. The retrofit of existing aircraft occurs at points of 
opportunity as industry cycles its respective aircraft through 
maintenance cycles, in order to reduce the costs of the retrofit. The 
current level of GPS equipage has been achieved after 17 years of 
equipment availability, and has been motivated by the benefits that GPS 
delivers. There are a number of factors which can reduce this time, 
including mandates or cost-sharing or reimbursement (e.g., if 
LightSquared or another entity paid for the retrofit). An estimate of 
ten years assumes an effective mandate and is based on an assumption of 
three years to complete standards and product development, followed by 
seven years to complete the retrofit.

Q4.  In describing the impact of the proposed LightSquared network on 
its operations to NTIA, FAA stated that LightSquared's proposal ``could 
adversely affect U.S. international leadership in aviation.'' Could you 
expand on this statement by identifying areas in which U.S. leadership 
would be affected?

A4.  GPS is used globally for aviation, and has spurred development of 
similar systems by the European Union, Russia, Japan, India, and China. 
Due to the market dominance and excellent record of service of GPS, the 
U.S. has maintained an international leadership position, to protect 
GPS reception from interference, to promote signal compatibility, and 
to promote acceptance of GPS for aviation in countries that do not have 
their own infrastructure. Recognizing that the protection of GPS from 
interference has been a significant component of the U.S. position, a 
decision to approve any system that causes widespread interference 
would jeopardize our credibility and damage our leadership position in 
aviation use of GPS.
Responses by Dr. David Applegate,
Associate Director, Natural Hazards, U.S. Geological Survey

Questions Submitted by Chairman Ralph Hall

Q1.  How common are the wideband and high precision GPS receivers that 
are at risk of interference from LightSquared's modified business plan 
that starts commercial operations with just the ``lower'' portion of 
its spectrum?

Q1a.  How much do they cost?

Q1b.  What is the normal upgrade or re-equipage cycle for these GPS 
receivers at your agency?

A1-1b.  Wideband high precision GPS receivers are fairly commonplace. 
The Department of the Interior owns over 6,000. They are used for a 
variety of applications from surveying and mapping to earthquake and 
volcano monitoring. The testing conducted to date shows that high 
precision GPS receivers are susceptible to interference from the lower 
portion of the spectrum proposed for use by Lightsquared. These 
receivers come in a variety of makes and models and their prices vary 
from about $5,000 to as much as $30,000. The typical upgrade cycle for 
this type of equipment ranges from eight to 15 years.
    For example, the U.S. Geological Survey's (USGS) Earthquake Hazards 
Program is in the process of upgrading high precision GPS receivers 
that monitor crustal deformation in earthquake-prone southern 
California. Of the 102 high precision receivers operated by the USGS in 
that region, 38 are 15 years old, 35 are less than 10 years old but are 
now obsolete and no longer manufactured, and 29 are the new modern 
receivers. The USGS is in the process of upgrading all 38 of the oldest 
receivers, and most of the 35 older receivers.

Q2.  LightSquared has agreed to a ``standstill'' on the use of the 
``upper'' portion of their spectrum, the portion closest to the GPS 
signal. LightSquared has stated they would like to work with the GPS 
community to develop mitigation strategies in order to initiate 
commercial operations of the upper spectrum within two to three years.

Q2a.  Is USGS prepared to upgrade or re-equip all their GPS equipment 
in that time frame?

Q2b.  What would be the cost to implement this strategy within your 
agency?

Q2c.  Is two to three years a reasonable time frame to expect federal 
agencies to upgrade or re-equip?

A2-2c.  There are no known mitigation strategies that have been shown 
to be effective, particularly for the upper portion of the LightSquared 
spectrum. So it seems very unlikely that effective mitigation can be 
accomplished for the upper portion of the spectrum in two to three 
years. It would be equally difficult for the USGS to re-equip all of 
our GPS equipment even if mitigation for the upper portion were 
realized. For instance, the USGS has replaced 38 receivers in one year 
as part of the modernization effort by the USGS Earthquake Hazards 
Program. The USGS upgrades were delayed because of technical problems 
that are now resolved but which added months to the modernization 
process, which is expected to be completed later this year. This small 
number of receivers took over a year to be replaced, and the process is 
still not complete.
    It is difficult to estimate the cost of replacing GPS equipment in 
a two-three year time frame. However, based upon the 2010 DOI GPS 
Survey, the USGS estimates $20-40 million has been invested for current 
USGS GPS hardware and software. If we include labor and training cost, 
the USGS believes a GPS replacement strategy would double the estimated 
cost resulting in expenditures between $40-80 million. It does not seem 
reasonable for federal agencies to re-equip in this short time frame 
even if we had the resources to do so.

Q3.  LightSquared's modified business plan starts commercial operations 
with just the ``lower'' portion of its spectrum and will be limited to 
urban areas. Does this satisfy your concerns about short-term 
interference issues to wideband and high precision GPS receivers? If 
not, why not?

A3.  No, LightSquared has acknowledged, and the testing showed, 
operations in the lower portion of their spectrum cause harmful 
interference to high precision GPS receivers. No known techniques have 
yet been shown to mitigate this harmful interference. The USGS has a 
range of applications in urban areas using high precision GPS 
receivers. For example, the USGS and its partners operate a network of 
high precision GPS receivers for monitoring earthquakes in urban areas 
of Alaska, California, Nevada, Utah and Washington states. In addition, 
of the 9,000 nationwide USGS watergages, many are located in or near 
urban areas and may also be impacted because they use GPS timing 
receivers for data transmissions.

Q4.  Given that LightSquared has clearly shown that it intends to 
ultimately utilize both the upper and the lower portion of its 
spectrum, even with its new business proposal to start with just the 
lower portion, how is the new proposal really any different to your 
agency than their original proposal?

A4.  LightSquared`s new plan is different in that it starts with the 
lower portion of the spectrum. Testing on this lower portion of the 
spectrum has been limited so further testing on this lower portion of 
the spectrum is needed to better understand whether LightSquared's 
signal causes harmful interference for GPS.
    The higher portion of the spectrum is clearly problematic for the 
foreseeable future. The use of LightSquared's transmissions in the 
higher portion of their proposed spectrum is already known to cause 
harmful interference to GPS.

Q5.  I understand there are now other companies exploring a similar 
terrestrial broadband business plan but in an entirely different part 
of the spectrum that would not interfere with the GPS signal. If we can 
accommodate the President's goals for the Broadband Initiative using 
spectrum that doesn't interfere with GPS, why should we risk the 
taxpayer investment in GPS?

A5. GPS is a critical technology for the USGS. If different spectrum 
can be found located further from the GPS band for broadband signals, 
such a move would solve the harmful interference concerns.

Q6.  Does USGS feel that adequate testing has been done on all of the 
issues associated with LightSquared interference on their agency's 
missions? Should there be more testing on high precision units?

A6.  The USGS believes that additional testing of the lower portion of 
LightSquared's spectrum is needed. This new approach by LightSquared 
was not tested nor was it part of LightSquared's original plan. High 
precision receivers were particularly impacted in the limited testing 
that has been done on LightSquared's lower portion of the spectrum. The 
USGS believes that additional testing of high precision receivers is 
needed particularly to evaluate whether mitigation techniques to 
eliminate harmful interference are feasible without impacting 
performance.

Q7.  Will the filters proposed by JAVAD GNSS and LightSquared mitigate 
the interference problem to wideband and high precision GPS receivers? 
If not, why not? If so, what testing has been done to demonstrate their 
effectiveness? Who should pay for this testing?

A7.  USGS has examined the filtering techniques that are proposed by 
JAVAD GNSS. USGS believes this is a serious effort that holds some 
promise of mitigating the harmful interference effects of the lower 
portion of LightSquared's spectrum. It should be noted, however, that 
this filtering technique does not mitigate the higher portion of 
LightSquared's spectrum, nor was it designed to. As of Oct 7, 2011, no 
equipment or filters have been manufactured by JAVAD GNSS. Once this 
equipment is available, it will need thorough testing and evaluation to 
see if it does effectively mitigate the harmful interference without 
impacting the performance of high precision receivers.
    Plans for testing are under consideration, and the USGS believes 
that government-led testing is appropriate to obtain unbiased results 
and analysis. The cost of the testing, however, would not be 
insignificant and is not included the FY 2012 Budget.

Q8.  Are there currently any mitigation strategies that make sense for 
wideband or high precision GPS receivers?

A8.  No known mitigation techniques have been shown to work for harmful 
interference from LightSquared's signals. High precision receivers that 
employ a wide bandwidth are particularly susceptible to this harmful 
interference. Alternative spectrum has been recommended by the Space-
Based Positioning, Navigation, and Timing Advisory Board.

Q9.  How much would it cost your agency to mitigate the interference 
issues from the LightSquared signal on your missions?

Q9a.  Does your agency currently have funds set aside for this purpose?

A9-9a.  No known mitigation techniques have been shown to work for 
harmful interference from LightSquared's signals. It is not clear what 
the cost of mitigation would be. The USGS estimates the replacement 
cost of current GPS equipment to be about $40-80 million. The USGS does 
not have funds set aside to mitigate harmful interference from 
LightSquared's signals, nor are those costs included in the FY 2012 
Budget.

Q10.  Since August 15, the FCC has had the ability to rule on the 
LightSquared proposal, and to my knowledge, NTIA has yet to submit 
comments to the FCC on behalf of affected agencies.

Q10a.  Has NTIA provided your comments to the FCC?

Q10b.  Will USGS submit its comments directly to the FCC if NTIA fails 
to do so? If so, when?

Q10c.  Would you agree that your agency's assessment should be made 
public so that everyone can understand the extent to which LightSquared 
interference to GPS will impact the ability of your agency to perform 
its duties, and the costs that may be incurred due to this 
interference?

A10-10c.  The USGS is unaware of what specific actions NTIA has taken 
with the information that has been provided by the Department of the 
Interior. The USGS will continue to work within the Department to 
convey additional comments as appropriate. These comments contain core 
deliberative communications from Executive Branch agencies that provide 
critical advice to NTIA in its role as spectrum manager on behalf of 
the Federal Government. Agency comments have not yet been released to 
the public in keeping with this deliberative process.

Q11.  The Department of Interior letter to the NTIA states that impacts 
to natural disaster response, law enforcement, and seismic and volcanic 
monitoring will be caused by the LightSquared network. The Department 
estimates the costs to mitigate the problems associated with those 
areas range from $250M to $500M.

Q11a.  Do these costs stay the same if LightSquared is allowed to begin 
commercial operations utilizing the ``lower'' portion of its spectrum?

Q11b.  Does this level of additional funding currently exist in the 
Department's budget? In other words, would the Department need 
additional funding to carry out its mitigation strategy or are there 
sufficient funds available?

Q11c.  What sort of hard choices would need to be made to offset that 
spending? Are there modernization plans or capabilities that would be 
put on hold to deal with the interference issues?

A11-11c.  The Department of the Interior estimated the replacement 
costs of the existing GPS infrastructure within the Department. The 
Department, including the USGS, does not know what the cost to mitigate 
LightSquared's signals will be because it has not yet been shown they 
can be mitigated. Without additional testing, including demonstration 
of mitigation techniques, it will be difficult to know what mitigation 
actions will be effective, the impact on performance, and what their 
cost might be.
    Whatever the cost, the USGS has not planned for any funding to pay 
for receiver-based mitigations.
    Any decision about how to implement a receiver-based mitigation 
strategy over a short period of time would pose a significant 
challenge. It is likely our services that rely on GPS would be 
impacted. As we learn more about mitigation techniques and 
implementation decisions, the USGS will be able to refine its approach 
to mitigation.
    At present, the USGS is continuing to implement GPS equipment 
modernization. For example, the USGS is planning on installing 60 
modern high precision GPS receivers in the next year to enhance its 
earthquake monitoring capabilities.

Q12.  The Department of Interior letter to the NTIA states that the 
Department has approximately $100M to $200M invested in GPS technology. 
Of particular note, the letter states that The Department spent almost 
$2M last year on state-of-the-art GPS equipment for its Earthquake and 
Volcano Hazards Programs. If LightSquared is allowed to begin 
commercial operations, would that new expensive equipment essentially 
become obsolete?

A12.  No, the equipment would still be state-of-the-art, but it would 
be susceptible to interference from LightSquared's signals. The 
equipment would work fine in areas far enough away from LightSquared 
base station transmissions. For example, the equipment could be used 
for post-disaster missions in foreign countries, where Lightsquared is 
not operating.

Q13.   This summer the country battled forest fires in Texas, flooding 
in the northeast, and recently experienced a rare earthquake here in 
the Washington area. How would our understanding of these events be 
impacted by the LightSquared network?

A13.  Our understanding of the potential impact of the LightSquared 
network is based on an understanding of our current activities and 
those of other bureaus in the Department of the Interior. The 
LightSquared signals would make it more difficult to fight fires, and 
to collect earthquake, flood, and volcano data, because of the harmful 
interference to GPS. In short, it would set back USGS mission 
activities, and our understanding of these events would be more 
limited, compromising situational awareness for emergency response.
Responses by Mr. Jeffrey J. Carlisle,
Executive Vice President, Regulatory Affairs
and Public Policy, LightSquared

Questions Submitted by Chairman Ralph Hall

Q1.  Given that LightSquared has clearly shown that it intends to 
ultimately utilize both the upper and the lower portion of its 
spectrum, even with its new business proposal to start with just the 
lower portion, how is the new proposal really any different than the 
original proposal?

A1.  Our new proposal is entirely different from our old business plan 
and is a significant concession to the use of our spectrum by GPS 
manufacturers. Importantly, it eliminates the need for replacing 
hundreds of millions of GPS devices used by consumers and the aviation 
industry.
    We respectfully disagree with the premise of the question. 
Eventually, LightSquared will need to add additional capacity to its 
network, assuming retailers using the network bring enough subscribers 
to require such capacity. We do not expect to need such capacity for 
five to six years at least. When needed, this additional capacity could 
be added by bringing the upper portion of our spectrum online. However, 
it could also be met by (1) adding more towers in the lower part of our 
spectrum, (2) using the upper portion in ways that are substantially 
different from the old plan (lower power, etc.), and (3) using 
alternative spectrum. Moreover, it must be borne in mind that our 
customers are retailers who can reasonably be expected to have 
alternatives in the marketplace by the time we would need to add more 
capacity.
    Accordingly, our intent is exactly what we proposed to the FCC: to 
move forward with deployment on the lower portion of the spectrum, 
while setting aside the upper portion in order to allow a further 
discussion of how safe deployment of that spectrum could be achieved 
within a commercially reasonable time frame. The above alternatives 
must be explored in an objective way, but there is no need for that 
process to delay the deployment of an urgently needed network on the 
lower portion of spectrum.
    Implementing this proposal will cost the company $100 million. This 
is a significant cost to LightSquared, particularly in light of the 
fact that the interference problem at issue is caused by GPS receivers 
looking into the spectrum licensed to LightSquared. This proposal, 
however, allows us to move forward with a network deployment while 
removing the need for anyone to replace cellular, personal navigation, 
timing or aviation devices.

Q2.  I understand there are now other companies exploring a similar 
terrestrial broadband business plan but in an entirely different part 
of the spectrum that would not interfere with the GPS signal. If we can 
accommodate the President's goals for the Broadband Initiative using 
spectrum that doesn't interfere with GPS, why should we risk the 
taxpayer investment in GPS?

A2.  LightSquared's proposals eliminate the need to replace all but a 
small portion of precision GPS devices. As discussed in further detail 
below, GPS manufacturers are already stepping forward with solutions 
for the remaining number of precision devices--estimated to number 
about 750,000 devices total but those requiring replacement or retrofit 
are likely to be far fewer. Thus, it is not accurate to say that 
development of our spectrum puts the taxpayer investment in GPS at risk 
in any way. Taxpayers will continue to have access to a robust GPS 
system and also have the substantial benefits of a competitive 
nationwide wireless broadband network.
    With respect to alternatives, while all alternatives should be 
pursued, the U.S. cannot afford to turn its back on a privately funded 
network that will bring significant amounts of spectrum to market and 
invest $14 billion in the U.S. economy. Even though there are 
initiatives underway to make more spectrum available, it will be some 
number of years before any of this spectrum will actually be made 
available to consumers. The National Broadband Plan identified 300 MHz 
of spectrum that should be made available for mobile broadband within 
five years, and 500 MHz within 10 years. LightSquared's spectrum is 
included in that 300 MHz, along with all other spectrum that could 
reasonably made available. Yet more than a year and a half after 
release of the Plan, only the LightSquared spectrum is on the verge of 
deployment. None of the other spectrum identified has any clear 
timetable for deployment.

    <bullet>  The 700 MHz ``D Block'' has not been auctioned as planned 
and may be needed for the national public safety broadband network.

    <bullet>  Little progress has been made in preparing the ``AWS'' 
spectrum for auction, in part because of the difficulty of reallocating 
government spectrum, which required relocating government users.

    <bullet>  The companies that held the MSS S-band spectrum in 2009 
have been through bankruptcy and the buyers of that spectrum are 
awaiting approval from the FCC.

    <bullet>  Although the WCS spectrum has been licensed, none of the 
owners have announced any plans to deploy it.

    <bullet>  The FCC does not have authority to reclaim and auction 
television broadcast spectrum, as the National Broadband Plan proposed. 
Even if Congress grants authority, it appears that perhaps 60 to 84 MHz 
of broadcast spectrum could be made available at most, rather than the 
120 MHz originally planned. Auction of that spectrum is many years 
away.

    Moreover, deployment of much of this spectrum will be delayed by 
the inevitable presence of existing users and nearby operators who 
deploy inefficient receivers (like GPS manufacturers). In the meantime, 
Americans will continue to live and work at a significant disadvantage 
to other countries--the U.S. is currently 15th in the world in terms of 
broadband adoption. Additional spectrum and competitive networks are 
desperately needed to address this situation, and LightSquared could 
start providing service next year.
    Finally, it is important to understand that this is not the first 
technology GPS has threatened and it will not be the last. GPS 
receivers are, in some cases, so poorly designed that they can be 
sensitive to transmissions many tens of megahertz to either side of the 
frequencies actually authorized for GPS. The only spectrum suitable for 
mobile wireless broadband network is at frequencies of 3 GHz or less, 
and GPS sits square in the middle of that range at 1.6 GHz. The threat 
to taxpayers thus comes from the insistence of a few GPS manufacturers 
on selling inefficient receivers that have the effect of blocking 
needed services in other bands. Our network is threatened by this 
inefficiency, and proposed future spectrum is close enough to GPS to 
conceivably raise interference issues. Given that the interference 
problem can be solved, it should be, as otherwise GPS manufacturers 
will continue to delay or even stop beneficial technologies from 
reaching the public.

Q3.  Will the filters proposed by JAVAD GNSS and LightSquared mitigate 
the interference problem to wideband and high precision GPS receivers? 
If so, what testing has been done to demonstrate their effectiveness? 
Who should pay for this testing?

A3.  The new Javad device eliminates potential overload interference to 
wideband and high precision GPS devices, and shows that all 
manufacturers can quickly and inexpensively deploy such solutions. The 
Javad solution was accomplished simply by upgrading the components and 
signal processing in an existing product. Prior to this, many in the 
GPS industry had claimed that it was impossible to design a high 
precision GPS receiver that could operate in this environment. Javad is 
expected to have units ready for testing as early as November 14, 2011. 
These can be tested by the government by the terms prescribed by NTIA 
in its letter of September 9 to PNT ExCom. Alternatively, LightSquared 
has also engaged an independent laboratory for testing if necessary. To 
be clear, LightSquared is happy to pay for any testing necessary to 
validate this or any other solutions.

Q4.  In your testimony you state that LightSquared's ``ground network 
will provide over 260 million people with wireless broadband service.'' 
Can you meet that goal by only utilizing the lower portion of your 
spectrum, as you recently proposed?

Q4a.  Have no other companies proposed developing spectrum for 4G 
Broadband?

A4-4a.  Yes. We can meet the FCC coverage requirement of reaching 260 
million people by the end of 2015 utilizing the lower portion of our 
spectrum. As discussed in response to question 1, above, adding the 
upper portion is one way of addressing the eventual need for capacity 
assuming subscribers (and data usage) increases, but not the only way.
    As of this date, the only companies that have proposed deploying 
nationwide 4G networks are AT&T, Verizon Wireless, Clearwire, and 
Sprint (building out both their own and our spectrum). There are no 
other nationwide networks currently proposed. Moreover, as mentioned in 
response to question 2, there are no alternatives for spectrum that 
could be deployed for the next several years. The United States, then, 
cannot afford a ``not in my back yard'' approach to spectrum. There are 
no ``clear'' portions of spectrum proposed to be brought online in the 
foreseeable future--there will always be transition costs given that 
spectrum is extremely crowded and will remain so. Accordingly, it is 
crucial that the U.S. resolve all spectrum issues--such as the current 
one--in ways that (1) promote coexistence and (2) prevent inefficient 
users of spectrum from blocking infrastructure investment.

Q5.  The media has reported that LightSquared believes its move to the 
lower part of the Mobile Satellite Service band resolves GPS 
interference problems for 99.5% of receivers. Can you explain to us how 
you arrived at that 99.5% number? Is your analysis of that data 
consistent with industry standards for analyzing interference?

A5.  These numbers were derived based on the testing that was conducted 
by the members of the GPS community and LightSquared as part of the 
Technical Working Group. LightSquared estimates that there are over 400 
million GPS units currently in use in the United States. Of these, 
approximately 300 million reside within cellular phones, 100 million 
reside in general location/navigation (GLN) devices, 500 thousand in 
high precision devices and another 500 thousand used in timing and 
aviation devices.
    Representative samples of all classes of devices were tested by the 
TWG and LightSquared's assessment of the efficacy of its mitigation 
plan is based entirely on the results attained in the TWG testing, and 
for aviation devices on the results of an analysis of existing minimum 
performance standards and testing of some aviation devices.

Cellular

    Every cellular device tested by the TWG showed no degradation of 
operation according to established industry and regulatory standards. 
Thus, LightSquared was able to conclude that none of the 300 million 
cell phones in use would be impacted by its operation on the lower 10 
MHz channel.

General Location/Navigation (GLN)

    The results of the testing of the GLN devices also showed that they 
would be unaffected by LightSquared's operation on the Lower 10 MHz 
channel. There was initially disagreement between GPS manufacturers and 
LightSquared on the appropriate interference threshold and on 
propagation models to predict LightSquared's on-the-ground signal 
strength. The LightSquared commitment to initially limit its measured 
power to a power level of -30 dBm eliminates any basis for 
disagreement. Even though TWG testing showed that there were two 
outlier devices that did experience a slight rise in the noise floor at 
this signal strength, there was no indication whatsoever that this 
would impact the normal performance of the devices tested. Thus the TWG 
results confirm that none of the 100 million GLN devices would be 
impacted by LightSquared's proposed operating parameters.

Timing

    Timing devices showed similar results, with all but one tested 
showing no impact from LightSquared's proposed operation even using the 
GPS industry's very conservative interference criteria. The 
confidentiality requirements imposed by the TWG prevent LightSquared 
from disclosing specific information about the one outlier device, but 
LightSquared believes this device to be in very limited use and has 
already identified mitigation options which it can address directly 
with the manufacturer and users of the device in question.

Aviation

    The limited number of aviation devices tested by the TWG showed 
complete resilience to LightSquared's lower 10 MHz operation. However 
the FAA and aviation industry have previously indicated that the 
preferred approach for determining potential impact to aviation uses of 
GPS is through an analysis of LightSquared's operating parameters in 
the context of existing minimum performance standards for GPS devices 
used in Aviation. The TWG report concluded that additional study was 
needed to determine whether LightSquared's proposed operations were 
compatible with existing aviation standards. That work is ongoing and 
LightSquared is optimistic that it will be able to reach a mutually 
acceptable conclusion with the FAA on the analytical parameters and 
ultimate determination.

High Precision

    The sole area that the TWG report identified that was not 
automatically solved by LightSquared's proposed mitigation plan is for 
high precision GPS units. A significant percentage of these devices 
showed in tests that they could operate with no perceptible 
interference from LightSquared's operation on its Lower 10 MHz. There 
are an estimated 500,000 high precision GPS devices in use, with some 
estimates as high as 1 million devices. Even using the upper bound of 1 
million high precision GPS devices and assuming all the devices would 
be adversely affected, LightSquared's mitigation proposal would resolve 
interference for 400 million devices, which yields a measure of 99.75%.

Q6.  We have seen in the public comments filed at the FCC a discussion 
about possible interference from, not only the LightSquared grid 
network, but also the LightSquared handsets. It is my understanding 
that no handsets were available to be tested. When will LightSquared 
make their handsets available so they can be tested? Do you think it is 
a major oversight that no handsets are available? There could 
potentially be hundreds of thousands or millions of LightSquared 
handsets in circulation--should this issue be tested now before they 
are on the market?

A6.  The unavailability of LightSquared handsets in no way limited the 
TWG in its testing protocol. First, it should be noted that the test 
procedures for most of the sub-teams simulated LightSquared's base 
station signal, even though actual base stations were available to the 
TWG. This is normal practice as the design of the anechoic chamber test 
environment often makes it impractical to utilize production equipment. 
Additionally, using signal generators tuned to the exact parameters of 
the expected transmission produce more reliable test results by 
allowing the setting of very precise parameters and varying such 
parameters according to the test methodology. This type of flexibility 
is often not afforded when production devices are used. It is for this 
reason that most sub-teams chose to simulate base station signals.
    The sub-team that tested high precision devices in fact used a 
simulated signal in order to test the potential impact of user devices 
operating in proximity to high precision receivers. This sub-team, 
which included representatives from Trimble and John Deere, among 
others, did not raise any issues with the simulation of user device 
transmissions, nor would one expect them to do so as this is consistent 
with quality testing practices. Other sub-teams could have employed a 
similar test setup, but chose not to perform tests including 
LightSquared simulated user devices.
    The recent letter from NTIA to PNT ExCom does call for testing to 
include configurations simulating a LightSquared user device. 
LightSquared is confident that, as was done in the TWG, this signal can 
be accurately generated in the laboratory environment.

Q7.  LightSquared has argued that the GPS industry has been developing 
defective equipment because it produced receivers that ``look'' into 
LightSquared's spectrum. When did you become aware that high-precision 
GPS receivers used part of LightSquared's spectrum? Has LightSquared 
ever been compensated for the use of this spectrum? If so, how much? If 
so, when did it first receive compensation? Did any of LightSquared's 
predecessor company's ever receive compensation for the use of their 
spectrum? If so, when, and how much?

A7.  High precision GPS devices, which as we note above represent a 
small fraction of the total GPS devices in use, are generally designed 
to receive two signals: (1) the signal from GPS satellites and (2) an 
``augmentation'' signal. The devices listen to the GPS signal across 
the widest possible bandwidth in order to increase their accuracy and 
use the augmentation signal to provide additional information to boost 
accuracy even further. The augmentation signal can come from a number 
of sources, such as a satellite signal in a number of different 
spectrum bands, including the L-band (LightSquared's spectrum) or a 
terrestrial network.
    Many high precision receivers were designed by GPS manufacturers 
without the filtering needed to prevent their listening to the far ends 
of the GPS signal all the way into the LightSquared spectrum. 
LightSquared did not learn of this design decision until late 2010 when 
GPS manufacturers first raised it with LightSquared. LightSquared and 
its corporate predecessors have never received compensation for this 
use of its spectrum--such as a royalty paid by the GPS manufacturers--
by GPS devices. With respect to high-precision GPS devices that receive 
an augmentation signal from an L-band satellite, LightSquared was aware 
of such receivers from the time that it first began providing this 
service to resellers that offer this service. \1\ LightSquared's 
predecessors began offering this service in 1997, and the annual 
revenue has been approximately $500,000. \2\
---------------------------------------------------------------------------
    \1\  We have also been aware that Inmarsat provides a similar 
augmentation signal to GPS manufacturers.
    \2\  Since 1997, LightSquared (and its predecessors) have sold 
satellite capacity to a company called, Omnistar, which resold that 
capacity to supply augmentation services to GPS manufacturers, 
including Trimble Navigation Limited. Omnistar was purchased by Trimble 
in March 2011. We understand that the GPS manufacturers charge a 
significant mark up on their subscriptions to end users for 
augmentation signals. For instance, we understand that a typical annual 
subscription can range from $800 to several thousands of dollars a 
year.
---------------------------------------------------------------------------
    In this respect, it is important to note that LightSquared has 
received nothing from any of the high precision manufacturers that use 
other L-band augmentation services, and it has received nothing from 
manufacturers of GPS devices that look into the upper portion of our 
spectrum and do not rely on our satellite signal for augmentation. 
Effectively, these manufacturers use LightSquared's licensed spectrum 
for free, and are trying to establish a continuing right to do so.
    LightSquared has never dictated or been aware of the design choices 
made by manufacturers of high precision GPS devices, including those 
that use an L-band augmentation signal. Despite ample notice, the GPS 
manufacturers have had more than sufficient time to make appropriate 
design decisions to ensure that their devices were compatible with 
LightSquared's planned network. LightSquared continues to believe that 
such devices can be designed to be compatible with its terrestrial 
network.
    The results of the Technical Working Group confirm that the GPS 
``interference'' issue is caused by the design choices made by GPS 
device manufacturers. \3\ The TWG confirmed that this incompatibility 
is not caused by LightSquared's emissions ``bleeding'' into the GPS 
spectrum--it is solely a matter of GPS receiver design. In 2002 and 
2003, LightSquared and the GPS industry reached agreement to limit 
strictly such emissions--known as ``out of band emissions''--to ensure 
that LightSquared's network did not interfere with GPS devices. \4\ The 
GPS industry raised other concerns along the way, including as late as 
2009, all of which LightSquared resolved. The GPS industry never raised 
any concerns about ``overload'' at any of those times.
---------------------------------------------------------------------------
    \3\  As one GPS manufacturer conceded to the FCC, ``[a]ll GPS 
receivers use filters that overlap in the MSS band.'' http://
www.saveourgps.org/pdf/fcc/
Deere<INF>-</INF>Co<INF>-</INF>Ex<INF>-</INF>Parte.pdf
    \4\ That same GPS manufacturer noted that ``[out of band emissions] 
is not a problem in the GPS band if LightSquared filters their signals 
as they have committed.'' http://www.saveourgps.org/pdf/fcc/
Deere<INF>-</INF>Co<INF>-</INF>Ex<INF>-</INF>Parte.pdf
---------------------------------------------------------------------------
    Apparently, GPS manufacturers designed high precision GPS devices 
to use a single, open front-end (which consists of antennas, 
amplifiers, and filters) to receive both GPS and augmentation signals. 
The GPS manufacturers could have designed their high precision GPS 
devices to separate the GPS signal from the satellite augmentation to 
avoid the overload issue. As one commentator has noted, ``the common 
analog front end amplifies the [LightSquared] allocation when it should 
be filtered, a very bad design indeed and one that blatantly violates 
design guidelines issued by the DoD's 2008 Global Positioning System 
Standard Positioning Service Performance Standard.'' http://
www.itif.org/publications/itif-comments-lightsquaredgps-testing.
    As we discuss in response to Representative Neugebauer's first 
question, the GPS industry has been on notice as a result of the FCC 
proceedings and decisions since 2003 that LightSquared intended to 
build an integrated terrestrial and satellite network. In addition, 
OmniSTAR's customers, including presumably Trimble, should have known 
since 2008 that their operations would have to change to accommodate 
changes in the service that LightSquared was providing to Omnistar. For 
example, in February 2008, OmniSTAR was told by LightSquared that after 
2011, ``OmniSTAR must have converted its network to MSV's next-
generation service . . . moved to another operator, or shut down its 
network.''
    In short, the GPS manufacturers made deliberate design decisions 
that created the potential for overload by LightSquared's network 
terrestrial network. Since 2003, the GPS manufacturers were on notice 
that they needed to review their design decisions to ensure that they 
were compatible with LightSquared's network. In addition, with respect 
to those GPS manufacturers that purchased an augmentation signal from 
LightSquared, they received further notice since 2008 about 
LightSquared's transition to an integrated terrestrial and satellite 
network.

Q8.  Agencies that use high precision GPS have indicated that the use 
of the upper band of LightSquared's spectrum will never be able to be 
used without interfering with high precision GPS. Will LightSquared 
commit to never using that upper band of spectrum that is closest to 
the GPS signal?

A8.  Please see our answers to questions 1 and 4. We take the concerns 
expressed by federal agencies seriously. They must be taken into 
account as we engage in the discussion of whether the upper portion of 
our spectrum could be safely deployed in a commercially reasonable time 
frame.
    Please note, however, that regardless of use of the upper portion 
of the spectrum for a ground network, the upper portion of this 
spectrum can continue to be used for satellite services, which have 
been provided for 15 years without any interference with GPS receivers.

Q9.  When will you submit filters for high-precision GPS for testing? 
Who will conduct this testing? How long will it take? Will federal 
agencies be able to conduct their own independent testing, similar to 
the TWG and the NPEF, prior to LightSquared operations?

A9.  On its own initiative, LightSquared has recently completed a 
request for information (RFI) process that requested filter suppliers 
to deliver filters meeting the specifications defined by the GPS 
industry. In less than 30 days from issuing the RFI, LightSquared began 
receiving shipments of filters and testing on these filters can begin 
immediately. LightSquared intends to conduct its own testing of these 
filters using respected, independent laboratories. These filters are 
also available for testing according to the terms outlined by NTIA in 
its September 9, 2011, letter to the PNT ExCom.

Questions Submitted by Ranking Member Eddie Bernice Johnson


Q1.  What can Congress do to protect the future value of spectrum and 
ensure user receivers do not bleed into spectrum not assigned to them? 
What are the challenges associated with establishing receiver standards 
to preclude devices from picking up unintended spectrum?

A1.  Spectrum will become much more intensively used in the next few 
years as more and more Americans use smartphones--which use 24 to 25 
times the data as cellphones--and businesses begin to take advantage of 
the capabilities of new wireless infrastructure. But there is no 
spectrum available that does not already have existing users. 
Accordingly, new networks and existing users will have to find ways of 
coexisting, as otherwise the U.S. will never be able to bring 
sufficient spectrum to meet increasing demand. The losers in that 
scenario will not be the companies arguing over spectrum--it will 
inevitably be the American consumer, who will pay more for worse 
service.
    Coexistence should be a question of technology and economics: how 
do you fix it and who pays? These are questions that can normally be 
solved by agreement of new networks and existing users, and we strongly 
believe that should continue to be the model.
    The current issue, however, shows what happens when a powerful 
entrenched industry decides that it would rather take the chance that 
it cannot be stopped from deploying inefficient technology. We believe 
that this issue can be solved, and are more confident in this belief 
with each passing week as more manufacturers announce solutions. 
However, to the extent some continue to try to hold out, there are 
three things Congress should do:

    <bullet>  Instead of taking sides, Congress should encourage 
parties to work these issues out as success means benefits to all 
Americans from new uses of spectrum while retaining and strengthening 
old uses.

    <bullet>  The current regulatory regime--Part 15--makes clear that 
devices that look outside their authorized bands are not entitled to 
interference protection. Indeed, I have attached hereto an excerpt from 
a Garmin GPS receiver manual that provides standard language to this 
effect. Accordingly, the FCC today has the tools in its hands to allow 
networks to move forward, simply by allowing them to do so and thus 
making clear that device manufacturers have to innovate and adapt. 
Congress should encourage FCC to stand by this rule and its own 
longstanding precedent.

    <bullet>  Finally, in order to avoid future situations where the 
current tools may prove insufficient, Congress should explicitly 
authorize the FCC to apply receiver standards that would protect 
authorized adjacent band operations. Many countries apply receiver 
standards today, and if limited to these specific issues, the effect of 
such requirements would be to maximize efficient use of spectrum while 
minimizing regulatory burden.


Q2.  LightSquared claims that its service has been beneficial to 
federal, state, and local governments and first responders in times of 
national emergencies as it provides an interoperable network for first 
responders to utilize when cell phone service is not an option. Can you 
elaborate on the services provided by LightSquared to our first 
responders? Does this service require use of your mobile satellite 
assets? In what way is the terrestrial network used?

A2.  LightSquared and its predecessor companies have a long history of 
providing satellite-based communication services to federal, tribal, 
state, and local governments on a continuing basis and during times of 
emergencies. The company currently has hundreds of federal, tribal, and 
state and local government accounts representing thousands of end users 
and offers a broad variety of satellite services including telephony 
voice, two-way radio, push-to-track and mobile data. LightSquared also 
offers Satellite Mutual Aid Radio Talkgroups (``SMART'') nationwide and 
regionally that enable critical and interoperable communications among 
homeland security officials, law enforcement, emergency responders, and 
public safety officials from various departments and agencies across 
the United States. LightSquared's satellite-based communication 
services have facilitated critical emergency communications among 
nationwide and local first responders during disasters such as 
Hurricane Katrina, Hurricane Ike, Hurricane Irene, the Kentucky ice 
storms in 2009, the California wild fires and the earthquake in Haiti--
for U.S.-based first responders operating in Haiti following that 
disaster.
    While LightSquared's current network is satellite based, such a 
network involves some terrestrial equipment such as earth stations to 
receive and transmit signals. When a satellite-initiated telephone call 
is connected to an Earth-based, traditional cellular or wireline 
telephone, the call also transits another carrier's terrestrial 
network.

Q3.  Former lawmakers, now lobbyists for LightSquared, recently wrote 
an Op-Ed claiming that tests indicate LightSquared's new wireless 
service would not cause any interference for 99.95 percent of all GPS 
users.

Q3a.  What is the basis for the 99.95 percentage figure?

Q3b.  Are there tests and analysis to support this claim?

Q3c.  Were these tests conducted using federal agency equipment and 
observed by federal agency personnel?

A3-3c.  Please see our answer to Chairman Hall's question number 5, 
above, for the basis for our 99.5% figure, which in the worst case is 
actually 99.75%.
    To our knowledge, LightSquared has never claimed that our proposal 
would protect 99.95% of all receivers. If you have an example of such a 
claim, however, we would be happy to review it and provide a response.
    The Technical Working Group (TWG) tests included the participation 
of representatives from the Department of Defense, the Federal Aviation 
Administration and NASA. These participants had full access to all of 
the deliberations of the TWG, test methodologies, and testing data. 
Testing was performed on commercial receivers, some of which are used 
by federal agencies. Information regarding the types of facilities and 
resources utilized is as follows:

    <bullet>  Testing for the Cellular and General Location/Navigation 
categories were performed by engineers at independent laboratories, 
with all costs paid for by LightSquared.

    <bullet>  Testing for the High Precision, Networks and Timing 
categories occurred at the US Navy's NAVAIR facility, for which 
LightSquared paid the facility's standard commercial rate; testing of 
these devices was performed by employees of the manufacturers of the 
devices tested.

    <bullet>  Testing for the Space-Based device category was conducted 
at the Jet Propulsion Laboratory by NASA and JPL employees.

    <bullet>  Testing of aviation devices was performed at Zeta 
Associates, Inc. (ZAI) by ZAI employees, under the terms of a then-
existing contract with the FAA.

    <bullet>  Additionally, the U.S. Air Force, Space Command conducted 
testing of certain classified and unclassified special purpose 
receivers, though this testing was not part of the work undertaken by 
the TWG.


Q4.  How long would LightSquared operate its network using only the 
lower portion of the spectrum allocated to it by the FCC? If FCC 
granted you permission to build out a broadband system in your lower 10 
MHz portion of the spectrum band, would you expect to need to go back 
to the FCC for approval to expand your build out into your upper 10 MHz 
portion of the band--those that sit next to GPS?

A4.  As stated in response to Chairman Hall's question number 1, above, 
we expect to be able to operate our network on the lower portion of the 
spectrum for at least five to six years. Under our current proposals, 
we would want to have a further discussion of how safe deployment of 
the upper portion of the spectrum could be achieved within a 
commercially reasonable time frame. In any event, however, we would not 
be able to deploy that spectrum unless we were specifically authorized 
by the FCC, which would consult with NTIA, the Department of Defense, 
and other government agencies before taking any action.

Questions Submitted by Rep. Randy Neugebauer


Q1.  LightSquared continuously makes claims that the GPS community knew 
this was coming, but I would venture to say it is the other way around. 
The FCC has always firmly opposed a ground-based network in this 
spectrum band (and the FCC's allowance of an ancillary terrestrial 
network does not indicate willingness to allow a plan like 
LightSquared's), and LightSquared's attempts are clearly against the 
grain. Since years and years of explicit FCC precedent has reserved the 
spectrum band in question for only ancillary terrestrial use because of 
the obvious impacts on GPS technology, why did LightSquared invest so 
much money in this plan to severely expand a ground-based system in the 
first place? Why did your company not look for other spectrum that 
would not impact GPS systems at all?

A1.  LightSquared's plan--to build an integrated satellite and 
terrestrial broadband network in its spectrum--is fully consistent with 
FCC precedents and has been fully authorized by the FCC since 2003. The 
FCC, under both the current and prior Administrations, has confirmed 
this view. As recently, as April 6, 2011, the FCC noted that ``[i]n the 
case of GPS, we note that extensive terrestrial operations have been 
anticipated in the L-band for at least 8 years (emphasis added).'' 
http://fjallfoss.fcc.gov/edocs<INF>-</INF>public/attachmatch/FCC-11-
57A1.pdf.
    In addition, in October 2008, the FCC further stated that:
    [T]he integration of an ATC into MSS systems would have several 
benefits, including the filling of gaps in MSS coverage, increasing MSS 
network capacity, and the development of new and innovative service 
offerings that satellite-only MSS systems cannot offer, including, 
e.g., ubiquitous digital telecommunications and broadband services and 
other services that take advantage of the unique coverage and capacity 
characteristics of ATC-enabled MSS (emphasis added).
    http://licensing.fcc.gov/myibfs/
download.do?attachment<INF>-</INF>key=678085
    LightSquared (and its corporate predecessors) worked for almost a 
decade with the GPS industry to ensure that its plans for a terrestrial 
broadband network could co-exist with GPS devices. The kind of 
interference that GPS manufacturers now complain of--overload 
interference--should have been just as much of a concern then as it is 
now, but the GPS manufacturers failed to raise the overload issue until 
late 2010. The only exception is Deere, which raised the issue briefly 
in 2001 and then without explanation failed to raise it again until 
late 2010. Under the circumstances, LightSquared had every reason to 
believe that GPS manufacturers were designing their devices so that 
their only concern was LightSquared emissions into the GPS band (the 
``out-of-band emission'' or ``OOBE'' issue), and not overload.

    <bullet>  In 2002, LightSquared and the GPS industry submitted a 
voluntary agreement under which LightSquared would limit its emissions 
to avoid interference with GPS devices. When it submitted that 
agreement, the GPS industry stated that ``[LightSquared's] proposed 
terrestrial augmentations are also well known.'' http://
fjallfoss.fcc.gov/ecfs/document/view?id=6513283601

    <bullet>  In 2003, the GPS industry trade association requested 
that the FCC approve this voluntary agreement because these limits ``to 
protect GPS represent a `win-win' for [LightSquared], for the 
Commission's reliance on OOBE to limit interference, and for GPS safety 
of life and public safety use.'' http://fjallfoss.fcc.gov/ecfs/
document/view?id=6515082621

    <bullet>  In July 2009, the GPS industry raised concerns about 
possible interference with GPS devices, but, as the FCC itself recently 
noted, ``[o]ne month later . . . the [GPS industry association] filed a 
joint letter with LightSquared agreeing that the GPS interference 
issues had been resolved (emphasis in original).'' http://
fjallfoss.fcc.gov/ecfs/document/view?id=7021686751

    Not only has the GPS industry fully participated in all regulatory 
proceedings, known about potential interference issues, and worked with 
LightSquared to resolve those issues--it actually applauded 
LightSquared's efforts and urged the FCC to approve its application to 
build an integrated satellite and terrestrial broadband network. In a 
March 24, 2004, letter from the GPS trade association to the FCC, which 
is worth quoting in full, they stated:
    The U.S. GPS Industry Council (``the Council'') . . . urges the 
Commission to grant the above-referenced applications of [LightSquared] 
and to do so as soon as possible. [T]he Council and [LightSquared] 
worked diligently to develop out-of-band emission (``OOBE'') limits 
from MSV ancillary terrestrial component (``ATC'') base stations and 
terminals into the GPS band, which are intended to protect GPS 
receivers and at the same time allow [LightSquared] to maximize the 
utility of its ATC service to its users.
    [LightSquared] proposes to operate at OOBE levels that are even 
more stringent than those set out in its agreement with the Council. We 
believe that [LightSquared] is to be commended for its proposal to use 
its spectrum in a responsible manner that ensures the continued utility 
of GPS receivers operating in the vicinity of [LightSquared] ATC 
stations. The major issues raised in its application have been before 
the Commission and fully briefed since at least mid 2003 and, in many 
cases, for far longer. Thus, the Commission's granting [LightSquared's] 
applications expeditiously would validate [LightSquared's] adherence to 
best commercial practices and advance the public and national interests 
in promoting the responsible use of spectrum (emphasis added). http://
licensing.fcc.gov/myibfs/download.do?attachment<INF>-</INF>key=366878
    We note that some in the GPS industry have recently attempted to 
deny this extensive regulatory record and their own words in asserting 
that ``FCC rules also did not allow the terrestrial-only broadband 
services LightSquared now wants to provide.'' http://www.amerisurv.com/
index.php?option=com_content&task=view&id=9208&Itemid=2. This is simply 
revisionist history for the following reasons:

    <bullet>  The GPS industry told the FCC in 2003 that it knew of the 
extent of LightSquared's plans. In a filing to the FCC in 2003, the GPS 
industry noted that LightSquared's network would have ``increased user 
density from potentially millions of MSS mobile terminals operating in 
ATC mode in the 1626.5-1660.5 MHz bands will transmit back to 
potentially tens of thousands of ATC wireless base stations in the 
1525-1559 MHz bands . . . (emphasis added).'' http://fjallfoss.fcc.gov/
ecfs/document/view?id=6515082621.

    <bullet>  The GPS industry warned its own investors as early as 
2001 about possible interference issues. For example, in 2001, Trimble 
Navigation Limited, in its Form 10-K stated that: ``[E]missions from 
mobile satellite service and other equipment operating in adjacent 
frequency bands or inband may materially and adversely affect the 
utility and reliability of our products, which could result in a 
material adverse effect on our operating result.'' http://
files.shareholder.com/downloads/TRMB/1422870148x0x34031/919048BF-0668-
4353-97B5-7EFDF7718E64/2001<INF>-</INF>10K.pdf.

    <bullet>  The undisputed regulatory record shows that, as early as 
2003, LightSquared was intending to build, and the FCC had approved, an 
extensive integrated satellite and terrestrial broadband network. This 
chart summarizes the regulatory history of the number of base stations 
and the power levels that those base stations that LightSquared was 
authorized to operate:


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    <bullet>  Contrary to the suggestions of the GPS industry, the 
FCC's rules do not require that satellite service be the 
``predominant'' or ``primary'' use of LightSquared's licensed L-band 
spectrum. Indeed, such a requirement--as well as other restrictions, 
such as limiting base stations to areas without satellite coverage and 
requiring user devices to first look to the satellite before connecting 
to the terrestrial network--was explicitly rejected by the FCC in 2003 
and 2005 as spectrally inefficient, unnecessarily costly, and 
operationally inefficient. \6\
---------------------------------------------------------------------------
    \6\  These FCC's conclusions completely rebut Dr. Scott Pace's 
written testimony at the Committee's hearing that LightSquared was only 
authorized to build a ``fill in'' terrestrial network for gaps in 
satellite coverage. http://science.house.gov/sites/
republicans.science.house.gov/files/documents/hearings/
0908011<INF>-</INF>Pace.pdf. Dr. Pace also grossly errs in his 
recitation of the regulatory history, stating that LightSquared was 
limited to the construction of only 1725 base stations in 2003 and 2145 
base stations in 2004. This is plainly and demonstratively wrong, as 
explained in the footnote above.

    <bullet>  The GPS industry's argument--that the January 2011 
conditional waiver of the integrated services rule represented a 
fundamental change in LightSquared's network--is wrong. As the chart 
above illustrates, it has been well-known for nearly eight years that 
LightSquared had the authority to build an integrated satellite and 
terrestrial network consisting of over 10,000 base stations at power 
levels that are as high as or exceed LightSquared's current plans. As 
the FCC itself noted recently, ``[t]he [conditional waiver of the FCC 
integrated services rule] was not the trigger to permit LightSquared 
access to the spectrum in the band adjacent to GPS. LightSquared's 
predecessors have had access to this L-Band satellite spectrum since 
1995 and have been authorized to provide terrestrial service since 
2004. (emphasis added).'' http://fjallfoss.fcc.gov/ecfs/document/
---------------------------------------------------------------------------
view?id=7021686751

    <bullet>  The GPS industry has never offered that LightSquared 
could begin to operate under its pre-January 2011 authorizations. If 
the January 2011 conditional waiver represented a fundamental change in 
LightSquared's network, as the GPS industry argues, they should be 
comfortable in allowing LightSquared to deploy its network under its 
earlier authorizations. They have never offered that compromise because 
they know that the technical characteristics approved by the FCC from 
2003 to 2005 and blessed by the GPS industry are the same as the 
network that LightSquared intends to deploy today.

    In summary, LightSquared chose to invest $14 billion in private 
capital to build an integrated satellite and terrestrial network in its 
own spectrum because:

    <bullet>  Over the course of eight years, it had the undisputed 
legal and regulatory authorization to build its integrated satellite 
and terrestrial network. Those FCC authorizations occurred in 2003, 
2004, 2005, and 2010.

    <bullet>  Over that same period, it worked extensively with the GPS 
industry to resolve any interference issues. The GPS industry itself 
has characterized that cooperation as a ``win-win,'' ``intended to 
protect GPS receivers and at the same time allow [LightSquared] to 
maximize the utility of its ATC services to its users,''" and in ``the 
public and national interests in promoting the responsible use of 
spectrum.''

    <bullet>  LightSquared does not need to find new spectrum farther 
away from GPS receivers because it has the legal right to build and 
operate an integrated satellite and terrestrial network in its own 
spectrum. While LightSquared is fully committed to finding technical 
solutions to co-exist with the GPS industry, as a legal matter, it has 
no obligation to move from its spectrum to accommodate GPS devices that 
were intentionally designed to look into LightSquared's spectrum.

Q2.  LightSquared has claimed that your new plan resolves interference 
problems for 99.5 percent of GPS receivers. I have not seen this claim 
substantiated. Could you please provide evidence for this claim? Also, 
have you estimated the economic impacts of the supposedly small 
percentage of receivers that will be affected by your current plan? It 
seems to me, from the testimonies of the experts at the hearing and 
from various studies, that the most economically valuable and 
critically important GPS users will be the ones still affected by 
LightSquared's use of the lower half of the spectrum.

A2.  With regard to the first part of the question, substantiation of 
the 99.5% figure, please see our answers to Chairman Hall's question 
number 5 and Ranking Member Johnson's question number 3, above.
    With regard to the second part of the question regarding economic 
impact on precision receivers, LightSquared's position is that there 
should be no economic impact on any users, as manufacturers should be 
responsible for providing their users devices that can operate 
consistent with rules the FCC issued years ago, which as discussed 
above in response top Chairman Hall's question number 3, has been shown 
to be completely feasible with a minimal investment of time and 
resources. As explained in response to your question 1, above, the 
public record clearly shows that LightSquared's planned use of its 
network was anticipated for years. GPS manufacturers, however, have 
repeatedly tried to focus debate on how LightSquared will impact GPS 
users in order to distract policymakers and the public from the real 
question of their own responsibility for replacing or retrofitting 
devices.
    It is important to note in this respect that while use of precision 
devices is important, the hundreds of millions of devices 
LightSquared's proposals address contribute significantly to the 
economy. Hundreds of millions of smartphones and personal navigation 
devices--used by consumers but also used by business, government and 
public safety--will not need to be replaced. Devices used in aviation--
the economic importance of which is clear--will not need to be 
replaced. And timing devices--used in wireless and other critical 
networks that contribute tens of billions of dollars of value every 
year to the U.S. economy--will not need to be replaced. This is the 
result of an investment by LightSquared of over $100 million to solve 
the problem for these devices, thus absolving the GPS manufacturers if 
responsibility to do so.
    What is left is something less than the estimated 500,000-1,000,000 
precision devices used largely in agriculture, surveying and 
construction. There will be no impact from our deployment for a 
significant number of these devices for three reasons:

    <bullet>  Testing has demonstrated that, even using the most 
restrictive definitions of harmful interference proposed by the GPS 
manufacturers, 10 out of 38 precision devices--26%--did not suffer 
harmful interference.

    <bullet>  Assuming LightSquared is operating in the spectrum 
farthest from GPS, harmful interference for the remaining devices would 
be limited to a relatively close distance from our base station, 
meaning that many precision receivers used in remote areas and for 
agriculture will never be close enough to our network to suffer any 
effect.

    <bullet>  Our network will be deployed over five years, meaning 
that some portion of devices would have been traded out for new devices 
in the ordinary course of business.

    After accounting for these factors, what is left is a portion of 
the total number of devices, which could be as few as 100,000-200,000, 
but under any set of reasonable assumptions will not be as many as 1 
million.
    For these devices, we have recently demonstrated, together with our 
partners, Javad and Partron America, that filters for precision 
receivers could be developed within days and would cost as little as 
$6. \7\ This proves three concepts: that the interference issue can be 
solved; that it can be solved quickly; and that it can be solved 
inexpensively.
---------------------------------------------------------------------------
    \7\  LightSquared News Release, October 13, 2011, LightSquared 
Shows Filtering Technology: ``In addition to receivers developed by 
Javad GNSS, several other high-tech companies have also created 
LightSquared compatible components that can be integrated into 
receivers. For example, PCTEL has developed LightSquared compatible 
chip sets, and Partron America has created a filtering component that 
only costs $6.'' http://www.lightsquared.com/press-room/press-releases/
lightsquared-shows-filtering-technology/
---------------------------------------------------------------------------
    In this respect it is important to compare this with a recent 
recall of GPS devices by Garmin. Issued in August, 2010, Garmin 
recalled 1.2 million devices because of battery issues. This is one 
manufacturer. The present situation involves only a portion of this 
number, spread out over a GPS industry that is manifestly capable of 
bearing the cost. Not only do GPS manufacturers enjoy the use of 
government spectrum for free, but they are well funded, with John Deere 
alone carrying over $3 billion in cash, Garmin over $1.5 billion, and 
Trimble over $250 million.
    Given the limited scope of the remaining receivers--the receivers 
not already protected by the investment LightSquared is making--there 
is simply no reasonable argument as to why this cannot be solved. 
LightSquared will invest $14 billion of private funds in the American 
economy, support 15,000 jobs a year for each year of our build out, and 
create an unprecedented integrated network that will allow dozens of 
retail competitors to offer broadband across the U.S. The economic cost 
of solving this last portion of devices should not stand in the way of 
bringing this investment at a time when jobs, infrastructure, and 
innovation are sorely needed in the U.S. economy.
    If we fail to solve it because certain GPS manufacturers are 
allowed to continue to avoid responsibility for addressing the issue, 
the economic consequences to the country will be extremely damaging. 
Companies and investors will have serious doubts about the ability of 
the U.S. government to bring more spectrum to market. They will also 
doubt the government's willingness to enforce longstanding license 
rights in spectrum. The combined effect will push the value of spectrum 
down, and therefore reduce significantly the receipts the Federal 
Government can expect from the auction of licensed spectrum. Investors 
will direct investment to countries where spectrum rights are enforced, 
and where operators can expect to be able to deploy networks as 
authorized. The United States has long drawn private investment in 
wireless telecommunications because it has stood by these principles, 
and must continue to do so.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Responses by Dr. Scott Pace,
Director, Space Policy Institute,
George Washington University

Questions Submitted by Chairman Ralph Hall

Q1.  How common are the wideband and high precision GPS receivers that 
are at risk of interference from LightSquared's modified business plan 
that starts commercial operations with just the ``lower'' portion of 
its spectrum?

Q1a.  How much do they cost?

Q1b.  What is the normal upgrade or re-equipage cycle for these GPS 
receivers at federal departments and agencies?

A1-1b.  Wideband and high precision GPS receivers are not as common as 
mobile phones, but they are standard equipment in multiple sectors of 
the global economy, from machine control, survey, mapping, and 
construction, to precision agriculture and timing/network 
synchronization. More than 100,000 receivers for high precision 
applications are sold in North America each year.
    Prices for high precision receivers can range from $1,000 to in 
excess of $100,000 but currently average between $9,000 and $13,000 
(NDP Consulting 2011). Typical re-equipage times can average around 15 
years. Software upgrades occur on faster cycles but proposed 
mitigations to the effects of LightSquared emissions have typically 
been to change external antennas or modify the receiver front ends. 
These are not software fixes. Federal agencies may hold on to equipment 
for longer periods of time and, as with commercial users, employing 
older receivers as base stations while using more current equipment in 
mobile applications.

Q2.  LightSquared has agreed to a ``standstill'' on the use of the 
``upper'' portion of their spectrum, the portion closest to the GPS 
signal. LightSquared has stated they would like to work with the GPS 
community to develop mitigation strategies in order to initiate 
commercial operations of the upper spectrum within two to three years.

Q2a.  Is two to three years a reasonable time frame to expect federal 
agencies to upgrade or re-equip? What would be the costs?

A2-2a.  Two to three years is not a reasonable time frame. When major 
changes were made to GPS in the past, such as turning Selective 
Availability to zero or transitioning semi-codeless users to a second 
coded civil signal, transition times of a decade or more were used. The 
potential interference from LightSquared is more disruptive and 
technically difficult to mitigate.
    It is not yet clear that use of the lower band by LightSquared is 
technically possible without unacceptable harm to GPS high precision 
and other users (e.g., specialized receivers used in spaceflight). The 
upper band is even more problematic and the consensus in the GPS 
community seems to be that use of the upper band should be ``off the 
table.''
    Despite press releases, no proposed filters have been made 
available for independent testing. Even if they function as claimed, 
filters alone are not sufficient to make a regulatory decision. Actual 
high precision equipment with the proposed filter fully integrated must 
be tested to assess degradation in receiver performance and accuracy. 
Equipment that is proven able to function in the face of lower band 
interference may or may not be able to provide the same level of 
performance if LightSquared uses both the upper and lower bands.
    It is virtually impossible to provide a cost estimate on upgrading 
or re-equipping the GPS receivers used by federal agencies as key 
pieces of information are missing: (1) is it possible to suppress the 
effects of LightSquared emissions without significant harm to GPS 
receiver performance? (2) What are the operational characteristics of 
the ``new'' receivers? (e.g., thermal stability, weight, form and fit 
factors, degree of hardware and software modifications, etc.), and (3) 
If there is a solution that works at the lower band, does it also work 
at the upper band or would another round of changes be required?
    Even assuming technical feasibility, there are applications where 
upgrades and/or re-equipage are not possible. Examples could include 
satellite constellations performing radio-occultation science where the 
receiver lifetimes can be up to 15 years and the only `mitigation' 
possible is to launch new satellites at a cost of hundreds of millions 
of dollars each.

Q3.  Given that LightSquared has clearly shown that it intends to 
ultimately utilize both the upper and the lower portion of its 
spectrum, even with its new business proposal to start with just the 
lower portion, how is the new proposal really any different to federal 
agencies than the original proposal?

A3.  In my opinion, it is merely a change in sequencing and timing of 
LightSquared's proposed deployment plan and does not represent a 
fundamental technical change.
    Since the upper band is still allowed by the current FCC 
regulations, the GPS community must assume its use in their assessments 
of LightSquared interference. If and when the FCC officially and 
publicly rules that the upper band will not be used for terrestrial 
transmissions, the GPS community can modify its assessments to focus 
only on the lower band.
    The same is true for the maximum authorized power of LightSquared's 
terrestrial signals. Current FCC regulations allow maximum power ten 
times greater than LightSquared's current planned power. Unless the FCC 
regulations are updated to document a new, lower maximum authorized 
power for LightSquared terrestrial transmissions; the assessment of 
interference to GPS must be based on the higher authorized power.

Q4.  I understand there are now other companies exploring a similar 
terrestrial broadband business plan but in an entirely different part 
of the spectrum that would not interfere with the GPS signal. If we can 
accommodate the President's goals for the Broadband Initiative using 
spectrum that doesn't interfere with GPS, why should we risk the 
taxpayer investment in GPS?

A4.  The taxpayer investment in GPS need not and should not be put at 
risk. The MSS satellite part of the LightSquared network is compatible 
with neighboring GPS uses and thus can coexist with all GPS services, 
applications and existing user equipment if it is used solely for 
space-service links. The terrestrial component of the LightSquared 
network has not yet been built therefore it is at least technically 
feasible to move to a different band from the outset, thus avoiding 
large scale disruption to GPS users across the United States. Possible 
locations include the S-Band (above 2 GHz) or the 700 MHz bands already 
allocated to terrestrial 4G wireless services.
    In addition, handsets are an important part of the LightSquared 
terrestrial network; they are the user terminals that subscribers will 
use for high-speed broadband applications. These user terminals have, 
for the most part, been overlooked in the immediate debate over 
LightSquared's terrestrial base station transmitters. Each of these 
user terminals is also a radio transmitter, operating in the frequency 
band 1626.5-1660.5 MHz, just above the GPS L1 frequencies. LightSquared 
claims it will have 260 million subscribers by 2015. Each of these 
subscribers will carry in their hand a potential source of GPS 
interference. GPS users in automobiles, aircraft, or on a city sidewalk 
could find themselves in close proximity (1 meter or less) to one or 
more of these LightSquared user terminals. Preliminary testing by the 
high precision sub-team of the FCC Technical Working Group (TWG), 
published in the 30 June 2011 TWG Final Report, confirmed that 
LightSquared handsets do have the potential to interfere with GPS, and 
so the final assessment of LightSquared's total interference to GPS 
must include a careful examination of the effects of emissions from 
handsets as well as base stations.

Q5.  Will the filters proposed by JAVAD GNSS and LightSquared mitigate 
the interference problem to wideband and high precision GPS receivers? 
What testing has been done to demonstrate their effectiveness? Who 
should pay for this testing?

A5.  It is unknown whether the proposed filters will mitigate 
interference due to LightSquared's terrestrial operations. Some 
performance charts have been provided to the FCC in an ex parte 
presentation claiming improved protection but no filters or prototype 
high precision receivers are yet available for independent testing.
    Section 25.255 of the FCC's rules makes the obligation of resolving 
harmful interference to other services that is caused by MSS ATC 
operations the sole responsibility of the ATC operator. \1\ These 
regulations, which went into effect on 5 June 2003, clearly state ``If 
harmful interference is caused to other services by ancillary MSS ATC 
operations, either from ATC base stations or mobile terminals, the MSS 
ATC operator must resolve any such interference.'' LightSquared is 
still nominally an ATC operator subject to Section 25.255 and thus I 
would argue that LightSquared should pay for testing of equipment that 
it claims will mitigate interference it proposes to create. If that 
equipment proves to be effective at mitigating LightSquared 
interference to GPS, then Section 25.255 would also suggest that 
LightSquared is responsible for the cost of manufacturing, delivery, 
installation, recalibration, recertification, and subsequent 
maintenance of that mitigation hardware for the life of any affected 
GPS application. This would apply to GPS use by federal agencies, 
state, local, and tribal governments and the private sector.
---------------------------------------------------------------------------
    \1\ 47 C.F.R. Sec. 25.255.

Q6.  Are there currently any mitigation strategies that make sense for 
---------------------------------------------------------------------------
wideband or high precision GPS receivers?

A6.  The only assured mitigation strategy I am aware of would be one in 
which the band 1525-1559 MHz remains a satellite services band and 
terrestrial mobile services are moved to a frequency band distant from 
GPS signals as I describe in my response to Question #4 above. It 
should be noted, however, that even if LightSquared were to vacate the 
1525-1559 MHz band completely with their terrestrial transmissions, 
that LightSquared handset transmissions in the 1626.5-1660.5 MHz band 
could still prove to be a major source of interference to GPS.

Q7.  Mr. Carlisle states in his testimony that ``many consumers in 
rural America don't even have a wireless broadband option: 28 percent 
of people who live in rural America still have no access to 
broadband.''

Q7a.  Will LightSquared's new proposal roll out a ground network in 
rural areas?

Q7b.  Will its satellite service be able to reach rural areas?

Q7c.  What is the definition of broadband service?

Q7d.  Will LightSquared's satellite component be able to meet that 
broadband definition?

Q7e.  So, in summary: Will LightSquared be able to provide broadband to 
rural areas under its current proposal?

A7-7e.  LightSquared's proposed rollout plan is still considered 
proprietary to the best of my knowledge. That said, business 
considerations would likely create an emphasis on serving high-density 
urban areas first and thus terrestrial tower deployments should be 
expected in key cities before service is extended to rural areas. The 
satellite service is certainly capable of reaching rural areas, however 
the satellite service does not and will not provide broadband 
performance.
    The FCC defines broadband as 1 Mbps up and 4 Mbps down (see http://
www.fcc.gov/Daily_Releases/Daily<INF>-</INF>Business/2010/db0720/FCC-
10-129A1.pdf) and the maximum data rates possible from the LightSquared 
SkyTerra I satellite are 300-400 Kbps (see http://www.pcworld.com/
businesscenter/article/210570/
lightsquareds<INF>-</INF>mobile<INF>-</INF>hopes<INF>-</INF>to<INF>-</INF>
rise<INF>-</INF>with<INF>-</INF>satellite.html). Thus the satellite 
coverage looks to be voice, text messages, and similar low data rate 
services but not 4G LTE broadband. Given the economic pressure to build 
out terrestrial capacity in urban areas first and limitations of the 
satellites, it is unlikely that rural areas will benefit from 
LightSquared broadband capacity any time soon.
    LightSquared Chief Marketing Officer Frank Boulben confirmed this 
point in a press statement this past week. To quote: ``But Boulben 
cautioned that LightSquared's satellite service will provide only voice 
and text coverage and will not provide the kind of high-speed data 
services for users who live near its terrestrial LTE network.'' \2\
---------------------------------------------------------------------------
    \2\  See http://www.dailyfinance.com/2011/10/15/lightsquared-our-
lte-network-will-be-better-than-a/

Q8.  Mr. Carlisle states in his testimony that ``no other company could 
---------------------------------------------------------------------------
conceivably offer this broad coverage in the same time frame.''

Q8a.  Are there any other options, or is LightSquared the ``only game 
in town''?

A8-8a.  Broadband can be delivered in many ways (e.g., DSL, cable 
modem, fiber optics, wireless, satellite, etc.) Certainly, LightSquared 
has (or had) expectations of being able to offer broad coverage in 
short period of time, but this required a variety of regulatory, 
technical, and financial assumptions. I cannot comment on their 
business viability, but given expressions of interest by other 
companies in using different MSS spectrum for terrestrial 4G LTE 
broadband (e.g., DISH Network has applied to use its spectrum for 
terrestrial broadband services), alternatives exist to the LightSquared 
proposal.

Q9.  Mr. Carlisle states in his testimony that the GPS manufacturers 
failed to raise issues at the FCC when it was developing its rules and 
could have addressed this issue in the design of their receivers years 
ago. But in fact, some high precision GPS receivers actually use the 
LightSquared signal.

Q9a.  Did users know about this issue years ago?

Q9b.  Is it disingenuous for LightSquared to blame GPS manufacturers?

A9-9b.  The GPS community did not know years ago, and could not have 
predicted, that the FCC would effectively seek to reallocate spectrum 
from space services such as the MSS to terrestrial mobile services 
without a notice of proposed rule-making and in contradiction to prior 
statements that it would maintain the satellite gating requirement that 
prohibited stand-alone terrestrial services as LightSquared has 
proposed. Speculation that the Commission would do so would have 
rightly been dismissed as unfounded speculation by the FCC. In numerous 
formal rulemakings, FCC indicated they would not allow stand-alone 
terrestrial services and GPS users and manufacturers relied on those 
assurances. \3\
---------------------------------------------------------------------------
    \3\  In the original FCC Order dated February 10, 2003, Paragraph 
1: ``We do not intend, nor will we permit, the terrestrial component to 
become a stand-alone service.'' The gating criteria that maintained 
this prohibition was never waived until January of this year.
---------------------------------------------------------------------------
    In addition, some high precision receivers use MSS signals in the 
adjacent spectrum as part of contractually agreed on services from 
Inmarsat and the Skyterra satellite now owned by LightSquared. It would 
seem unusual to expect GPS manufactures to design equipment providing 
poorer performance in the expectation that existing satellite services 
would be eliminated by a future regulatory action that the Commissions 
denied it would ever take.

Q10.  What impact would LightSquared's network have on high precision 
GPS receivers?

Q10a.  First, how important are high precision receivers today?

Q10b.  Is the trend for higher precision receivers across the board in 
all industries?

Q10c.  How are these receivers affected by LightSquared's most recent 
proposal?

Q10d.  Does LightSquared have a viable solution for the high precision 
receivers?

Q10e.  What do you see as a solution for these types of receivers?

A10-10e.  High precision GPS receivers are crucial to multiple areas or 
the economy and scientific work. The accuracy and precision of high end 
GPS receivers are relied upon in surveying, mapping, construction, 
machine control, and agriculture to the extent that readily available 
substitutes do not exist.
    The LightSquared proposal and associated interference does not 
represent a single type of threat. Different applications have 
different requirements for precision with scientific users perhaps 
being the most demanding. While it is possible to expect mobile phones 
to be unaffected by LightSquared operations that are restricted to the 
lower band, it is not possible to imagine the same for wideband and 
high precision receivers. LightSquared interference would most severely 
impact scientific work supported by federal agencies and economically 
impact those areas of the economy reliant on high precision positioning 
and timing.There is only one GPS and one set of GPS signals that are 
used in such critical applications. There are multiple means for 
providing broadband communications. The highest levels of GPS precision 
positioning and timing should not, and need not, be sacrificed for a 
capability that can be supplied in other ways. In my opinion, the 
solution for high precision receivers is to maintain the 1525-1559 MHz 
band as a dedicated space services band as it has been for many 
decades.

Questions Submitted by Ranking Member Eddie Bernice Johnson


Q1.  NOAA's prepared statement says that its engineers are concerned 
that a filter capable of blocking out the powerful LightSquared signal 
at the lower channel may also prevent the receiver from detecting the 
GPS signal, rendering it useless.

Q1a.  In your opinion, is it technically feasible to design a filter 
that simultaneously allows GPS users to listen to signals in 
LightSquared's allocated bandwidth and block LightSquared's signals?

Q1b.  Can you estimate its cost?

Q1c.  What are the challenges associated with certifying such filters 
for aviation use?

A1-1c.  I don't believe you can have a commercial filter that can 
discriminate between wanted and unwanted emissions that are effectively 
identical. Blocking a signal in a certain frequency band means blocking 
all signals unless one is using sophisticated anti-jam/anti-spoofing 
techniques that would be impractical for non-military users. I could 
not estimate the cost of such devices.
    Hypothetically assuming a new filter existed, aviation 
certification would require incorporating the filter into an existing 
aviation receiver or creating a new receiver for certification. It is 
the aviation receiver whose performance has to meet Minimum Operational 
Performance Specifications (MOPS), not just the filter itself. 
Certifying a new type of receiver can take years.

Q2.  What can Congress do to protect the future value of spectrum and 
ensure user receivers do not bleed into spectrum not assigned to them? 
What are the challenges associated with establishing receiver standards 
to preclude devices from picking up unintended spectrum?

A2.  It would be more accurate to say that transmitters pose a risk of 
their emissions bleeding over into spectrum not assigned to them. The 
type of interference caused by LightSquared to GPS arises from both the 
practical design of GPS filters and the power of the LightSquared 
terrestrial signal. It is not accurate to characterize the interference 
as solely a GPS receiver problem. This is true both technically, and in 
terms of the FCC regulations 47 CFR 25.255, which states that the MSS 
ATC operator must resolve any interference. The fact is that all GPS 
receivers incorporate filters that are carefully designed and 
calibrated for the environment in which they are expected to operate.
    Receivers incorporate filters to protect against unwanted emissions 
and in the case of GPS receivers operating next to the MSS spectrum, 
most have filters to prevent interference from the more powerful MSS 
signals coming from the satellite. In some cases, the GPS receivers are 
even designed to received MSS signals through the same antenna and 
front-end as used for the GPS signals. Unfortunately, no filters have 
not yet been demonstrated that can protect GPS receivers from the many 
billions of times stronger terrestrial LightSquared signal.
    The ability of real-world hardware filters to reject interference 
is not infinite. Any filter can eventually be overcome by a 
sufficiently strong interference source. Incidentally, this is why it 
is critically important for the FCC to formally limit the authorized 
maximum power of LightSquared ATC transmissions to the lower levels at 
which LightSquared has promised to operate. If FCC regulations allow 
LightSquared to raise their base station power by a factor of 10 in the 
future, any filter mitigation developed and deployed today--even if it 
is technically feasible--could be once again overwhelmed and rendered 
ineffective if LightSquared increases its terrestrial power in the 
future.
    Industry already develops and uses standards to serve their 
customers and markets. There are normal market forces that drive 
receiver performance. The government should not seek to define separate 
standards except for compelling purposes of national security (e.g., 
military applications) or public safety (e.g. as with aviation 
receivers). The government should certainly not try to establish 
standards that would limit the performance of receivers used in 
scientific research--whether in space or on the Earth.
    On the subject of standards, it is important to clarify claims that 
``GPS commercial device manufacturers have ignored government design 
standards.'' The standard to which LightSquared refers was published by 
the Department of Defense in 2008 and is known as the Standard 
Positioning Service Performance Standard (SPS PS). As its name implies, 
the SPS PS is a performance standard, not a design standard. The SPS PS 
defines the level of accuracy and other performance a representative 
GPS receiver can expect from the GPS system of satellites and ground 
control elements, but it is not in any way a GPS receiver design 
standard. Section 2.0 of the SPS PS clearly states: ``The 
representative receiver characteristics are used to provide a framework 
for defining the SPS performance standards. They are not intended to 
impose any minimum requirements on receiver manufacturers or 
integrators, although they are necessary attributes to achieve the SPS 
performance described in this document.'' Therefore, claims that the 
SPS PS serves as a ``government design standard'' are incorrect.
    The most effective oversight action the Congress could take is to 
ensure that the FCC follows the Administrative Procedures Act and that 
changes in the allocation of spectrum are done through normal notices 
of proposed rulemaking based on technical facts openly presented.

Q3.  Your statement provides several ways to move forward, including an 
option to help LightSquared find alternative spectrum for its 
terrestrial network outside the L-band. Is there any precedent for FCC 
doing such a thing?

A3.  The FCC has provided ``bidding credits'' in spectrum auctions to 
certain categories of applicants, such as small businesses or those 
serving tribal lands. The Commission could seek authorization from the 
Congress to provide assistance to LightSquared or other similarly 
situated MSS ATC operators to secure non-L-band spectrum already 
allocated for terrestrial mobile services if it was determined that 
such assistance was warranted. As a practical matter, the Commission 
would likely be reluctant to undertake the difficult work necessary to 
make this happen, but it is an option if the policy case for broadband 
was sufficiently compelling.

Q4.  The European Union and the United Nations' aviation body ICAO have 
voiced concern about the potential disruption to aviation use of GPS 
caused by the proposed LightSquared network. What agreements do we have 
in place that we risk violating were such disruptions occur?

A4.  Article 11 of the 2004 Agreement between the U.S. and European 
Union on the use of GPS and Galileo states:
    The Parties shall work together to promote adequate frequency 
allocations for satellite-based navigation and timing signals, to 
ensure radio frequency compatibility in spectrum use between each 
other's signals, to make all practicable efforts to protect each 
other's signals from interference by the radio frequency emissions of 
other systems, and to promote harmonized use of spectrum on a global 
basis, notably at the ITU. The Parties shall cooperate with respect to 
identifying sources of interference and taking appropriate follow-on 
actions.In 2007, the FAA submitted a letter to ICAO that reaffirmed 
``the United States Government's commitment to provide the Global 
Positioning System (GPS) Standard Positioning Service (SPS) for 
aviation throughout the world. Further, the United States commits to 
provide the Wide-Area Augmentation System (WAAS) service within its 
prescribed service volume.'' The letter goes on to say ``The U.S. 
Government plans to take all necessary measures for the foreseeable 
future to maintain the integrity, reliability and availability of the 
GPS SPS and WAAS service and expects to provide at least six years' 
notice prior to any termination of such operations or elimination of 
such services.''
    While not a formal agreement, the 1998 Joint Statement between the 
United States and Japan recognized GPS cooperation between the two 
countries along with the commitment that the two countries would ``help 
develop effective approaches toward providing adequate radio frequency 
allocations for GPS and other radionavigation systems.''
                               Appendix 2

                              ----------                              


                   Additional Material for the Record


<SKIP PAGES = 000>

                   Additional Material for the Record

               Prepared Statement of Mr. Randy Neugebauer
         U.S. House Committee on Science, Space, and Technology

    Mr. Chairman, thank you for holding this full Committee hearing to 
review the effects of the proposed LightSquared broadband network on 
federal science activities. Multiple studies have indicated that 
LightSquared's proposal will cause widespread degradation of virtually 
every Global Positioning System (GPS) application in the United States, 
and I have significant concerns about its effects in particular on 
federal science activities. I also am concerned that the network will 
severely damage GPS usage for agricultural production in the U.S., 
which is a major concern for my constituents in the 19th District of 
Texas.
    LightSquared intends to build 40,000 high-powered ground 
transmission units, creating a signal one billion times stronger than 
GPS signals. This could lead to major interference issues since the 
spectrum to be used is immediately adjacent to GPS spectrum.
    The President's national broadband initiative is admirable, but as 
with any major proposal it is imperative that we consider the 
consequences. The Administration has seemed amicable to LightSquared 
because it advertises massive expansion of broadband technology to 
millions of Americans if it is allowed to build out its terrestrial 
network. However, I am worried that the negative impacts of the 
technology will far outweigh the benefits. The scientific problems with 
the substantial terrestrial usage of this spectrum--for which FCC 
precedent has only allowed ancillary terrestrial usage in the past--
have been well documented. As a result LightSquared has recently 
published a modified proposal to use only the lower half of the 
spectrum initially. Preliminary studies indicate that even this 
proposal would have severe effects on federal science activities. There 
is certainly not sufficient evidence to support this alternative 
proposal without further study.
    I look forward to the verbal testimony of the panel before the 
Committee today. Based on current evidence, LightSquared's proposal 
could severely inhibit federal science activities. I believe that the 
experts testifying here today will provide valuable insight into the 
problems this plan could cause.
    Thank you.
      Letter from Members of Congress to Hon. Julius Genachowski,
      Chairman, Federal Communications Commission, Washington, DC


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                 Response to Hon. Randy Neugebauer from
                        Hon. Julius Genachowski,
              Chairman, Federal Communications Commission,
                             Washington, DC

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

           Written Statement of the Coalition to Save Our GPS
   Presented to the House Committee on Science, Space, and Technology


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                Letter to Hon. Ralph M. Hall, Chairman,
        U.S. House Committee on Science, Space, and Technology,
        from Mr. Malcolm D. Jackson, Assistant Administrator and
    Chief Information Officer, U.S. Environmental Protection Agency

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                Letter to Hon. Ralph M. Hall, Chairman,
        U.S. House Committee on Science, Space, and Technology,
      from Mr. Michael W. Locatis III, Chief Information Officer,
                       U.S. Department of Energy

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                Letter to Hon. Ralph M. Hall, Chairman,
        U.S. House Committee on Science, Space, and Technology,
      from Mr. Subra Suresh, Director, National Science Foundation

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                    Letter to Mr. Larry Strickling,
                    Assistant Secretary of Commerce,
                 U.S. Department of Commerce, from NASA

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                    Federal Aviation Administration:
           LightSquared Impact to Aviation: FAA Perspective:
           PowerPoint Presentation to U.S. House Committee on
                     Science, Space, and Technology

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

         Letter to Mr. Karl B. Nebbia, Associate Administrator,
      National Telecommunications and Information Administration,
          from Mr. Joel Szabat, Deputy Assistant Secretary for
        Transportation Policy, U.S. Department of Transportation

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

        Memorandum for Mr. Karl Nebbia, Associate Administrator,
      National Telecommunications and Information Administration,
        from Deanna Archuleta, Senior Advisor to the Secretary,
                       Department of the Interior

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


</pre></body></html>
